<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-394]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 110-394, Pt. 4
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2009 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                        APRIL 1, 3, AND 9, 2008


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                         2009--Part 4  AIRLAND


                                                  S. Hrg. 110-394 Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2009 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                        APRIL 1, 3, AND 9, 2008


         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
42-632 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

DANIEL K. AKAKA, Hawaii              JOHN CORNYN, Texas
EVAN BAYH, Indiana                   JOHN WARNER, Virginia
HILLARY RODHAM CLINTON, New York     JAMES M. INHOFE, Oklahoma
MARK L. PRYOR, Arkansas              JEFF SESSIONS, Alabama
JIM WEBB, Virginia                   SAXBY CHAMBLISS, Georgia
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
         The Army's New Doctrine (Field Manual 3-0, Operations)
                             april 1, 2008

                                                                   Page
Caldwell, LTG William B., IV, USA, Commanding General, United 
  States Army Combined Arms Center and Fort Leavenworth..........     6

                           Army Modernization
                             april 3, 2008

Speakes, LTG Stephen M., USA, Deputy Chief of Staff, G-8, United 
  States Army....................................................    34
Thompson, LTG N. Ross, III, USA, Military Deputy to the Assistant 
  Secretary of the Army for Acquisition, Logistics, and 
  Technology.....................................................    39

                  Air Force and Navy Aviation Programs
                             april 9, 2008

Balderson, Hon. William M., Deputy Assistant Secretary for Air 
  Programs, Office of the Assistant Secretary of the Navy for 
  Research, Development, and Acquisition, Department of the Navy.    78
Trautman, Lt. Gen. George J., III, USMC, Deputy Commandant for 
  Aviation, United States Marine Corps...........................    87
Myers, RADM Allen G., USN, Director, Air Warfare Division, Office 
  of the Chief of Naval Operations...............................    96
Darnell, Lt. Gen. Daniel J., USAF, Deputy Chief of Staff for Air, 
  Space and Information Operations, Plans and Requirements, 
  Department of the Air Force....................................    98
Hoffman, Lt. Gen. Donald J., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force for Acquisition, 
  Department of the Air Force....................................   104

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

         THE ARMY'S NEW DOCTRINE (FIELD MANUAL 3-0, OPERATIONS)

    The subcommittee met, pursuant to notice, at 9:34 a.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman and Cornyn.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: William M. Caniano, 
professional staff member; Paul C. Hutton IV, professional 
staff member; and Gregory T. Kiley, professional staff member.
    Staff assistants present: Fletcher L. Cork and Ali Z. 
Pasha.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Jon Davey, assistant to Senator 
Bayh; Gordon I. Peterson, assistant to Senator Webb; Stephen C. 
Hedger, assistant to Senator McCaskill; and Brian Polley, 
assistant to Senator Cornyn.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. Good morning and welcome to this 
hearing. I was going to start with an apology that I have a 
little bit of a sore throat, but the sound system is so good 
that I'll just make believe that I'm all right.
    I want to welcome Lieutenant General William Caldwell, 
Commanding General of the Combined Arms Center at Fort 
Leavenworth. This is the first of two Airland Subcommittee 
hearings this week that focus on changes to the Army's Capstone 
operational doctrine. That is the definitive statement about 
war and how the Army expects to fight and win and keep the 
peace and what those changes mean for organizing, equipping, 
training, and employing the U.S. Army.
    At the outset I want to both welcome and thank my colleague 
and ranking member, Senator Cornyn, for the work that he and 
his staff have done in a real collegial fashion to help the 
subcommittee carry out the oversight responsibilities which 
we're involved in this morning.
    We are here today to continue the important and urgent task 
of deciding what kind of Army America needs to have for the 
future security and freedom of our country.
    The fight against Islamic extremists has been the defining 
national security issue of the past 7 years, that is since 
September 11, 2001. America's ground forces and especially the 
Army have been asked to carry the brunt of that fight and have 
done so exceedingly well. But of course that has also caused 
some stress on our forces.
    Not only has the tempo of operations been extraordinarily 
high, but the Army has had to rapidly shift between 
conventional warfare and irregular warfare. In 2001, Special 
Operations Forces, some on horseback, but employing state-of-
the-art electronics, accompanied Afghan forces into battle to 
successfully overthrow and evict the Taliban from Afghanistan, 
the place from which the attacks were planned and launched 
against the United States on September 11, 2001.
    Two years later, Army heavy brigades defeated Saddam's 
Republican Guards and raced to Baghdad to topple that murderous 
dictator. No sooner had the conventional phase of the war 
concluded than the Army found itself confronting Iraqis in 
irregular warfare, while at the same time conducting stability 
operations and nationbuilding.
    As the range of missions expanded, the Army had to 
reorganize some units, give others tasks for which they were 
not previously organized, equipped, or in some cases trained, 
and the Army was forced to develop and field equipment it had 
not previously envisioned needing. The fact is that we were 
simply not ready for the aftermath of Saddam's defeat, 
certainly not as ready as we should have been.
    The full Senate Armed Services Committee held hearings last 
year at which the Army leadership and some of the most 
respected and thoughtful retired officers and outside experts 
addressed the question of what kind of Army do we need for the 
future. All the witnesses agreed that we went to war in 2001 
with the world's best conventional Army, but many of the 
experts also said that the subsequent insurgencies in Iraq and 
Afghanistan demonstrated the limits of that largely 
conventional Army in successfully fighting the kind of war we 
are in now, and that we will probably have to continue to fight 
in the years ahead.
    Of course, the Army has adjusted, as has the Marine Corps 
and the other Services, with remarkable skill in dealing with 
the new threat environment.
    Last year's full committee hearings brought forth what I 
would describe as two conflicting recommendations for 
organizing, training, and equipping the future Army. The Army's 
recommendation, which is embraced I would say generally 
speaking in the new Capstone doctrine, was to increase the size 
of the Army, create more brigade combat teams, and to add to 
some low density, high demand capabilities, to give the brigade 
combat teams full spectrum capability, to better deal with both 
irregular warfare and conventional warfare.
    The different recommendation from some of the outside 
experts it seemed to me was to build an Army substantially 
changed in both size and structure by creating specialized 
units to match the changes in conflict and doctrine.
    So there was a difference of opinion expressed and a debate 
that began, a healthy debate. It's an important one, too, and 
the choices we make as we sift through it are consequential to 
our future security. I found the analysis and recommendations 
from the outside experts to be both interesting and at some 
points persuasive, so I don't think that we should in the 
interest of our national security simply accept the Army's 
different recommendation without examining it and its 
implications closely, particularly because we in Congress are 
the people who will now be asked to both authorize and fund the 
vision of our future Army.
    I think we have to answer three basic questions: First, for 
what will we hold the Army responsible? Will we insist on an 
Army ready for all possible combat and non-combat operations, 
on the full spectrum from stable peacekeeping to general 
warfighting? Should we build a force ready for the full 
spectrum of missions, but prioritized from higher, more 
dangerous or likely threats, to lower, less risky or unlikely 
threats? Or should we build a force only for specific missions 
on the conflict spectrum and, if so, for which ones?
    Second, what operational doctrine should the Army adopt 
that provides for the greatest probability of success 
regardless of threat or intensity of conflict or commitment? 
Should the Army, as it proposes, combine the ability to execute 
offensive, defensive, and stability civil support missions 
simultaneously and for long duration, or should it adopt some 
other concept?
    Third, how should the Army organize, train, and equip to 
execute its doctrine? Should the Army continue to organize 
around brigade combat teams that could be tailored for specific 
missions or should it build both conventional units and 
specialized counterinsurgency training, advisory, 
stabilization, reconstruction units?
    The Army recently released, that is earlier in March, Field 
Manual (FM) 3-0, Operations, which is its new Capstone doctrine 
and is really an answer to some of these critical questions. It 
places the conduct of stability operations, significantly, on 
the same operationally required level as conventional warfare. 
As the Army Training and Doctrine Command (TRADOC) has said, 
this fundamental change redefines our basic notion of combat 
power from how we generate it to how we apply it, and its 
impact on the force and the application of the doctrine I'm 
quoting, and I agree--``will be revolutionary.''
    General Wallace, the TRADOC commander, also notes that ``FM 
3-0 adds to the Army's requirements for resources and will 
influence the Army's organization, training, equipment, 
leadership, education, and soldier concerns.'' I believe that 
he's right and that a change of this magnitude therefore 
requires a thorough vetting. We have to answer the question, 
what kind of an Army, in a way that makes this Army fully 
capable of successfully implementing this revolutionary 
doctrine. Of course, I hope that today's hearing will do 
exactly that.
    The fiscal year 2009 Army budget request was developed over 
a year ago and delivered to Congress before this new Capstone 
doctrine, of course, was released on March 7, 2008. The budget 
request is heavily tilted toward resetting, modernizing, and 
transforming the existing heavy force. But I think we need to 
determine whether it includes enough money to fund the changes 
that the new Capstone doctrine logically and inevitably 
requires or whether the existing budget has shaped those 
requirements. We need to find out whether we should begin to 
make changes to either the programs or the priorities that have 
been requested. That includes whether the existing 
authorization of end strength for the Army is sufficient to 
implement the Capstone doctrine that the Army issued less than 
a month ago.
    Hopefully, our hearing today will begin to answer those 
questions. I will note for the record that on Thursday the 
subcommittee will ask the Army for an update on its equipment 
modernization plans, with an emphasis on transformation to the 
Future Combat Systems, which this subcommittee has over the 
years proudly played a leading role in supporting.
    We will also ask how the Army intends to modernize and 
transform the individual soldier to ensure that we begin now to 
build the right Army to protect the security and freedom of our 
country and our people during the generations ahead.
    I thank you for hearing me out on that opening statement 
and I'm now honored to call on the subcommittee's ranking 
member, Senator Cornyn, from Texas.

                STATEMENT OF SENATOR JOHN CORNYN

    Senator Cornyn. Thank you, Mr. Chairman. It's good to see 
you.
    Senator Lieberman. You too.
    Senator Cornyn. Thank you for scheduling this hearing.
    General Caldwell, thank you for being here. I look forward 
to your testimony and your answers to the questions that the 
subcommittee propounds.
    Today the subcommittee will receive testimony on the new 
Field Manual for Operations. This edition of the FM represents 
the first major update since 2001 and was crafted from the 
lessons learned in Iraq and Afghanistan, and that's what I 
would like to focus some of my questions on. The 
appropriateness of the Army and the military, as opposed to 
other institutions of the Federal Government, how those will be 
coordinated in order to leverage and maximize resources--my 
impression is post-Katrina Hurricane there was some discussion 
about giving the uniformed military services additional roles 
in natural disaster relief because, frankly, I think most 
people view the military as the most competent institution in 
the Federal Government. But the problem is that with that 
competence and professionalism, it can clearly be stretched too 
thin and overloaded and perhaps given missions that are 
inappropriate or divert it from its main mission. So, I'd like 
to talk a little bit about some of that.
    Recognizing the Army's long commitment to the development 
of military doctrine, this can be traced back to the 
Continental Army and Valley Forge in the winter of 1777 and 
1778. I'm reminded of the connection between the release of the 
most recent counterinsurgency FM, just in terms of talking 
about what the impact of these manuals can have, the impact of 
that counterinsurgency FM and the revised strategy we've had in 
Iraq, which has from my perspective turned things around in a 
way that's very positive, and I'm not the only one that feels 
that way, obviously.
    In 2006 the Army and Marine Corps released the new FM on 
Counterinsurgency Operations. It had been 20 years since the 
Army had published a formal FM devoted to that subject, and of 
course, General Petraeus oversaw the preparation of that FM. In 
2007, just a month after the release of that FM, President Bush 
announced a new strategy in Iraq, and that new strategy has 
been sometimes referred to, of course, as the surge strategy, 
but closely parallels the doctrine advocated in that new 
counterinsurgency FM.
    Now, a year later, the subsequent improvements in security 
in Iraq have been notable and I believe demonstrate the extant 
connection between doctrine, strategy, and change.
    General Caldwell, in today's discussion of the Army's new 
FM on Operations, I'd like to ask you a little bit about how 
and in what respects you consider this to be revolutionary and 
whether that revolutionary change is in fact something that the 
Army can do, given the fact of our international commitments 
and the fact that, as Senator Lieberman said, end strength 
concerns remain and stresses on the military given its current 
mission, and what changes that you would foresee in the 
institutional Army and the organization of the Army's combat 
formations, the requirements for future systems being fielded 
to the force, the roles and missions of the Army Reserve and 
the National Guard, and the mobility requirements of the Army 
and the training of young officers and noncommissioned 
officers.
    I'm particularly interested in whether a career path for a 
military officer conducting stability operations is something 
that would be considered a plus or a minus and how we deal with 
that very practical concern.
    In addition, I'd like to ask you a little bit about how 
this FM can be harmonized with joint doctrine and how it has 
been received by our allies, coalition partners, and other 
agencies and departments in the Federal Government with whom 
the Army and the military need to work to bring all aspects of 
U.S. power to the table.
    It's our Army's soldiers, of course, who will execute this 
doctrine and learn the new lessons that it requires. Thus, 
General Caldwell, we're going to ask you a little bit about the 
kind of feedback that you received from soldiers.
    There's no doubt that our Nation will require a more agile, 
responsive, campaign quality, and expeditionary Army to meet 
the challenges of persistent conflict and change that will 
characterize the strategic environment well into the 21st 
century. I'm confident that this FM is an important 
contribution to the Army successfully meeting the high demand 
for Army forces and capabilities.
    Mr. Chairman, thank you again for calling this important 
hearing and I look forward to the testimony.
    Senator Lieberman. Thanks very much, Senator Cornyn, for 
that excellent statement. I appreciate what you said at the 
beginning about the Army. I was just over in Iraq again about 2 
weeks ago, and our military is an extraordinary experience in 
our society. It's hard to find another group like it that has a 
sense, a similar sense of purpose, resourcefulness to respond 
to changing environments, a tremendous sense of loyalty within 
the group to one another, and a sense of real pride in what 
they're doing for our country.
    So it's in that spirit, General Caldwell, that I welcome 
you again, as I stated for the record, Commander of the 
Combined Arms Center at Fort Leavenworth, KS, in which capacity 
you have overseen the drafting of this new FM and doctrine. We 
welcome your testimony now. Thank you.

   STATEMENT OF LTG WILLIAM B. CALDWELL IV, USA, COMMANDING 
   GENERAL, UNITED STATES ARMY COMBINED ARMS CENTER AND FORT 
                          LEAVENWORTH

    General Caldwell. Thank you, Mr. Chairman. Sir, if you 
don't mind, I have a written statement I'd like to submit for 
the record.
    Senator Lieberman. Sure. Without objection, we'll include 
it in full in the record.
    General Caldwell. Then I just have a brief opening one. If 
I may, Chairman Lieberman, Senator Cornyn, and other members of 
the subcommittee: I appreciate the opportunity to come here 
today to discuss on behalf of our Army our new Capstone manual, 
FM 3-0, Operations.
    My command at the Combined Arms Center has oversight of our 
Army's 17 schools and centers across the country, which have 
the responsibility for doctrine, leader development, lessons 
learned, capability development, cultural training, education, 
and knowledge management. This wide variety of responsibilities 
and capabilities, combined with the tremendous pool of subject 
matter experts, gives us a unique insight into the state of our 
Army and helped us to shape this Capstone manual.
    As the intellectual center for our Army, the Combined Arms 
Center plays a central role in shaping what will become the 
operational Army, from the doctrine that guides the actions of 
our forces to the structure and capabilities of those 
organizations that prosecute those actions, from the training 
and education that prepares our soldiers for the uncertainties 
of the future that we see ahead to the leader development 
programs that produce those creative thinkers and those 
adaptive leaders that are absolutely essential for our Army in 
this era of persistent conflict.
    Your Army's role through transformation and beyond remains 
to fight and win our Nation's wars. However, this new doctrine 
puts stability operations and civil support, as you have said, 
Mr. Chairman, on an equal footing with offensive and defensive 
operations, institutionalizing our commitment to support and 
integrate it in a whole new governing approach to future 
operations.
    This approach will not be easy and it will require a 
renewed commitment by all within our Nation's government. Your 
Army can win every battle and every engagement. We will never 
lose. But we alone can never win the peace. This can only be 
accomplished through an integrated effort by both uniformed and 
civilian personnel, working in the same synchronized manner as 
our joint forces do today.
    Additionally, this manual recognizes the unparalleled power 
of information that we are seeing here in the 21st century. Our 
Army is asking more of our soldiers than ever before and it is 
our responsibility as leaders to empower them with the road 
map, the skills, and the decisionmaking abilities to complete 
their missions. Probably more than at any time in our Nation's 
history, our Army requires flexible and agile forces with the 
capability to conduct joint and multinational operations at any 
point across the spectrum of conflict.
    The new FM 3-0 reflects what we believe to be the blueprint 
for the future of our Army, one that will take us out the next 
10 to 15 years. Although the environment in which we operate 
will consistently change, the constant will be our soldiers. I 
ask you to join me in sharing and saluting their incredible 
sacrifices and join me in reaffirming our commitment as leaders 
to provide them with the right combination of skills, training, 
equipment, and leadership they need to accomplish the mission 
we have set before them.
    With that, sir, I'm prepared to take whatever questions you 
might have.
    [The prepared statement of General Caldwell follows:]

         Prepared Statement by LTG William B. Caldwell IV, USA

    FM 3-0 represents a break from past precedent and theory within the 
Army; in its own right, this edition of our capstone manual marks a 
revolutionary shift in focus. Where our capstone doctrine was once 
based upon a traditional approach to military operations that focused 
operations on seizing terrain and destroying enemy formations, this 
edition acknowledges that the current and future operating environments 
will be characterized by conflict against amorphous enemies that hide 
among and are supported by civilian populations. Consequently, 
successful operations must incorporate robust measures to favorably 
influence the perceptions of such populations and garner their support. 
They must enable the support of our interagency and intergovernmental 
partners while facilitating the efforts of non-governmental 
organizations operating alongside our formations. In other words, FM 3-
0 places primacy on capabilities that focus on the people among whom we 
operate, ensuring their safety, security, and well-being in an era of 
persistent conflict.
    Two strategic realities shape American landpower in the 21st 
century: persistent conflict and change.
    Today the United States remains a nation at war. This war is unlike 
any other in our history; it represents a fundamental clash of 
ideologies and cultures that could span generations. We face an era of 
persistent conflict, with intractable enemies intent on isolating the 
world from American access and influence extremist enemies of uncommon 
resolve fueled by unparalleled hatred for the rights and freedoms 
reflected in our democratic society. The enemy of today is patient, 
resourceful and committed to bringing terror to the American homeland. 
The enemy of tomorrow may possess capabilities and intentions that 
challenge the global balance of power. Ours is a complex and volatile 
world, where chaos is commonplace and hatred a basic tenet of an 
expanding social abyss. Globalization inherently ties our economy to 
countless others while the information revolution has eroded the 
protection once offered by our borders. American dominance of the 
maritime, air, and space domains is no longer the effective deterrent 
it once was, although it does give pause to nations who share our 
enemies' hatred of the United States.
    Success in this era of persistent conflict will require the 
steadfast application of land power. The ability to engage, close with, 
and destroy our enemy on the ground remains indispensable. But it is 
the ``soft power,'' constructive capabilities of the force--or as we 
prefer to say, ``smart power'' skills--that we must increasingly 
promote as the tools required to make permanent the otherwise temporary 
effects of successful combat actions. Armored combat vehicles 
patrolling the streets may intimidate our enemies for a period, but 
they cannot repair the damaged infrastructure of a failed state or 
bring lasting peace and stability to a war-torn country. In this 
uncertain future, our Nation requires constructive, nonlethal 
capabilities that complement Army combat capabilities. Therefore, our 
forces must be as proficient at stability operations as they are at 
traditional combat operations. This requirement changes what we as 
soldiers must provide our Nation.
    The second strategic reality shaping the future of the Army is 
change.
    In the midst of this historic conflict, the Army has undertaken a 
historic transformation effort, reshaping itself into a decisive force 
with unique expeditionary and campaign capabilities. The Army has 
broken the mold of the traditional divisional army to forge a modular, 
brigade-based force capable of prompt, sustained land operations 
against any opponent across the spectrum of conflict. With this 
transformation, the Army cedes the concentrated tactical striking power 
of the division in favor of the elasticity of brigades operating across 
widely dispersed land areas. This gives the Nation an Army with much 
greater strategic flexibility and the ability to select and deploy 
various mixes of forces for crisis response or theater security 
cooperation requirements.
    We are also transitioning from a Cold War tiered readiness system 
to a cyclic Army force generation process that will provide deployment-
ready expeditionary forces that are organized, trained, and equipped to 
meet any contingency worldwide, yet it is flexible enough to provide 
formations optimized for the fundamentally dynamic environments of an 
uncertain future. The impact of this change on the Army will be 
profound.
    At the heart of the Army's transformation effort is a shift in 
doctrinal emphasis that captures the essence of more than 6 years of 
current operational experience that has characterized military service 
since September 11. For the Army to remain agile and adaptive in this 
chaotic and uncertain era of persistent conflict. it is imperative that 
we capture and codify this experience within our capstone doctrinal 
manual.
    Within the Army, doctrine is recognized as a driver for change. It 
is a dynamic catalyst that cements organizational change across the 
force. Through doctrine, the very institutions that represent the Army 
begin to transform, adapting to meet the requirements of the future 
while embracing the enduring lessons of our past. This edition of FM 3-
0, our operations manual, is no exception. It represents the collective 
experiences of a team of veteran authors, yet was shaped by the vision 
of our most senior leaders. This, the 15th edition of the Army's 
capstone manual, reflects the lessons learned and best practices of our 
troops in Afghanistan and Iraq, yet maintains a strong lineage to 
Secretary of War Elihu Root's 1905 Field Service Regulations and Baron 
von Steuben's 1779 Regulations for the Order and Discipline of the 
Troops of the United States.
    As with each previous edition, today's capstone manual shapes all 
Army doctrine, while influencing our organization, training and 
education, leader development, materiel acquisition, and soldier 
concerns. But its contents are not truly capstone doctrine until Army 
forces internalize it. This requires education, debate and individual 
study by all Army leaders, measuring the new doctrine against 
strategic, operational and tactical realities. Much of this edition has 
evolved from its predecessor, published in 2001. Many of the principles 
and fundamentals remain unchanged. However, others reflect the wisdom 
gained from our recent operational experience. So, while elements of 
this doctrine may be evolutionary, its ultimate impact on the force 
will be revolutionary.
    This edition of our operations manual reflects Army thinking in a 
complex period of prolonged conflict and unique opportunities. The 
doctrine recognizes that current conflicts defy solution by military 
means alone and that landpower, while critical, is only one element of 
a much broader effort. Success in this era of persistent conflict will 
require the protracted application of all the instruments of our 
national power-diplomatic, informational, military, and economic, as 
well as military. Thus, Army doctrine now equally weights tasks that 
concern the population--stability or civil support--with those related 
to offensive and defensive operations. This parity is critical: it 
recognizes that 21st century conflict involves more than combat between 
armed opponents. While defeating the enemy with offensive and defensive 
operations, Army forces must simultaneously--not sequentially--shape 
the broader situation through nonlethal actions to restore security and 
normalcy to the local populations among whom we operate. This is the 
essence, the very core of this manual.
    Today, I would like to share with you what I see as the four most 
significant changes reflected in our new operations manual. While 
aspects of the new doctrine are evolutionary in nature, in application 
our capstone manual will have a revolutionary impact on the force. This 
is a doctrine meant for a force led by creative thinkers, adaptive 
leaders, and soldiers who reflect the values of our Nation in every 
corner of the world today. Many of you have had an opportunity to 
review the manual. You understand that this manual is our 
``commitment'' to soldiers to enable their success in an uncertain 
future. But this manual is also our ``contract' with Congress and our 
Nation: it declares that we are committed to providing our soldiers 
with the tools needed to win in this era of persistent conflict.
    First, the manual is framed around a central operational concept--
full spectrum operations--that drives initiative, embraces risk, and 
focuses on creating opportunities to achieve decisive results. Full 
spectrum operations represents the core of Army doctrine. It is more 
than just a concept that describes how commanders apply unique, 
simultaneous combinations of offensive, defensive and stability or 
civil support tasks to solve complex operational problems. It 
fundamentally redefines our basic notion of combat power, from how we 
generate it through the warlighting functions to how we apply it 
synergistically through combined arms operations. It drives initiative 
and emphasizes accepting prudent risk to create opportunities to 
achieve decisive results.
    The manual details how the concept applies to every Army operation 
across the spectrum of conflict. It explains how Army forces apply full 
spectrum operations in every conceivable situation, from stable peace 
to general war. It describes how Army forces adapt to the requirements 
of a fundamentally dynamic operational environment and how they conduct 
operations within that environment combining Joint force capabilities, 
synchronized action and mission command. Full spectrum operations 
focuses on the Army's preeminent challenge: balancing expeditionary 
agility and responsiveness with the endurance and adaptability needed 
to carry any campaign to a decisive and successful conclusion, 
regardless of circumstances.
    Second, this edition of the manual emphasizes the central role of 
the commander in operations, recognizing the need for human solutions 
to the complexities of conflict. In the future, chaos, chance and 
friction will dominate land operations, reflecting the increasing 
complexity of the operational environment. Understanding and knowledge 
are the commander's greatest weapons in this environment, where the art 
of command-drawing on vision gained from years of operational 
experience and education-is paramount to success. This edition ties 
together battle command and operational art, providing an integrated 
model for the creative application of the commander's experience, 
knowledge, and intuition in full spectrum operations.
    The manual is underpinned by understanding, the expression of 
mental acumen by commanders (and their staffs) to define and frame 
complex operational problems and design operations that fundamentally 
reshape the conditions of the operational environment consistent with 
national interests and strategy. It is the creative application of the 
agile mind that enables the commander to understand the broader context 
of a given situation through the lens of experience, knowledge, 
education, intelligence and intuition.
    Understanding, the cornerstone of battle command, is essential to 
the commander's ability to leverage competent leadership into decisive 
action to accomplish the challenging, complex missions our soldiers 
face today. Understanding is the driving force behind the operational 
concept that frames our capstone doctrine; it provides the impetus to 
bridge the chasm between risk and opportunity. Understanding is the 
catalyst that fosters initiative, the seasoned expression of the agile 
mind. Ultimately, understanding lies at the core of decisive action.
    Third, the manual gives equal priority to the skills representative 
of nation building, elevating stability operations to an equal status 
with traditional offensive and defensive operations. This edition of 
the manual addresses the realities of a complex era of persistent 
conflict, in which stability operations are as important as offensive 
and defensive operations--if not more so. Soldiers will consistently 
operate in and among the people of the world, conducting operations in 
an environment fundamentally human in character. In this environment, 
the efforts of the force must focus primarily on the people. These 
efforts--stability tasks--improve the people's safety, security, social 
well-being, and livelihood; they shape a ``whole of government'' 
approach that integrates the activities of a wide array of military and 
civilian participants; and they fulfill our legal and moral obligations 
under the Hague and Geneva Conventions.
    Toward this end, the manual elevates stability operations to 
coequal status with the offense and defense. While previous editions 
focused on the warfighting capabilities of the Army, this version 
acknowledges that secure, lasting peace is only achievable by combining 
the destructive capabilities inherent in offensive and defensive 
operations with the constructive capabilities innate to stability 
operations. Through unique combinations of offensive, defensive and 
stability operations, land forces establish the conditions that foster 
the success of the other instruments of national power and--through 
unified action--enable the processes that engender a stable peace.
    Finally, the manual highlights and embraces the unparalleled power 
of information in contemporary operations. Successfully executing these 
stability tasks also depends on influencing attitudes. The final 
success or failure of a stability operation often rests with the 
perceptions of the people. The actions of soldiers exert the most 
powerful influence on the people. Soldiers and leaders must secure the 
trust and confidence of the population; they must be consistent in the 
actions and messages. They must master information. For the people, 
perception equals reality. Altering perceptions requires accurate, 
truthful information molded for broad appeal and acceptance and 
presented in a way that accounts for how people absorb and interpret 
information. This is the essence of information engagement.
    No other military activity has as significant a human component as 
operations that occur among the people. Human beings capture 
information and form perceptions based on inputs received through all 
the senses. They see actions and hear words. They compare gestures and 
expressions with the spoken word. They weigh the messages presented to 
them with the conditions that surround them. When the local and 
national news media are unavailable or unreliable, people turn to the 
internet, where information flows freely at unimaginable speeds. Again, 
to the people, perception equals reality. This new doctrine--the very 
core of our intellectual foundation--ensures that we work to change 
these perceptions as we shape a positive future for a people once on 
the brink of despair.

                               CONCLUSION

    Today's FM 3-0 recognizes that the United States faces a global 
security challenge and should expect to remain fully engaged throughout 
the world for the next several decades, locked in a persistent conflict 
against an enemy dedicated to our defeat as a nation and eradication as 
a society. This conflict will be waged in an environment that is 
complex, multi-dimensional and rooted in the human dimension. This 
conflict cannot be won by military forces alone, but instead requires 
close cooperation and coordination among the diplomatic, informational, 
and economic instruments of our national power. This doctrine embraces 
that reality, and sets a waypoint that ensures the close 
synchronization of landpower with a broader, ``whole of government'' 
effort. As Army training evolves to meet the requirements of this 
doctrine, the result will be a true full spectrum force: one balanced, 
versatile, and able to provide expeditionary and campaign capabilities 
to joint and combined-force commanders. Full spectrum operations 
emphasize the importance of adaptive, flexible forces able to prevail 
in any situation, whether facing an intractable terrorist group bent on 
destroying our way of life, or a population in crisis relying on our 
benevolence for its very survival. Ultimately, however, it is 
soldiers--defined by their valor, devotion to duty and commitment to 
one another and the United States of America--who execute full-spectrum 
operations, and it is soldiers who remain the centerpiece of our 
formations.

    Senator Lieberman. Thanks very much, General. We certainly 
join you in that commitment to our troops.
    I think we'll do 10-minute rounds and see how long we 
continue to have questions for you.
    Let me go back to my opening statement and ask you to 
respond to what I believe I heard at the hearing that the full 
committee held last year on the future of the Army and try to 
relate that to this new FM 3-0, which is that--and this is 
obviously taking a lot of testimony and simplifying it, but 
there seemed to be a difference of opinion as to whether, 
essentially, the existing brigade combat team structure could 
be made into a full spectrum structure or whether, on the other 
hand, we needed to develop highly specialized units to engage 
in the different kinds of operations that the Army says it will 
have to engage in, from low intensity peacekeeping stability 
operations, to the broadest notion of general warfighting.
    So did I hear that correctly, what's the answer that FM 3-
0, in your opinion, gives to that good healthy debate we had 
before the full committee last year?
    General Caldwell. Sir, it's an excellent question. I can 
tell you from the symposiums we conducted out at Fort 
Leavenworth just over the last 8 months that I've been in 
command out there, that was one of the very subjects we took on 
and addressed, because it is a great intellectual debate and 
it's one that should be done. Out of that, though, the position 
that the Army has taken we have codified in the FM, is that in 
fact we will take these brigade combat teams, this modular 
force, and develop within it the abilities so that it can, in 
fact, conduct full spectrum operations from literally 
peacekeeping type operations to major combat operations, rather 
than developing unique and specialized forces, other than, 
obviously, our special operating forces. We will continue to 
grow.
    Senator Lieberman. So do I understand correctly that the 
vision, the policy decision in the FM 3-0, is that each of the 
brigade combat teams will have the full spectrum capabilities?
    General Caldwell. That's correct, sir. Now, Mr. Chairman, 
there are 76 brigade combat teams in the total Army. We have 
another 223 additional combat teams that are of other types. We 
have recognized that elements like civil affairs are critical 
in this type environment. So from one Active Duty civil affairs 
battalion, we now have an Active Duty civil affairs brigade, 
and we're growing to two Active Duty civil affairs brigades.
    So it's not that the brigade combat team alone can do it 
all, but there will need to be other combat-type multipliers 
that can be augmented with them and support them in that 
effort. Fortunately, through the authorization that Congress 
gave us, we're growing the Army by about another 76,000 people, 
and in that growth we will find those additional enablers being 
added into the force structure that will give us that enhanced 
capability.
    Senator Lieberman. So what were the people who were on the 
other side of the debate last year and at the symposium asking 
as you understood it? That, essentially that the existing 
brigade combat team structure and organization be set aside and 
that you organize separate units for separate purposes? Was 
that the debate?
    General Caldwell. Yes, sir. Obviously, if you take a tank 
battalion, about a 600-person unit that has to go through the 
qualifications of tank gunnery and learn how to operate as a 
combined force, and then as a combined arms force, and then ask 
it to do something like stability operations, entirely 
different skill sets are being applied at that point. So there 
will be a decrement in their tank gunnery skills and their 
ability to conduct tank operations, which they're going to have 
to go back and recalibrate.
    But in fact, we recognize that with the agility we have 
built into the soldiers today in our Army, Mr. Chairman, we 
literally have--I brought with me today Captain Kuhlman who is 
sitting behind me. Captain Kuhlman just came out of Iraq, has 
just been assigned out there to work with me. I asked to have 
him because I had met him one time when I went to the Beiji oil 
refinery.
    He's an infantry company commander from the 82nd Airborne 
Division. He went over there with his 140-man company with the 
primary mission to bring peace, security, and stability to the 
country. The next thing he knew, he had an area of operations 
and he's now responsible for literally helping run 
infrastructure. He has the Beiji oil refinery, the number one 
major oil-producing oil refinery in Iraq. He's handling the 
electrical plant. He's dealing with the local governance 
committees. He's working through corruption issues. He's having 
to deal with the interagency.
    He literally has taken on, become a full spectrum type 
adaptive leader that we're finding across the Army today, that 
are just doing incredible things. Through our educational 
process, the experiences we give them, the training that they 
have, and now they find themselves in this case in this 
situation in Iraq, and he's having to apply all those diverse 
kind of skills, as are his soldiers, as he can talk about how 
he took and formed Task Force Oil with a young sergeant E-5 and 
a young specialist, who took on working within the plant on a 
daily basis to understand better the operations of the plant. 
These are military members who are having to work at that full 
spectrum.
    In the debates we had at Fort Leavenworth at the symposiums 
was whether or not there should be an organization that doesn't 
have tanks, that is given the sole mission to conduct stability 
operations, that becomes very specialized in those skills. The 
challenge you do find as we've continued this debate is, 
Captain Kuhlman still had to conduct force-on-force combat 
operations at different times. It wasn't like he was free of 
the ability to not have to worry about some external threat.
    As they found themselves being more successful in reducing 
the level of the corruption and increasing the output of oil 
through the refinery there, the insurgents did, in fact, start 
conducting more attacks against his forces and against the 
truck drivers and other things like that, where he was then 
required to use his military force in response to that. So he 
became a full spectrum unit operating over there in Iraq.
    Senator Lieberman. That's a really interesting response and 
story. I guess in a way you're saying that there will be some 
specialized units to supplement the brigade combat teams--and 
this gets to the individual soldier and certainly the 
individual officer, such as the captain you've described, which 
is the remarkable, you might call it, agility or 
resourcefulness that our troops have demonstrated in Iraq, and 
Afghanistan, but I'm focused on Iraq now, that allows them to 
do this range of assignments.
    Is there a way you try to train somebody to be an officer 
like this?
    General Caldwell. Yes, sir, that's a great point. Out 
there, as the educational director for our Army on behalf of 
our chief of staff, that's, in fact, what we do at the Combined 
Arms Center, with our 17 schools and centers. We have taken a 
lot of time and effort to inculcate into the educational 
process the development of those very skills.
    The importance of taking this manual--sir, I spent 30 years 
in the Army. I was in Panama and then had to work the aftermath 
when we had to get the basic services going and stand up the 
police. Then I went to Operation Desert Storm and found the 
same thing up in Iraq. Then I went into Haiti, did it all over 
again, trying to get the police stood up and trying to get 
basic services going.
    Here we are now in Iraq, we are doing the same thing. The 
Army has always withdrawn from those kind of skill sets after 
we've been required to do them and we have had to do them in 
every conflict, and has refused to inculcate them into our 
educational process, to recognize them and to say that this is 
a responsibility that we have to be able to execute. We now 
have done that in FM 3-0. We have observed what's occurring in 
Iraq and Afghanistan over the last 6 years. It's, in fact, a 
skill set that they're demonstrating on a daily basis, those 
remarkable young men and women in uniform, and we have codified 
it now and said, this will be something that we're going to 
capture and bring into the educational and training process and 
put into our doctrinal manuals, so that we don't lose that 
skill set in the future, but rather continue to reinforce it 
and, as you asked earlier, sir, reward those and develop the 
incentives so that if, in fact, they have done those type of 
skill sets it's something that's recognized by our Army as 
being very important and not something that's not important.
    Senator Lieberman. That's an excellent answer. So in a way, 
we train the brigade combat teams for full spectrum, but we're 
training individual soldiers to have the really mental acuity 
and individual leadership capability and resourcefulness to 
deal with an array of different problems. What you're saying is 
that FM 3-0 now accepts an institutional responsibility of the 
Army to the best of their ability, of your ability, to train 
our forces to carry out that range of responsibilities, and, in 
fact, puts it at a level that's equal to the traditional 
warfighting.
    General Caldwell. Exactly right, sir. That's so important 
because there are those who are very comfortable with offensive 
and defensive, the kinetic type operations, and the recognition 
of making stability operations as equally important, 
recognizing that we simultaneously are executing all of those 
in these current operations today and will in the future, now 
is, in fact, reinforcing and going to reward those who, in 
fact, engage in those type activities.
    Senator Lieberman. That was great, thank you.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    General Caldwell, this significant development of this FM 
to incorporate into Army doctrine the requirement of stability 
and civil support in a much more formal sort of way, do you see 
any conflict between the traditional warfighting function of 
the Army and providing enhanced responsibilities for these kind 
of operations, or do you believe it's inherent in that 
warfighting capability?
    General Caldwell. Sir, I believe it's inherent, and it's 
something we'll be doing for the next 10 or 15 years. We've 
spent a lot of time looking at the threat out in the future and 
examining that as part of this manual development, and one 
thing we do say is that there will continue to be these type of 
operations for the next 10 or 15 years.
    Senator Cornyn. After September 11 we heard a lot about 
stovepipes in the intelligence community, and of course in the 
military we've been working a long time to build a joint 
capability between the various branches of the military. But 
I'm wondering whether it's time to look at removing some of the 
stovepipes in terms of all U.S. Government power through 
greater interagency cooperation, to perhaps engage in a more 
meaningful way from my perspective the State Department and 
other U.S. Government agencies in these stability and civil 
affairs operations.
    Could you comment on that?
    General Caldwell. Sir, I have three objectives out in my 
command. First is leader development, obviously; and second is 
interagency. I am aptly passionate and cannot agree with you 
more. If you just take our educational process, where we have 
to start it, if you go out to the Command and General Staff 
College, our mid-grade level leaders at 10 years we're bringing 
out there and educating, I have 1,100--I'm the commandant of 
the college out there. I have 1,100 majors. 100 of them are 
from other nations. I have 82 different nations represented to 
give me the international flavor so that we can have that kind 
of cultural dialogue exchange between us.
    I have 200 from the other Services, from the Navy, the Air 
Force, and the Marine Corps. I'm down now to about 800 Army 
officers. I have three from the interagency. Two of them are 
from the Diplomatic Security Corps, and one is from the Defense 
Intelligence Agency. I literally have, for the last 8 months, 
put a team together to try to somehow get the interagency to 
participate and be a part of the educational process, because 
if we don't train and educate together we're going to be 
challenged when we go into the type of situations we see in 
Iraq and Afghanistan today.
    Sir, just having come out of Iraq, I can tell you that the 
members of the U.S. Government that are there other than the 
military are incredible heroes, putting forth a 110 percent 
effort. They're absolutely committed and dedicated and they're 
working every day with us. But they just aren't resourced and 
funded to be able to do what's necessary there, nor in this 
case to provide, like students, who can come out to the Command 
and General Staff College and spend 10 months in an educational 
process with all those other students out there, to enrich the 
training environment so that we educate and train ourselves as 
we will find ourselves operating in future environments in the 
world that our Nation may commit us to.
    Senator Cornyn. You mentioned funding and of course a key 
to stability operations that you outlined are the provincial 
reconstruction teams (PRTs) and their efforts to rebuild key 
infrastructure. A large portion of the PRT funding, the 
economic support fund, was in the fiscal year global war on 
terrorism supplemental funding request. In December, Congress 
appropriated only $15 million out of the $797 million requested 
to fund the PRTs.
    In your opinion, how does this impact the PRTs' ability to 
provide stability operations?
    General Caldwell. Sir, it obviously starts much earlier, 
because the other branches of the government are challenged to 
find the people to put into the PRTs because they aren't 
resourced with that kind of expeditionary capability. Given, 
though, that the members that we do find there--the PRTs are 
essential if we're going to eventually transition and provide 
greater stability and quality of life for the Iraqi people or 
the Afghan people.
    Captain Kuhlman can share a personal example of how, here 
he is at the Beiji oil refinery, where you think you would find 
every element of U.S. Government engaged up there, and he has 
one person that he's able to find from a PRT that's nearby, 
who's coming in and working with him and helping provide some 
connectivity back into the whole government, and that's it. Had 
it not been for that PRT, had it not been for that one 
department person outside the U.S. military, he would have had 
no outside engagement with him through his first 6 or 7 months 
there in trying to figure out, how do we help the Government of 
Iraq get the Beiji oil refinery, its major number one refinery 
in the country, more operational and functioning better.
    Senator Cornyn. I was interested to see in chapter 7 of the 
FM, it's about information superiority and particularly 
information operations. Information operations divides into 
five Army information tasks, with particular emphasis on 
information engagement. Could you explain a little bit what you 
see as the proper role of the military when it comes to 
information superiority?
    General Caldwell. Sir, in the 21st century, as we all know, 
the information medium has exploded, and the messages and ways 
people can transmit information have quadrupled. So the 
question is, are we as a military going to understand and 
embrace this information medium and establish the procedures, 
the methods, the means by which we can, in fact, use it to 
educate and inform others and help work and understand that the 
perceptions of the people, because we're working among the 
people, in fact, becomes reality, and therefore your actions on 
the ground, that of the American soldier, he or she and what he 
or she does on a daily basis has a tremendous impact.
    But then there's also the other medium of conveying a 
message through the Internet, through radio, through TV, 
through newspapers, that are out there, and we need to 
understand better and take advantage of. We haven't fully 
embraced and taken hold of that medium yet. We need to. It's 
critical to the 21st century.
    Some people call it ``soft power.'' In the Combined Arms 
Center we prefer to call it ``smart power.'' It's taking these 
nonlethal elements like information and figuring, how do we 
take and use that in the 21st century, where, in fact, force-
on-force is not necessarily the means by which you're going to 
achieve an objective, but rather informing and educating people 
and making them understand what's going on will, in fact, many 
times change their behaviors and their attitudes much more 
quickly than anything else will.
    So this information medium is absolutely paramount. It's a 
major change in this manual. If you were to say what are the 
four major things, one of them of course is elevating stability 
operations equal to and as important as offensive, defensive. 
Another one is this information domain. I had the opportunity 
yesterday to talk to every public affairs officer in the United 
States Army at a worldwide public affairs conference and share 
with them and talk to them about this information domain, 
because it is so critical and they're a key element of helping 
us get at that. They're not alone in this effort, but they're 
an aspect of it, because we do have to figure it out if we're 
going to better inform and educate others about what the 
objectives are of our U.S. Government.
    Senator Cornyn. I'm glad to see the emphasis on that and 
the emphasis on that issue, because frankly, I think the enemy 
we are confronting is a master of using information tactics to 
enhance, to advance their cause. I remember being with a 
bipartisan group of members of this committee in Kirkuk in 
August 2003 with General Odierno and General Petraeus at the 
time, and listening to a briefing of the good work that was 
being done there, and marveling that that information just 
never seemed to get out.
    Obviously, in terms of the public support for the mission 
of the military, I think it's important for the public to know 
what the military's doing and not to leave it to the halls of 
Congress for people to spin and characterize it for whatever 
their motives might be, but actually to get good solid 
information. So I'm glad to see that the FM does view that as 
an important part of the function of the military, to make sure 
that information, accurate information, does get out in a way 
that enhances our ability to do the job.
    Mr. Chairman, I'll turn it back to you for right now.
    Senator Lieberman. Thanks very much, Senator Cornyn.
    General Caldwell, let me come back and ask you to talk some 
about the process that led to the FM and the Capstone doctrine 
that we're focused on, which is a very important document. The 
first question is, what were the Army's assumptions about the 
likelihood of employment of Army personnel at different points 
on the conflict spectrum over the next generation and the 
resultant priority among expected missions?
    In other words, did you go through a process where you 
reached some assumptions about whether it was more likely that 
you be called on for conventional, irregular, or stability 
operations, and if so, what kind of priority was there?
    General Caldwell. Sir, we did, in fact, do that, and our 
assumption is that we will be called on over the next 10 to 15 
years on a somewhat regular basis, and that, in fact, there 
will be more of the lower end kind of operations, not major 
combat operations.
    Senator Lieberman. So lower end, define it a little bit for 
the record?
    General Caldwell. The best way I could tell you, being 
responsible for helping put together our Army doctrine, we're 
rewriting right now our Army training manual, the manual that 
will tell you how we're going to train the United States Army. 
What we have done, sir, we've laid out that spectrum of 
conflict and we have actually put a circle on it and said, here 
is the area in which we think we'll most likely see U.S. 
military forces operating over the next----
    Senator Lieberman. You mean geographically or in terms of?
    General Caldwell. Geographically, yes, sir. We haven't 
published it yet, sir. We're publishing it in about 90 days. 
We're out briefing it. We're conducting the sensing sessions. 
We're talking to the other Services. A lot like we did with FM 
3-0, to ensure there's not something we've missed before we 
publish this.
    Senator Lieberman. That's very important to know. So 
hopefully this hearing can be a part of that process, too.
    General Caldwell. Yes, sir. What we're telling everybody is 
that, instead of focusing on major combat operations, we're 
going to focus on slightly less than that.
    Senator Lieberman. So give us an example of what slightly 
less, something we've experienced?
    General Caldwell. Yes, sir. Like out at our Combat Training 
Center, sir, at the National Training Center and the Joint 
Readiness Training Center, instead of just having major force-
on-force operations, we have over the last couple of years now 
been building large urban areas out of different elements, 
makeshift towns. We've hired on lots of Afghan Americans or 
Iraqi Americans, depending on what unit is going to go to what 
area of the world, and have brought them in and they're doing 
role-playing, and they're in native costumes, with 
organizations set up. Then we bring the unit just before it's 
prepared to deploy about 3 months out there for what we call a 
mission rehearsal exercise, where they're rehearsing their 
final mission before they deploy and have them actually 
exercise and go through about a 10-day iteration out there, 
giving different challenges, situations changing, very dynamic 
depending on what they do and how the people react, putting 
them through the challenges of IEDs, and everything else we do.
    Senator Lieberman. So is it fair to say that you think that 
we're going to face more situations like we're facing in Iraq 
and Afghanistan today in the next 10 or 15 years, or are those 
more large-scale than you anticipate as the most significant 
responsibilities the Army will be asked to take on?
    General Caldwell. Sir, our assumption is that there will be 
like type operations in a smaller scale.
    Senator Lieberman. On a smaller scale. Then how about, what 
ranking do you give stability operations?
    General Caldwell. Sir, we really do see it as coequal, it 
truly is. I know we say that in doctrine, but when we put them 
out through our--and again, I have oversight for our Army, of 
our combat training center exercises. The Army has given us, we 
educate, we write it in doctrine, and we also collect the 
lessons learned, and then we go out and do the collective 
training, too, out there.
    So we've, in fact, incorporated that in so that everybody 
has to go through the stability operations aspects when they're 
doing a rotation at either the National Training Center or the 
Joint Readiness Training Center.
    Senator Lieberman. Let me go back to the question that I 
raised on my first round and just see if I can ask you to focus 
in on this aspect of it, which is, in the same way you've 
described some of the assumptions that you've made about the 
likelihood of the threat environments or activities you'll be 
called on, what was the process that you followed that led to 
your decision to rely more on the full spectrum general purpose 
units than on the specialized units organized, trained, and 
equipped for specific missions?
    In other words, you made a decision here that did reject an 
alternative view and I want to understand on what basis you 
made that decision.
    General Caldwell. Sir, what we're experiencing over the 
last 6 years in both Iraq and Afghanistan is that a military 
unit when it goes in, who may be one day conducting stability 
operations, can very well the very next day be conducting 
combat operations. Given the complexities of that environment, 
it's just not sterile enough where you can just do one thing.
    Senator Lieberman. So the alternative view is in some sense 
unrealistic, is that what you're saying, the one that focuses 
on more specialized units?
    General Caldwell. We want specialized like units that can 
bring in and augment.
    Senator Lieberman. To supplement or augment.
    General Caldwell. That's absolutely imperative, sir, like I 
said, with the civil affairs. One battalion was not enough for 
our United States Army. We're literally going to have six times 
as much here because of what Congress gave us in allowing us to 
have the growth we're experiencing right now.
    Senator Lieberman. So I think I better understand why you 
made the decision, and it was that in what you see as the 
normal circumstance now it's not--and this is why I used the 
word ``realistic''--realistic to think you can send in one unit 
to perform one kind of operation and have another ready for 
another operation, whether it's on the conventional, irregular 
warfare spectrum, or information, or peacekeeping, stability 
operations. Presumably based on what our troops are being 
called on to do now, particularly in Iraq and Afghanistan, that 
their presence there puts them in a position where it's much 
more realistic and, I suppose you're saying, efficient to train 
those units for a broad spectrum of responsibilities, rather 
than thinking you can send in specialized units to deal with 
whatever problems emerge.
    General Caldwell. Yes, sir. I can share a personal 
experience. One of our great coalition partners, the Republic 
of Korea, has sent a unit into northern Iraq that is providing 
great stability operations assistance. That's all they're able 
to do and that's all that their government has allowed them to 
do. They're providing medical care and training in how to 
operate heavy machinery. They're educating them in bakery 
goods. They're doing a lot of great things for the people of 
Iraq.
    But they're very, very limited in what we can do with them. 
They're only able to stay just within their operating base and, 
although they're able to perform self-defense if attacked, we 
are unable to use them for anything else. So if some incident 
occurs in a nearby town, we have to bring in additional forces 
from outside the area to assist the Iraqi forces.
    Senator Lieberman. Let me ask you about another assumption. 
You had a very interesting, I think important, exchange with 
Senator Cornyn about the fact that we know that the Army and 
the Marine Corps are being called on to perform an 
extraordinary range of functions that go well beyond what most 
people would think our military should be doing or would be 
asked to do. We're very lucky, blessed, that you're doing it so 
well.
    But you get very little help from other Federal agencies 
and as a result you're doing stuff not only that in the normal 
organizational chart we would assume that the State Department, 
the Treasury Department, the Agriculture Department--you could 
go on--would have been asked to do, but they don't have the 
personnel to do it.
    So my question is, is one of the assumptions that you've 
made here as you put together this new doctrine that, in fact, 
in the next 10 to 15 years the Army won't be getting much more 
help from other Federal agencies than you are today?
    General Caldwell. Yes, sir, it is. But we also talk about--
--
    Senator Lieberman. Talk about reality. I'm afraid you may 
be right, but it's unfortunate.
    General Caldwell. But we make sure that they understand how 
critical it is that we don't want to ever lose, and continue to 
push, to try to get the whole of government engaged and 
involved in this process. Again, sir, I'd just go back to my 
personal experiences. Literally, I sat there in Panama after we 
did Operation Just Cause, and I remember my division commander 
turning to me and saying: ``Okay, Bill, how are you going to 
get the police force up now?'' I was the plans officer and I 
said: ``Get the police force up? We haven't even thought about 
that and what we went through.'' Then I watched in Haiti. 
Again, it was standing up a police force and working to get the 
International Criminal Investigative Training Assistant Program 
and Ray Kelly down and everything else, and then how are we 
going to pay them and what are the standards. Then I walk into 
Iraq, sir, and it's deja vu all over again.
    So this manual, which I am very thankful we're finally 
codifying it there, has recognized the importance of that 
aspect of stability operations and ensuring that it's in our 
educational processes and we do train to it and we have 
discussions about it.
    We're writing right now, sir, FM 3-07, called ``Stability 
Operations.'' We, in fact, will host an interagency conference 
on it, out at Fort Leavenworth in the late part of June for 2 
days. We will have the ambassador who's in charge of the 
Department of State security and reconstruction come out and be 
our keynote speaker, because he understands how critical this 
is to the whole of government. He's assisting us, his office 
is, greatly in this effort, as are many elements of the U.S. 
Government. But at the same time, everybody recognizes they 
don't have the resources they can contribute to the effort.
    But we're still going to write the manual. We'll have it 
out by this fall and it will be truly a U.S. Government manual. 
Although it will have an Army stamp on it, it will be anything 
but an Army manual. It will be a ``How the U.S. Government 
should conduct stability operations.'' We will not publish 
anything that everybody is not comfortable with, because it's 
that critical to us that we have it right for the whole 
government.
    Senator Lieberman. Good for you. Look, we have an 
obligation on our side, and obviously whoever is president in 
the years ahead has the same obligation, to try to get some of 
those other Federal agencies to pick up more of the 
responsibility.
    But in the mean time, again it's amazing what the Army and 
the Marine Corps are doing over there on the ground. People 
talk about economic development and microfinancing and building 
up self-government, the Iraqis' capacity to protect their own 
people and local police forces. It's astounding the range of 
functions that the Army is carrying out successfully on our 
behalf.
    I know General Petraeus said to me at one point that the 
Commander's Emergency Response Program (CERP) funds are so 
critical that he'd trade a lot of other things he's getting 
money for so he'd have enough of that CERP money, because 
that's actually helping, now that the surge has created some 
security, to build the country back up, to help the Iraqis take 
control of their destiny. It's quite something.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    There was some criticism that going into Iraq we were 
looking for a replication of what happened in Afghanistan, and 
we found something entirely different due to the failure of 
intelligence to let us anticipate what we encountered. I don't 
mean from a military standpoint. I mean in terms of the 
disintegration of civil society, the insurgency, and the like.
    Are you concerned at all that this FM, responding as it 
does to the current need for increased stability and civil 
affairs operations, is a response to what we've experienced in 
Iraq, that may or may not be present, a need that may or may 
not be present in future conflicts?
    General Caldwell. Senator, that's a great question. We've 
had a lot of discussion on that. The lessons we have learned 
over the last really 7 years now from both Afghanistan and Iraq 
have been taken and used in helping formulate this manual, but 
it's much more than that. It's also, as the chairman asked, 
what assumptions do we make in trying to look to what we're 
going to foresee that we could face in the future, and then 
having that as a major building block, too.
    But very much so, we are influenced by and wanted to ensure 
we didn't lose the lessons learned from the last 6 or 7 years.
    Senator Cornyn. My notes tell me here that more than 90 
percent of civil affairs troops are reservists currently. Could 
you confirm that or not? Do you expect the regular Army as it 
adopts a larger role in the stability and civil affairs 
operations to--now that it's been doctrinally elevated to a 
core Army mission, is it going to change the need to have more 
of that capability in the regular Army?
    General Caldwell. Sir, I'd have to come back to you on the 
exact percentage. I don't believe it's 90 percent any more. But 
I would really want to come back to you if I could on that and 
give you a definitive answer I'd like to be correct.
    [The information referred to follows:]

    The percentages of all soldiers assigned to structured Civil 
Affairs units are as follows. This is based upon approved Civil Affairs 
growth through fiscal year 2011.

----------------------------------------------------------------------------------------------------------------
                    Component                        2005     2006     2007     2008     2009     2010     2011
----------------------------------------------------------------------------------------------------------------
Active Army Civil Affairs Personnel..............      409      409      618      757      898      898      898
  Active Army (Percent)..........................        7        7       10       12       13       12       12
Army Reserve Civil Affairs Personnel.............    6,240    6,248    6,176    6,532    6,924    7,231    7,295
  Army Reserve (Percent).........................       93       93       90       88       87       88       88
----------------------------------------------------------------------------------------------------------------


    General Caldwell. But what I can tell you, sir, is we only 
had one Active Duty civil affairs battalion when September 11 
occurred. We're going to have six of them very shortly. It's an 
acknowledgment of how critical that asset is, and that will be 
six in the Active-Duty Force, not--there will be still some in 
the Reserves, but it's going to be six in the Active-Duty 
Force, because we also recognized that we did put too much of 
it into the Reserve component. Again, but it's because we had 
not said stability operations are equal and are as important as 
offensive and defensive operations. We have now, and in doing 
so therefore must have more civil affairs in the Active-Duty 
Force.
    Senator Cornyn. As this becomes a core Army mission of 
stability and civil affairs operations, I read one article 
suggesting that some military officers may not see this as 
particularly an advantageous career path leading to a 
promotion. Are you concerned about that?
    General Caldwell. Sir, I am. I can tell you one thing that 
we have just done in the Army, too. We have taken and put all 
our leader development under the Training and Doctrine Command. 
In fact, today General Wallace is chairing the first of the 
quarterly leader development reviews so that we can look 
specifically at leader development issues. They were very much 
dispersed across the Army in different areas. We've now just in 
the last 6 months pulled them all together. We have a team out 
at Fort Leavenworth that's working this for him, and we're 
having our first quarterly review today, which literally will 
include everybody in the Army, from the Army G-3, the G-1, our 
personnel people, our Training and Doctrine, our Forces 
Commands. They're all coming and meeting, with General Wallace 
chairing the session, as we work through and then not only 
prioritize these leader development things, but then put the 
resources against it, which is the part that has also been 
missing. So that he has been given the authority to move 
resources within the Army, so that we ensure if we say this is 
our number one critical thing that it will be resourced so that 
it occurs, which would then follow on with things like board 
instructions that give instructions for promotions and 
acknowledgment of how important those kind of skills are.
    Senator Cornyn. We all know that the current conflicts in 
which our Nation is engaged have put a lot of stress on the 
Army with repetitive deployments. Of course, one way we're 
responding to that is by growing the end strength of the Army 
and the Marine Corps. Does this change in the Army FM call for 
any changes in your opinion with regard to the numbers of new 
members of the Army or the Marine Corps that we're going to 
need?
    General Caldwell. Not directly, sir. If we're trying to 
figure out end strength, I think perhaps what we do is we look 
at what do we think are the mission requirements and then what 
are the forces to accomplish those missions.
    Senator Cornyn. I guess to clarify my question maybe, since 
we're talking about more than offensive and defensive 
operations, more than just being the most lethal force on the 
planet, but expanding the role, it would seem to me you're 
going to need more people if your role is going to be expanded. 
Now, maybe you'll tell me you're doing it anyway now and really 
it's just recognizing reality. But I would be interested if you 
do believe--and you can certainly take it under advisement, 
come back to us if you think there is any need to increase the 
numbers or growing our end strength in the Army or the Marine 
Corps as a result of this new core requirement of the FM.
    General Caldwell. Sir, what I can say, in the current 
growth that's been approved, the 72,000, over 65,000 or so is 
Active Duty. That's where, in fact, we're doing the civil 
affairs growth and some of these others. As we say, this 
doctrine is evolutionary in nature because there has been the 
acknowledgment that these kind of things have been required, 
but it's revolutionary in that we codified it in writing. So 
that's the revolutionary aspect of this.
    So in the growth that Congress did approve already for the 
United States Army, a lot of that is already starting to occur 
and has been looked at. I will tell you there are still ongoing 
reviews, again because we also do that out of Fort Leavenworth 
for the Army, in the overall force structure. We are not 
finished with it. There are still dialogues and discussions. We 
will go back here in about 2 more weeks with another major 
series of events that will lead up to about the 1st of July 
where we will go back to the Department and make a 
recommendation on some further changes within our force 
structure.
    Senator Cornyn. I appreciate your candor in responding to 
Senator Lieberman's question about whether you can rely on 
other agencies of the Federal Government to perform this 
function or whether the uniformed military is going to have to 
do it because, frankly, there is not going to be a lot of help 
from elsewhere. I would be interested if you have 
recommendations--I believe your staff and mine have talked a 
little bit about--what over and above the Army FM and this 
elevation of this stability and civil affairs operations to a 
core part of the Army doctrine, what other ideas you might have 
about how we could engage the full spectrum of the Federal 
Government to assist.
    I think you've acknowledged reality and I happen to agree 
with you under present circumstances. But I don't think we 
ought to give up. If there are things that we could do that 
would supplement or enhance this capability of the Army in 
providing these operations by funding or training or some other 
reorganization of U.S. Government power, I would appreciate the 
benefit of your thoughts and ideas on that.
    General Caldwell. All right, sir. We'll come back to you on 
that, sir. You are right, sir. Our staffs are engaged, and I 
appreciate that dialogue that's been going on.
    [The information referred to follows:]

    The Army Command and General Staff College (CGSC) is currently 
working with the Combined Arms Center (CAC) to extend a successful 
Interagency Exchange Program that was approved by the Chief of Staff of 
the Army. This program provides education and training to the key 
agencies and departments of government to improve the capability of 
these organizations to meet the challenges of conducting stability 
operations in difficult areas of the world through an effective ``whole 
of government'' approach. Results of this program have been successful 
thus far, with 17 students from 8 departments/agencies coming to CGSC 
for classes beginning in July 2008 and continuing through June 2009.
    In turn, the Army is sending seven officers as interagency interns 
to work in six departments/agencies to gain broadening experiences for 
the interns while contributing knowledge to the host departments/
agencies. Instructors and guest lecturers are also coming to CGSC from 
the interagency to assist in the cross-pollination process. It is 
recommended that this type of collaborative learning be expanded 
further within the Army and the interagency to maximize the ability to 
train together as we intend to operate together in the theater of 
operations. To accomplish this, the Army and the individual agencies 
will need additional budget authority from Congress for added personnel 
and travel expenses that will accrue.
    The above is just one example. What we need overall to continue 
this type of cooperation between the military and the interagency is 
for Congress to help with the following:

          a. Provide additional funding to the concerned agencies so 
        they can participate in individual and collective education and 
        training for joint Army/interagency operations without 
        sacrificing other ongoing requirements for which they are still 
        responsible. This should include opportunities at CGSC as are 
        already underway under the above initiative, as well as 
        exercises and simulation opportunities at the CAC Centers and 
        Schools, and the Combat Training Centers.
          b. Staff the respective agencies so they have the personnel 
        to send for education and training with the military forces 
        they will be working with in the theater of operations.
          c. Provide authorization and funds for exchange assignments 
        where a member of one organization is temporarily assigned to 
        another organization for broadening opportunities that will be 
        of value to both organizations. This should go both ways, i.e., 
        military to interagency, and interagency to military to provide 
        the needed learning experiences for all parties. The 
        authorization should enable use of military funds for sending 
        an individual to an interagency assignment and use of 
        interagency funds for sending an individual to a military 
        assignment for the purposes of broadening the education and 
        training of each organization.
          d. Implement some sort of congressionally endorsed 
        Presidential Executive Order or a Goldwater-Nichols Act for 
        interagency (akin to what was done for joint service 
        operations) that will provide directives and incentives to 
        cooperate in the changes needed to make ``whole of government'' 
        operations feasible and effective.
          e. Enforce (d) above just as occurred with the individual 
        Military Services to require all the Services to work together 
        with interoperable capability. Make it enticing to participate. 
        Career paths must support training and interagency education, 
        which should in turn be made a key element for promotion. In 
        the beginning some Services were slow to fully embrace Joint 
        Professional Education programs, as it was viewed as a 
        detriment to an operational career path. However, that view was 
        changed as a result of policies enacted to support promotions. 
        So this is needed to ensure cooperation by all Services, 
        departments, and agencies.
          f. Produce written guidance and codify actions in support of 
        nation building. This includes economic development, the Rule 
        of Law, humanitarian assistance and social well-being, 
        governance, reconciliation, strategic infrastructure, etc. To 
        date, there has been marginal support for efforts to capture 
        and codify tasks as they apply to each agency.
          g. Develop a process to establish unity of command amongst 
        the interagency and intergovernmental organizations. For 
        example, there are periods in reconstruction operations when 
        the Department of Justice (DOJ) should have primacy due to the 
        need to establish the rule of law. However, there are times 
        when economic development must take center stage because it is 
        the overriding concern. When this occurs, someone must be in 
        charge. To date, there is no formalized process in establishing 
        unity of command and the subsequent unity of effort among the 
        key agency players.
          h. Establish a coherent and synchronized training program for 
        interagency and intergovernmental personnel deploying in 
        support of reconstruction operations. For example, there is no 
        place for DOJ, Department of State (DOS), and United States 
        Agency for International Development (USAID) to send their 
        personnel for integrated training. In the military we have the 
        CONUS Replacement Center where all military personnel go for 
        training prior to deploying. There is no such location or 
        organization in the interagency and intergovernmental 
        community. The training does exist for some organizations, but 
        it is not synchronized and unstructured.
          i. Rotational cycles for the interagency and 
        intergovernmental community serving in operational areas are 
        not standardized. DOS, DOJ, Department of Transportation, et 
        cetera, all have different rotational polices, that's if they 
        can even require their personal to deploy. The non-standard 
        tours create perpetual turbulence in the execution of 
        reconstruction tasks. This is exacerbated by the lack of 
        deployment policies that require personnel to deploy in support 
        of reconstruction efforts.
          j. Many of the interagency and intergovernmental personnel 
        are not integrated into existing command and control 
        structures. As a result, their actions are not synchronized 
        with the military or other agencies executing reconstruction 
        tasks. There are no such things as command or support 
        relationships in the interagency and intergovernmental 
        community. As a result, everyone is establishing their own 
        priorities when it comes to rebuilding a country.
          k. Many of the government agencies are understaffed to allow 
        them to contribute to both ``whole of government'' operations 
        in theater and to training our forces before they deploy. DOS 
        and USAID are two organizations that come to mind, since they 
        are currently working very hard with us to provide their 
        expertise to support training at the Army's four combat 
        training centers. If Congress could expand the size of the 
        agencies normally involved in stability operations it would be 
        a positive step to improving the current training situation.

    The importance of interagency personnel training with the Army 
cannot be understated, since it is a reciprocal learning experience. 
That is, by training together, our soldiers and agency personnel learn 
about each other's operational capabilities, and--more importantly--
internal cultures--i.e., how each thinks and conducts business. Without 
those agencies personnel, we are forced to contract personnel to role 
play our interagency partners. Ideally, those contracted role players 
have been in those actual roles in a former life; for example, we have 
used the services of contracted retired ambassadors to act out those 
roles in exercises. Naturally, we would like to have other 
organizations, such as the Federal Bureau of Investigation, Central 
Intelligence Agency, and Defense Intelligence Agency routinely train 
with us. Having enough people in the agencies so that they could be 
part of the train up of our uniformed forces would greatly improve pre-
deployment training and provide subject matter experts with current 
experience.
    This interaction would help make the agency personnel and our 
soldiers smarter to leverage each other's capabilities and establish 
relationships to work together as a unified team. The more 
opportunities there are to work with our joint, interagency, 
intergovernmental, and multinational partners in training, the more 
likely we will be successful in actual operations.

    Senator Cornyn. Thank you very much.
    Senator Lieberman. Thanks, Senator Cornyn. Very good 
questions.
    I just have a couple more. I want to pick up on one of the 
exchanges with Senator Cornyn about end strength and whether 
the new doctrine, FM, requires additional end strength even 
beyond what we've authorized. Let me focus in on this part of 
it. To carry out these full spectrum of missions, you're going 
to need good time for training of our troops. Under the current 
deployment schedule, obviously, there is less time, to some 
extent even less resources. The institutional Army has been cut 
back some to enable the Army out there on the field to carry 
out its responsibilities.
    So my question is, as deployments are more frequent, do you 
see that the Army will have enough time to train our troops to 
carry out the extraordinary range of responsibilities that the 
doctrine will give them individually?
    General Caldwell. Sir, with the current deployments that 
are ongoing today, we are only able to train our forces for the 
mission which they have been directed to execute. So the forces 
that we are sending into both Iraq and Afghanistan today are 
trained not to conduct high-end operations. We recognize what 
the environment there is and we train them for that 
environment. It still requires them to have the capability to 
conduct force-on-force and stability operations, but they are 
not taught to conduct major force-on-force operations.
    We are sacrificing that part of our ongoing training so 
that they are fully prepared and ready for what they will face 
in Iraq or Afghanistan. We call it their directed mission 
essential task list.
    It takes about 18 months dwell time in between deployments 
in order for us to get at the full spectrum of the military 
skill sets which every military unit needs to have the 
capability to execute. Right now, we're at about a 12-month 
rotation between deployments. So therefore we are challenged 
and have a difficulty in getting at that full spectrum.
    But what we do ensure is that every man and woman who is 
deployed into theater has all the training they need for that 
environment upon which they're going to operate.
    Senator Lieberman. I hear you. So I think you're doing the 
best you can and really damn good under trying circumstances. I 
think as you consider some of the questions that Senator Cornyn 
asked, I'd like you to consider that question of whether 
there's a real need for greater end strength to allow the Army 
to train our troops more broadly for the missions, the broad 
spectrum of missions that they're going to be given under the 
new FM doctrine.
    My own hope--I appreciate your testimony today--is that 
this is the beginning of a dialogue. I understand this is a 
proposal that you're now vetting and I hope that you'll 
continue, if you will, to vet with us also, because we have the 
ultimate responsibility, obviously, along with the President, 
but Congress has a unique responsibility under the Constitution 
to fund our military. I think we want to understand what the 
doctrine is and make sure that we can support it and also to 
fund it, so that we're reducing the stress that the Army is 
feeling in carrying out the responsibility that you take on for 
our country.
    General Caldwell. Yes, sir. Sir, if I could just say, from 
having again had the privilege and opportunity to serve with 
our men and women over there, we are extremely grateful for the 
support that Congress has continued to give to us and the 
American people. It's just absolutely overwhelming. I've never 
seen anything like it in my military career. We're greatly 
appreciative. On behalf of all of us serving in uniform, I just 
want to say thank you very much.
    Senator Lieberman. General, we owe it to you. This has 
been, as is obvious in this room, a controversial war in terms 
of the politics of it. But I think what's not controversial, 
although the two occasionally have bumped into each other on 
the floor of the Senate anyway, is our support for the troops. 
I think the general notion of supporting the troops is broadly 
held in our society. Sometimes the specifics of how we do it in 
terms of funding on the floor has come into confrontation 
politically.
    But I go back to what Senator Cornyn and I both have said. 
This is a remarkable Army that has found itself being asked to 
do things that really it could not have anticipated--maybe it 
should have anticipated, but it didn't--it would be asked to 
do, not just within the foreseeable range of Army 
responsibilities, but all these other departmental 
responsibilities that the other agencies of the Federal 
Government are not carrying out, not picking up.
    It's really one of the great untold stories of this 
conflict, both Iraq and Afghanistan, the tremendous human 
commitment by individual soldiers to make this work, beyond the 
warfighting--living in the neighborhoods, interacting with the 
people. When I was there, not this last time 2 weeks ago, but 
the time before on Thanksgiving, I was hearing one of the 
marines telling me about how they used some CERP funds to help 
the local imam fix up the mosque and not a lot of money really, 
but a tremendous impact on the attitude of the local population 
toward us and toward their own future.
    So bottom line: Let's continue the discussion.
    I have some further questions which I'm going to submit to 
you in writing for you to answer. We'll keep the record of the 
hearing open if Senator Cornyn or I or you want to add to it, 
for 15 days from this date. But for now, thank you for your 
testimony. Thank you for your leadership and, through you, 
thanks to all the men and women who wear the uniform of the 
U.S. Army and are performing with extraordinary honor and 
effect. We can't thank you enough.
    General Caldwell. Thank you.
    Senator Lieberman. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Joseph I. Lieberman

                       MILITARY TRANSITION TEAMS

    1. Senator Lieberman. General Caldwell, the Military Transition 
Teams' (MiTTs) success in both Iraq and Afghanistan has been 
incredible, and has proven invaluable in not only advising and 
mentoring local security forces, but also setting an example of 
military professionalism. It was unfortunate that we did not have this 
capability established earlier and lost valuable time creating it ad 
hoc. If this specialized type of unit had been part of the standard 
Army organization, we may not have lost that valuable time. This new 
Operations Manual directs that stability operations will be a major 
part of future operations. It would make sense that elements such as 
the MiTTs would be an inherent and major part of these operations. What 
is the Army doing to ensure that we have this capability in the future?
    General Caldwell. To ensure the Army has this capability in the 
future, the Army is currently developing the training operational 
concept and training organizational design for an enduring capability 
to train Full Spectrum Army forces for the advisor/trainer mission. 
This capability is planned to reach full implementation no earlier than 
December 2011, and is currently planned to collocate at Fort Polk, LA, 
with the Joint Readiness and Training Center. It will have the ability 
to train individuals and units to conduct the advisor/trainer mission.
    The Army must be ready to train and advise foreign security forces 
through both pre-conflict security cooperation activities, such as 
ongoing efforts in Colombia and Saudi Arabia, and post conflict 
conditions, such as our current efforts in Iraq and Afghanistan. The 
type of training and advising required spans from the ministerial level 
through the institutional army and from national army headquarters to 
small tactical units. The ministerial level requires a joint solution 
that the Army contributes to, while foreign army institutions require 
assistance from the Institutional Army such as the Training and 
Doctrine Command. Full Spectrum Army modular forces are ideally suited 
to train and advise foreign army tactical forces.
    For all these forces, the key consideration is expertise in their 
core function--something not necessarily resident in an advisory corps. 
For example, U.S. Army infantry, medical, or engineer units are experts 
at conducting their wartime function and therefore ideally suited to 
train and advise counterparts. Future requirements to train and advise 
foreign security forces will be addressed with a combination of U.S. 
embassy military groups, Special Operations Forces, full spectrum 
modular forces, and small scale specialized forces. However, before 
Army forces conduct a training or advising mission, they must prepare 
for the unique aspects the mission entails. To that end the Army is 
creating an enduring advisor/trainer training capability.

    2. Senator Lieberman. General Caldwell, will the Army expect 
Brigade Combat Teams (BCTs) to be capable of transitioning to the MiTT 
mission seamlessly?
    General Caldwell. If directed prior to deployment during the reset 
phase of Army Force Generation (ARFORGEN), BCTs can execute the 
training with personnel and equipment required to support the MiTT 
mission seamlessly. BCTs have a rich history of training and advising 
the forces of partner nations in peacetime, and have continued that 
tradition during operations in Iraq and Afghanistan today.
    FM 3-0, Operations (Feb 08), recognizes that battlefield success is 
not longer enough ultimately, success requires concurrent stability 
operations to lay the foundation for lasting peace. Army BCTs are 
designed to conduct Full Spectrum Operations--simultaneous offensive, 
defensive, and stability operations. Emerging Army training doctrine 
requires BCTs to initially achieve proficiency in their core mission-
essential tasks as part of the ARFORGEN process. These tasks are full 
spectrum tasks and are based on the as-designed mission of the unit 
prior to deployment. This core mission essential task list provides the 
baseline skills for the MiTT mission. Army forces will not train on 
these core mission essential tasks lists, until the dwell time is at 
least 18 months, unless otherwise directed. However, since BCTs have 
been involved in all aspects of stability operations, to include 
understanding the Afghan and Iraqi cultures and languages for the past 
5 years, as well as working with transition teams during that time, it 
will be easy for them to assume they are capable of transitioning to 
the MiTT mission seamlessly.
    If a BCT is directed to conduct the MiTT mission, the commander 
will analyze that mission's requirements and develop a directed mission 
essential task list (DMETL)--the tasks that are essential to accomplish 
the MiTT mission, as well as personnel, training, and equipment 
requirements for the MiTT mission. Internal sources of a MiTT changes 
the usual duty positions of soldiers within the BCT and redirects them 
from their core missions. However, as we have seen in OIF and OEF, 
soldiers are very adaptive. The train-up time necessary to provide new 
skill requirements to soldiers and leaders is included in the force 
generation training cycles.

    3. Senator Lieberman. General Caldwell, the Army has created 
significant advisory structure currently deployed throughout Iraq and 
Afghanistan. If we assume that we will need teams similar to the 
structure of the MiTT over this period of extended conflict, would it 
make sense to build this force structure permanently?
    General Caldwell. The MiTTs were created specifically to meet the 
operational needs of the Iraqi and Afghan armies at a time when U.S. 
Army BCTs were committed to counterinsurgency operations. However, 
MiTTs may not be the best structure for requirements beyond Iraq and 
Afghanistan, but the lessons learned about trainer/advisor roles, 
missions, and skills will apply in the future as the Army develops the 
capability for an enduring advisor/trainer institution.
    To help capture this expertise, the Army is tracking soldiers with 
transition team experience by assigning a Project Development Skill 
Identifier (PDSI) to soldiers who successfully complete transition team 
training. As of 17 April 2008, 2,829 soldiers have been awarded a PDSI. 
Further, both officer and enlisted selection boards include specific 
instructions that explain the duties and responsibilities of those who 
have served on transition teams and emphasizes the importance of the 
transition team mission.
    Future requirements to train and advise foreign security forces 
will be addressed with a combination of U.S. embassy military groups, 
Special Operations Forces, full spectrum modular forces, and small 
scale specialized forces. Organizations such as the U.S. Army Security 
Assistance Training Management Organization (SATMO) will continue to 
provide small scale security assistance teams (SATs) to train and 
advise foreign militaries. For example, in fiscal year 2007, SATMO 
provided 29 permanent SATs in 15 countries and 36 temporary SATs in 24 
countries executing over 8,400 overseas workdays in security assistance 
to foreign militaries.

      brigade troops battalions and maneuver enhancement brigades
    4. Senator Lieberman. General Caldwell, the Brigade Troops 
Battalions (BTBs), and at higher levels, the Maneuver Enhancement 
Brigades (MEBs), seem to be the elements best suited to conduct 
stability operations. These units have organic military police, 
engineers, and intelligence forces that are combat multipliers in 
stability operations. Will stability operations become a mission 
essential task of these elements, and if so, do they have the proper 
equipment for these tasks?
    General Caldwell. The Brigade Special Troops Battalion (BSTB) 
doctrinally is primarily organized to provide command and control for 
the BCT company and smaller units. The BSTBs subordinate units are 
military intelligence, communications, engineer, military police, and 
CBRN reconnaissance. The BSTB provides these capabilities to the BCT 
and the Combined Arms Battalions during offense, defense, stability, 
and civil support operations in addition to securing BCT command posts. 
As part of a BCT conducting simultaneous operations, the BSTB would 
have the task to conduct stability operations. However, the current 
BSTB design is not resourced, based on recent staff reductions and lack 
of maneuver companies, with the required capabilities to plan and 
execute, other than non-kinetic, stability operations.
    One of the MEB's Core capability mission essential tasks is to 
conduct stability operations. The MEB is optimized to conduct stability 
operations and with its unique breadth and capabilities of the staff 
and the likely mix of units, it will become the preferred headquarters 
to conduct stability operations. Since an MEB is a multi-functional 
organization that is task-organized based on mission requirements, the 
MEB can be optimally tailored with the requisite capabilities to 
provide the required support for stability operations.

    5. Senator Lieberman. General Caldwell, will these organizations 
(the BTBs and MEBs) have enough training to both support the combat 
mission and exercise mission command over and execution of 
stabilization efforts?
    General Caldwell. All Army forces train for combat missions, which 
include offense, defense, and stability operations tasks. A unit's 
training plan is developed based on its DMETL. Each DMETL is tailored 
for the mission the unit is being deployed to conduct and involves some 
level of offensive, defensive, and stability operations used in 
combination. A BTB can train and execute command and control of its 
forces for the mission they will execute in support of its parent BCT. 
This includes offense, defense, and stability operations tasks. 
However, since the BTB contains unique units that support the entire 
BCT, those units will often be controlled directly by the brigade or by 
other subordinate battalions they are directly supporting. A MEB is a 
multi-functional brigade able to train and execute command and control 
over a varying amount and type of Army functional units such as 
military police, engineers, chemical, air defense, and maneuver units. 
The MEB, like a BCT, is capable of battlespace management, command and 
control, and conducting full spectrum operations (including offense, 
defense, and stability tasks).

    6. Senator Lieberman. General Caldwell, is the Army modernizing 
these combat support elements with the same priority as our combat 
elements?
    General Caldwell. Yes. We are modernizing and modularizing forces 
in all capability areas. BSTBs are being ``modernized'' and 
``modularized'' with their parent BCTs. MEBs are being built in new 
modular formations and are receiving a whole host of modern equipment.

                    COORDINATION WITH OTHER SERVICES

    7. Senator Lieberman. General Caldwell, FM 3-0 discusses the 
importance of the Army fighting as part of an interdependent joint 
team. A new Capstone doctrine would be incomplete if it were not fully 
coordinated and supportable by the other Services. What coordination 
did the Army conduct with the Joint Staff and staffs of the other 
Services in the development of this doctrine?
    General Caldwell. From the outset, development of FM 3-0 was 
coordinated closely with our sister Services and the Joint Staff. We 
staffed each draft through the other Services' doctrine centers, and 
collaborated with Joint Forces Command on specific aspects of the 
manual to ensure that we cemented the linkages between Joint and Army 
doctrine. This collaboration was essential in shaping the final content 
of FM 3-0 and was instrumental in articulating the role of the Services 
in achieving true joint interdependence in the land domain.
    We also played a key role in the development of the joint doctrine 
from which the underpinnings of FM 3-0 were derived. By synchronizing 
the development of FM 3-0 with the writing of Joint Publications 3-0 
(Joint Operations) and 5-0 (Planning for Joint Operations), our team 
was able to collaborate closely with writers from Joint Forces Command. 
Key elements of FM 3-0 emerged from that process, and were further 
developed through ongoing discussion with individual representatives of 
Joint Forces Command.
    This level of coordination also extended beyond the Department of 
Defense. In August 2007, the other agencies of the United States 
Government provided their assessment of the manual. We captured that 
input and rewrote parts of the text to better reflect the role of the 
interagency in the conduct of land operations. That synergy is vital to 
ensuring the coordination and collaboration required among the 
interagency to achieve success in future operations where outcomes will 
be wholly dependent on ``whole of government'' engagement.
    Overall, FM 3-0 is probably the most widely-vetted doctrinal manual 
the Army has ever produced, and that trend will only continue to expand 
as we develop and institutionalize other key aspects of our doctrine. 
We recognize that we will never conduct operations again as a single 
Service or even a joint force; we will always do it with other elements 
of our national power. As we enter this era of persistent conflict and 
confront the uncertain future before us, we will engage as a Nation, 
where the solutions to the complex challenges we face will only be 
resolved through the integrated employment of all the instruments of 
national power--diplomatic, information, military, and economic--in a 
true, ``whole of government'' approach that brings to bear all the rich 
capabilities of our interagency partners. We recognize the nature of 
our future, and have engaged our sister Services and the Joint Staff in 
forging a doctrine that truly supports the great challenges of the 
future before us.

    8. Senator Lieberman. General Caldwell, how detailed was the 
coordination to determine the other Services' ability to support this 
doctrine with changes in air lift, sea lift, and information, 
surveillance, target acquisition, and reconnaissance assets?
    General Caldwell. FM 3-0, Operations is the most thoroughly-vetted 
doctrinal manual the Army has ever produced, and included an 
unparalleled level of participation and support from our sister 
Services and the Joint Staff. As we developed FM 3-0, we staffed each 
draft through the other Services' doctrine centers, and collaborated 
closely with Joint Forces Command on specific aspects of the manual to 
ensure that we cemented the linkages between joint and Army doctrine. 
This collaboration was absolutely essential in shaping the final 
content of FM 3-0; it was fundamental to capturing and accurately 
articulating the roles of the Services in attaining true joint 
interdependence in the land domain.
    Through joint interdependence, the Services are able to achieve an 
unprecedented level of effectiveness, producing complementary and 
reinforcing effects that maximize the ability of the Joint Force while 
leveraging the strengths of the individual Services to achieve decisive 
results as a coherent, integrated force. This interdependence begins 
with doctrine, which provides the theoretical and intellectual 
foundations that enable the Joint Force ``to be greater than the sum of 
its parts.'' Doctrine cements change in our institutions and sets the 
waypoint for applying our individual capabilities in integrated, 
synchronized joint operations. Now that FM 3-0 is published, our sister 
Services will need to conduct a more deliberate review to assess their 
ability to meet the requirements established within the new doctrine. 
As the new manual is based on a foundation of expeditionary and 
campaign capable forces, there may be changes necessary to ensure broad 
joint interdependence is maintained across each domain--air, land, 
space, maritime, and information. This is a normal element of the 
capstone doctrine development process, but was facilitated  through  
the  collaborative  efforts  initiated  early  during  the  writing  of 
 FM 3-0.
    As we continue to develop the body of doctrine that 
institutionalizes the precepts of FM 3-0 throughout Army doctrine, this 
trend toward inter-Service collaboration will only expand. It is 
already encompassing the interagency in the development of our 
stability operations doctrine and must continue to do so if we are to 
forge the ``whole of government'' approach so critical to the success 
of our Nation in this era of persistent conflict.

    9. Senator Lieberman. General Caldwell, did the other Services 
concur with the revisions to the doctrine, including their capability 
to meet requirements?
    General Caldwell. From the outset, development of FM 3-0 was 
coordinated closely with our sister Services and the Joint Staff. We 
staffed each draft through the other Services' doctrine centers, and 
collaborated with Joint Forces Command on specific aspects of the 
manual to ensure that we cemented the linkages between Joint and Army 
doctrine. This collaboration was essential in shaping the final content 
of FM 3-0 and was instrumental in articulating the role of the Services 
in achieving true joint interdependence in the land domain. However, 
that does not mean they agreed with every aspect of the manual during 
the development process. In fact, in some cases, our sister Services 
presented strong objections to certain elements of the manual. But that 
is why close collaboration is so important to this process, and to the 
ability of our Services to work together in an environment of trust and 
mutual respect. In every case, we reassessed those potentially 
contentious elements of the manual and rewrote that content in a manner 
we could all agree upon. In developing this Capstone doctrine, we could 
not simply ``agree to disagree'' with our sister Services; to achieve 
the level of integration required for true joint interdependence 
requires a precise and accurate understanding of the capabilities of 
each individual Service, and that understanding was the ultimate focus 
of our collaborative efforts. Therefore, we did not publish this manual 
until we had the support and concurrence of each of our sister 
Services. We also extended collaboration beyond the Department of 
Defense and into the interagency. We recognize that the nexus of 
interagency cooperation and coordination exists within the land domain; 
as a result, we also ensured that FM 3-0 was thoroughly vetted through 
the other agencies of the United States Government. We captured that 
input and rewrote parts of the text to better reflect the role of the 
interagency in the conduct of land operations; that synergy is vital to 
ensuring the ability of the interagency to achieve broad success in an 
uncertain future where outcomes will be wholly dependent on ``whole of 
government'' engagement that brings to bear the full capabilities of 
the instruments of national power--diplomatic, information, military, 
and economic. As we enter this era of persistent conflict and confront 
the uncertain future before us, we will engage as a Nation, where the 
solutions to the complex challenges we face will only be resolved 
through the integrated employment of all the resources available to our 
leaders.

    [Whereupon, at 10:44 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERNIZATION

    The subcommittee met, pursuant to notice, at 3:15 p.m., in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Inhofe, and 
Cornyn.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Paul C. Hutton IV, research assistant; and 
Gregory T. Kiley, professional staff member.
    Staff assistants present: Benjamin L. Rubin and Brian F. 
Sebold.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Jon Davey, assistant to Senator 
Bayh; M. Bradford Foley, assistant to Senator Pryor; Gordon I. 
Peterson, assistant to Senator Webb; Anthony J. Lazarski and 
Nathan Reese, assistants to Senator Inhofe; Todd Stiefler, 
assistant to Senator Sessions; and Brian Polley, assistant to 
Senator Cornyn.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The hearing will come to order.
    I apologize both to our witnesses and, of course, to my 
colleagues. I blame this totally on the acting ranking member 
of the committee, the former chairman, Senator and squire from 
Virginia, John Warner, who engaged me in conversation on the 
floor during this vote. I apologize.
    Before we begin, I want to take a moment to embarrass Dan 
Cox; or to recognize Dan Cox. That is what I meant. [Laughter.]
    Dan is a longtime staff member of this subcommittee and, if 
I may say so, a true patriot who has dedicated his entire adult 
life to public service. He came to this committee after a 
distinguished career in the U.S. Army and has staffed the 
members of this subcommittee ably for the past 11 years.
    He is now leaving the U.S. Senate family for a position in 
private industry, which is not unrelated to the work that we do 
here, and perhaps, after the passage of a year or so, we may 
bump into him again.
    But this is the last hearing of this subcommittee for Dan, 
and I did not want this occasion to go by without thanking him 
for his service to our country, for his service to the Senate, 
for his service to this committee and subcommittee, and to tell 
him what a pleasure and an honor it has been for me to work 
with him. Thank you, Dan. [Applause.]
    Today we welcome Lieutenant General Stephen Speakes, Deputy 
Chief of Staff, G-8, U.S. Army; and Lieutenant General Ross 
Thompson, Military Deputy to the Assistant Secretary of the 
Army for Acquisition, Logistics, and Technology.
    This is the second Airland Subcommittee hearing this week 
which will focus on the urgent and important task of answering 
the big question, which is what kind of Army do we want to have 
for the future.
    The Army recently released Field Manual (FM) 3-0, 
Operations, its new Capstone Doctrine, which is its answer, if 
I can put it that way, to that big question. This new doctrine 
places the conduct of stability operations on the same 
operationally required level as conventional warfare, and that 
is very significant.
    Today's hearing is in some sense a continuation of 
Tuesday's hearing. We want to ask about how the Army is 
adapting its program to the requirements that have emerged from 
this new Capstone Doctrine.
    The fiscal year 2009 Army budget request was developed over 
a year ago and delivered to Congress before FM 3-0 was released 
on March 7, 2008. The Army's unfunded priority list does not 
appear to support either the Army's priorities, nor does it 
address the additional need for resources. The budget request 
is heavily tilted toward resetting, modernizing, and 
transforming the existing heavy force.
    So we need to find out whether it includes enough money to 
fund the changes that the new doctrine would seem, logically, 
to require, and we need to find out whether we should begin to 
make changes to either the programs or the priorities that have 
been requested.
    Today, we also look forward to hearing from the witnesses 
and receiving from them an update on the Army modernization 
plan with emphasis on transformation to the Future Combat 
System (FCS), Army aviation modernization, and the individual 
soldier programs, weapons, mobility, and protection and 
situational awareness programs, which will give our troops 
engaged in both irregular warfare, conventional warfare, and 
stability operations capability equivalent to the best that we 
would want them to have.
    I look forward to your testimony. Again, I apologize to my 
colleagues, and I would call at this point on my distinguished 
colleague and ranking member, Senator Cornyn.

                STATEMENT OF SENATOR JOHN CORNYN

    Senator Cornyn. Thank you, Mr. Chairman. Thanks for calling 
this hearing, and I join you in welcoming Generals Speakes and 
Thompson to this hearing and expressing my appreciation, along 
with all of us, for your many years of distinguished service to 
our Nation.
    The transformation and modernization of our Army is vital 
to maintaining our technological edge over potential 
adversaries, providing better protection for our soldiers and 
giving our men and women in uniform significantly improved 
capabilities to accomplish their mission. These are matters of 
the highest priority.
    In testimony before the full committee in November and 
again in February 2008, Secretary Geren and General Casey 
testified that our Army remains the best led, best trained, and 
best equipped army in the world, but is out of balance. They 
described a plan to return the Army to a proper balance. The 
plan stressed four imperatives: sustain, prepare, reset, and 
transform.
    Today's hearing follows logically, as the chairman said, on 
the subcommittee hearing we had on the new Army FM and provides 
an opportunity to explore in greater detail the Army's plan for 
transformation and modernization. An area of special interest 
to the subcommittee will be the FCS. This multi-year, multi-
billion dollar program is at the heart of the Army's 
transformation efforts. It is also the Army's major research, 
development, and acquisition program. The witnesses will be 
asked about the importance of FCS, the cost of the program, the 
characterization that FCS is high risk, the challenge of 
networking all of the FCS subsystems together, and the testing 
of the FCS technology currently ongoing at Fort Bliss in El 
Paso, TX.
    In addition, the witnesses will be asked, among other 
things, about how the Army's modernization program will meet 
Army Reserve and Army National Guard requirements, progress 
toward resetting all components of the Army, how Army 
modernization and transformation plans will impact future 
requirements for strategic and tactical mobility, the Army's 
requirement for joint cargo aircraft, the modernization of the 
Army's helicopter fleets, Mine Resistant Ambush Protected 
(MRAP) vehicles, whether or not the Army's transformation and 
modernization plans are in concert with the new Army doctrine, 
and specifically whether or not the Army's modular organization 
in FCS can meet the Army's requirements for full spectrum 
operations as described in the new FM.
    In closing, I would like to say that though the focus of 
this hearing will be on Army programs and systems, it is the 
individual soldier identified by his or her courage, 
dedication, and loyalty who is the core of our Nation's 
military forces.
    Mr. Chairman, thanks for convening the hearing and I look 
forward, along with you, to hearing the testimony.
    Senator Lieberman. Thanks, Senator Cornyn.
    Normally the subcommittee practice is to limit opening 
statements to the chair and the ranking member, but Senator 
Inhofe, if you would like to add anything, I feel that I now 
owe you because I was 15 minutes late.
    Senator Inhofe. No. You do not owe me a thing. I am anxious 
to hear the opening statements, and I have a couple of 
questions and areas I want to pursue having to do with FCS. So 
we can just get on with the hearing.
    Senator Lieberman. Good. Thank you.
    General Speakes, thank you for being here. We look forward 
to your testimony now.

   STATEMENT OF LTG STEPHEN M. SPEAKES, USA, DEPUTY CHIEF OF 
                 STAFF, G-8, UNITED STATES ARMY

    General Speakes. Chairman Lieberman, Ranking Member Cornyn, 
and distinguished members of the subcommittee, on behalf of the 
Army and our great soldiers, Lieutenant General Thompson and I 
thank you for the opportunity to appear in front of you today 
to discuss Army modernization in all of its aspects, as you 
have illuminated in your opening statements.
    I would like to submit our written statement for the 
record, and I would also like to ask that we be permitted to 
make a short opening statement to put in perspective the 
questions you have.
    Senator Lieberman. Please do. We will accept your full 
statement, and it will be printed in the record.
    General Speakes. Thank you, sir.
    Our modernization strategy is designed to ensure that we 
accomplish every mission that is given to the Army and that our 
soldiers are never placed in a fair fight.
    Our testimony today will focus on two specific topics. 
First, we will talk about the implementation of FM 3-0. I 
brought it with me here today to symbolize the continuity in 
our testimony to that of General Caldwell who has appeared 
before you earlier. He eloquently shaped for you the 
perspective of an Army at war that understands the nature of 
the war that we are fighting and understands how we must 
continue to transform and shape this Army not just for today, 
but for tomorrow in an era of persistent conflict. So FM 3-0 
provides that perspective and it also shapes and illuminates 
the programs that General Thompson and I are jointly 
responsible for developing.
    FM 3-0 is important because, in addition to the offense and 
defense operations that we are familiar with, it also adds to 
stability operations. Stability operations are vital for all of 
us as we consider the nature of involvement today and what we 
project for the next several years of this century, which is 
that we will operate among soldiers in a network-dependent 
environment, and we will have to put great trust and confidence 
in soldiers who are on their own to carry out the Nation's 
bidding. So, thus, FM 3-0 is very important for all of us as we 
shape the strategy and the equipping that will illuminate the 
way for our soldiers.
    Modernization is the strategy that we use to improve the 
capabilities and to enhance the ability of our soldiers to 
accomplish their missions. The Army modernization strategy has 
four essential elements to it.
    First, what we want to do is ensure that we provide 
soldiers the very best possible new equipment, and with your 
support, and I would like to single out this committee in 
particular for the extraordinary support you have given the 
Army, we have 94 new systems that we have been able to field to 
the tune of over $100 billion worth of new capability over the 
course of the last 5 years since the start of the war. I would 
single out, for example, the support of the MRAP vehicle 
program, a capability that Lieutenant General Odierno, as he 
left command in Baghdad, singled out as being responsible for 
saving the lives of soldiers as an example of the quick 
response between the identification of a capability and then 
the immediate ability to field that, thanks to you.
    Also, we see the need to upgrade and modernize existing 
systems. For example, if we take a look at the tanker Bradley 
that we have today that soldiers are fighting with in Iraq, it 
is substantially improved over the tanker Bradley that we 
started this war with, once again thanks to vigorous support of 
recapitalization and modernization programs that have enabled 
us to materially advance the quality of the current formation 
and the current fleet.
    Then, third, we have to incorporate new technologies that 
are derived from FCS. You rightly singled out FCS as absolutely 
essential to the Army. For the last several years, it has been 
our single major focus for research and development (R&D). That 
R&D that you have so well supported is now bearing fruit. So as 
we look at soldiers in Baghdad today, we see capabilities that 
are directly traceable to the investments we made in FCS.
    Now, as we look forward to Fort Bliss, TX, and the soldiers 
who are operating with FCS capabilities, the first spin-outs 
that are now in evaluation by the Army, we also see FCS bearing 
fruit.
    So the point is where FCS was once a distant promise, FCS 
is now a reality. It is directly benefitting soldiers in combat 
today, and it has immediate promise for the future. We are 
excited about that promise and we will be thrilled to tell you 
about it.
    Finally, we have to set conditions to field actual FCS 
brigade combat teams. Those have remarkable promise. Stryker 
showed us the benefit of a common platform with a common view 
for creating a brigade combat team. FCS will bring that to the 
next level.
    So for all these reasons, the Army modernization and its 
four elements is a vital strategy for us. It is one that is 
absolutely essential. As we look at soldiers today, we know 
that they are brilliantly equipped because of you. We also want 
to ensure that soldiers that go into whatever it is we ask them 
to do in harm's way in future years are properly supported and 
equipped. Our modernization strategy is designed to do that and 
will continue to do that with your support.
    So thank you very, very much. I would like now to defer to 
General Thompson.
    [The joint prepared statement of General Speakes and 
General Thompson follows:]

  Joint Prepared Statement by LTG Stephen M. Speakes, USA, and LTG N. 
                         Ross Thompson III, USA

    Chairman Lieberman, Ranking Member Cornyn, and distinguished 
members of the subcommittee: on behalf of the Army and our great 
soldiers, Lieutenant General Thompson and I thank you for the 
opportunity to appear before you today to discuss Army Modernization. 
Army modernization is instrumental to ensuring that our Army remains 
the preeminent landpower on Earth, one fully capable of meeting any and 
all missions across the full spectrum of operations. Our modernization 
strategy is designed to ensure that we accomplish every mission, now 
and in the future, and that our soldiers are never in a fair fight.
    Today's testimony focuses on the Army modernization strategy, which 
is informed both by lessons learned from the wars in Iraq and 
Afghanistan and the Army's operational concept of full-spectrum 
operations, recently unveiled in the revised Field Manual (FM) 3-0, 
Operations.
    FM 3-0 reflects the Army's thinking, in an era of persistent and 
complex conflict, where stability operations are given the same level 
of importance and emphasis as offensive and defensive operations 
(Figure 1). Stability Operations encompass various military missions, 
tasks, and activities conducted outside the United States in 
coordination with other instruments of national power, to maintain or 
reestablish a safe and secure environment, provide essential 
governmental services, emergency infrastructure reconstruction, and 
humanitarian relief. The goal of stability operations is to create 
conditions that support the transition to legitimate host nation 
governance, a functioning civil society, and a viable market economy.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Given the nature of the current international security environment, 
soldiers will consistently operate in and among the people of the 
world, conducting operations in an environment fundamentally human in 
character. FM 3-0 also recognizes the unparalleled power of information 
in modern conflict, and the fact that information has become as 
important as lethal action in determining the outcome of operations. In 
addition, FM 3-0 provides the detailed doctrinal foundation to optimize 
the operational agility that we have designed into our modular 
formations, giving us true capability across the full spectrum of 
operations. Finally, concepts embedded in FM 3-0 will shape future Army 
budgets.
    Modernization provides the materiel solutions to improve 
capabilities that enhance the Army's ability to conduct full-spectrum 
operations, and meet the demands of persistent conflict in the 21st 
century.
    The Army Modernization Strategy seeks to ensure that we remain the 
preeminent landpower on Earth, an expeditionary force with full 
spectrum capabilities. To achieve this end, our strategy employs four 
ways or what we call the four elements of modernization. They are:

        <bullet> Rapidly field the best new equipment to the current 
        force
        <bullet> Upgrade and modernize existing systems within modular 
        formations to ensure all soldiers have the equipment they need
        <bullet> Incorporate new technologies derived from Future 
        Combat Systems (FCS) research and development as they become 
        available
        <bullet> Field FCS Brigade Combat Teams (FCS BCT)

    The Army has modernized core systems and updated key weapons and 
equipment since the early days of the war; working steadily to improve 
speed and efficiency in this area. Modernization is essential for 
closing both current and future capability gaps.
    Modernizing the Army's Tactical Wheeled Vehicle (TWV) fleet is a 
critical imperative that strives to provide the soldier the best 
possible protection, payload and performance in each vehicle in the 
fleet. The TWV Strategy will achieve the proper balance between 
numerous competing factors: support of current operations and fleets, 
Army Transformation and future fleet capabilities while optimizing 
strategies for procurement, recapitalization, and sustainment. The 
strategy seeks to ensure fleet viability and combat effectiveness for 
the next three decades. A modernization plan is being developed for 
each category of the TWV fleet: light, medium, and heavy wheeled 
vehicles and trailers. A couple of key vehicles of our TWV Strategy are 
the Mine Resistant Ambush Protected (MRAP) vehicle and Joint Light 
Tactical Vehicle (JLTV).
    MRAP vehicles are being procured as rapidly as possible and provide 
more advanced, armored protection against the greatest casualty-
producing threats in Theater, underbelly improved explosive devices. It 
is a new class of medium tactical vehicle that provides our operating 
forces multiple mission-role platforms capable of mitigating roadside 
bombs and mines. It has already proven its effectiveness on the 
battlefield.
    JLTV is a hoint program with the U.S. Marine Corps that will 
replace the Uparmored High Mobility Multipurpose Wheeled Vehicles 
(UAH). As currently planned, JLTV has the potential to provide 
significant and revolutionary increases in protection, performance, and 
payload capabilities beyond those available in the current HMMWV or 
UAH. This family of vehicles will provide greater force protection and 
payload than the current UAH. The JLTV has been designated as an FCS 
complementary system.
    We have made great progress in Army Aviation modernization. Army 
Aviation is transforming and modernizing to meet current and future 
full spectrum aviation requirements. The aviation transformation plan 
restructures Army Aviation warfighting units into Combat Aviation 
Brigades, ensuring that aviation units are modular, capable, lethal, 
tailorable, and sustainable. Their inherent mobility, flexibility, 
agility, lethality, and versatility are instrumental in enabling the 
air-ground task force commander to conduct decisive joint operations. 
The transformation plan also addresses the urgent need to address the 
steadily deteriorating condition of the aviation fleet, and accelerate 
Army National Guard and Army Reserve modernization. The affected 
Aviation platforms include the Armed Reconnaissance Helicopter, the UH-
60M/HH-60M Black Hawk, C-27J Joint Cargo Aircraft, commercial, off-the-
shelf UH-72A Lakota Light Utility Helicopter, CH-47F Chinook, and AH-64 
Apache helicopter fleet.
    Success of the Army's Battle Command Strategy is indispensable to 
Army future operations. We are developing robust networking solutions 
that will enable commanders, leaders, and soldiers to access critical 
data and information any-where, anytime. We are accomplishing this by 
migrating existing systems where possible and developing new net-ready 
programs to meet the unique challenges of a net-centric environment 
resulting ultimately in a robust and revolutionary communications 
capability while on the move--anywhere on Earth.
    Central to this overall strategy is our approach of moving beyond 
the era of `stovepiped' networks to deliver multi-functional, multi-
band tactical Army communications systems. The Joint Tactical Radio 
System (JTRS) will contribute to that capability. JTRS is a family of 
ground, airborne and maritime domains of common software-defined radios 
that provide seamless network connectivity throughout the battlefield. 
We will begin to see the initial capabilities of this revolutionary 
modernization effort in 2010 when Spin Out 1 delivers a sensor-to-
soldier link through the network.
    As the Army's cornerstone modernization effort, the FCS program 
will provide our soldiers an unparalleled understanding of their 
operational environment, increased precision and lethality, and 
enhanced survivability. The FCS program is structured to bring advanced 
capabilities to today's force as rapidly as possible in a process known 
as ``Spin Outs.'' Spin-Outs are a product of the technological 
capabilities achieved from FCS research and development.
    FCS capabilities will be integrated into our current BCTs to 
increase their capabilities and to maximize their interoperability with 
FCS BCTs. Integrating Spin-Outs and other technologies onto other 
combat platforms, such as the Abrams, Bradley, and Stryker, will allow 
these battle-proven platforms to fight in concert with FCS BCTs well 
into the 21st century.
    Indeed, several ``FCS like'' capabilities are already being used in 
combat operations in Iraq and Afghanistan and are protecting our 
soldiers today. These technologies include:

        <bullet> Frag Kit 5 armor protection is used on Up-Armored 
        HMMWVs.
        <bullet> The Gas Micro Air Vehicle, an early precursor of the 
        FCS Class 1 Unmanned Air Vehicle, has been highly effective in 
        Navy explosive ordnance disposal operations in Iraq and is 
        planned for use by 25th Infantry Division soldiers in urban 
        warfare operations in Iraq this year.
        <bullet> The iRobot Packbot robot being used by soldiers and 
        marines in Iraq and Afghanistan is the precursor of the FCS 
        Small Unmanned Ground Vehicle. This manpackable robot has been 
        invaluable during urban warfare and explosive ordnance disposal 
        operations. This is also a shining example of the ingenuity and 
        entrepreneurial strength that small American businesses bring 
        to enhance our National security.
        <bullet> The Excalibur Artillery round that is currently being 
        used in Afghanistan is being adapted for use with the FCS Non-
        Line-of-Sight Cannon.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Finally, the Army's concept of the soldier as a system envisions 
equipping individual soldiers with an integrated ensemble, providing 
mission tailorable capabilities. Figure 2 depicts the soldier as a 
system concept and the relationships among core, ground, air, and 
mounted soldiers. All soldiers are equipped with the Core Soldier 
System, enabling them to train on, and perform Basic Warrior Tasks and 
Battle Drills. When added to the Core Soldier System, the Ground, Air, 
and Mounted Soldier Systems enable soldiers to perform warfighting 
functions based on position and role within their unit.
    Mr. Chairman, and members of the subcommittee, on behalf of our 
soldiers, we greatly appreciate the tremendous support we receive from 
this Congress. In order to successfully implement the plans we have 
shared with you today, we urge you to provide full, timely, and 
predictable funding. The Army is modernizing, while simultaneously 
conducting wartime operations, and preparing for the future defensive 
challenges our Nation will likely face. Our challenge is to balance 
these two requirements to ensure that we can defend the Nation today 
and tomorrow. We never want our soldiers to be in a fair fight. The 
Army's partnership with Congress demonstrates our collective commitment 
to ensure that we remain the preeminent landpower on Earth, an 
expeditionary Army, capable of full-spectrum operations--The Strength 
of the Nation. Thank you for this opportunity to appear before you 
today.

    Senator Lieberman. Thanks, General Speakes.
    General Thompson?

STATEMENT OF LTG N. ROSS THOMPSON III, USA, MILITARY DEPUTY TO 
THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, 
                         AND TECHNOLOGY

    General Thompson. Chairman Lieberman, Senator Cornyn, and 
Senator Inhofe, first I want to thank you for holding this 
hearing today because the modernization of our weapon systems 
and equipment is absolutely essential to our soldiers. Every 
day our soldiers make great sacrifices to help win the global 
war on terror and to fulfill our other worldwide commitments.
    I want to thank you, as General Speakes stated, for your 
strong and steadfast support of all of our men and women in 
uniform and particularly the Army. We are meeting our equipping 
demands for our soldiers because of the guidance and the 
resources we are provided by this committee and Congress. We 
constantly strive to be good stewards of these resources.
    I would just like to echo your comments about Dan Cox and 
his long service not just to the committee, but to the United 
States Army. He is just an example of the many professional 
staffers and personal staffers represented around the room 
today in this committee where you can always have a candid and 
frank dialogue and see a reasoned approach to where we need to 
go with our Army modernization programs. But in particular, I 
would like to thank Dan today because this is his last hearing.
    I was here yesterday before a different subcommittee, and I 
would just like to go on record here and say I do not want to 
make this a daily occurrence, nor do I want a building pass. 
But I am delighted to be here again today.
    Mr. Chairman, we are a high technology Army and we have a 
comprehensive strategy for our continuous modernization. Of all 
of our high priority programs, force protection is probably the 
number one concern, and that includes the continued fielding of 
MRAP vehicles and eventually our joint light tactical vehicle. 
Our other high priority programs, and they are in no particular 
order, are improving the soldier and the system, our tactical 
wheeled vehicle modernization program, modernizing our aviation 
platforms, fielding the first increment of the warfighter 
information network tactical, fielding unmanned aerial systems, 
and the continued development of our command and control 
enhancement to provide the means to share critical and timely 
information.
    Our FCS is the foundation of our Army modernization and the 
cornerstone of the Army's future modular force. The FCS program 
is structured to bring advance capabilities to today's force as 
rapidly as possible in a system or process known as spin-outs. 
Our first spin-out equipment set is currently in the hands of 
combat-experienced soldiers at Fort Bliss, TX, as part of the 
Army Evaluation Task Force. The FCS program is currently 
undergoing 75 tests. So it is no longer just a development 
program. When you start to test capabilities, you are on the 
cusp of fielding those capabilities to soldiers, and we are 
starting to do that today in Fort Bliss, TX.
    Mr. Chairman, the Government Accountability Office (GAO) 
recently issued its annual report on FCS, and the Army welcomes 
the helpful insights from the GAO and I mean that sincerely. I 
want to provide my perspective on just a couple of key areas 
out of that GAO report, and I will take some further questions 
on that during the hearing.
    First, GAO pointed out that capability demonstrations 
frequently fall late in the schedule. Like I just stated, we do 
have the Army Evaluation Task Force in Fort Bliss, and we have 
75 tests ongoing today.
    One of the things that GAO stated was there was less 
content in this program, and that is true from the standpoint 
of we went from 18 to 14 systems because of our experience in 
Iraq and Afghanistan that led to a reduction of the number of 
unmanned aerial vehicle (UAV) platforms and the elimination of 
the armed reconnaissance vehicle and our intelligent munitions 
systems.
    Independent cost estimates are pointed out by GAO that are 
higher than the Army's, and I would say that we have 
consistently demonstrated the credibility of our cost estimates 
by operating within our budgets.
    Then finally, high level requirements, GAO pointed out, are 
poorly defined and/or late. The yearly budget cuts that have 
been inflicted on this program have driven the program to 
change its schedule, and in many cases it changed the work to 
be performed. This was reflected also in the software 
development process, and we will talk about that more later in 
the hearing.
    We are continuing to conduct wartime operations while 
preparing for our future commitments. Our challenge is to 
balance these two requirements to ensure that we can defend the 
Nation today and prepare ourselves to continue to do so 
tomorrow.
    I would just like to leave you with two thoughts. First, 
our 19-year-olds today use cell phones to talk to one another, 
access the Internet, send e-mail, transmit photographs, and 
transmit videos. Should these young people as soldiers not have 
the same capabilities? On today's battlefield, they do not in 
many cases. We are working through our modernization programs 
to make sure that they do as quickly as possible, and FCS is 
the cornerstone of our modernization programs.
    Second, we face an adaptive enemy who is always acquiring 
new technologies and new ways to frustrate and defeat us. In my 
opinion, our greatest risk is the failure to realize that the 
world has changed and so too must the Army. We must stay ahead 
of a resourceful enemy, and our comprehensive modernization 
strategy is designed to do just that. It is a living, working 
document that reflects current operational experience and 
results.
    This concludes my opening remarks, Mr. Chairman. I look 
forward to your questions.
    Senator Lieberman. Thanks very much, General. I appreciate 
the opening remarks.
    Perhaps we will go to 8-minute rounds so we can keep it 
moving.
    I want to focus in first on the FCS. This subcommittee has 
been quite supportive of FCS and actually has gotten into some 
battles over the years over it. We continue to believe in it. 
But let me express some concerns and invite your response.
    FCS has, I worry, become a bill payer for other programs in 
the last few years. It was cut by over $300 million last year 
and over $200 million the year before. Some have criticized it 
now for being over budget and over schedule, but these 
shortcomings have been compounded, I am afraid, by 
congressional cuts and unpredictable funding, which is 
unfortunate because as you have said and as I believe, this is 
the Army's number one modernization program.
    There are now reports that I have heard that the Army is 
working on a plan to accelerate aspects of the program, 
possibly fielding the first FCS brigade combat team and 
producing prototypes of the manned ground vehicles (MGVs) 
earlier than originally planned.
    So I want to ask you to respond to some of those concerns 
and describe where the program is basically to talk about the 
current issues being faced as a result of past cuts in the FCS. 
What are the military risks that could result from future 
restructuring of the program?
    General Speakes. Mr. Chairman, if it is all right, what I 
would like to do is start and discuss the fiscal element and 
then turn it over to General Thompson who has the specific 
programmatic responsibility.
    Senator Lieberman. That is fine. Sure.
    General Speakes. Sir, you are absolutely right. From the 
standpoint of our fiscal program, the cuts are a serious 
concern, and the fact that it has been an annual event for the 
past 3 years has greatly complicated the work that General 
Thompson and his team have had to undertake.
    We have a plan. It is a performance-based plan in which 
early on we undertook the research-development activity that 
would then bear fruit as we begin to bring the first elements 
of the strategy forward for formal evaluation this summer. The 
challenge of delivering these capabilities to the level 
required on the schedule has been something that has been very 
complicating as we try to bring this program along.
    From my standpoint, the other challenge is this, that in an 
Army at war, we seek to balance the needs of soldiers at war as 
our preeminent requirement. But we also recognize the vitality 
and importance of this strand of modernization.
    So the first point that we make is that right now FCS is 
about no more than one-third of our basic investment strategy 
out of the base program of the Army. So as we look at the base 
program of the Army, we think it is eminently affordable within 
the current construct that we are operating under.
    We seek then to ensure that we keep this program moving 
ahead and delivering capability. The first critical evaluation 
will be Spin-Out 1 this summer, which then sets conditions for 
the fielding of Spin-Out 1 to the force in fiscal years 2010 
and 2011.
    We are, obviously, always looking at opportunities to 
accelerate capability. In fact, part of the concept of spin-out 
says evaluation of capabilities is done as they are developed 
and then they are spun out to the force as fast as we can. You 
identified in your question some of the things that we would 
like to consider accelerating.
    Senator Lieberman. Right.
    General Speakes. You talked specifically about some 
capabilities such as MGV. There is enormous attraction, for 
example, in accelerating MGV because what you bring is modern 
capabilities in terms of efficiency, you bring modern 
capabilities in terms of the ability to protect soldiers. So to 
the extent possible, we would always look at opportunities to 
ensure that we do it correctly.
    However, as GAO noted in their report, there is the issue 
of the technical maturity of the systems we are trying to bring 
and the ability to ensure, when we bring these systems forward, 
they have the requisite capabilities to meet the needs of 
soldiers at war. As we evaluate these twin dynamics, we will 
always try to ensure we do the right thing and do not rush to 
something that would not bear fruit and properly protect 
soldiers.
    Senator Lieberman. Yes. I think you have answered the 
follow-on I was going to ask, which I appreciate, which is you 
want to accelerate some of these programs, but obviously, you 
do not want to move them out before they are ready to be moved 
out.
    General Speakes. Absolutely, sir. That is a key issue 
because we have a responsibility, obviously. There is nothing 
like having soldiers in combat to steel the eyes of all of us 
who are in a support role right now to ensure that the 
capabilities we bring will stand the test of soldiers.
    That is the great thing about the Army Evaluation Task 
Force. We are not going to speed a system now quickly to Iraq. 
What we are going to do is we are going to bring it to the 
Evaluation Task Force and they, under the tough leadership of 
soldiers who are combat-experienced, will evaluate these 
systems before we bring them to the Army. That is the first 
challenge, sir.
    Then I would defer to General Thompson to talk about what 
he is trying to do to manage the program to deliver capability.
    Senator Lieberman. Go right ahead.
    General Thompson. Steve, I am not sure I have a lot to add 
to what you just said because your answer was very thorough and 
comprehensive.
    I will say from an acquisition perspective that the 
insights that we gain from the soldiers at the Army Evaluation 
Task Force at Fort Bliss really help us to adjust the program. 
There have been reductions to the program over the last three 
budget year cycles. We have adjusted the cost schedule and 
delivery inside of the program. We continue to operate within 
the budget.
    The program is very well run. We have an annual review not 
just inside the Army, but also with the Office of the Secretary 
of Defense to look at all the requirements of that program. We 
will have another one of those annual reviews again this 
summer.
    We are looking, as General Speakes pointed out, at existing 
spin-outs and then beyond those spin-outs, which have four of 
the FCS systems that are planned to be part of the Spin-Out 1, 
is what else can we accelerate. What else we can accelerate is 
dependent on the technological maturity and also the resources. 
We are taking a very balanced approach, and that is really no 
different than what we do anytime we build the program, for not 
just the next budget year, but also for the 5 or 6 years after 
that. We always look at what is the balance, and FCS, since it 
is such a large program and is really the cornerstone of our 
modernization efforts, is central to that.
    Senator Lieberman. But, obviously, there are no second 
thoughts about the priority of the program. This remains, as 
you just said, the cornerstone of the Army modernization 
program.
    General Thompson. Yes, sir, and I chose those words very 
carefully.
    Senator Lieberman. Understood.
    What is your response to the adequacy of the funding for 
the program in the budget presented to Congress this year?
    General Thompson. We think that the funding in the budget 
presented this year is adequate, but I would say there is a 
caveat. We do have currently a reprogramming request that is on 
the Hill for $27 million that gets at the issue of accelerating 
the small unmanned ground vehicle and the class 1 UAV, to put 
that capability in the hands of the soldiers at Fort Bliss. 
Candidly, we have already cash-flowed that a little bit, and 
that is in the hands of the soldiers at Fort Bliss today, and 
we would like to continue to do that because that is one of the 
challenges that the Chief of Staff gave us.
    Senator Lieberman. Are you meeting any resistance on that 
reprogramming?
    General Thompson. It has passed through three of the four 
committees, and we are working our way through the last 
committee right now.
    But beyond that, Mr. Chairman, there is another 
reprogramming request coming that allows us to keep the non-
line-of-sight (NLOS) cannon and the Spin-Out 1 capabilities on 
track. That is a larger reprogramming request. It is a result 
of the budget cuts that have happened over the last 3 years. 
The last budget cut in 2008 was a little too much, and we are 
committed to keeping the NLOS cannon and the Spin-Out 1 on 
track. Therefore, we need to get the support for the 
reprogramming request to go with that.
    So the short answer is the budget is nearly adequate but 
not quite, and that is going to be reflected in the 
reprogramming request that comes over here.
    Senator Lieberman. My time is up, but I want to ask you a 
big question and ask for a short answer.
    Is there any potential for the other Services to 
participate in this program? You are doing some really 
pioneering breakthrough work. Is it possible that they may 
consider procuring parts of the system? What effect might that 
have on the cost sharing?
    General Speakes. Sir, the first thing is this is a joint 
program in the sense that the network, for example, is a system 
that comes out of the joint network concept. In terms of 
Service integration, we have had a sharing relationship at the 
program office level with the Marine Corps because, obviously, 
it is our fellow member of the ground component. We have to 
develop systems that at least have compatibility, if not the 
same capabilities. We are working that now, and there is 
vigorous information sharing between us and the Marines.
    General Thompson. Beyond just the FCS program, Mr. 
Chairman, if I might, the Army and the Marine Corps have an 
Army-Marine Corps board where we meet at different levels, the 
three-star level, even on a very periodic basis, to share ideas 
on how do we do things jointly together.
    Senator Lieberman. Thanks.
    We are about 8 minutes into a vote. Do you want to go 
ahead?
    Senator Cornyn. I will go vote and come back.
    Senator Lieberman. All right. If you do not mind, with 
apologies, we are going to recess. We will go vote quickly and 
then we will be back. Senator Cornyn will be next. [Recess.]
    Senator Inhofe [presiding]. If I could have your attention, 
I am going to go ahead and reconvene this. Are we in recess 
now? Is that where we are? All right. Well, we are now out of 
recess. I thought I would get a chance to ask a couple of 
questions while we are waiting for them to return since I have 
another commitment.
    I think the chairman was getting into most of the concerns 
that I had. I think this is unique, though, that we have the 
two of you. I do not want to lose this opportunity. As I said 
to you earlier, we had General Thompson on how do we get it and 
then General Speakes on what do we do with it once we got it.
    My concern has always been, of course, the sliding of FCS, 
going back in years when some of our areas of weakness were 
there, such as the NLOS cannon. We are still using the 
antiquated Paladin. At one time, we were going to go into the 
Crusader, and it was President Bush that axed that program. 
Quite frankly, there was no warning. I thought it was the end 
of the world. I believe that probably has a silver lining in 
that we would not be where we are today with the FCS, in my 
opinion, if that had not happened. This is far, far more 
significant and more important.
    I know that with all the competition that is out there, and 
with the testimony of General Cody and others talking about how 
stressed things are, the way we respond to things is you just 
let off what is not bleeding today. That has been my concern 
about the modernization program.
    I gave a talk on the floor this morning about how we got 
into this position of where we are today. During the 1990s we 
let the military slide and some of the modernization programs 
lost about $412 billion over what it would have been if we just 
had level spending. We saw a lot of programs falling behind at 
that time.
    The chairman asked you about the possible acceleration of 
the FCS program, and I think I left right before we got the 
full answer of that. I would like to ask you to comment on the 
discussion that has taken place on accelerating the FCS 
program. But more importantly, do we have the necessary 
resources to keep FCS on track as it is today?
    General Speakes. Sir, let me address the adequacy of 
resources. You correctly identified the challenge of the 1990s 
and the fact that we lost critical capabilities to bring R&D 
through its cycle so we could field capabilities. We have spent 
the first years of this decade now recovering from those 
challenges. Thanks to your support and the support of other 
members, we have been able to generate the capital to invest 
and bring programs very quickly to the Army, an Army that very 
much needs additional capabilities for protection and a host of 
other issues.
    So at this point, within an overall budget that we 
understand, we believe we have put FCS into a place in our 
modernization strategy that is approximately one-third of our 
overall investments that we are making for new capability. We 
think that third of a share of investments is affordable. We 
think it enables us to proceed with the other elements of 
modernization that are essential. Obviously, we need trucks. 
Obviously, we need command and control capability. So we need a 
host of other capabilities that essentially must move along 
with FCS to bring the Army as an entity forward.
    So we are in the process of continuing that balanced 
strategy, a strategy that will bring us forward, and bring 
capabilities online in a balanced way. We believe that this 
program is appropriate for the size budget that we have today, 
and for the planning period we have out through 2015.
    So in short answer, the plan that we have today will 
provide us an FCS program that will give the Army what it 
needs. It is affordable within the overall construct of an Army 
at war. We will continue to work that.
    General Thompson has identified in his testimony the impact 
of the cuts that we have taken over the past years, and those 
cuts are important because they disrupt the program's ability 
to execute the plan that they have. They also cause this issue 
of realignment of program requirements over time that causes 
others to believe that we have challenges with the delivery of 
programs and the ability to make the contribution that people 
would expect.
    Senator Inhofe. That is a good answer, and that is what I 
wanted.
    General Thompson, did you have anything to add to that?
    General Thompson. Sir, what I said when you had to step out 
is that we have a near-term reprogramming request that has been 
through three of the four committees on the Hill. We are 
working our way through the last committee--to accelerate the 
small unmanned ground vehicle and the UAV to get that into the 
hands of the soldiers at Fort Bliss to be able to experiment 
and test with that.
    Following behind that is another reprogramming request that 
is essential for us to be able to keep the NLOS cannon and the 
Spin-Out 1 program on track. If you take the fiscal year 2006, 
fiscal year 2007, and fiscal year 2008 reductions to the FCS 
program that were taken in the budget, it totals $789 million. 
We have not reduced the scope of the FCS program as a result of 
those cuts. So of those two reprogramming requests, one is an 
add to accelerate, and the other one is to maintain the 
schedule for near-term capability. But we will have to put 
money back into the FCS program in order to keep the scope and 
maintain the schedule, and that is one of the things we are 
looking at in our 2010 to 2015 program objective memorandum 
(POM).
    Senator Inhofe. That is good.
    You were talking also about the spin-out program and what 
is happening at Fort Bliss. I told my friend, Senator Cornyn, 
that I had already planned one trip to come down. I would like 
to see what is happening there. Do any of these spin-out 
programs adversely affect the ultimate fielding of the total 
system in a negative way?
    General Thompson. No, sir, they do not. As a matter of 
fact, it helps us reduce risk. When the technology readiness is 
such that we can accelerate those and put them in the hands of 
soldiers, we will do that. I characterize the FCS blueprint as 
still being the blueprint of capability that we want to see in 
the future. I can deliver against that blueprint sooner with 
some capabilities, and that is what we are trying to do when we 
look at acceleration.
    Senator Inhofe. I have often said, not because of any 
parochial concern, but the NLOS cannon and NLOS mortor are two 
of the areas we are most deficient in with what we have right 
now. That is why I want to make sure they are going to be the 
first components that we will be fielding and that it stays 
that way.
    What I would like to ask of you is if either of you 
gentlemen see a problem that you do not see today coming up, if 
you would let me know and advise your staff accordingly, I 
would appreciate that very much.
    General Thompson. One comment on the NLOS cannon system. It 
is the first of the eight MGVs. Because of the way the program 
has been constructed, which is good operational sense and good 
business sense, that is the foundation for the common chassis 
for the other prototypes. So 70 percent of the MGVs are going 
to be common from a components standpoint.
    So this year at the Army birthday, the Chief of Staff gave 
us a challenge of having on display the first prototype of the 
NLOS cannon. So when you attend our Army birthday in June, we 
will show you that capability here in Washington, DC.
    Senator Inhofe. I will be there singing.
    Thank you, Senator Cornyn, for allowing me to go in front 
of you.
    Senator Cornyn. Happy to do it.
    I know Senator Lieberman is en route back, and I think we 
will just stand down until he returns.
    Senator Inhofe. His staff advised me we could go ahead.
    Senator Cornyn. Is that right? Okay. I did not want to 
usurp any privileges of the chair. Thank you, Senator Inhofe.
    Gentlemen, forgive me if I am repeating some things that 
you have already responded to, but due to the centrality of the 
FCS being so much of what we are talking about in terms of 
modernization, I think it bears nailing down some of these 
things that I want to ask you about specifically.
    While everyone in the room appreciates the importance of 
this weapons system, I think it is important for the American 
public that we get it on record for this hearing why FCS is 
important to our men and women in uniform. I would ask you to 
briefly tell us why FCS is important so the public can fully 
understand the critical role in our Nation's defense.
    The reason why I say that is so important is because some 
elected officials have stated that they want to slow down the 
development of FCS, implying that it is not taxpayer money well 
spent. I will just footnote that by saying I am one of those 
that if our military tells me they need something to do their 
job, as far as I am concerned, I am going to do everything I 
can to see that they get it. On the other hand, if it is going 
to result in waste of the taxpayers' dollars and it is not an 
efficient use of those resources, then I want to know that too 
so we can take appropriate corrective action.
    So if you would just tell us and the American people why 
you think development of FCS is important, why its development 
should not be slowed down, and why you believe, if in fact you 
do, and I think you do, that it is taxpayer money well spent.
    General Speakes. Sir, let me begin. The first point that we 
would make is FCS has the kinds of capabilities that are 
directly needed and identified as being essential. FM 3-0 lays 
out a blueprint for what we think is going to be the 
operational environment that we are going to be able and 
required to operate in both today and tomorrow. What this 
manual says is that we are going to operate with the American 
soldier on land, that on land we will have a need to defend 
this country, and that America's critical interest will be 
involved on land and the American soldier will have a pivotal 
role to play.
    We have also said that when we put that American soldier 
out wherever it is to defend American interests, he or she will 
have to operate in and among other populations. So what we need 
then is a capability that we can deploy, that we can operate 
with efficiency, and that enables us to be able to be precise 
and also to be economical. We cannot afford large operating 
footprints and we cannot afford cumbersome and inefficient 
systems. We need to bring the power of the network to not just 
the headquarters, the general, the colonel, but to the soldier 
on patrol or to the soldier at the checkpoint.
    So all of this is reflected right now when we assess the 
adequacy of our current equipment. Our current equipment is the 
best in the world at this point, but what we have had to do is 
invest major efforts just to make it operational for this war. 
We have essentially put appliques of new capability on to try 
to make it relevant. We would liken it to your 20-year-old 
family car that you put a global positioning system (GPS) on. 
Yes, it has GPS capability, but it is not the same as a car 
that was born and bred with that capability in it.
    So although we have made enormous investments and 
improvements in our current force, we see the need for the 
future. We see the need for an Army that is able to operate 
much more efficiently and much more effectively and an Army 
that we think will have the need to be committable and usable 
to a greater degree than many of us would like.
    So if that is the case, then what we need is the power of 
the network. We need the power of a common platform to drive us 
to greater efficiencies and operating capabilities, and we need 
the ability to be precise with everything we do because we are 
going to be operating in populations, among people where there 
will be both friend and foe, and we need to be able to 
distinguish between them.
    So these are the capabilities that we see in FCS. So we 
replaced a series of platforms that were born and bred to 
operate in Central Europe in the last century, and now we face 
an Army that must operate in very different environments with 
much more taxing capabilities. We believe FCS answers those 
requirements.
    General Thompson. Senator, if I can just?
    Senator Cornyn. Please.
    General Thompson. Very briefly from an acquisition 
perspective. It is really a misperception that some people may 
have. FCS is not just one MGV platform. It is a family of 
systems designed to provide a capability for our brigade combat 
team, and a brigade combat team in today's Army is the coin of 
the realm. The FCS program has the network and the connectivity 
we want, as I said in my opening remarks, to give the soldiers 
out there, whether they are in a vehicle or dismounted from a 
vehicle, the ability to see, transmit information, to know 
where their buddies are, to know where the enemy is, and to be 
able to operate and create an environment where they are in an 
unfair fight because they are so advantaged that the enemy does 
not have an opportunity.
    So you have the network. You have eight MGVs. You have a 
couple variants of unmanned ground vehicles, and you have a 
couple variants of UAVs. You look today in Afghanistan and Iraq 
at the great success that we are having with UAVs, and the FCS 
UAVs, if I can use the acronym, are the next generation of 
that. Again a powerful, powerful capability to give the 
information and the surveillance and the reconnaissance 
capability and link it not just down to the commander but link 
it all the way down to the soldier level.
    So there is that misperception that FCS is just a system. 
It is a family of systems. The function that FCS performs is it 
causes us to have to align all of the other modernization 
capabilities in the Army. So we call all of these things 
complementary programs.
    In the last year in great detail, I have personally gone 
down and looked at 67 other programs that are not part of FCS 
to make sure that the schedule, the operational capability and 
the technical capability of those programs, like the Joint 
Tactical Radio System, Warfighter Information Network-Tactical, 
and the joint light tactical vehicle are all aligned so that 
they operate together as a brigade combat team. We do not 
develop individual systems and then later on figure out how 
they have to work together. That is the different approach that 
we are taking from an acquisition perspective.
    Is it challenging? Yes, it is. Do I have the best people in 
the Army and the best people in the country working on this? 
Yes, we do, and we are getting there.
    Senator Cornyn. Perhaps it is because while this 
subcommittee and the Senate, I believe, have been very 
supportive of FCS in particular, I think the House has cut FCS 
a number of times. It's to the point now where, if I understand 
correctly, it is not just cutting fat or even muscle. It is 
cutting into the bone; perhaps creating the impression that FCS 
can pay for other programs, other weapon systems, and the like, 
which I think is wrong from what you have told us and 
everything I know.
    Could you elaborate on the negative effects slowing down 
and consequently delaying the fielding of FCS would have on our 
troops? I am thinking of a conversation I had with General 
Odierno, who just got back from Baghdad, and what you alluded 
to in terms of the spin-out capability and its present-day 
applications to the warfighter in Iraq and Afghanistan. What 
would be the effect of slowing down or delaying the fielding of 
FCS in its entirety?
    General Speakes. Sir, I think that there is one very simple 
answer right now, and that is that when we take a look at the 
operational needs statements that are the commanders' call for 
help as they communicate back to the Pentagon and tell the 
Pentagon that they need capabilities they do not have, 80 
percent of the operational needs statements that we have seen 
in this war have been directly related to our ability to 
deliver capability in FCS.
    In other words, we answer their calls for help when we 
bring FCS on because what they are asking for are the critical 
capabilities that General Thompson so well explained: the 
ability to ensure that we bring the network to soldiers so we 
can get them the communication they need, the ability to put a 
UAV out overhead, the ability to use robotics to separate the 
soldier from the improvised explosive device (IED). All those 
things that are so obvious and so relevant that we see that are 
lacking, to a large degree, in some of the formations we 
fielded over the last years are now fixable and eminently 
improvable if we bring FCS online.
    That is why the urgency of the program is so obvious to 
those of us in the Army who understand the nature of this war 
and understand that FCS has a direct relationship to fixing 
those issues, as General Thompson said so well, on a systematic 
basis.
    We are fielding a brigade system when we bring the first 
brigade combat team with FCS capabilities online. It is 
harmonized. It is synchronized. There is enormous agility in it 
because it has a common platform, common logistics, and common 
operating capabilities. Today we are fielding individual 
capability improvements incrementally, and then what the 
soldier in the field has to do is make them work together. That 
puts the soldier in the field under enormous stress that he or 
she should not have to operate under.
    So this is important. You are exactly right, sir. We need 
to field the capability. It answers directly the requests of 
commanders in the field, and that is what makes us so excited 
about FCS.
    Senator Cornyn. Thank you.
    Mr. Chairman?
    Senator Lieberman [presiding]. Thanks, Senator Cornyn.
    Let me ask one follow-on question on FCS. General Speakes, 
you used a phrase, which is a common-sense phrase, that we are 
in a period of persistent conflict and that will continue with 
all probability in the generation ahead. Part of that 
persistent conflict brings us into counterinsurgency warfare.
    I have seen some comments from independent military 
analysts who have expressed a concern that the Army may be 
overstating the role for FCS in counterinsurgency warfare. I 
wonder if you have seen any of those and whether you would 
comment on that.
    General Speakes. Sir, that is a very challenging point. I 
think the first thing that FM 3-0 tells us is that the Army of 
today and tomorrow must be full spectrum. We cannot have a 
myopic focus on today's war and ignore the potential for what 
we may have to do in a year or 5 years or the next decade. The 
great thing about FCS is it is deliberately designed to provide 
us capabilities that are not just usable in counterinsurgency 
operations. I think they are very usable, very flexible, and 
very applicable, but it also gives us the kind of capabilities 
that would be enormously important should we be in a mid- or 
high-intensity operation.
    When we take, for example, the capabilities of active 
protection, the ability to essentially repel an inbound threat 
to an armored vehicle, we are giving ourselves capabilities 
that if you would have asked me 10 years ago could you even 
imagine such a capability, I would not have believed it 
possible. Now in testing, we are getting positive results and 
we believe that it is part of the capabilities we want to bring 
forward.
    So those are the things that tell me that this FCS concept 
is applicable for the future operating environment, one in 
which we cannot predict how it will be used. We cannot predict 
the nature of the enemy. We cannot predict the operating 
environment.
    Senator Lieberman. Including counterinsurgency work.
    General Speakes. Absolutely.
    General Thompson. Absolutely.
    Senator Lieberman. Do you want to add to that, General 
Thompson?
    General Thompson. I would just like to make a couple of 
clarifications. General Speakes used the term operational needs 
statement, and I know many of you know the answer to this, but 
we normally develop a requirement through the Joint 
Requirements Oversight Council process. An operational needs 
statement is a statement of need from a commander in the field 
today that we try to meet very quickly.
    What General Speakes was adequately pointing out is that a 
lot of the operational needs statements that we see from 
commanders today, 80 percent he referred to, could be met by 
FCS capabilities. To me that means that FCS has applicability 
in the counterinsurgency environment and then beyond that.
    You know the challenges we have today with IEDs. The active 
protection system is the ability to sense an incoming rocket 
propelled grenade or an incoming missile and take it out before 
it hits the MGV platform. You will be able to sense it. The 
testing is going on right now at White Sands Missile Range for 
the active protection system as part of the FCS program, actual 
rockets being fired where the sensor sees the incoming missile, 
fires a rocket, orients itself, and it takes out the incoming 
missile before it hits the vehicle. That is an incredible 
capability, and that is one of the things we would spin out 
early on.
    Senator Lieberman. That is miraculous. Of course, this is, 
over the history of warfare, the ability to take the 
technologies that are breaking through in the rest of society 
and then apply them first and best to warfare, which you are 
doing in this program.
    Let me ask you a very different kind of question. You 
happen to be here today and you probably saw in the Washington 
Post this headline story, Contracts for Body Armor Filled 
Without Initial Tests. The lead sentence is, ``Government 
auditors said yesterday that nearly half of 28 contracts to 
manufacture body armor for Army soldiers were completed without 
the gear ever going through an initial test.'' Of course, we 
all remember the emotional reaction here in Congress and the 
pressure that we all put you under and the money we 
appropriated because of the public concern about the inadequacy 
of body armor. So it is in that context.
    I wanted to give you an opportunity, since you are here, to 
let us know, this committee, and for the record what the Army 
position is on the findings of the Department of Defense (DOD) 
Inspector General (IG). I suppose the bottom line is whether 
the people to whom we are giving the body armor, our troops, 
can have some confidence that it will work to protect them.
    General Thompson. Sir, the first thing I would like to say 
is the troops can have absolute confidence that they have the 
best body armor in the world.
    Senator Lieberman. Right.
    General Thompson. We will meet tomorrow inside the Army and 
then meet with the DOD IG and then come over next week and talk 
to any Member of Congress or any of the professional staff 
members or individual staff members to explain the position.
    Let me just point out a couple of things that I think are 
very important to understand.
    First off is a First Article Test (FAT). A first article 
means a pre-production model, or an initial production sample. 
We do FATs before we go into a contract with any producer. 
Every producer of body armor has had to go through a rigorous 
FAT to make sure that what they are going to potentially 
contract for passed that rigorous testing.
    Once a producer begins to produce body armor for the Army 
and they stay in continuous production and there is no change 
to the design, we do not go back and do a very expensive FAT. 
However, we do lot acceptance tests (LATs) on every batch of 
armor that is produced.
    Every producer of body armor for the United States Army has 
gone through a FAT and passed and every lot that has been 
produced under contract has had a LAT and sampling done. We 
reject some of those lots and do not take them until we have 
confidence that the body armor produced in that lot is to our 
standards. There may be a change in the manufacturing process, 
but we do the proper sampling. We have that data to be able to 
demonstrate that we have done the FAT. This is called out in 
the Federal Acquisition Regulation. It is the way it is taught 
in the Defense Acquisition University.
    I do not quite understand why the DOD IG drew the 
conclusions that they did. I have great confidence in the DOD 
IG, but we need to reconcile the scope of this audit and the 
evidence that we have that we have done the proper testing. I 
can assure you and I assure the soldiers out there in the field 
that we have the best body armor in the world. We will be over 
next week with the DOD IG in order to explain that.
    Senator Lieberman. Good enough. I appreciate the answer.
    Let me go back to FM 3-0 and ask you a similar question 
that I asked General Caldwell. From your perspective, what 
impact does this new Capstone Doctrine have on the Army's 
fiscal year 2009 budget request and, insofar as you can see, on 
succeeding budget requests? Obviously, the doctrine is 
important. It has some quite revolutionary changes in it, but 
it is not going to mean as much as it should mean if we are not 
giving you the money to carry it out.
    General Speakes. Sir, the value of doctrine is something 
that our Army recognizes. We had the last publication of 
doctrine right before the events of September 11. Over the 
course of the period of the time from September 11 to now, the 
Army has been living an update of how we are doctrinally 
organized. I would typify that with the modular transformation 
of the Army that we began with some detailed thinking in 2003, 
put into execution in 2004, and now are more than 50 percent 
through.
    We also took a very serious look at the other elements of 
how we operate. For example, we have already done major work to 
transform how we train our formations. Formations now, as they 
prepare for combat, are trained in substantially different ways 
than we used to train formations prior to the September 11 
experience.
    Those are but two examples of the kinds of very important 
changes that our Army has been making in progress.
    FM 3-0 was about 2\1/2\ years in the writing and 
coordinating and vetting. I think that is very important 
because the Army leadership took the view that when we put this 
together, we would ensure we had it right because everybody who 
had a view about what the Army was doing within the Army had a 
chance to work it, comment, and have their voice heard. So at 
this point then, the publication of this manual in February 
only recognizes or documents what most of the Army has been 
operating on and changing the face of the Army over the course 
of the past several years.
    Senator Lieberman. So you would say that the budget request 
for fiscal year 2009, therefore, reflected the changes that are 
expressed in FM 3-0?
    General Speakes. Yes, sir. But I would also liken it to 
building an airplane in mid-flight. What I do not want to 
portray is that we have made all the changes and that they are 
all complete. This voyage of putting together the airplane in 
flight continues.
    So part of the challenge of the Secretary of the Army and 
the Chief of Staff of the Army is to continue a very thorough 
evaluation of how we can continue to improve and transform our 
Army to make it more relevant for what we see as the future 
operating environment. We are, for example, changing the way we 
train leaders. Leaders require a different education than what 
we knew before.
    Senator Lieberman. Right.
    General Speakes. That is a part of this voyage in progress. 
So the Army will continue to change and evolve. This is a 
continual process.
    I can assure you that the basic operating concepts that are 
in FM 3-0 are understood and supported by what we have in 
fiscal year 2009 even though this document was produced after 
we had submitted the fiscal year 2009 budget.
    Senator Lieberman. I am a little over my time. I would ask 
Senator Cornyn's indulgence just to ask a final question that 
is relevant.
    General Caldwell said, and I am sure you agree, that FM 3-0 
will add mission requirements and appropriately so. Looking 
forward, what kind of investment changes do you think we will 
need to make to meet the additional mission requirements that 
are associated with this new Capstone Doctrine?
    General Speakes. Sir, you ask a question that we do not 
have a final answer to. But I can point to several 
illustrations of the kind of effort that is underway within the 
Army to continue the transformation of the Army to support the 
vision that this manual outlines.
    One element of it is a concept that says we have to 
continue to develop new ways to train the force. The Chief of 
Staff of the Army has been in dialogue with the leaders of our 
training community over the past several weeks. His challenge 
to them is now how do we align what we call our combat training 
centers, the places you know as Fort Irwin or Fort Polk, to 
support not just a mission rehearsal exercise for forces that 
are bound for Iraq or Afghanistan, but let us look past that to 
where we want to be in several years when we begin to actually 
prepare forces that are not immediately destined to go back 
into combat in Iraq or Afghanistan. So what he described was 
training in a more full spectrum way where, yes, they would be 
counterinsurgency capable, but they would also have within that 
same experience the ability to do high-intensity training 
verification. So that is one of the challenges that we point 
out.
    The other issue in this same vein that is being worked very 
seriously is a concept for how we alter the training of leaders 
and the educational programs of leaders. Obviously, language is 
an area that the Army has found itself very deficient in.
    Another area that the Army is exploring, for example, is 
how we train and educate our civilians. The civilian work force 
of the Army has been enormously important and, frankly, ill-
recognized in our training strategies. General Casey's 
challenge was let us figure out how to institutionalize that.
    So there are additional resource requirements that we will 
have to build into our program in the upcoming years. Our 
assurance is that they are going to be thoughtful, they are 
going to be well-considered, and they are going to be relevant 
to the kind of Army we need for the future.
    Senator Lieberman. Thank you very much. I note in your bio 
that you speak both Mandarin Chinese and Spanish. Presumably 
you do not speak Mandarin Chinese with a Spanish accent. 
[Laughter.]
    General Speakes. It was a challenge, sir.
    Senator Lieberman. That is very impressive.
    Senator Cornyn.
    Senator Cornyn. Last year, Secretary Gates established the 
MRAP vehicle as the top priority program within DOD, and 
Congress responded with $22 billion to fully fund more than 
15,000 of these armored vehicles. Today, almost 3,600 MRAP 
vehicles are operating in Iraq.
    I might say that when I was there back in January, I had a 
chance to visit Ghazaliya on the edge of Baghdad and ride in an 
MRAP vehicle. I can tell you that the soldiers are very happy 
to have that capability and it has served as additional 
protection for them.
    We know the enemy in Iraq has been extremely effective at 
adapting to past protective measures to our troops. Things like 
the Iranian-provided explosively formed penetrators come to 
mind for one. Could you tell us how these may affect the future 
production needs for these vehicles or additional requirements 
over and above what is already contained in the 2009 budget?
    General Thompson. Sir, let me start and I will ask General 
Speakes to jump in for any amplifying points.
    First off, the MRAP vehicle has been a very successful 
program and one where every soldier and marine out there truly 
appreciates the support of Congress to give us the resources to 
accelerate that capability.
    We have pretty much settled on what the requirement is, 
although we are not quite to the definitization stage for the 
Army requirement. The Marines, I know, have settled on their 
number for the MRAP vehicles. We are still in a range of 
somewhere between 10,000 and 12,000, and we have adjusted the 
production of the MRAP vehicle over time so that the 
acquisition and the delivery matches up with the requirement.
    That capability will be used in the future. One of the 
things that we have done with our route clearance companies, 
which go out and obviously clear a route in advance of a convoy 
or a soldier patrol, and our explosive ordnance disposal teams 
is we looked at the need for the vehicles for those kinds of 
units. And 1,000 of the MRAP vehicles we will buy will meet 
those long-term enduring needs. So we have tried to not look at 
MRAP as just a now capability, but also what will be the 
capability that it will be used for in the future.
    So 1,000 of the Army's MRAP vehicles will have an enduring 
mission, and I am pretty sure that is not going to be the end 
of the use of the MRAP vehicles. I suspect a large number of 
them, when the requirements come down for the demand for 
forces, will probably be reconditioned and put in preposition 
stocks. We are looking at what is the right number of those 
vehicles to do that.
    We are also looking inside the Department at the 
rationalization of our long-term vehicle strategy for both 
combat vehicles and wheeled vehicles. MRAP vehicles are part of 
that equation. We have close to 150,000 high mobility, multi-
purpose wheeled vehicles (HMMWVs) in the Army today. We are 
looking at the future requirement for the joint light tactical 
vehicle (JLTV), which is out on the street right now with a 
request for proposal, and we expect the industry bids back in 
here in about 30 to 45 days. But MRAP vehicles are part of that 
equation.
    So it is the rationalization of the HMMWVs today, the JLTVs 
in the future, and the MRAP vehicle is part of that. We owe an 
answer back to ourselves and also to the Office of the 
Secretary of Defense here within the next couple of months on 
what is that long-term strategy.
    Senator Cornyn. I know just while we have been in Iraq, we 
have seen where HMMWVs, which were the standard transportation 
because of force protection concerns, were then uparmored and 
then, of course, now the evolution into the MRAP vehicle with 
enhanced protection due to the V-shaped hull and other aspects 
of it.
    You did describe, General Thompson, that the Army is 
looking at this vehicle design not just for today's threat but 
for threats that may arise in the foreseeable future. I realize 
you cannot predict everything, but that process is going 
forward.
    General Thompson. Yes, sir. If I can name another thing 
that comes to mind, it gets back to the importance of the FCS 
program. The continued investment by the FCS program in armor 
development has been the foundation for the armor protection 
kits that we have put on HMMWVs and has been the foundation for 
the armor protection we have put on the MRAP vehicles. So it is 
a very smart acquisition decision on our part.
    That is another strength of the FCS program. So we look at 
the testing on the MRAP vehicle and it informs the future 
development of FCS just like the development of armor in the 
FCS program has informed what we have put on the uparmored 
HMMWVs and on the MRAP program.
    Senator Cornyn. As I noted earlier, as far as I am 
concerned, whatever warfighters need I am willing to support 
appropriations for that need. But occasionally you will have 
people come up, constituents and others, who say the Army and 
the military is not providing X, body armor. I do not know 
whether you call them urban myths or not about soldiers having 
to purchase their own body armor.
    I know that the requirement in the case of these vehicles 
has changed over time. I do not know and perhaps maybe you 
could comment on whether there has been an evolving standard in 
terms of what the Army would provide the warfighter in the 
field in terms of body armor and other equipment and resources. 
Could you respond to that?
    General Thompson. Yes, sir, I can. We are on our fifth 
upgrade of body armor since the war started. It is Frag Kit 5, 
the armor protection kit, that is on most of the HMMWVs today 
and we are looking at the development of Frag Kit 6, which gets 
after the explosively formed penetrator threat. So it is a 
continual evolution of capability.
    Going back to the FCS program, one of the strengths of that 
program is the fact that we will be able to have the attachment 
points for upgraded armor on the vehicles that we produce under 
FCS, so we do not have to bolt them on after the fact. So it is 
an integrated development approach.
    We do the same thing with all of our systems, whether it is 
rifles, body armor, or night vision goggles. We are always 
looking at cutting in upgrades or changes of those programs 
that make sense. So there is no static program out there, 
helicopter to what the individual soldier wears. I use the body 
armor as a great example.
    Senator Cornyn. I know that seems like a shocking statement 
for someone to make, that a soldier would have to buy their own 
body armor. I have never really confirmed that to be the case.
    I am wondering with this evolution of systems, whether it 
is body armor, uparmored HMMWVs or MRAP vehicles we are 
continually setting a higher standard. In one sense, there may 
be the perception that because the latest and greatest is not 
deployed universally, somebody is getting less than what we are 
capable of providing them for either their protection or 
ability to do their job.
    General Thompson. I think we can say, though, Senator, that 
the latest and greatest of the capability that we have is with 
the soldiers that are deployed in harm's way or the soldiers 
that are getting ready to go into harm's way. So you are always 
chasing that next increment of capability, and once we achieve 
that next increment of capability, it first goes to the 
soldiers that are in harm's way.
    Senator Cornyn. I cannot help but recall what Chairman 
Lieberman said when the stories broke in the Washington Post 
over Walter Reed and the outpatient housing. I remember his 
statement that this was embarrassing. I thought that was a good 
way to describe it because I have to tell you that our 
commitment is to do whatever is needed to provide for our 
warfighters and servicemembers and our veterans. That is, I 
would say, a universal commitment of this committee and 
Congress.
    So when somebody throws out a curve ball like that and 
suggests that we are not doing it, my first reaction is I hope 
that is not true. Second is if it is, this is embarrassing 
because certainly it runs counter to every impulse, every 
instinct that I know Congress has when it comes to providing 
for our warfighters or their families or veterans across the 
board.
    Mr. Chairman, thank you.
    Senator Lieberman. Thanks very much, Senator Cornyn. Of 
course, I totally agree with what you have said.
    I have just one or two more quick questions for you. I 
wanted to talk for a moment about the Land Warrior program 
which is one that I have been quite interested in. It just 
strikes me that with the formal recognition of the equal 
importance of stability operations, which will be executed in 
large part by small units of dismounted soldiers, that the Land 
Warrior program, which was the program of record, as I saw it, 
for modernizing those dismounted soldiers' abilities may 
deserve a second look.
    Obviously, it was cut after a decade of development and 
right after it was being sent into theater for its true 
operational test, which I gather has been extremely successful. 
I have heard reports from the 4th Battalion of the 9th Infantry 
Regiment that they feel it has really added to their 
capabilities and also their protection.
    So I wanted to ask you, in terms of our own work here this 
year in authorizing and appropriating, whether you have 
thoughts about expanding the fielding of Land Warrior, and 
whether, if that is the case, we can help you avoid some 
undesirable reprogramming by authorizing and appropriating for 
that purpose. So overall, give me your sense of the importance 
of Land Warrior, whether you are leaning forward on it now, and 
to what extent we can help by funding it instead of forcing you 
to reprogram.
    General Speakes. Sir, your knowledge that we have a very, 
very strong basis of support from 4-9 and the Manchus who are 
using it in Iraq today is absolutely correct.
    Accordingly, the strategy that has been adopted by General 
Wallace, the U.S. Army Training and Doctrine Command (TRADOC) 
commander in collaboration with the Chief of Staff of the Army 
and the Secretary of the Army, is to move forward with this 
program. The concept would be that the next thing we need to do 
is equip a brigade combat team. The brigade combat team would 
then use it as a part of their pre-deployment training and then 
as a part of our process of preparing forces and certifying 
them for deployment. They would then deploy with this 
capability.
    So at this point what we have is a request for 
reprogramming that is about $102 million, and $102 million is 
approximately what it takes to equip one brigade combat team 
with this capability.
    Now, the capability that we tested several years ago and 
the capability that is now in Iraq today are substantially 
different. We have cut the weight, for example, of the radio 
that is on the back of each individual soldier by about one-
third. It is a remarkable transformation that shows, just like 
our cell phones today, we are evolving capability with 
incredible speed. So we continue to develop and refine, based 
upon this experience in combat, what Land Warrior is, what 
forms it takes, what information it displays for the soldier, 
and how it integrates with the rest of our tactical operating 
environment.
    We will continue that effort then with the brigade combat 
team, and we would like to go ahead and prepare that brigade 
combat team with a set of this stuff and then deploy them as a 
part of our normal force generation process.
    Senator Lieberman. That is great news. I really appreciate 
that decision. I think this is a great program. I know 
everything you give a soldier that is improved is good for the 
soldier, but listening to the exchange you had with Senator 
Cornyn about the body armor, this Land Warrior program, 
obviously, not only increases the capability of the individual 
soldier, but I think also increases his security and 
protection.
    We will take it under advisement, if we can help you by 
authorizing and appropriating to that level so you do not have 
to reprogram more. But I thank you very much for that decision. 
That is great to hear.
    The final question is on the Army's current basic rifle 
needs. There have been some statements that the Army's current 
basic rifle needs to be replaced, and I wanted to ask you what 
the current requirement, as you see it, is and what kind of 
program you have for the rifles within the Army at this point.
    General Thompson. Sir,  the  current  rifle  in  the  Army  
is  an  M-16A4, and the current carbine is the M-4 carbine.
    Senator Lieberman. Right.
    General Thompson. We are looking with a capabilities-based 
assessment, which is done by the requiring activity, TRADOC, at 
what should be the future requirement for the rifle. That 
capabilities-based assessment took a long time to develop. It 
is now out of the infantry school and has been reviewed once at 
TRADOC. It is soon on its way to the Pentagon to go into that 
staffing process and then to go into the joint requirements 
process.
    We feel like we have very capable individual weapons out 
there in the hands of our soldiers today, both with the M-16 
version and the carbine, which has been evolutionarily changed 
over time with engineering change proposals. We always continue 
to evaluate all of our weapons. We recently ran a test on the 
M-4 carbine and found some issues when we were working with the 
manufacturer in order to improve that capability.
    We also found with that test that we need to replace the 
magazines because the magazines were the source of some 
failures in the testing that was done. We had an ongoing 
development program to improve the magazine. We are going 
rapidly into production on that, and then by the end of this 
year, every soldier in theater will have an improved magazine 
to reduce the possibility of stoppages with the weapon.
    We have done a number of independent surveys not done by 
the acquisition community. The one survey that was done 
recently I think was done by the Center for Naval Analyses to 
give some independence. The soldier feedback has been positive 
on the weapons.
    The weapons work well. They are engineered well. They have 
to be properly taken care of. The soldiers that have the least 
problems with weapons are the soldiers that use them because 
they are infantry men, are out there on the front lines, and so 
it is not just the weapons themselves but also how you take 
care of it. So it is a package deal in making sure they meet 
the requirement.
    The short answer is we are updating the requirement and 
then we will look at that and decide whether an acquisition or 
a materiel solution is the best thing in order to upgrade the 
capability.
    Senator Lieberman. Thanks.
    Is Senator Cornyn returning, do you know? I am questioned 
out. So let us assume that Senator Cornyn is too.
    I want to thank the two of you. I was thinking, as I was 
listening to you, that we really ought to thank you not only in 
general for your service to our country, but you are really two 
impressive individuals. You are obviously smart. You are very 
well-spoken. You give me a sense of confidence that you are on 
top of the very significant responsibilities you have. So I did 
not want this occasion to go by. We hear a lot of people 
testify in a lot of committees up here in many subject areas, 
but honestly, I would say no witnesses have handled questions 
with more authority and directness in any of the committees I 
have been on over the long-term than the two of you. Therefore, 
we ought to express our gratitude to you that not only are you 
good witnesses, but you happen to be wearing the uniform of the 
United States Army.
    Senator Cornyn, do you have any additional questions?
    Senator Cornyn. I do not. Thank you very much.
    General Thompson. Sir, I do not want the last word, but 
this body armor thing is really so important. I would just like 
to make a clarification on something I said earlier because I 
always like to be as precise as possible.
    I said something about the FAT. Obviously, we award a 
contract because a manufacturer is not going to give us an 
article to test unless he has a contract. But we do not go into 
production unless that manufacturer passes that FAT.
    I have a quote from a GAO report that was just issued in 
April about the body armor for the Marines and the Army. I just 
pulled this piece of paper out, and it is so significant to 
make the point. This is from the GAO report, ``In this review, 
we found that the Army and Marine Corps have taken several 
actions to assure testing. They have controls in place during 
manufacturing and after fielding to assure that body armor 
meets requirements, and they share information between the 
Services regarding ballistic requirements and testing and the 
development of future body armor systems.''
    On page 5 of the report, ``The Army and the Marine Corps 
have controls in place during manufacturing and after fielding 
to assure that it meets requirements.'' I am restating that. 
``Both Services conduct quality and ballistic testing prior to 
fielding and lots are rejected if the standards are not met.'' 
That is the GAO report from April.
    So again, I go back to we have to reconcile the differences 
between the DOD IG report. I regret sincerely that it made the 
NBC nightly news. I am not sure that all due diligence was done 
before that was reported. But my key point here is I want 
soldiers in the field to understand that there is no reason for 
them to have a lack of confidence in the equipment that we give 
them today and particularly the body armor. That is my last 
statement.
    Senator Lieberman. I appreciate that statement.
    General, you were not suggesting that a television station 
or network would put a story on without due diligence? You do 
not have to answer the question. [Laughter.]
    I can testify by personal experience to the accuracy of 
that suggestion. [Laughter.]
    Thank you both.
    We are going to hold the record of the hearing open for 10 
days in case any of the members of the subcommittee want to 
submit questions to you in writing or you want to add any 
testimony in writing.
    Again, thank you very much for your service and your 
assistance to this subcommittee today.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Joseph I. Lieberman

                            FIELD MANUAL 3-0

    1. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the Army's procurement objectives now and into the 
future are large and growing, especially considering the growth in end 
strength, additional brigades, and additional missions now documented 
in Field Manual (FM) 3. Do projected Army research and development and 
procurement budgets through fiscal year 2015 fully fund continued 
upgrades to M1, M2, and Stryker vehicles; Future Combat System (FCS) 
spin outs 1, 2, and 3; other FCS procurement; completion of modularity 
conversions for Active-Duty units; fully equipping Army National Guard 
(ARNG) units at 100 percent equipment; and modernization of the Army's 
wheeled tactical vehicle fleet, including the Joint Light Tactical 
Vehicle (JLTV)? If not, which of those efforts is the Army's priority?
    General Speakes and General Thompson. With the competing demands on 
an Army at war, we are constantly faced with this question. The answer 
is one of achieving balance across time, measured against an 
anticipated threat. These are difficult choices as our adaptive enemy 
gets a vote, planning for natural disasters is uncertain, and 
technology successes and failures dictate our program's progress. We 
believe we can achieve a balanced plan that meets all of the challenges 
you lay out, but also will continue to present opportunities to 
accelerate our plans and programs that are beyond our ability to 
resource within our obligation authority.

    2. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the Army also has significant funding and procurement 
pressures related to its current and future force structure. Beginning 
in fiscal year 2015, the Army plans to have four types of combat 
brigades: light, Stryker, heavy, and FCS. Two of those brigades, the 
Stryker and FCS, provide a medium weight capability. Heavy brigades 
will organize around two types of M1 tanks and two types of Bradley 
fighting vehicles. What specific analysis has the Army completed that 
demonstrates the need for four different types of brigades and two 
types of medium weight brigades?
    General Speakes and General Thompson. To inform Army analysis and 
decisions related to the mix of Brigade Combat Teams (BCTs), the Army 
relies on several inputs: National Defense and National Military 
Strategies, the Quadrennial Defense Review (QDR), Department of Defense 
(DOD) initiatives, Operational Availability studies, combatant 
commander requests, and current operational demands. The current force 
is comprised of Heavy BCTs (HBCTs), Infantry BCTs (IBCTs), and Stryker 
BCTs (SBCTs). Each of the three current formation types has unique 
capabilities best suited for differing parts of the spectrum of 
conflict.
    The Army uses extensive force design and force structure analysis 
to determine the balance of capabilities and capacity. The modular 
force reorganization decision in February 2004 used Task Force 
Modularity analytical efforts to move from 17 different maneuver 
brigade types in the force to 3 standardized organizational designs. 
However, we were careful not to swing the standardization pendulum too 
far.
    The need for a mix of maneuver forces was highlighted during the 
Joint Forces Command and Army cosponsored transformation wargames, 
Unified Quest 2003 and 2004. This need was later codified in the Army 
capstone concept document, Training and Doctrine Command Pamphlet 525-
3-0, The Army in Joint Operations, The Army's Future Force Capstone 
Concept 2015-2024, published on April 7, 2005. This document 
highlighted the need to reconcile expeditionary agility and 
responsiveness with the staying power, durability, and adaptability to 
carry a conflict to a victorious conclusion. It also highlighted the 
need to maintain and improve a hybrid mix of capabilities that can be 
flexibly combined to address any contingency.
    As the Army transforms in the future, the force will incorporate 
FCS BCTs (FBCTs). Though medium in weight, an FBCT is capable of 
spanning the range of capability from light to heavy. The need for two 
types of so-called ``medium brigades'' (SBCT and FBCT) is driven by 
more than the weight of vehicles. The requirement for BCT types comes 
from the capabilities within a given formation. The weight of its 
capital systems is derived from achieving operational requirements, 
such as survivability, lethality, or transportability, within an 
organizational framework. While affordability plays a role in the final 
outcome, the capabilities inherent in a given type unit and the number 
of soldiers needed to man the formation are greater drivers for force 
design and force mix than simply the dollars for equipment. 
Additionally, the Army must weigh the need to maintain the 
technological advantage within effective, sustainable, survivable, and 
lethal formations to ensure an attainable modernization path for each 
type of BCT.
    After QDR 2006, Army analysis of the Major Combat Operation 
requirements (inherently High Intensity) and the Steady State Security 
Posture (spanning the spectrum of conflict from High to Low) identified 
a requirement for 76 BCTs. The Army continues to reassess the BCT force 
mix to ensure the best balance of capabilities for executing the 
National Security Strategy and providing Joint Force Commanders with 
multiple options for success.

    3. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, what potential conflicts would require that mix of 
brigades, or is this mix based simply on affordability?
    General Speakes and General Thompson. Strategy and concepts call 
for full-spectrum capability with the flexibility to adapt as the 
environment and situation demand. The three current types of combat 
brigades--heavy, infantry, and Stryker--each have unique capabilities 
that provide the Army the best overall ability to meet National 
Security Strategy requirements. HBCTs provide the maximum in combat 
power and survivability and are optimized for open terrain, but require 
the most in strategic lift and logistics. IBCTs provide the lightest 
unit for force projection by airlift or air assault, and are optimized 
for close terrain. SBCTs are the Army's newest and offer improved 
tactical ground mobility with reduced logistics requirements, and have 
performed well in urban areas. Future BCTs, scheduled to begin entering 
the force in 2015, will join the current three types of combat brigades 
and will provide the Army enhanced lethality and survivability with 
reduced logistics requirements. Because BCT formations are mutually 
supporting and complementary, BCTs can be task organized and tailored 
to the required environment and mission.
    We cannot know for sure where and against what threat Army 
capabilities will be required, so we keep a mix based on operational 
planning and future modeling within the DOD Analytic Agenda. We shall 
task organize to best match capabilities to the needs of ground force 
commanders. In order to operate effectively across the range of 
military operations, in all types of terrain, and provide prompt and 
sustained landpower, the Army must retain a mix of BCTs. The Army will 
continuously evaluate how best to maintain the technological advantage 
within effective, sustainable, survivable, and lethal formations to 
ensure an attainable modernization path.

    4. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, what is the incremental additional operating cost to 
the Army of indefinitely maintaining three fleets of combat vehicles: 
(1) legacy tanks, Bradleys, and armored personnel carriers; (2) 
Strykers; and (3) FCS vehicles?
    General Speakes and General Thompson. The Army estimates operating 
costs for units, not vehicle systems. The Army uses the Training 
Resource Model (TRM) to compute the estimated operating cost for units 
based on previous years' cost experience. The output from TRM serves as 
the basis for the Army's base program home-station training budget 
requests. Exact operating costs vary substantially based on the unit's 
component, location, and mission. For example, the average estimated 
operating cost for a HBCT in the active component located in the 
Continental United States (CONUS) is approximately $66 million per 
year. For a HBCT in the Reserve component, the cost is approximately 
$16 million per year. The average estimated operating cost for a SBCT 
in the active component stationed in CONUS is approximately $45 million 
per year. Since the Army is not scheduled to begin fielding BCTs until 
fiscal year 2015, the TRM model is not capable of estimating the cost 
of a FBCT. However, operational assessments using modeling and 
simulation techniques indicate FBCTs are likely to have lower operating 
costs than HBCTs while conducting commensurate missions.
    The Army will continue to provide combatant commanders with trained 
and ready forces to meet the Nation's national security requirements. 
Further, the Army will continue to work with the joint community to 
review and update the appropriate mix of forces, including number and 
type of BCTs, to meet the Nation's security needs. Thus, future 
operating costs for the Army's BCTs will depend on the evolving nature 
of operations, the mix of forces chosen to prepare for and conduct 
those operations, and the method in which the chosen forces are 
employed.

                       UNFUNDED PRIORITIES LISTS

    5. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, over the years, Congress has requested that each 
Service chief provide a list of unfunded programs that we can then use 
to guide our judgment to ensure that additional resources, if applied, 
are focused on priorities. The Chief of Staff of the Army's unfunded 
priorities list for fiscal year 2009 apparently does not reflect the 
most urgent unfunded requirements of the Army to meet its next most 
important operational or investment shortfalls. Rather the list is 
crafted to address only the dual use equipment shortfalls of the 
National Guard rather than the total Army. Why did the Chief of Staff 
decide to use his unfunded priority list this way?
    General Speakes and General Thompson. Per the memorandum attached 
to the fiscal year 2009 Unfunded Requirements (UFR) list, the Army 
believed, ``that the fiscal year 2009 base budget along with the 
anticipated fiscal year 2008 global war on terror funding would provide 
the necessary resources to grow the Army; sustain soldiers, families, 
and civilians; prepare soldiers for success in current operations; 
reset to restore readiness and depth for future operations; and 
transform to meet the demands of the 21st century.'' The UFR list 
focused on ``funding ARNG equipment shortfalls of dual use items.''
    The ARNG is engaged around the globe and across the Nation in 
support of the global war on terror, Homeland Defense and Civil Support 
missions. Accelerating funding for these items would help ensure that 
Guard units continue to fulfill a critical role in supporting civil 
authorities in domestic disaster relief operations that occur during 
fires, hurricanes, floods, and earthquakes. The UFR list identified a 
list of items the Army ``would accelerate'' if additional funding 
became available.

    6. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, I note that the Army's list is in alphabetical rather 
than in priority order. Please prioritize this list and return it to 
the defense committees not later than 2 weeks from receipt of this 
question.
    General Speakes and General Thompson. The Army's most critical UFRs 
for fiscal year 2009 focus on ARNG equipment shortages for dual-use 
items. This UFR list was approximately $3.94 billion. The original ARNG 
equipment UFR list has been modified by the Army to account for 
substitutions for seven unexecutable lines on the original list. The 
result is a slight decrease in the UFR, which is now identified to be 
$3.93 billion. The adjusted ARNG equipment prioritized UFR list is 
enclosed.
    All lines on the current UFR list will have a positive impact on 
ARNG readiness. The acquisition of this equipment will enable the ARNG 
to train to a higher level of proficiency to meet both State and 
Federal missions while simultaneously supporting current overseas 
missions. The most critical of the dual-use items are trucks (HMMWVs 
and HEMTTs). The ARNG's on-hand quantity of trucks is at a critical all 
time low. The receipt of trucks will have an immediate impact on 
readiness and mission effectiveness.

----------------------------------------------------------------------------------------------------------------
                P-1 Line                           NOMEN                       BAND             $ ADJ Amount (k)
----------------------------------------------------------------------------------------------------------------
4......................................  HMMWV....................  BAND 1...................         $1,000,000
                                                                   ---------------------------------------------
                                                                        Subt.................         $1,000,000
----------------------------------------------------------------------------------------------------------------
7......................................  HEMTT....................  BAND 2...................           $572,900
4......................................  HMMWV....................  BAND 2...................           $331,300
3......................................  LIQ LOG STORAGE & DISTRO.  BAND 2...................            $23,200
23 thru 31.............................  MILSATCOM................  BAND 2...................            $19,000
                                         MOVEMENT TRACKING SYS....  BAND 2...................            $23,600
77, 79.................................  NIGHT VISION GOGGLES.....  BAND 2...................            $28,800
143, 144, 151..........................  WATER PURIFICATION SYS...  BAND 2...................             $1,200
                                                                   ---------------------------------------------
                                                                        Subt.................         $1,000,000
----------------------------------------------------------------------------------------------------------------
4......................................  HMMWV....................  BAND 3...................           $262,000
182....................................  AMC CRITICAL ITEMS.......  BAND 3...................             $2,400
5, 10..................................  AVN LUH..................  BAND 3...................            $47,750
22.....................................  AVIONICS.................  BAND 3...................            $11,300
27 thru 34.............................  AVN SPT EQUIP............  BAND 3...................             $6,600
27 thru 34.............................  AVN SPT EQUIP............  BAND 3...................             $1,700
43.....................................  COTS TACTICAL RADIOS.....  BAND 3...................            $22,800
                                         DRIVER VISION ENHANCEMENT  BAND 3...................           $152,450
137....................................  FIELD FEEDING SYSTEM.....  BAND 3...................             $5,400
7, 11..................................  HEAVY EQUIPMENT            BAND 3...................            $43,100
                                          TRANSPORTER.
7......................................  HEMTT....................  BAND 3...................           $178,400
10.....................................  LINE HAUL................  BAND 3...................           $156,300
107, 112...............................  LOG AUTOMATION...........  BAND 3...................               $300
44, 145................................  MEDICAL FIELD SYSTEMS....  BAND 3...................             $5,700
(AF) 37................................  NAVSTAR GPS..............  BAND 3...................            $16,500
24 thru 45, 49.........................  SMALL ARMS...............  BAND 3...................            $87,300
                                                                   ---------------------------------------------
                                                                        Subt.................         $1,000,000
----------------------------------------------------------------------------------------------------------------
165....................................  TACTICAL ELEC PWR........  BAND 4...................            $44,600
1 thru 3...............................  TRAILERS.................  BAND 4...................            $46,400
148 thru 160...........................  CONSTRUCTION EQUIPMENT...  BAND 4...................            $25,000
                                         DRIVER VISION ENHANCEMENT  BAND 4...................           $473,050
6......................................  FIRE TRUCKS TACTICAL.....  BAND 4...................             $4,000
78.....................................  LONG RGE SCT SURV SYS....  BAND 4...................            $17,600
1 thru 3...............................  LTV HIGH MOB TRLR........  BAND 4...................           $138,800
35.....................................  NON-LETHAL AMMO..........  BAND 4...................             $4,100
5......................................  PALLETIZED LOADING SYS...  BAND 4...................            $80,700
166....................................  ROUGH TERRAIN CONTAINER    BAND 4...................             $8,600
                                          HANDLING.
5, 10..................................  AVN LUH..................  BAND 3...................            $47,750
16, 17 & 124, 125......................  TACTICAL BRIDGING........  BAND 4...................            $29,000
172 thru 174...........................  TEST, MEASURE, DIGITAL     BAND 4...................             $8,200
                                          EQUIP.
                                                                   ---------------------------------------------
                                                                        Subt.................           $927,800
----------------------------------------------------------------------------------------------------------------
                                                                        TOTAL................         $3,927,800
----------------------------------------------------------------------------------------------------------------


                       ACTIVE PROTECTION SYSTEMS

    7. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, this subcommittee has been a strong advocate for the 
development of force protection technologies to defeat current and next 
generation threats to our soldiers. The subcommittee has authorized 
additional funding for active protection systems (APS) for Army 
vehicles that can help defeat rocket-propelled grenades (RPG) and other 
weapons systems that are being used in theater and can easily be 
proliferated at very sophisticated levels. I know that a number of 
contractors are developing APS for deployment on vehicles and that the 
Israeli Defense Force is moving towards deploying a system. I believe 
that the Army strategy is to develop a vehicle APS through the FCS 
program and then to spin-out the technology to current force vehicles, 
like Strykers and trucks. Have any realistic live fire tests occurred 
on Army vehicles using the FCS APS?
    General Speakes and General Thompson. The FCS APS has not completed 
any ``full up'' tests on vehicles to date. The FCS APS system is still 
being designed under the FCS System Development and Demonstration (SDD) 
effort. To date, the FCS program has conducted developmental and 
technical tests and is currently scheduled to complete on-the-move 
live-fire tests in May-June 2008. These tests will provide supporting 
evidence of the FCS APS maturing to Technology Readiness Level 6, 
addressing the ``system/subsystem model or prototype demonstration in a 
relevant environment (ground or space).'' Further, APS design 
maturation and testing is planned through the remaining FCS SDD effort. 
The FCS program is scheduled for Milestone C decision review in 2013. 
At that time, the APS will be integrated on current force platforms 
that are capable of meeting its size, weight, and power requirements.

    8. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, is the Army evaluating Israeli and other APS 
approaches as potential near-term solutions to address RPG threats to 
light vehicles?
    General Speakes and General Thompson. In May 2006, the APS 
developer (Raytheon), the United States Army, the FCS Lead Systems 
Integrator, and industry representatives performed a technical trade 
study to identify and assess APS alternatives and select an APS design 
from among competing alternatives. The APS technical trade study 
evaluated 19 ``hard kill'' APS, including Israeli Trophy APS, for 
suitability to accomplish the FCS requirements (7 APS alternatives 
survived the initial screening process). The study concluded that 
Raytheon's Vertical Launch APS solution was the best design approach. 
The study did not select the Israeli Trophy system because it failed to 
meet several technical threshold requirements imposed by the FCS 
Operational Requirements Document.

    9. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, does the fiscal year 2009 Army budget request include 
sufficient funding to rapidly develop, test, and field an APS that can 
defend light vehicles deployed in Iraq and Afghanistan? If not, what is 
the shortfall?
    General Speakes and General Thompson. The fiscal year 2009 budget 
request includes funds to develop APS for Stryker platforms and the 
family of FCS Manned Ground Vehicles. The Army is not developing APS 
for other platforms. Our current platforms are severely limited in 
their ability to accept APS by size, weight, and power constraints. 
High priority modifications such as add-on armor and Improvised 
Explosive Device defeat systems have enhanced the force protection 
capabilities of vehicles in Iraq and Afghanistan. These modifications 
have also exacerbated the size, weight, and power limitations of 
deployed platforms by adding weight or consuming the space and power 
that would be needed to accommodate APS. For example, the Stryker 
Mobile Gun System currently consumes over 91 percent of its generated 
power during missions; adding APS results in a power deficit of over 3 
kilowatts. The Bradley consumes over 80 percent of its generated power 
during missions; adding APS results in a deficit of over 2 kilowatts. 
Integrating APS on currently deployed platforms would require costly 
power and suspension upgrades at the expense of theater requirements 
and may not be achievable based on current platform limitations.

    10. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, when do you expect an APS to be operationally fielded 
on lighter vehicles like a Stryker?
    General Speakes and General Thompson. We expect to achieve a 
sufficient maturity level (Technology Readiness Level 6) for the APS 
system in fiscal year 2009 (fiscal year 2008) to begin integration work 
on existing systems, but we are severely challenged by the limitations 
of current platforms in our ability to field APS in the near term. The 
current Stryker platform does not currently have the power generation 
to support the integration of the APS. For example, the Stryker Mobile 
Gun System currently consumes over 91 percent of its generated power 
during missions; adding APS results in a power deficit of over 3 
kilowatts. The Stryker program is initiating a Stryker Product 
Improvement Plan which plans to integrate the power management 
sufficient to meet APS requirements. The Milestone A decision will 
occur this June, and a Milestone B decision is in planned for the third 
quarter of fiscal year 2009. The first unit is expected to be equipped 
in fiscal year 2015.

                ARMY SCIENCE AND TECHNOLOGY INVESTMENTS

    11. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the Army's science and technology (S&T) budget is 
down by over $1 billion relative to last year's appropriated levels. Of 
particular concern, is the reduction in investments in energy and power 
technologies research. I know that the FCS program is critically 
dependent on advanced battery technologies and for energy conservation 
and cost reasons, the Army is also interested in fuel cells, hybrid 
engines, and other alternative energy technologies. What is the current 
investment in Army research in alternative power and energy 
technologies?
    General Speakes and General Thompson. The Army's S&T President's 
budget request (PBR) for 2008 was $1.7 billion and was appropriated at 
$2.9 billion, including $1.2 billion for congressional increases. The 
Army's S&T PBR for 2009 is up by $114 million or 6.6 percent over the 
PBR for 2008. The 2008 PBR investment in alternative power and energy 
technologies is $85 million, while the 2009 PBR is $89.5 million. This 
investment supports basic research in biofuels and hydrogen generation; 
applied research in manportable hybrids, fuel cells, and solar 
technologies; and advanced technology development in batteries and 
energy storage, alternative auxiliary power, and hybrid propulsion.

    12. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, in general, what are your top areas of budget 
shortfalls in S&T?
    General Speakes and General Thompson. Despite the demands of the 
ongoing global war on terror, the Army has been able to maintain its 
S&T investment at over $1.7 billion for the past three PBRs. The Army 
S&T PBR for 2009 is $1.8 billion, an increase of $114 million or 6.6 
percent increase over 2008. We believe this level of investment is 
sufficient to support our acquisition priorities consistent with our 
broad resource demands.
    Areas of investment that would benefit from additional resources 
are those being challenged by the continuing war on terrorism: (1) 
force protection efforts like information assurance to keep our net-
centric information technology systems secure and new biometrics 
technologies to assure that we can identify and track potential 
insurgents; and (2) medical efforts initiated to address issues such as 
regeneration of tissue for soldier's skin, muscle, and eventually limbs 
and efforts to prevent and ameliorate effects of traumatic brain injury 
and post-traumatic stress disorder.

                       STRYKER MOBILE GUN SYSTEM

    13. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the Stryker Mobile Gun System (MGS) is a recently 
deployed vehicle that has received mixed reviews from both operators in 
theater and the Directorate of Operational Test and Evaluation. 
Soldiers operating it in Diyala province are calling it the ``most 
lethal ground support vehicle for an urban environment in Iraq today,'' 
but there are also many complaints about cabin heat. Reports tell of 
vehicle temperatures reaching 130 degrees during the day and 115 
degrees at night. Some commanders are shutting down the Commander's 
Panoramic Viewer during the hottest time of the day to minimize heat 
induced failures to the system. There have been stories about soldiers 
patrolling while injected with an IV to stay hydrated in the intense 
heat before they were issued special cooling vests. These vests seem to 
work for soldiers, but cannot be used on the heat sensitive electronic 
systems.
    Last year's National Defense Authorization Act (NDAA) included a 
provision requiring the Secretary of the Army to certify that the 
Stryker MGS is operationally effective, suitable, and survivable. Will 
the Secretary of the Army be able to certify to Congress that the 
Stryker MGS is operationally effective, suitable, and survivable or 
will he need to request the National Security Waiver Authority provided 
to the Secretary of Defense?
    General Speakes and General Thompson. The Stryker MGS is filling a 
much needed capability gap within the SBCTs against the current threat. 
As the Army continues to improve the Stryker MGS, it is undertaking an 
aggressive program to mitigate limitations, such as those you mention, 
which are not uncommon on complex weapon systems.
    The Secretary of the Army has requested that the Secretary of 
Defense approve and submit a waiver to allow further procurement of the 
Stryker MGS in the interest of national security. The decision is based 
primarily on the restrictive nature of the language contained in the 
NDAA for Fiscal Year 2008 (Pub. L. 110-181), which requires an 
unqualified certification of operational effectiveness, suitability, 
and survivability by the Secretary of the Army.

                         AVIATION MODERNIZATION

    14. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the last few years has seen a major shift in Army 
aviation modernization funding. The cancellation of the Comanche 
helicopter freed up $14.6 billion to be invested in fixing the 
remainder of Army aviation. You have been able to procure more Black 
Hawks and Chinooks, increase aircraft survivability, and begin 
acquisition of new aircraft, including the Light Utility Helicopter, 
the Armed Reconnaissance Helicopter (ARH), and the Joint Cargo 
Aircraft. The ARH program experienced some problems that led to a stop 
work notice and a shift in funding to extend the life of the Kiowa 
Warrior. The fiscal year 2009 budget request includes $439 million for 
28 of these aircraft. What actions were taken to ensure that the 
program was back on track, both by Bell and in Army oversight?
    General Speakes and General Thompson. The Army has continued to 
work with the Office of the Secretary of Defense (OSD) and the 
contractor to mitigate risks on the ARH Restructure Program. An OSD 
Program Support Review team conducted reviews of the ARH Program at 
both the ARH Program Office and Bell Helicopter to allow for a common 
understanding of the risks. In order to mitigate identified risks the 
Army added a second Limited User Test, made program schedule 
adjustments to align testing events with decision points relative to 
production, added two SDD prototype aircraft to mitigate risks relative 
to transitioning to production, restructured the SDD contract to align 
cost and schedule estimates, and scheduled a Restructure Defense 
Acquisition Board (DAB) review on July 2, 2008. At the Restructure DAB 
the Army will seek approval of the revised Acquisition Strategy, the 
procurement of 10 Production Representative Test Vehicles, the increase 
of the Army Acquisition Objective from 368 to 512 aircraft, and a 
formal restructure of the Acquisition Program Baseline.

    15. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, when is the next assessment to see if Bell has 
actually corrected the problems cited?
    General Speakes and General Thompson. There are several key events 
on the horizon for the program. There is a DAB review scheduled for 
July 2008, a second Limited User Test scheduled for the spring of 2009, 
and a Milestone C scheduled for the summer of 2009.

    16. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, what actions will be taken if you encounter problems 
again?
    General Speakes and General Thompson. Just as in the previous case, 
the Army and the OSD will take a hard look at the program to determine 
if it remains the best approach--technically and economically--for the 
Army to meet the warfighter's requirement.

    17. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, how long can we extend the Kiowa?
    General Speakes and General Thompson. The OH-58D Kiowa Warrior's 
(KW) lifespan is based on the actual aircraft condition rather than a 
projected hour level or years of service. Due to delays in the fielding 
of the ARH, the Army intends to sustain and maintain the capability of 
the OH-58D KW to at least fiscal year 2020. Congress provided 
additional funding to the OH-58D KW program for the Safety Enhancement 
Program (SEP), which brings the fleet to a common configuration by 
fiscal year 2011. Known deficiencies with the OH-58D KW require 
additional investment in the fleet so that the aircraft remains safe 
and combat effective beyond fiscal year 2011.
    There are currently 335 KWs in the field today to resource the 368 
total aircraft requirement under the current OH-58D KW force structure. 
Of the 335 aircraft, 73 are over 20 years old and all have components 
that are over 35 years old that were retained from the original OH58A/C 
Kiowas built for the Vietnam war. With each passing year, KW fleet 
management must address the risk of experiencing systemic component 
failures and significant sustainment issues. Based on the current 
attrition rate of 5 to 7 aircraft lost per year during our wartime 
footing, the fleet size is projected to be as few as 251 aircraft by 
fiscal year 2020 without replacement aircraft. This equates to a large 
deficit of combat power when we are resourcing units to the warfight 
and limited remaining resources for training and sustainment. As 
currently planned, the ARH will begin replacing the OH-58D KW in fiscal 
year 2011 when the first unit is equipped. However, the first OH-58D KW 
will not likely be divested until fiscal year 2013 when the ARH has 
replaced three units worth of aircraft.

                   TACTICAL WHEELED VEHICLE STRATEGY

    18. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the Army has plans to purchase around 10,000 Mine 
Resistant Ambush Protected (MRAP) vehicles, as well as over 2,000 new 
Stryker vehicles. At the same time, it plans to begin producing the 
JLTV. While the JLTV is a much needed improvement in the tactical 
vehicle fleet, and would support the power intensive FCS network, it 
would still perform many of the same tasks currently assigned to High 
Mobility Multipurpose Wheeled Vehicles (HMMWVs) and MRAPs.
    A Joint Requirements Oversight Council (JROC) decision permitted 
the Army and Marine Corps to not pursue a one-for-one HMMWV for MRAP 
replacement strategy. The justification for the JROC decision is 
unclear to me. Can you clarify the Army's motivation for pursuing a 
strategy and a two-thirds MRAP/one-third HMMWV strategy?
    General Speakes and General Thompson. A recent JROC validated an 
interim requirement for 12,000 MRAP vehicles. The theater MRAP and 
HMMWV mix is based on initial feedback from commanders that MRAP may 
not be suited to all missions because of its large size: HMMWVs are 
smaller and more maneuverable in densely populated areas. Theater 
commanders are still evaluating the MRAP's performance and will provide 
feedback at a later date.
    The JLTV is a separate Army-wide initiative with a potential 
requirement for 144,000 vehicles. The Army's emerging JLTV strategy is 
focused on Army-wide light tactical vehicle requirements and is not 
necessarily tied to theater requirements in the near-term. The Army is 
currently developing its Tactical Wheeled Vehicle (TWV) strategy, of 
which JLTV is intended to be a component.

    19. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, how will the MRAP vehicles be integrated into the 
force structure and TWV strategy after the wars in Iraq and Afghanistan 
wind down? Will it substitute other vehicles, such as the HMMWV or the 
Armored Security Vehicle?
    General Speakes and General Thompson. The Army is still assessing 
the MRAP and how it will be used in the future force. Current feedback 
indicates that while it provides outstanding protection for our 
soldiers, based on these and follow-on assessments, the Army will 
explore various options for future placement of the MRAP in the force. 
Decisions will be based on a myriad of factors including, but not 
limited to, performance of each variant and condition of the fleet upon 
completion of operation in Iraq and Afghanistan.

    20. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, in testimony given last November, Marine Corps 
Commandant, General James Conway, said that the Marines intended to 
half their MRAP vehicle order due to vehicle limitations. This leads us 
to question the overall vehicle strategy and what redundancies are 
occurring, both in MRAP and JLTV. What is the Army doing to ensure that 
the future vehicle strategy will minimize redundancies and support 
costs while maximizing commonality?
    General Speakes and General Thompson. The Army is currently 
developing its TWV strategy. In doing so it has compared the 
capabilities of the vehicles that compose its TWV fleet. The results 
indicate that there are redundant individual capabilities between 
vehicles there are no two vehicle types with identical capability sets.

                                 RADIOS

    21. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, an integral part of the FCS, and Army modernization 
overall, is the ability to transmit large amounts of information in a 
secure manner. Your testimony states that ``FM 3-0 also recognizes the 
unparalleled power of information in modern conflict, and the fact that 
information has become as important as lethal action in determining the 
outcome of operations.'' The Joint Tactical Radio System (JTRS) is the 
next evolution in the capability to manage and distribute this 
information, but has faced some setbacks in its development. There are 
still concerns that it will not be able to meet the challenges in terms 
of interoperability, meeting size, weight, and power constraints, and 
meeting information assurance requirements.
    In January, outgoing Assistant Secretary of the Army for 
Acquisition, Logistics and Technology, Claude Bolton, stated that 
within 5 years, the Army may have too little radio spectrum to allow 
its next-generation, networked force to work as it is designed to do. 
This communication system seems to be a key to connecting our 
warfighters. Is the Army's current procurement strategy vis-a-vis the 
Single Channel Ground and Airborne Radio System (SINCGARS) consistent 
with the Army's intent to transition to JTRS radios in the coming 
years?
    General Speakes and General Thompson. Yes. The Army's SINCGARS 
procurement strategy is consistent with its intent to transition to 
JTRS. The SINCGARS program addresses the Army's current single-channel 
line-of-sight (LOS) voice communications requirement. Once JTRS 
products are available, the Army will begin its transition to JTRS by 
purchasing various JTRS products. In the current Future Years Defense 
Plan, the Army programmed funds to procure the Ground Mobile Radio 
(GMR) and various JTRS Small Form Fit (SFF) radios.
    The Basis of Issue (BOI) for the Army JTRS requirements is 
currently being developed and completion is currently scheduled for 
July 2008. The BOI will map out the distribution of JTRS products by 
type for each brigade-sized unit within the Army, accounting for 
distribution quantities from the brigade headquarters down to the 
individual soldier. This BOI will be the basis for the inclusion of 
additional JTRS procurement funds in the Army's future budget 
submission for the procurement of additional GMR and SFF radios, as 
well as JTRS Handheld, Manpack and Small Form Fit (HMS) and Airborne, 
Maritime, Fixed (AMF) radios.

    22. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, what is the current status of the development of 
JTRS? Is the Army's SINCGARS acquisition strategy a reflection of its 
confidence, or lack thereof, in the JTRS program?
    General Speakes and General Thompson. The Joint Program Executive 
Office for the JTRS Program has made significant progress, highlighted 
by the AMF radio Milestone B decision and SDD contract award. In 
addition, the Acquisition Program Baseline (APB) updates for the GGMR, 
Handheld, Manpack and Small Form Fit (HMS) radio, and Network 
Enterprise Domain (NED) were approved and signed by the Under Secretary 
of Defense (Acquisition, Technology, and Logistics). These efforts, in 
process since fiscal year 2007, represent major steps toward the 
acquisition and delivery of JTRS Increment 1 capabilities.
    The JTRS program anticipates a Milestone C for GMR in the 4th 
quarter of fiscal year 2010, which supports initial fielding for FCS 
Spin Out 1. Full Rate Production is anticipated in fiscal year 2013/14. 
The HMS Low Rate Initial Production (LRIP) is scheduled the third 
quarter of fiscal year 2010 and the AMF (rotary wing) LRIP is scheduled 
for the first quarter of fiscal year 2013.
    The SINCGARS acquisition strategy is not a reflection of the Army's 
confidence, or lack thereof, in the JTRS program. The SINCGARS program 
addresses the Army's current single-channel LOS voice communications 
requirement. When available, JTRS products will be procured to meet not 
only the Army's single-channel LOS voice requirement, but other 
tactical radio communications requirements, to include mobile ad-hoc 
networking and beyond LOS voice and data communications.
    Finally, the Army and Defense senior leadership have expressed 
concern about the affordability of JTRS GMR. The Army will review and 
investigate cost savings options and alternatives that will leverage 
and reduce the cost of the JTRS GMR. Any adjustments to the program 
baseline will be reflected in the future budget submissions with 
required policy changes to support the new acquisition strategy.

    23. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, are there potential radio spectrum limitations that 
could stop this system from working as planned?
    General Speakes and General Thompson. The JTRS program is in the 
process of developing multiple radio products with spectrum agility. 
The Joint Tactical Radio (JTR) sets are software defined radios that 
can be programmed to utilize available frequencies from 2 Megahertz 
(MHz) to 2 Gigahertz (GHz). The ability of JTRS to operate between 2 
MHz to 2 GHz is a significant benefit in spectrum planning because it 
enables many more options than would be the case for radios technically 
constrained to particular frequencies. Also, JTR sets can be programmed 
to the same frequency utilized by current force radios to achieve 
interoperability with Channel Ground and Airborne Radio System 
(SINCGARS), Enhanced Position Location and Reporting System (EPLRS), 
High Frequency (HF), and Ultra HF (UHF) Satellite Communication radios. 
Further, through frequency cross-banding, the JTRS family will be able 
to connect radios operating in different frequency bands to allow 
interconnectivity between disparate radio networks. For example, the 
GMR provides interconnectivity between legacy EPLRS and JTRS Wideband 
Networking Waveform data networks, and the GMR and JTRS Manpack radio 
provides interconnectivity between legacy SINCGARS and JTRS Soldier 
Radio Waveform voice networks.
    As indicated by Secretary Bolton, our military's demand for access 
to the radio frequency spectrum increases with the advent of JTRS and 
other radio development programs. These systems compete for spectrum 
resources along with industry and commercial applications. A number of 
actions are being taken in JTRS Increment 1 to mitigate the spectrum 
risk. These include thorough radio frequency communications planning, 
and early outreach to nations expected to host JTRS. Additionally, 
spectrum related technological enhancements are being considered for 
implementation in later JTRS Increments. One promising technology is 
dynamic spectrum access. This technology is being developed by the 
Defense Advanced Research Projects Agency (DARPA) and is expected to 
enable radios to find frequencies and operate in temporarily unused 
spectrum. This capability would significantly increase the RF spectrum 
available during JTRS operations. Preliminary DARPA capability 
demonstrations are encouraging and are currently being considered for 
incorporation into JTRS and other radio development programs.

                     ACCELERATION OF GROW THE ARMY

    24. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the Secretary and Chief of Staff of the Army have 
testified that they want to accelerate the growth of Army end strength 
beyond its planned 7,000 for fiscal year 2009. Yet the budget request 
does not include the additional funds necessary to accomplish this. How 
does the Army intend to accelerate end strength growth?
    General Speakes and General Thompson. The Army's planned growth of 
Active component end strength at about 7,000 per year is a metered 
approach for building total Army capacity and sustaining the All-
Volunteer Force through the foreseeable future. This growth ramp, 
however, falls short of alleviating stress on the force in the near 
term. The Army's desire to grow end strength more rapidly in fiscal 
year 2009 addresses this need by improving manning levels of the next-
to-deploy forces. This provides the much deserved dwell time to 
soldiers returning from theater. As a global war on terror-driven 
requirement, the Army anticipates a request in the fiscal year 2009 
global war on terror funding request to support acceleration of end 
strength.

    25. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, what are the major investment requirements necessary 
to support this growth?
    General Speakes and General Thompson. There are no major 
investments required to support the acceleration of end strength 
growth. The largest preponderance of the costs is associated with 
military pay and allowances. There are some requirements associated 
with training and base operation support.

                   ARMY INFORMATION SYSTEMS PROGRAMS

    26. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, the Department is moving towards developing joint and 
interoperable information systems to support military operations 
wherever possible. A major effort in this vein is the development of 
joint global command and control systems. My understanding is that the 
Services are all driving towards adopting command and control 
technologies developed by the Defense Information Systems Agency (DISA) 
under the Network Enabled Command Capability (NECC) program.
    At this point, both the Director of Operational Test and Evaluation 
and the Director of Defense Research and Engineering have commented in 
reports on the technical immaturity and aggressive schedule in the 
program. I understand that the Department still plans to migrate 
Service command and control problems, like the Army's Global Command 
and Control System, into the joint NECC solution around the 2012 
timeframe.
    Given your current and anticipated future operational needs for 
command and control, what risks will the Army be taking if the NECC 
program continues to slip its schedule and does not deliver 
capabilities on time?
    General Speakes and General Thompson. The Army is a strong 
supporter of the NECC joint program as a partner with DISA, the Navy, 
Marine Corps, and Air Force. DISA and the Joint Forces Command lead 
this program, with active participation of the Army, Navy, Marine 
Corps, and Air Force. All Services agree that further development of 
command and control (C2) systems must be done on a joint basis to move 
beyond the current systems that have limited horizontal 
interoperability. The Army, along with the other Services, has also 
been concerned with key program issues such as technical maturity and 
the aggressiveness of the program schedule. The Army is an active 
participant in the OSD-led NECC Joint Action Team (JAT), established to 
mitigate these risks.
    The Army has fully funded NECC Increment 1 and is developing plans, 
in conjunction with the joint program, to fully replace the Global 
Command and Control System (GSSC)-Joint and GSSC-Army (GCCS-A) systems 
providing Joint C2 to strategic and operational Army headquarters by 
the end of fiscal year 2013. The GCCS-A will not be retired until the 
Army replaces GCCS-A functionality with NECC capabilities at all GCCS-A 
sites. Maintaining GCCS-A until it can be replaced by NECC at all GCCS-
A sites will reduce the risk to the soldier of losing current 
functionality. The Army plans to continue GCCS-A development to support 
soldiers through fiscal year 2010. The remaining risk is the need to 
continue GCCS-A maintenance funding until NECC has completely replaced 
it. The Army has procurement funding to sustain GCCS-A until fiscal 
year 2013. If the NECC schedule slips substantially, there is a risk 
that the Army would not have sufficient funding to maintain GCCS-A 
until NECC Increment 1 is delivered.

    27. Senator Lieberman. Lieutenant General Speakes and Lieutenant 
General Thompson, what role is the Army playing to ensure that the NECC 
program delivers the command and control capabilities it needs in a 
timely fashion?
    General Speakes and General Thompson. The Army is a strong 
supporter of the NECC program and participates proactively in all of 
the requirements (Joint Capability Integration and Development System), 
resourcing (Planning Programming Budgeting and Execution System), and 
acquisition (DOD 5000) forums supporting this program. The Army has 
fully funded NECC Increment 1 and is developing plans, in conjunction 
with the joint program, to fully replace the GCCS-J and GCCS-A systems 
providing Joint C2 to strategic and operational Army supported 
headquarters by the end of fiscal year 2013. As a partner in this joint 
development program, the Army staffs and maintains an Army Component 
Program Management Office (CPMO) under the NECC Joint Program 
Management Office along with DISA, the USN, USMC, and USAF. The CPMOs 
will be the development offices and anticipate developing NECC 
capabilities related to their Service operation mission areas. The Army 
CPMO is expected to be the developer for the most important 
capabilities supporting ground operations across all increments of the 
NECC program.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                    BRIGADE COMBAT TEAM CONVERSIONS

    28. Senator Pryor. Lieutenant General Speakes and Lieutenant 
General Thompson, the Army's fiscal year 2009 operation and maintenance 
budget request for readiness supports the Reserve component conversion 
of deployable, brigade-centric forces. The 39th BCT from the Arkansas 
National Guard represents this modernization. While the 39th BCT is now 
designed to fight without augmentation as a BCT, and are trained to do 
so as a cohesive unit, they were not deployed to Iraq last month in 
support of Operation Iraqi Freedom as a BCT. The Army has fragmented 
the 39th BCT into company size elements and dispersed the team 
throughout Iraq for force protection, support of Joint Visitors Bureau 
operations (providing bodyguards for dignitaries and embassy 
personnel), and convoy security. Why is the Army budgeting/funding 
these BCT conversions if they are not using them in battle?
    General Speakes and General Thompson. The 39th BCT is deployed to 
the U.S. Central Command Area of Responsibility (AOR), and is 
conducting final preparations to assume the mission-critical tasks 
assigned by the combatant commander. First U.S. Army provided oversight 
of the readiness, mobilization, and training validation for the 39th 
BCT, as is the process with all our ARNG units. The unit was brought on 
Active Duty with its leadership and organization intact, to train and 
deploy together.
    Once in theater, the combatant commander is in the best position to 
make decisions on command and control of security force units, based on 
his awareness of the tactical and strategic situation. Due to the 
nature of the mission, some unit dispersal is likely as units spread 
out within their respective AORs to provide security at forward 
operating bases. Decisions on specific security force missions--convoy 
escort, fixed site security, quick reaction force or other 
requirements--will be made by the combatant commander based on the 
conditions on the ground. The 39th BCT is uniquely well-suited for 
these vital missions, and we are proud of their service and their 
professionalism.

                               M4 RIFLES

    29. Senator Pryor. Lieutenant General Speakes and Lieutenant 
General Thompson, in recent comparative tests the M4 rifle performed 
worse than three of its competitors, the HK416, the MK16, and the 
HKXM8, as the Army's main weapon of choice for its soldiers. Having 
experienced a total of 882 stoppages and 19 Class 3 (serious) failures 
while being tested in extremely dusty conditions, the Army is standing 
by its decision to outfit/modernize the force with the M4 carbine 
despite these reliability questions. In spite of this information, the 
Army intends to spend $300 million to produce M4 rifles through fiscal 
year 2009. Why?
    General Speakes and General Thompson. The M4 remains in high demand 
by all our deployed units and soldiers and has proven itself through 
numerous tests under a wide variety of conditions and in combat 
throughout the years. The M4 Carbine is an extremely reliable weapon 
design that meets or exceeds the United States Army's requirements and 
has the confidence of the overwhelming majority of soldiers based on 
post combat and other surveys. The Army considers soldier feedback on 
weapon performance very important. A United States Army Infantry Center 
post combat survey showed that 90 percent of soldiers armed with the M4 
rated it as effective or highly effective. A Program Executive Office 
soldier sponsored post combat survey conducted by the Center for Naval 
Analyses in 2006 reported 89 percent of soldiers armed with the M4 are 
satisfied with its overall performance. In the same survey, only 1 
percent recommended the M4 be replaced.
    In regard to the tests mentioned, the M4 had more stoppages than 
the other three weapons but still only had 1.4 percent malfunctions out 
of 60,000 rounds fired. The other competitors experienced less than 1 
percent malfunctions out of 60,000 rounds. All of these weapons 
performed exceptionally under these extreme conditions. The vast 
majority of the M4 malfunctions were Class 1 and 2 malfunctions, solved 
either by immediate action or minor remedial action by the operator. 
Over 200 of the malfunctions were attributed to the M4 and M16 
magazines, and at the time of the tests a program was already underway 
to provide an improved magazine to our soldiers.

                               BODY ARMOR

    30. Senator Pryor. Lieutenant General Speakes and Lieutenant 
General Thompson, the Army currently uses Enhanced Small Arms 
Protective Insert (ESAPI) plates to compliment the interceptor body 
armor system used by our soldiers in Afghanistan and Iraq. The contract 
for the acquisition of ESAPI plates ends in May of this year. The Army 
has initiated a request for proposal for the next generation Small Arms 
Protective Insert plates and intends to award a contract in the fall of 
2008. Does the Army have a plan to bridge the gap in this short pause 
in procurement to account for an adequate supply of ESAPI plates to 
support the readiness of our troops?
    General Speakes and General Thompson. The Army has a plan to ensure 
an adequate supply of ESAPI plates supporting soldier readiness after 
we procure the Army ESAPI requirement of 966,000 sets by May 2008. The 
Defense Logistics Agency (DLA) is responsible for ESAPI sustainment and 
awarded three contracts in December 2007 to provide sustainment 
quantities of ESAPI. DLA ESAPI sustainment contracts will mitigate the 
time lag for procurement of the next generation ballistic plate. The 
ESAPI sustainment contracts also will ensure the industrial base 
maintains the capability to manufacture ballistic plates. The U.S. Army 
also is working with the vendors to reduce their monthly delivery 
requirements to stretch out their production runs. This reduction must 
be balanced to ensure there is no gap in addressing fielding 
requirements. Fielding requirements will always remain the priority.

    31. Senator Pryor. Lieutenant General Speakes and Lieutenant 
General Thompson, has the Army considered the consequences to the 
industrial base as a result of existing contracts and the contracts 
projected for award later this year?
    General Speakes and General Thompson. From the outset, the U.S. 
Army understood the need to have an orderly transition of ESAPI to any 
potential next generation body armor production to avoid an adverse 
affect on industry. The U.S. Army has had to extend all current ESAPI 
supplier contracts several times due to industry requests to delay the 
current body armor solicitation that is being competed on a full and 
open basis. The U.S. Army will continue to work with industry to 
minimize the impact until any potential follow-on contracts are 
awarded. However, there will be a reduction of ESAPI monthly production 
rates. The DLA is responsible for ESAPI sustainment and awarded three 
ESAPI sustainment contracts in December 2007. DLA ESAPI sustainment 
contracts will mitigate the delay in procuring the next generation 
ballistic plate. The ESAPI sustainment contracts will ensure the 
industrial base maintains the capability to manufacture ballistic 
plates. The U.S. Army also is working with the vendors to reduce their 
monthly delivery requirements to extend their production runs. This 
reduction must be balanced to ensure there is no gap in fielding 
requirements. Fielding requirements will always remain the priority.

    32. Senator Pryor. Lieutenant General Speakes and Lieutenant 
General Thompson, is the Army still on schedule with its acquisition 
goal of 966,000 ESAPI plates?
    General Speakes and General Thompson. Yes. The Army completed 
fielding ESAPI to deployed forces in Operation Iraqi Freedom and 
Operation Enduring Freedom in February 2006 and will procure the Army-
wide ESAPI requirement of 966,000 sets by May 2008.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                               M4 RIFLES

    33. Senator Inhofe. Lieutenant General Speakes and Lieutenant 
General Thompson, the Army recently conducted extreme dust testing of 
the M4 rifle and three other carbines. Officials at the Army Test and 
Evaluation Center, Aberdeen Proving Ground, tested 10 each of the 4 
carbine models, firing a total of 60,000 rounds per model. What were 
the results of the test?
    General Speakes and General Thompson. The results of the test 
showed two primary things. First, all four weapons were challenged by 
an extreme environment and an extremely constrained maintenance 
regimen, yet all the weapons performed well. Each weapon performed 
greater than 98.6 percent of the time over 60,000 rounds. Second, all 
of the weapons showed wear that was to be expected in a laboratory test 
designed to accelerate the individual weapons' expected wear-out 
period.
    While this test was not scheduled in the programmed life of the M4, 
the U.S. Army took the opportunity to use the data produced to further 
improve the M4 Carbine. The test showed that in an extreme dust 
environment, all weapons needed to be lubricated with a liberal coat of 
the U.S. Army standard lube CLP instead of a light coat as previously 
thought and all needed regular cleaning in accordance with the current 
instructions in the manual which is: before every mission and daily in 
dusty environments. There was a very small difference in performance 
between all four weapons; i.e., the range in performance differential 
between all the weapons was about 1 percent. This confirmed what the 
previous market research showed, that there was no significant leap 
ahead capability in the current market place. Engineers from both APG 
and Picatinny Arsenal are conducting further analysis to further 
improve all aspects of the weapon, as we have over the life of the 
weapon, which is standard procedure for U.S. Army equipment including 
all weapons.

    34. Senator Inhofe. Lieutenant General Speakes and Lieutenant 
General Thompson, what is the way ahead for the Army and the M4?
    General Speakes and General Thompson. The Army plans to continue 
funding the M4 carbine due to high demand for M4s in theater 
Operational Need Statements and the constant growth in M4 carbine 
requirements experienced each year since September 11. The M4 carbine 
requirement will be recompeted after June 2009 as the current 
manufacturer, Colt, will no longer retain the Technical Data Package 
Rights to the M4. The Army will conduct a full and open competition for 
the production of future carbines. Prior to this competition, the 
Training and Doctrine Command and the United States Army Infantry 
Center will update the requirements document to make it Joint 
Capabilities Integration and Development System compliant, to 
incorporate all modifications in the capabilities since the original 
document was approved, and to account for improvements in carbine 
technology. Results from testing, such as the recent dust test, any 
lessons learned from the current operations, and industry developments 
will also be incorporated into the new document as needed.
                                 ______
                                 
 Questions Submitted by Senator Bill Nelson and Senator Hillary Rodham 
                                Clinton

                      ARMY TACTICAL RADIO SYSTEMS

    35. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, what is the Army's current 
(most updated) SINCGARS request for the fiscal year 2008 defense 
supplemental?
    General Speakes and General Thompson. The Army fiscal year 2008 
SINCGARS defense supplemental request is $500.4 million.

    36. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, has there been a change since 
the request was submitted?
    General Speakes and General Thompson. Yes. Of the $500.4 million 
supplemental request, there was an OSD-directed decrement of $139.3 
million applied to this program to address other higher Army 
priorities. A supplemental balance of $361.1 million remains.

    37. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, the fiscal year 2009 budget 
request asks for $84.5 million for SINCGARS. Do you expect the second 
supplemental request to ask for additional funding for SINCGARS?
    General Speakes and General Thompson. The fiscal year 2009 budget 
request was $84.5 million for SINCGARS requirements. This request will 
satisfy the Army SINCGARS Radio System requirement. Currently, there is 
no requirement to submit an fiscal year 2009 supplemental request for 
SINCGARS. However, battlefield operational conditions will dictate 
whether additional funding is required to meet any new emerging 
requirements.

    38. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, is it true that the Secretary 
of the Army has recently directed that any future requirements for 
SINCGARS capability be met through full and open competition, in 
accordance with the specifications of the SINCGARS Operational 
Requirements Document (ORD)? If so, why?
    General Speakes and General Thompson. Yes. On March 27, 2008, 
Secretary Geren received a SINCGARS decision brief on Requirements and 
Acquisition Strategy. To ensure all vendors received a fair opportunity 
for business, Secretary Geren directed a full and open competitive 
procurement be conducted for the remaining 56,000 SINCGARS receiver-
transmitters (RTs) required to satisfy its Army Acquisition Objective 
(AAO) of 581,000 RTs.

    39. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, given the Army decision to 
procure SINCGARS legacy technology over modern JTRS technology, what is 
the justification to continue spending additional funds for GMR or 
Handheld/Manpack/Small Form Fit (HMS) development (less the small form 
factors)?
    General Speakes and General Thompson. The JTRS program is the Army 
tactical radio of the future. However, current operational conditions 
and equipment demands dictate a need for a Combat Net Radio now to 
conduct battlefield operations. The SINCGARS, with its proven 
technology, satisfies that requirement. Upon validation and approval of 
JTRS program milestones, the Army is programmed to migrate to this 
future technology when available in fiscal year 2011.

    40. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, has an acquisition strategy to 
bridge to JTRS been developed? If so, what is it?
    General Speakes and General Thompson. Yes. The Army is currently 
refining its JTRS migration strategy which bridges current force 
tactical radio capabilities to future force JTRS capabilities. The plan 
requires internal Army staffing and is scheduled to be completed March 
2009.

    41. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, have you reexamined the 
current tactical radio modernization plan in accordance with the NDAA 
for Fiscal Year 2008? If so, how?
    General Speakes and General Thompson. Yes. The Army is constantly 
reviewing its tactical radio modernization plan to ensure current 
battlefield operational needs are met. The Army is refining its JTRS 
migration strategy which will explain and layout the Army plan to 
migrate current force radios to its future JTRS architecture. This plan 
will be available March 2009.

    42. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, what is the Army's position on 
the Army Science Board recommendation to cease procuring SINCGARS and 
transition to a JTRS approved product?
    General Speakes and General Thompson. The Army Science Board Summer 
study, Options for an Affordable LandWarNet, is being reviewed and 
evaluated by senior Army leadership. The study must be briefed to the 
Executive Office Council before an official Army position can be 
determined. While the study is still in a pre-decisional draft form, we 
expect the report will be finalized and released by early spring.

    43. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, the Secretary of the Army made 
a commitment to reexamine requirements and determine whether the 
SINCGARS ORD continues to meet needed capabilities. Has the 
reexamination taken place? If so, please explain the reexamination.
    General Speakes and General Thompson. The Army G3 did reexamine the 
requirements and reviewed available commercial off-the-shelf systems to 
determine if ``SINCGARS-like'' products could meet our requirements for 
full spectrum combat. Our analysis indicated there were certain 
operational capabilities that we could not afford to trade off without 
significant operational risk. The SINCGARS ORD continues, at this 
juncture, as our benchmark which guided our decision to competitively 
compete future contract awards.

    44. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, does the SINCGARS ORD require 
an embedded Global Positioning System (GPS) capability and if so, are 
all SINCGARS equipped with functional embedded GPS, including those 
procured in the last 2 years?
    General Speakes and General Thompson. The SINCGARS ORD, dated 
August 14, 1998, states ``the system shall include embedded GPS 
capability.'' The SINCGARS RTs procured in the last 2 years do include 
an embedded GPS capability.

    45. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, has the Army enforced full ORD 
compliance for the program of record?
    General Speakes and General Thompson. The SINCGARS ORD continues, 
at this juncture, as our benchmark for a Combat Net Radio program of 
record.

    46. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, has the Army altered or waived 
any of the requirements for SINCGARS?
    General Speakes and General Thompson. No. The SINCGARS ORD 
continues, at this juncture, as our benchmark for a Combat Net Radio 
program of record. In 2005, because of emerging global war on terror 
requirements and ITT's production inability to meet Army surge 
requirements, an operational decision was made to accept risk and 
procure the Harris AN/VRC-110 and the Thales AN/VRC-111 products which 
augment the SINCGARS radio requirement and are currently satisfying a 
Theater-specific requirement.

    47. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, are all Army units integrated 
into the tactical internet (TI) with the SINCGARS radio? If not, is a 
JTRS approved product acceptable in non-TI environments?
    General Speakes and General Thompson. Not all Army units require 
integration into the TI with the SINCGARS radio. Some Combat Support 
and Combat Service Support units have voice-only requirements and do 
not require TI capability. Yes, a JTRS-approved product has been deemed 
acceptable for non-TI environments only in Theater. Current SINCGARS 
ORD requirements specify that ORD compliant radios must fill Modified 
Table of Organization and Equipment and Table of Distribution and 
Allowance requirements.

    48. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, will the Army consider 
utilizing SINCGARS capable commercial off-the-shelf (COTS) radios for 
the MRAP vehicles? Please explain.
    General Speakes and General Thompson. Yes. The Army is using the 
Harris AN/VRC-110 and the Thales AN/VRC-111 radios in its MRAP 
vehicles. These radios consist of two handheld RTs which are powered by 
vehicular adapters and offer the soldier a ``jerk-n-run'' capability as 
well as other multi-band capabilities. The MRAP vehicles are identified 
as a Theater requirement. As previously mentioned, the Army has 
procured the Harris AN/VRC-110 and the Thales AN/VRC-111, COTS radios 
to augment its Theater radio requirement supporting global war on 
terror. The SINCGARS radios are still issued against ORD-compliant 
Modified Table of Organization and Equipment and Table of Distribution 
and Allowance requirements.

    49. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, please explain why the Army 
now considers the AN/VRC-110/111 Vehicular Amplifier Adapter to be a 
theater unique requirement.
    General Speakes and General Thompson. The AN/VRC-110 and AN/VRC-111 
are COTS products procured to augment SINCGARS and to satisfy Army 
Theater requirements. Those products are being used to support the 
Army's Up-Armored Vehicles requirement and portions of the MRAP vehicle 
requirements. The SINCGARS radio is still the primary ORD-compliant 
radio which is being issued to satisfy documented Modified Table of 
Organization and Equipment and Table of Distribution and Allowance 
requirements. The Harris AN/VRC-110 and the Thales AN/VRC-111 were 
procured, at Army risk, to meet surging operational demands, in which 
the prime vendor (ITT) was unable to satisfy and the Army was not 
willing to wait. The VRC-110 and VRC-111 offered a Command, Control, 
Communication, Computers, Intelligence, Surveillance, and 
Reconnaissance capability with minimal risk, but does not meet all ORD 
requirements for a full spectrum capability.

    50. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, what contract options are 
available to the Army fiscal year 2007 main supplemental funding? Have 
these options been exercised? If so, what was the value?
    General Speakes and General Thompson. The current SINCGARS contract 
with ITT has options which will allow award of fiscal year 2007 main 
supplemental funding. The current contract with ITT has options up to 
$2.2 billion. There is about $600 million remaining headspace on this 
contract.

    51. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, is there a ceiling on the 
existing tactical radio contract? If so, what is the dollar amount? Has 
the ceiling been reached? If not, when do you expect it will be 
reached?
    General Speakes and General Thompson. The current dollar ceiling on 
the existing SINCGARS contract with ITT is about $2.2 billion. There is 
about $600 million remaining headspace on this contract. We anticipate 
we will reach the headspace on this contract in fiscal year 2008.

    52. Senator Bill Nelson and Senator Clinton. Lieutenant General 
Speakes and Lieutenant General Thompson, in fiscal year 2008 and 
beyond, what other contracting alternatives has the Army explored? Has 
the Army made a decision about how to proceed?
    General Speakes and General Thompson. The Army has committed to 
full and open competition for the next SINCGARS procurement. We are in 
the process of reviewing options in light of validated requirements and 
will have better fidelity regarding our acquisition strategy once the 
competition is completed in late 2008. We will keep Congress informed 
in regard to this matter and our acquisition way ahead.

    [Whereupon, at 4:45 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                  AIR FORCE AND NAVY AVIATION PROGRAMS

    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Pryor, 
Chambliss, and Cornyn.
    Committee staff member present: Cindy Pearson, assistant 
chief clerk and security manager.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: Gregory T. Kiley, 
professional staff member; David M. Morriss, minority counsel; 
and Sean J. Stackley, professional staff member.
    Staff assistants present: Ali Z. Pasha and Benjamin L. 
Rubin.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; M. Bradford Foley, assistant to 
Senator Pryor; Samuel Zega, assistant to Senator Warner; Clyde 
A. Taylor IV, assistant to Senator Chambliss; and David Hanke, 
assistant to Senator Cornyn.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The subcommittee will come to order. I 
want to extend a welcome to our distinguished panel of 
witnesses and thank each of you for appearing before the 
subcommittee today.
    This subcommittee meets against the backdrop of continued 
bravery and exemplary performance by the members of our Armed 
Forces in Iraq, Afghanistan, and really throughout the world. I 
think we always want to, as we begin specific inquiries, note 
that reality with great appreciation.
    We convene this session of the Airland Subcommittee to 
discuss the present and future of aviation programs which come 
under the jurisdiction of this Airland Subcommittee. Every year 
we are faced with the challenge of balancing a number of 
competing demands for limited resources and in some sense 
balancing the demands of current operations with or against the 
requirement for future modernization. Decisions we make today I 
assure you we understand are important because in the most 
direct sense they can result in lives being saved in the next 
year or even years down the road.
    So with that introduction, let me just touch on a few of 
the issues that I hope that we will learn more about from the 
witnesses today. Two years ago Congress authorized the Air 
Force to enter into a multi-year procurement contract for the 
F-22 aircraft program. Now that program is facing a production 
shutdown. The fiscal year 2009 budget, that is the one that's 
before Congress now, for F-22 includes neither funds for 
advanced procurement of additional aircraft in 2010 nor money 
to pay for line shutdown charges.
    But I think the Air Force's view is clear on this, 
particularly noting that General Moseley's unfunded priority 
list--underline, ``priority list''--for fiscal year 2009 
includes $497 million for advanced procurement for 24 aircraft 
that would be produced in a later fiscal year. However, self-
evidently, others within the Department of Defense (DOD) hold a 
view that the currently approved program of 183 F-22 aircraft 
is enough to meet the needs of our warfighters. Now, the 
subcommittee really needs to hear from our witnesses today more 
about those differing views.
    We should also get an update on where the Joint Strike 
Fighter (JSF) stands today. We all know how important the JSF 
is to the modernization of all three Services represented here 
today.
    Beyond that, there are a couple of other areas of concern 
we have. One of these is the prospect for meeting future force 
structure requirements. For example, today we are facing the 
prospect that the Department of Navy program will lead to 
potentially large gaps between the resources that the Chief of 
Naval Operations has said he needs and the resources that will 
be available to his successors.
    Under current plans for Navy and Marine Corps tactical 
aircraft acquisition, we are facing a shortfall that 
optimistically will amount to 125 tactical fighters needed to 
outfit our 10 aircraft carrier air wings and three Marine Corps 
air wings. That's an optimistic view that we're going to be 125 
planes short of what's needed.
    With shortfalls that large, we could be faced with some 
tough choices: drastically reducing the number of aircraft 
available on short notice to the combatant commanders, either 
because we have deployed understrength air wings or because we 
did not deploy the carrier at all because of these aircraft 
shortages. These are really urgent, important questions. 
Perhaps even in asking them and documenting it in this way we 
make the point that I know my friend and colleague, Senator 
Cornyn, shares with me, which is that, though we are spending 
obviously a very large amount in absolute dollars for the DOD 
budget, the fact is that we are underfunding with those dollars 
some critically necessary programs. So we want to do our best 
to try to evaluate the needs and then authorize as close as we 
can up to the level of those needs in the interest of our 
national security.
    I'm now pleased to call on my ranking member and coworker 
in these efforts, Senator John Cornyn.

                STATEMENT OF SENATOR JOHN CORNYN

    Senator Cornyn. Thank you, Mr. Chairman.
    I join the chairman in welcoming all of you here today. 
While many focus on the contributions of our U.S. ground forces 
in Iraq and Afghanistan, and rightly so, the efforts of U.S. 
aviators on behalf of our Nation are nothing short of 
exceptional. Our aviators have been actively engaged in the 
Central Command (CENTCOM) area of operations for 17 years: the 
first Gulf War, the enforcement of the Iraq no-fly zones, and 
now Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF).
    These deployments, in addition to operations elsewhere 
throughout the world in support of humanitarian efforts, have 
made maximum use of this Nation's air forces. Of course we all 
extend an expression of gratitude to these men and women and 
their families as they continue their sacrifice and service to 
our Nation.
    While we recognize the joint aviation's invaluable 
contribution to defense, we face the challenge of balancing 
competing demands for funding current operations and investing 
in modernization. Since September 11, 2001, the balance has 
been tilted toward current operations, to the neglect of 
modernization. The shift is partly a result of the needs of the 
Army and the Marine Corps ground forces as operations in the 
Persian Gulf rightly demanded. Our Nation's ability to put off 
aviation modernization, however, is fast coming to an end, and 
I offer two quick examples.
    For fiscal year 2009, the Air Force submitted an unfunded 
priorities list of items that did not make it into the final 
budget request totaling $18.7 billion. The Air Force's unfunded 
list is 4 times the Navy's list, nearly 5 times the Army's, and 
10 times the Marine Corps's list.
    Last year during an Airland Subcommittee hearing, Navy 
witnesses testified to a potential gap in strike fighters. 
While the uncertainties of the service life of the current F-
18s and the production schedules for the future F-35 were 
discussed, the potential gap could reach over 220 Navy aircraft 
by the middle of the next decade.
    We must collectively commit to properly funding aviation 
modernization and then support those efforts. Moving forward, 
we cannot lose sight of the contributions the current forces 
are making, but we must adequately fund and support systems for 
the next generation of aviators and airmen.
    I'm particularly concerned with the actions taken, reports, 
and rumors on the next generation, the so-called fifth 
generation, tactical aircraft programs, the F-35 and F-22. Once 
again, the F-35 JSF program eliminates funding for the 
development of a second engine. Last year we held extensive 
hearings on the subject, discussing the pros and cons of 
ensuring that a competitive environment is maintained for the 
production of aircraft engines. Yet, contrary to expert opinion 
and congressional direction, this budget eliminates funding for 
a second source, and I'd like to hear from our witnesses why 
the Department chose not to follow the law.
    The Government Accountability Office (GAO) recently 
released a report critical of the F-35 JSF. The GAO took 
exception to the program's current risk reduction program, 
schedule, and cost estimates. I'd like to hear from our 
witnesses their response to the program critique by the GAO.
    Recent press reports question the Department of Navy's 
commitment to the program and I'd like to hear whether those 
reports are accurate or not.
    On the F-22, the fiscal year 2009 budget presented to 
Congress neither funded advanced procurement for additional F-
22 aircraft beyond fiscal year 2009 nor included funding to 
shut down the production line. As presented, the budget for the 
F-22 is incomplete. I'd like to hear what our witnesses expect 
Congress to do with the F-22 program.
    Without getting into proprietary information or 
jeopardizing ongoing protests, I'd like an update on other 
aviation modernization efforts, including the new KC-45 tanker, 
the next generation combat search and rescue helicopter, and 
the VH-71 presidential helicopter program. I have concerns in 
other areas as well and I hope the witnesses will address these 
in their testimony or in the question and answer period that 
will follow. The witnesses should expect questions on the 
impact of aviation requirements resulting from the planned Army 
and Marine Corps end strength increases, the latest DOD 
unmanned aerial vehicle (UAV) roadmap, and efforts to make air 
power more relevant to irregular warfare.
    I thank the witnesses and I look forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Cornyn.
    I think we'll begin with Mr. Balderson, based on seniority. 
I don't know about age. Probably age, but seniority and 
position and general civilian authority. We're not going to ask 
you for any statements about your age, Mr. Balderson.
    Mr. Balderson is the Deputy Assistant Secretary for Air 
Programs in the Office of the Assistant Secretary of the Navy 
for Research, Development, and Acquisition. It's a pleasure to 
have you here and why don't you begin now.

   STATEMENT OF HON. WILLIAM M. BALDERSON, DEPUTY ASSISTANT 
 SECRETARY FOR AIR PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY 
    OF THE NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION, 
                     DEPARTMENT OF THE NAVY

    Mr. Balderson. Thank you, Mr. Chairman, and I will say I'm 
senior only in age at this table.
    Mr. Chairman, Senator Cornyn: I appreciate the opportunity 
to appear before you today to discuss Navy and Marine Corps 
aviation programs. I do have a written statement that I 
respectfully submit for the record.
    Senator Lieberman. Without objection.
    Mr. Balderson. Out of respect for the subcommittee's time, 
I will limit my opening remarks to the following points. First, 
the Department of the Navy's acquisition team continues to work 
aggressively to identify efficiencies in the development, 
testing, and procurement of the products and services we 
provide to the fleet. The fiscal year 2009 budget request 
reflects considerable effort in identifying affordable 
solutions for the Department's aviation programs, and we are 
striving to address Navy and Marine Corps warfighting needs in 
the most cost effective way possible. As a prominent example, 
60 percent of the production aircraft included in the fiscal 
year 2009 President's budget are being purchased via multi-year 
procurement contracts.
    Second, the fiscal year 2009 budget request is a balance 
between sustaining our fleet of legacy aircraft while also 
recapitalizing with newer, more capable, and more reliable 
aircraft. Our proposed plan procures 206 aircraft--that's 134 
fixed wing, 69 rotary wing, and 3 UAVs--and continues 
development of the F-35, the E-2D Advanced Hawkeye, the P-8A, 
the CH-53K, the E-18G, the VH-71, and a number of other 
critical recapitalization programs.
    Mr. Chairman, I'll conclude by thanking the members of this 
subcommittee for your outstanding support. The great efforts of 
our men and women in theater today and tomorrow will reflect 
the return on your investment in them and the systems they take 
to fight.
    Once again, thank you and I look forward to your questions, 
and I'd be most happy to address any of the naval topics that 
you listed in your opening statements.
    [The joint prepared statement of Mr. Balderson and Admiral 
Myers follows:]
Joint Prepared Statement by Hon. William M. Balderson and RADM Allen G. 
                               Myers, USN
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for providing us with this opportunity to appear before you to 
discuss the Department of the Navy's fiscal year 2009 tactical aviation 
programs.

                   AVIATION PROGRAMS SUMMARY/OVERVIEW

    The fiscal year 2009 President's budget request implements a 
recapitalization strategy to obtain new capabilities--and initiatives 
to reduce operating costs while sustaining legacy fleet aircraft that 
are performing magnificently in current operations. We continue to work 
with industry in seeking ways to reduce costs via multi-year 
procurement (MYP) contracting strategies on the F/A-18 E/F airframe, H-
60S/R, and the V-22; and we will implement a `prototype' strategy on 
the Joint Air-to-Ground Missile (JAGM) to ensure high technology 
readiness and reduced risk prior to entering System Development and 
Demonstration (SDD). The fiscal year 2009 budget plan ensures that the 
Navy and Marine Corps maintain a joint force able to meet the spectrum 
of threats. Our proposal continues the development of the F-35, the E-
2D Advanced Hawkeye, EA-18G, the VH-71 Presidential Helicopter 
Replacement Aircraft, the CH-53K Heavy Lift Replacement aircraft, 
Unmanned Aviation, and new strike weapons capabilities. In total, Navy/
Marine Corps aviation will procure 134 additional tactical and fixed-
wing aircraft, 69 rotary-wing aircraft, and 3 Vertical Take Off and 
Landing Tactical Unmanned Aerial Vehicles for a total of 206 aircraft.

             I. TACTICAL AIRCRAFT/TACTICAL AIRCRAFT SYSTEMS

F-35 Joint Strike Fighter
    The fiscal year 2009 budget requests $1.5 billion research, 
development, test, and evaluation, Navy (RDT&E,N) for continuation of 
F-35 SDD and $1.98 billion Aircraft Procurement, Navy (APN) for the Low 
Rate Initial Production lot 3 (LRIP 3) for 8 Short Take-off and 
Vertical Landing (STOVL) aircraft and the long lead requirements for 14 
STOVL and 4 CV aircraft as part of LRIP 4.
    A fifth generation aircraft, the F-35 will enhance precision strike 
capability with unprecedented stealth, range, sensor fusion, improved 
radar performance, combat identification and electronic attack 
capabilities compared to legacy platforms. The F-35 carrier variant 
(CV) complements the F/A-18 E/F Block II and EA-18G in providing long-
range strike capability and much improved persistence over the 
battlefield. The STOVL combines the multi-role versatility of the 
legacy F/A-18 and the basing flexibility of the AV-8B. The commonality 
designed into the F-35 program will minimize acquisition and operating 
costs of Navy and Marine Corps tactical aircraft, and allow enhanced 
interoperability with our sister Service and allies.
    Impressive technical progress continues across the development 
program. The SDD jets are taking longer to build than anticipated but 
setting new standards for quality, and manufacturing efficiencies 
improve with each jet. In flight testing, the initial Conventional 
Take-off and Landing (CTOL) aircraft (AA-1) continues to demonstrate 
superb performance and reduce program risk, with 31 sorties flown 
through mid-February 2008. In addition, the flying avionics test bed 
has flown 91 hours and has accomplished significant risk reduction on 
the avionics systems. The first STOVL variant (BF-1) roll-out occurred 
on-time in December 2007 and STOVL First Flight is currently projected 
for fourth quarter fiscal year 2008. Manufacture and assembly of all 
remaining flight test aircraft is well underway. LRIP 1 contract for 
two CTOL aircraft awarded in 2007, as was the LRIP II long lead 
contract for six CTOLs and six STOVLs. STOVL first flight is a key 
event for award later this year of STOVL fiscal year 2008 LRIP 2 full 
funding and LRIP 3 long lead funding. The CV Air System Critical Design 
Review was successfully completed June 2007 and CV first flight is 
scheduled for 2009. The STOVL and CV variants are projected to meet 
their respective Key Performance Parameters.
    The F135 engine development has completed 9,000+ test hours on 12 
engines through mid-February 2008. F135 engine test failures in August 
and February occurred in nearly identical operating modes. Both Pratt & 
Whitney and the F-35 Program Office understand the causes of these 
failures and are actively developing a mitigation plan to minimize the 
schedule impacts to the program.
    The Department of the Navy (DON) supports the omission of continued 
funding for the alternate engine (F136) in the President's budget 
request. The DON maintains there are higher priority needs in the 
budget and that the risks associated with a single engine supplier 
continue to be manageable. The three fiscal year 2007 congressionally-
directed engine studies have been completed. The conclusions, while 
supportive of competition in general, reinforced the Department's 
initial findings that the projected savings from not doing competition 
outweigh the investment and sustainment costs.
F/A-18 E/F Super Hornet
    The fiscal year 2009 budget requests $1.9 billion in APN for 23 F/
A-18 E/F Block II aircraft for the final year of the 5-year MYP 
contract (fiscal year 2005 to 2009). The F/A-18 E/F continues to 
transition into the fleet, improving the survivability and strike 
capability of the carrier air wing. The Super Hornet provides a 40 
percent increase in combat radius, 50 percent increase in endurance, 
and 25 percent increase in weapons payload over our older legacy 
Hornets. Over 410 F/A-18 E/Fs will have been procured through fiscal 
year 2008 which is on track to complete procurement of the program of 
record of 493 aircraft by 2012. The Super Hornet has used a spiral 
development approach to incorporate new technologies, such as the Joint 
Helmet Mounted Cueing System, Advanced Targeting Forward-Looking Infra-
Red (FLIR), Shared Reconnaissance Pod System, and Multifunctional 
Information Distribution System data link. The Active Electronically 
Scanned Array (AESA) radar system in our Block II aircraft has 
completed operational testing and the full rate production decision was 
approved in June 2007. The first 2 tactical AESA-equipped F/A-18F 
squadrons have now received all 12 of their allotted aircraft with full 
Integrated Logistics Support support. The FA-18 E/F fiscal year 2009 
budget request also includes $129.3 million to implement commonality, 
maintain capabilities, and improve reliability and structural safety.
F/A-18 A/B/C/D Legacy Hornet
    The fiscal year 2009 budget requests $321.6 million for the 
continuation of the systems upgrade programs for the F/A-18 platform. 
As the F/A-18 program transitions to the F/A-18 E/F, the existing 
inventory of over 648 F/A-18 A/B/C/Ds (as of February 2008) will 
continue to comprise half of the Carrier Strike Group until 2012. 
Included in this request is the continued procurement of recently 
fielded systems such as the Joint Helmet Mounted Cueing System, 
Advanced Targeting FLIR, Multi-Function Information Distribution 
System, and a Digital Communications System. The Marine Corps continues 
to upgrade 61 Lot 7-9 F/A-18A models to a Lot 21 F/A-18C avionics 
aircraft capability with digital communications and a tactical data 
link. The Marine Corps anticipates programmed upgrades to enhance the 
current capabilities of the F/A-18 C/D with digital communications, 
tactical data link and tactical reconnaissance systems. This upgrade 
ensures that our F/A-18s remain viable and relevant in support of 
Tactical Air Integration and Expeditionary Maneuver Warfare. The 
Marines expect the F/A-18 to remain in the active inventory until 2023. 
The Marines are also employing the Litening targeting pod on the F/A-18 
A+/C/D aircraft in expeditionary operations, to include Operation Iraqi 
Freedom (OIF). When combined with data link hardware, the Litening pod 
provides real time video to ground forces engaged with the enemy 
through Remotely Operated Video Enhanced Receiver workstations. 
Continued analysis of tactical air (TACAIR) inventories will continue 
throughout 2007 and beyond to determine the health of the legacy fleet 
as the F/A-18 A-D is transitioned to the F-35.
Airborne Electronic Attack (AEA)/EA-18G
    The fiscal year 2009 budget requests $128.9 million in RDT&E,N for 
continuation of SDD and $1.68 billion in APN for 22 full rate 
production EA-18G Lot 3 aircraft. The EA-18G continues its development 
as the Navy's replacement for the EA-6B AEA aircraft. The EA-18G will 
replace carrier-based Navy EA-6B aircraft by 2012. A total quantity of 
27 aircraft will be procured in LRIP. The Navy is using the F/A-18 E/F 
MYP contract to buy the Lot 3 aircraft in fiscal year 2009. SDD 
continues on schedule with the two development aircraft having first 
flown in 2006 and are currently in developmental test at NAWC, Patuxent 
River. The program is on track to begin Operational Evaluation in fall 
2008, leading to Initial Operating Capability (IOC) in fiscal year 2009 
and Full Operating Capability (FOC) in fiscal year 2012.
    The Office of Naval Research (ONR) is working to develop adaptable, 
modular, and open architecture hardware, firmware, and software for a 
next-generation jamming capability that will be hosted by the EA-18G. 
In this regard, the Navy is working with the Air Force on jamming 
transmitters, and has leveraged previous work completed as part of 
their B-52 Standoff Jammer (SOJ). The Navy and Air Force technology 
teams continue to meet quarterly to ensure their efforts are 
coordinated. The fiscal year 2009 President's budget requests $69.3 
million of RDT&E,N under PE 0604270N (EW Development) of which $46.1 
million is for Next Generation Jammer technology maturation.
    The EA-6B is in near continuous use in Iraq and Afghanistan today 
in support of our troops on the ground as DOD's only tactical 
electronic attack aircraft performing communications jamming and 
information operation missions. Program priorities are current 
readiness of EA-6B and ALQ-99 systems, deployment of increased airborne 
electronic attack (AEA) capability through products such as ICAP II/III 
aircraft upgrades, ICAP III kits, and Low Band Transmitters. In an 
effort to achieve those objectives, the fiscal year 2009 budget 
requests $33.4 million in APN for procurement of critical AEA products 
and continuing EA-6B readiness improvements to increase operational 
availability and reduce operating cost of this low density high-demand 
aircraft. The EA-6B upgrades include procuring 22 Low Band Transmitters 
to provide a new jamming capability and replacement of aging 
transmitters to be employed on legacy EA-6B and new EA-18G aircraft. 
The budget request also provides for operational safety and cost-wise 
readiness improvement initiatives to ensure availability of the aging 
EA-6B aircraft.

AV-8B
    For the AV-8B, the fiscal year 2009 budget requests $29.9 million 
RDT&E,N funding to support development of the Engine Life Management 
Plan, Tactical Moving Map Display, Litening pod updates, and aircraft 
safety and reliability modifications, to include a Readiness Management 
Plan. We also request $54.5 million of procurement funding for engine 
production line transition efforts, Open Systems Core Avionics 
Requirement installs, engine sustainment efforts, Day Attack Upgrade/
Attrition Recovery efforts, trainer aircraft upgrade efforts, and 
Litening pod upgrades.

P-8A Multi-mission Maritime Aircraft (MMA)/P-3C
    The future of the Navy's maritime patrol force includes plans for 
sustainment, modernization, and recapitalization of the force. Results 
of the P-3 Service Life Assessment Program (SLAP) revealed the need for 
an aggressive approach to P-3 airframe sustainment. The accumulation of 
two decades of heavy demand by the combatant commanders, to include 
Operation Enduring Freedom and Operation Iraqi Freedom, resulted in 
advanced fatigue. Our fiscal year 2009 budget request includes $297.9 
million to sustain the P-3C until transition to the P-8A Multi-Mission 
Maritime aircraft. Over half of this amount ($152.7 million) is for 
Special Structural Inspections-Kits (SSI-K), which will allow for 
airframe sustainment to support the CNO's P-3 Fleet Response Plan, as 
well as supporting EP-3E requirements which are executed within the P-3 
SSI-K program. In December 2007, ongoing refinement of the model used 
to calculate wing stress indicated that the lower wing surface of the 
P-3 aircraft had fatigue beyond standards for acceptable risk resulting 
in the grounding of an additional 39 P-3 aircraft. To correct this 
issue, additional funding is being sought to mitigate operational 
impacts. In addition to fiscal year 2008 requests, fiscal year 2009 
funding is being separately requested for P-3C wing panels, supporting 
hardware and installation; acceleration of the Fatigue Life Management 
Program; and P-8A acceleration. Key elements of the sustainment 
approach are strict management of requirements and flight hour use, 
special structural inspections to keep the aircraft safely flying, and 
increased use of simulators to satisfy training requirements. The 
fiscal year 2009 budget request also reflects a systems sustainment and 
modernization budget of $145.2 million to continue to address a 
multitude of mission essential efforts to replace obsolete components, 
integrate open architecture technology, and leverage commonality.
    To recapitalize these critical aircraft, the Navy is developing the 
P-8A MMA, a 737 commercial-derivative aircraft. This past year, the 
program completed both its overall system Critical Design Review and 
its Design Readiness Review. The fiscal year 2009 budget requests 
$1,132 million in RDT&E,N for continuation of P-8A SDD efforts. Program 
objectives for 2009 include executing a contract option for three Stage 
II test aircraft, and completing the first flight of the initial Stage 
I test aircraft. Our comprehensive and balanced approach has allowed 
for re-capitalization of these critical assets.

EP-3 Replacement/Sustainment
    The Navy plans to recapitalize its aging EP-3E fleet with a land-
based, manned, airborne Intelligence, Surveillance, and Reconnaissance 
(ISR) platform, called EPX, to meet maritime requirements. The fiscal 
year 2009 budget requests $74.6 million in RDTE,N funds for this effort 
to support studies focused on capabilities, documentation, and 
technology development. Our plan also requests $55.7 million in RDT&E,N 
and $72.4 million in APN to address EP-3E signals intelligence sensor 
and communications equipment obsolescence issues that are necessary to 
keep the EP-3E viable until the replacement platform is fielded, and to 
develop follow-on capabilities that can be migrated to the EPX. This 
funding supports Operational Test (OT) and procurement for JMOD Common 
Configuration (JCC) Spiral 2 data fusion capabilities, and engineering 
development for JCC Spiral 3 and Recapitalization Capabilities 
Migration (RCM).

E-2D Advanced Hawkeye (AHE)
    The E-2D Advanced Hawkeye is a critical enabler of transformational 
intelligence, surveillance and reconnaissance that provides robust 
overland capability against current and future cruise missile-type 
targets. The Advanced Hawkeye program modernizes the E-2 platform by 
replacing the current radar and other system components to maintain 
open ocean capability. The radar for the Advanced Hawkeye will provide 
enhanced performance overland and in the littoral environment while 
improving performance against clutter, adding transformational 
surveillance, and theater air and missile defense capabilities. The 
fiscal year 2009 budget requests $484.2 million in RDT&E,N for 
continuation of SDD and $589.1 million in APN-1 for three Low-Rate 
Initial Production (LRIP) Lot I aircraft. Two SDD aircraft are in 
flight test with the first mission system flight completed in December 
2007. An `Operational Assessment' is scheduled in fourth quarter of 
fiscal year 2008 to support a Milestone-C decision planned for March 
2009.

KC-130J
    The fiscal year 2009 budget requests $153.5 million in APN for 2 
KC-130J aircraft. To date, the Marine Corps have taken delivery of 29 
KC-130J aircraft, with 7 more aircraft on contract to be delivered 
during fiscal years 2008 through 2010. The planned procurement of 2 
aircraft in fiscal year 2009 will bring the total number of KC-130J 
aircraft to 38. The KC-130J provides major enhancements to the current 
fleet of KC-130s, extending its range, payload, and refueling 
capabilities while reducing operating costs. Additionally, we have 
continued to ensure the tactical capability of our existing KC-130R/T 
series aircraft by installing night vision kits and upgraded aircraft 
survivability equipment.

T-6B Joint Primary Air Training System (JPATS)
    The fiscal year 2009 budget requests $289.3 million to procure 44 
aircraft under an Air Force MYP contract. The T-6 is the primary flight 
training aircraft for Navy and Marine Corps pilots, and naval flight 
officers. It replaces the T-34C. The current requirement is for 315 
aircraft, of which 98 aircraft have been procured to date.
Integrated Defensive Electronic Countermeasures (IDECM)
    The fiscal year 2009 budget requests $125.6 million in APN for the 
procurement of 73 ALQ-214 on-board Radio Frequency Countermeasure and 
$24.7 million in ammunition procurement for 558 ALE-55 Fiber Optic 
Towed Decoys, pending a full rate production decision. The IDECM Block 
3/ALE-55 Integrated Development Test and Operational Test (IDT/OT) 
identified several anomalies which required correction. The corrective 
actions have been incorporated, the system has been certified for 
Operational Test, and a Full-Rate Production decision is expected in 
the first quarter of fiscal year 2009.

Digital Radio Frequency Memory (DRFM) Onboard Jammer
    The fiscal year 2009 budget requests $31.5 million in RDT&E,N for 
development of an on-board jammer that will employ state-of-the-art 
Digital Radio Frequency Memory devices to replace the ALQ-126B Jammer 
that was last produced in 1991. This effort will measurably improve the 
survivability of tactical naval aircraft by delaying, denying, and 
defeating air-to-air and surface-to-air missile system threats 
operating in the radio frequency spectrum. The lead platform for the 
DRFM program is the F/A-18 C/D, followed by the AV-8B. An Analysis of 
Alternatives has been initiated to investigate alternative solutions, 
costs, and schedules. This developmental effort is late-to-need and the 
capability is required to pace rapidly proliferating threat systems.

Infrared Countermeasures (IRCM)
    The Navy has a multi-faceted approach to providing aircrew 
protection against current and next generation IR guided MANPADs. The 
fiscal year 2009 budget requests $63.2 million in RDT&E,N for continued 
development of the TADIRCM Program to provide improved missile warning 
systems for the MV-22 (lead platform) and smaller USN helicopters such 
as H-1 & H-60 (follow-on). The fiscal year 2009 budget also requests 
$25.8 million of APN-5 and $226.0 million of `APN-5 Supplemental' 
funding for procurement of the advanced `Large Aircraft Infrared 
Counter-Measure System' (LAIRCM) for USMC CH-53E and CH-46E heavy-lift 
rotary aircraft. The DON is also pursuing advanced expendables under 
the PANMC appropriation, and plans to complete fielding of an upgraded 
AAR-47B(V)2 Missile Warning System to provide improved probability of 
detection in clutter environments for those aircraft not getting DIRCM 
upgrades with the additional fiscal year 2009 APN-5 supplemental 
request.

                        II. ROTARY-WING AIRCRAFT

VH-71 Presidential Helicopter Replacement Aircraft
    The fiscal year 2009 budget requests $1,047.8 million in RDT&E,N 
for continuation of SDD for the VH-71 program. The VH-71 program is 
executing an evolutionary acquisition approach through a two-part 
incremental development to deliver a safe, survivable and capable 
Presidential Vertical Lift aircraft while providing uninterrupted 
communications with all required agencies. The goal of Increment-1 is 
to satisfy an urgent need to provide a replacement Presidential 
helicopter with capability equivalent to or better than the current 
inventory of aircraft. Increment-2 will provide enhanced performance 
and state-of-the-art communications capabilities to satisfy long-term 
needs. The program is completing Increment-1 integrated test utilizing 
three government and two contractor test articles. Additionally, the 
government will take delivery of five Increment-1 Pilot Production 
aircraft. Increment-2 development will continue as this phase of the 
program is restructured, and the program progresses towards a System 
Functional Review. It is anticipated that a second quarter Defense 
Acquisition Board will approve a new VH-71 program baseline 
significantly reducing program concurrency and schedule risk. The 
Presidential Helicopter Replacement Program continues to receive 
executive level oversight and review in an effort to fully evaluate 
program progress while mitigating risks wherever possible.

V-22
    The fiscal year 2009 budget requests $2.2 billion in APN for 
procurement of 30 MV-22s and continued development of follow-on block 
upgrades. Fiscal year budget request 2009 is the second year of the MYP 
contract. Our MYP strategy supports a continued cost reduction and 
affordability trend, provides a stable basis for industry, and best 
supports the warfighter. The Advance Acquisition Contract funding 
associated with the second year of the MYP and fiscal year 2008 
Economic Ordering Quantity and Cost Reduction Investments was awarded 
in March 2008.
    The DON is developing, testing, evaluating, procuring, and fielding 
a tilt rotor, Vertical/Short Take-off and Landing (V/STOL) aircraft for 
Joint Service application. The V-22 Program is designed to provide an 
aircraft to meet the amphibious/vertical assault needs of the Marine 
Corps, the strike rescue needs of the Navy, and the special operations 
needs of the Air Force and Special Operations Command. The MV-22 
variant will replace the CH-46E in the Marine Corps. The CV-22 variant 
provides a new capability and will augment the MC-130 in the Air Force/
Special Operations Command inventory for special operations 
infiltration, extraction, and resupply missions. The existing MH-53 
fleet will be drawn down commensurate with the fielding of the CV-22. 
V-22 capability is being increased and fielded over time via a block 
upgrade acquisition strategy. MV-22 Block A provides a ``Safe and 
Operational Test and Training Asset'' configuration that is supporting 
developmental flight test, operational flight test and fleet training. 
Block B provides for correction of previously identified deficiencies 
and suitability improvements. Block C provides mission enhancements, 
primarily in the areas of environmental control systems upgrades and 
mission systems improvements. CV-22 Block 0/10 is a CV-unique 
configuration for Special Operations Capabilities to include radar and 
electronic countermeasures upgrades. CV-22 Block 20 provides an 
enhanced CV-unique configuration with planned communications and 
aircraft system performance upgrades. Both Osprey variants continue 
along their prescribed roadmaps for follow-on developmental and 
operational test. The CV-22 Program is currently in IOT&E. The MV-22 
has successfully completed Operational Evaluation and the first 
operational deployment is underway.

AH-1Z/UH-1Y
    The fiscal year 2009 budget requests $3.8 million in RDT&E,N for 
continued product improvements and $474.1 million in APN for 20 AH-1Z/
UH-1Y aircraft. The H-1 Upgrades Program will replace the Marine Corps' 
AH-1W and UH-1N helicopters with state-of-the-art AH-1Z and UH-1Y 
models. The program is a key modernization effort designed to resolve 
existing safety deficiencies, enhance operational effectiveness, and 
extend the service life of both aircraft. Additionally, the commonality 
gained between the AH-1Z and UH-1Y (84 percent) will significantly 
reduce life-cycle costs and logistical footprint, while increasing the 
maintainability and deployability of both aircraft. The program will 
provide the Marine Corps with 180 AH-1Z helicopters and 100 UH-1Y 
models through a combination of remanufacturing and new production.
    The first lot of low rate production aircraft has been delivered as 
well as several aircraft from the second lot. The final phase of OPEVAL 
is ongoing and a full rate production decision is expected later this 
year. We are developing the capability to newly fabricate some of the 
AH-1Z aircraft to reduce the number of AH-1W aircraft removed from 
service for remanufacturing. This will be particularly critical as the 
annual production rate increases. The optimum mix of remanufactured and 
newly fabricated aircraft is being evaluated with the results to be 
reflected in future budget requests.

MH-60R and MH-60S
    The fiscal year 2009 budget requests $1,185.8 million in APN and 
$70.3 million in RDT&E,N for continued replacement of the Light 
Airborne Multi-Purpose System (LAMPS) MK III SH-60B and carrier-based 
SH-60F helicopters with the new configuration designated as the MH-60R. 
This program reached full-rate production with the first operational 
squadron standing up in 2006. The fiscal year 2009 budget also requests 
$549.7 million in APN and $47.3 million in RDT&E,N funds for the MH-
60S, to continue development of the Organic Airborne Mine 
Countermeasures (Block II) and the Armed Helo (Block III) missions. The 
MH-60S is the Navy's primary combat support helicopter designed to 
support Carrier and Expeditionary Strike Groups. It will replace four 
legacy platforms with a newly manufactured H-60 airframe. The Army and 
Navy are executing a platform multi-year contract that includes both 
the MH-60R and MH-60S, and a second multi-year contract for integration 
of mission systems into the MH-60R.

CH-53K Heavy Lift Replacement Program
    The fiscal year 2009 budget requests $570.5 million RDT&E,N to 
continue SDD of the CH-53K, which will replace the Marine Corps' 
current heavy-lift helicopter, the CH-53E ``Super Stallion.'' The CH-
53K program is on track to conduct a Preliminary Design Review later 
this year and the Critical Design Review in late fiscal year 2009.
    The legacy CH-53E was built for sustained shipboard operations and 
first flown in 1974, the CH-53E continues to demonstrate its value as 
an expeditionary heavy-lift platform. This aging but very relevant 
helicopter is in high demand, making significant contributions to 
missions in Iraq, Afghanistan, and the Horn of Africa; non-combatant 
evacuation operations in Lebanon; and disaster relief operations around 
the world. Expeditionary heavy-lift capabilities will continue to be 
critical to successful sea-based operations in future anti-access, 
area-denial environments, enabling sea basing and the joint operating 
concepts of force application and focused logistics.
    As a design evolution of the CH-53E, the new-build CH-53K will 
fulfill sea-based, heavy-lift requirements not resident in any of 
today's platforms, and directly contribute to the increased agility, 
lethality, and persistent presence of Joint Task Forces and Marine Air-
Ground Task Forces. The CH-53K will include significant enhancements to 
extend range and payload performance; expand survivability and force 
protection capabilities; improve inter-modal cargo handling and turn-
around; and meet interoperability requirements while reducing heavy-
lift operations and support costs.
    The CH-53K will be capable of transporting 27,000 pounds to austere 
landing sites at distances of 110 nautical miles under challenging 
environmental conditions. Task Force commanders of 2015 and beyond will 
then have the option to rapidly insert, to the far sides of the 
littorals, a force equipped with armored combat vehicles and heavy 
weapons at a rate equivalent to two uparmored High Mobility Multi-
Wheeled Vehicles (HMMWVs) per sortie. To sustain that force, the CH-53K 
will be the critical air connector to sea-based logistics, transporting 
up to three independent loads per sortie, with each load tailored to 
individual receiving units. This efficient, reliable, cost-effective, 
heavy-lift capability will also address critical challenges in 
maintainability, reliability, and affordability found in present-day 
operations.

                              III. WEAPONS

    In an era of continuing global uncertainty and shifting threats, 
the DON is developing and deploying air-to-air and strike weapons to 
enhance our warfighter's capabilities in an evolving and uncertain 
security environment. Our fiscal year 2009 budget request for each new 
weapon or weapon system modification program is directed towards 
deterring potential aggressors, power-projection, sea-control, or other 
maritime and expeditionary warfare security objectives. Our budget 
request would provide resources for weapon systems that directly 
support troops deployed in the field--as well as weapon systems that 
will shape our plans to address potential near-peer competitors. The 
Navy/Marine Corps weapons programs take into account the lessons-
learned from ongoing combat operations as well as the results of our 
research, development, and test efforts. The resulting fiscal year 2009 
weapons budget request provides for a portfolio of affordable weapons 
programs that is balanced between solutions to address global war on 
terrorism threats and development of new military capabilities.

Direct Attack Moving Target Capability
    In response to an urgent requirement identified by the combatant 
commanders in Iraq and Afghanistan, the DON approved a Rapid Deployment 
Capability (RDC) in fiscal year 2008 to develop a Direct Attack Moving 
Target Capability known as DAMTC. DAMTC improves our ability to attack 
and strike moving targets by leveraging off of the highly successful, 
congressionally-supported procurement of dual-mode systems. The fiscal 
year 2009 budget requests $35.9 million to transition the RDC to a 
formal acquisition program, support a competitive acquisition strategy, 
and acquire 2,758 additional weapons from potentially multiple sources 
at reduced costs.

Joint Air-to-Ground Missile
    The DON, in conjunction with our Army partners, received formal 
approval from USD(AT&L) to proceed with the development of the JAGM in 
January 2008. JAGM will become the next-generation, forward firing 
precision-guided munition capable of being launched from Navy/Marine 
Corps fixed-wing, rotary-wing, and unmanned platforms with both global 
war on terrorism and conventional warfare applications. Under USD(AT&L) 
direction, the JAGM program implements a technology development 
strategy to carry two contractors through Prototyping and Test and the 
Preliminary Design Review (PDR) phase of the program. Using a rolling 
down-select strategy, the Navy and Army will determine how far beyond 
PDR the two contractors should potentially be carried to ensure a high-
level of technical maturity and risk reduction before proceeding into a 
formal SDD program. The intent behind this prototyping and technology 
development strategy is to improve the probability of overall program 
success and reduce program costs through competition. To support this 
critical development program, our fiscal year 2009 budget requests 
approval of $62.3 million of RDT&E,N to implement this acquisition 
strategy.

Hellfire Weapon System
    While the DON develops JAGM, we are requesting continued support 
for legacy Hellfire weapons. Hellfire continues to be one of the 
priority weapons in the global war on terrorism and provides our Navy/
Marine Corps warfighters the ability to attack targets in the caves of 
Afghanistan as well as the urban canyons of Baghdad. Our fiscal year 
2009 budget request is for $95.4 million for 1,068 weapons with a mix 
of thermobaric, blast/fragmentation, and anti-armor warheads to provide 
the maximum operational flexibility to our warfighters.

Joint Standoff Weapon (JSOW)
    The combat proven JSOW family of joint Navy and Air Force air-to-
ground weapons continues on cost and schedule to develop a JSOW-C1 
variant. JSOW-C1 adds a `moving target capability' to the highly 
successful baseline JSOW-C variant with the addition of a datalink and 
guidance software improvements. The fiscal year 2009 budget requests 
$22.5 million for continued JSOW-C1 development and $149.1 million for 
JSOW-C production totaling 496 all-up-rounds to fill our weapons 
magazines that remain below approved Non-Nuclear Ordnance Requirements. 
Production of other JSOW variants remains deferred as we continue to 
work with the Office of the Secretary of Defense and our sister Service 
to resolve unexploded battlefield ordnance issues that are of a concern 
to the Department and our Allies.

Tactical Tomahawk BLK IV Cruise Missile
    The Tactical Tomahawk budget request supports the continued 
procurement of this combat proven, deep-attack weapon in order to meet 
ship-fill loadouts and potential combat requirements. The BLK IV 
Tactical Tomahawk missile is in a full-rate production status and the 
fiscal year 2009 budget request is $281.1 million for an additional 207 
BLK IV weapons and associated support.

Harpoon Block III Anti-Ship Cruise Missile
    The DON is upgrading our air-launched and surface-launched Harpoon 
cruise missiles to provide the all-weather, anti-surface warfare (ASuW) 
capability needed to operate with `improved selectivity' in the 
cluttered littoral environment. Under the Harpoon BLK III Program, the 
Navy is upgrading this very capable system to enhance our standoff ASuW 
operations by integration of: network; two-way data-link; and GPS 
capability for use under stringent littoral battle-space rules of 
engagement. The fiscal year 2009 budget requests $68.2 million in 
RDT&E,N to continue development of this capability.

Small Diameter Bomb (SDB II)
    The DON is partnering with the Air Force on the development of the 
Small Diameter Bomb II (SDB II) program. SDB II provides an adverse 
weather, day or night standoff capability against mobile, moving, and 
fixed targets--that also allows for target prosecution while minimizing 
collateral damage. SDB II is of special interest to the Department as 
it will be integrated into the `internal carriage' of Navy/Marine Corps 
variants of the Joint Strike Fighter (JSF). SDB II acquisition consists 
of a competitive development, risk reduction phase between two industry 
teams with a down-select at Milestone-B that is estimated to occur in 
early fiscal year 2010. The fiscal year 2009 budget requests $19.6 
million of RDT&E,N for the continued development of this joint program.

Advanced Anti-Radiation Guided Missile (AARGM)
    The AARGM development program transforms the legacy High-Speed 
Anti-Radiation Missile (HARM) into an affordable, lethal, and flexible 
time-sensitive strike weapon system. AARGM adds multi-spectral 
targeting capability with supersonic fly-out to destroy sophisticated 
enemy air defenses and expand upon the traditional anti-radiation 
missile target set. The program has completed all design reviews, began 
its formal test program in fiscal year 2007, and is scheduled to be 
deployed on the F/A-18 Hornet in 2010. The fiscal year 2009 budget 
requests $16.4 million for the development and test program and $42.7 
million for low-rate initial production of tactical and training 
weapons.

Sidewinder AIM-9X Air-to-Air Missile
    The Joint Navy/Air Force (Navy-led) Sidewinder missile is the 
newest variant of the Sidewinder family and is the only short-range 
infrared air-to-air missile integrated on USN/USAF strike-fighter 
aircraft. This fifth generation-9X weapon incorporates high off-bore 
sight acquisition capability and thrust vectoring to achieve superior 
maneuverability and provides increased sensitivity through an imaging 
infrared focal plane array seeker and advanced processing. The fiscal 
year 2009 budget requests $6.7 million for research, development, and 
test efforts, and $57.5 million for production of 205 all-up-rounds and 
associated hardware.

Advanced Medium-Range Air-to-Air Missile (AMRAAM) AIM-120
    AMRAAM is a Joint Navy/Air Force (Air Force-led) advanced, medium-
range missile that counters existing aircraft and cruise missile 
threats with advanced electronic attack capabilities operating at high/
low altitudes from both beyond visual range and within visual range. 
AMRAAM provides an air-to-air first look, first shot, first kill 
capability working within a networked environment in support of the 
Navy's Sea Power-21 Theater Air and Missile Defense Mission Area. The 
fiscal year 2009 budget requests $8.6 million for research, 
development, test and evaluation efforts and $146.8 million for 
production of 147 all-up-rounds and associated hardware.

                               IV. OTHER

Strike Fighter Shortfall
    Our aviation plan balances aviation capabilities through cost-wise 
investments in recapitalization, sustainment, and modernization 
programs. One of the issues we will be dealing with in the fiscal year 
2010 budget development process is the strike fighter shortfall.
    F/A-18 A/B/C/D aircraft are reaching life limits and will require 
extensions to bridge the gap to JSF. The Service Life Assessment 
Program (SLAP) is currently assessing the remaining life on these 
airframes. The initial SLAP analytical data necessary to determine 
extension to 10,000 flight hours was released in January 2008. Costing 
data to support the extension is planned to be released in June 2008, 
and the required engineering change proposals to support the extension 
will begin to be developed in July 2008.
    The best estimate for the most likely magnitude of the strike 
fighter shortfall is a projected 125 aircraft shortfall for the entire 
Department and 69 for the Navy in 2017, assuming the program of record.
    Our air wings will be increasingly more capable as legacy Hornets 
are replaced by the modern, more capable JSF aircraft. However, delays 
to the JSF program, budget cuts reducing JSF and/or F/A-18 E/F 
procurement, or early Hornet retirement will increase the projected 
Strike Fighter shortfall. The impact of procurement reduction would 
directly impact our ability to provide warfighting effects to the 
combatant commanders.

                                SUMMARY

    The fiscal year 2009 President's budget request reflects 
considerable effort in identifying affordable solutions for the 
Department's aviation programs through a balance between sustaining 
fielded capabilities, as they are employed in the global war on 
terrorism and continued forward presence worldwide, and a substantive 
recapitalization effort that will deliver significantly better 
capabilities to the warfighter. The Department's aviation acquisition 
team continues to work aggressively to identify efficiencies in the 
development, testing, and subsequent procurement of platforms, 
components, and weapons systems in order to ensure that investments 
made result in quality products and services provided to the fleet.
    In closing Mr. Chairman, we thank you for the opportunity to 
testify before your subcommittee regarding the DON's aviation programs.

    Senator Lieberman. Thanks very much, Secretary Balderson.
    While we're with the Navy, why don't we offer General 
Trautman and Admiral Myers the opportunity to testify.

  STATEMENT OF LT. GEN. GEORGE J. TRAUTMAN III, USMC, DEPUTY 
      COMMANDANT FOR AVIATION, UNITED STATES MARINE CORPS

    General Trautman. Chairman Lieberman, Ranking Member 
Cornyn, and distinguished members of the subcommittee: It's a 
pleasure for me to be before you today to discuss the 2009 
budget submission as it relates to Marine Corps aviation. The 
Marine Corps is operating at the highest operational tempo in 
decades. We are flying our aircraft hard, deploying our marines 
often, and doing our best to take care of families, who are 
growing tired under the strain of the operational pace we're 
required to maintain. However, the magnificent men and women 
who serve our Corps continue to meet every challenge that comes 
their way.
    As we speak, the aviation combat element of the 24th Marine 
Expeditionary Unit is deployed in support of a force of over 
3,400 marines in Afghanistan. When combined with the forces 
already in Iraq and those that are rotated through the Pacific, 
this year will see us reach a new operational peak, with 68 
percent of our squadrons either deployed or preparing to 
deploy.
    The many accomplishments of Marine aviation over the past 
year are a direct reflection of the extraordinary dedication to 
duty and tireless pursuit of mission accomplishment that is the 
hallmark of your Marine Corps. I know that I speak for each and 
every one of them when I thank you today for your equally 
tireless dedication to those who must serve in harm's way.
    Over a decade ago, with exceptional support from 
visionaries in Congress, the Marine Corps made a conscious 
decision to make the MV-22 Osprey and the F-35B Lighting II the 
centerpieces of our future warfighting concepts of operation. 
As the first combat deployment of the Osprey in Iraq comes to a 
close this week, our abiding belief in the significant benefits 
of tilt rotor technology has been validated in the skies over 
Iraq.
    We are similarly committed to the vitally important fifth 
generation warfighting capabilities resident in JSF. The short 
take-off, vertical landing (STOVL) JSF enables flexible, 
distributed shipboard expeditionary airfield basing; rapid 
response to crises; high sortie generation rates; a small 
footprint; and vastly improved survivability. The STOVL concept 
is predicated on the utility of austere forward basing at a 
time when conventional basing and access are projected to be 
less and less available, either through risk of enemy attack or 
the vagaries of politically imposed operating restrictions.
    We see F-35 and V-22, along with the KC-130J, H-1 upgrades, 
and the CH-53K, as part of an essential bridge from the aging 
legacy platforms we must fly in combat today to the advanced 
aviation warfighting capabilities we so desperately need in the 
future.
    My respect for the accomplishments of the men and women who 
comprise Marine aviation past and present is only exceeded by 
my confidence that, with your continued support, we are 
properly poised to continue the success of our current 
endeavors and to meet our future challenges. Your Marine Corps 
is operationally engaged and working hard to maintain our 
hallmark of 232 years of warfighting excellence.
    I would like to close by expressing my gratitude for the 
brave warriors of every Service who are committed to defending 
this great Nation both at home and abroad.
    Thank you for the opportunity to speak with you today and I 
look forward to answering your questions.
    [The prepared statement of General Trautman follows:]

      Prepared Statement by Lt. Gen. George J. Trautman III, USMC

                            I. INTRODUCTION

    Chairman Lieberman, Senator Cornyn, and distinguished members of 
the subcommittee, it is a privilege for me to appear before you today 
to discuss Marine Corps aviation. The significant accomplishments of 
those who serve our Nation are a direct reflection of the tireless 
efforts and consistent support of the military by this committee. Thank 
you for your dedication and oversight.
    Marine Corps aviation continues to add to its rich legacy in the 
skies over Iraq and in support of operations with our friends and 
allies around the world. We have been fully engaged for the last 6\1/2\ 
years and we are prepared to continue that same level of operational 
tempo as long as it is required. We remain ever mindful of the 
historical precedence the Marine Corps has set through a virulent 
devotion to operational preparedness, fiscal responsibility and world-
class care of our marines, sailors, and their families. This 
methodology has served us well in the past and will continue to do so 
in the future.

             II. STRESS ON THE FORCE--AVIATION COMMITMENTS

    These challenging times have highlighted the ever present need to 
expand, modernize and train our forces to cope with an uncertain 
future. Within Marine aviation, our sustained contributions to the 
current fight have necessitated a concerted effort to re-energize our 
commitment to readiness as the foundation of a flexible and adaptable 
warfighting force. We seek to maintain capabilities across the full 
spectrum of conflict in order to ensure our aging platforms and 
equipment seamlessly evolve into a future force that is characterized 
by integrated, cooperative, and distributed capabilities and concepts. 
Our vision portends a network-enabled and digitally interoperable 
expeditionary Aviation Combat Element postured to execute responsive, 
persistent, lethal, and adaptive full-spectrum operations. Within that 
framework, we have articulated three primary goals that will chart the 
course of Marine aviation for years to come. First, we expect to 
sustain our wartime operational tempo while improving current readiness 
and combat effectiveness through the efficient use of resources. 
Second, we will execute our planned type/model/series (T/M/S) 
transition strategies from our legacy platforms to the advanced 
capabilities associated with next generation platforms: F-35B, MV-22, 
UH-1Y, AH-1Z, KC-130J, CH-53K and Unmanned Aerial Systems (UAS). 
Finally, we will improve warfighting integration by developing new 
transformational concepts of operation (CONOPs) that will significantly 
enhance the systems that we are acquiring.
    The fiscal year 2009 President's budget request balances 
sustainment of legacy aircraft that are performing ably in current 
operations with continued recapitalization of more modern capabilities. 
The stress on the legacy forces remains considerable as our level of 
commitment has been sustained at a surge rate for the past several 
years. Before the current conflict, Marine aviation had a recurring 
commitment for 21 squadrons deployed with an additional 15 squadrons in 
training workups preparing to deploy. With the recent addition of the 
24th Marine Expeditionary Unit (MEU) deployment to Afghanistan while 
our squadrons are still engaged in Iraq, our level of commitment is now 
47 squadrons, with 68 percent of Marine aviation currently deployed or 
preparing to deploy.
    Responding to the pressures of sustaining high operational tempo in 
support of current operations, Marine aviation has sought the means to 
mitigate the effects of these stressors. First, particularly in the 
case of our aging legacy platforms (F/A-18, AV-8, CH-46, UH-1N, AH-1W 
and CH-53D), we carefully manage risk and seek to optimize support to 
our warriors in combat through the application of sound airframe 
service life management initiatives. With exceptional leadership 
evident throughout the force, our aviation mishap records in 2006 and 
2007 were the second and third lowest in our history. Second, we have 
become full partners in the Naval Aviation Enterprise (NAE) in order to 
place us on a path to achieve optimized readiness and sustain the 
health of our assets into the future. The operational business models, 
support plans, and cooperative work exchanges resident within the NAE 
construct will lead to improved readiness and prepare our resources for 
future growth and transition. Third, we are optimizing the growth of 
aviation as the Corps continues on a path to 202,000 marines. This 
planned increase in manpower will enable us to train to the full 
spectrum of military operations while improving the ability of Marine 
aviation to address the future challenges of an uncertain environment. 
Our future growth in personnel will reduce operational risk and recover 
our ability to respond to the clearly articulated needs of the 
combatant commanders.

            III. SUSTAINMENT OF LEGACY AIRCRAFT AND SYSTEMS

    The Marine Corps' aging fleet of fixed and rotary wing aircraft is 
the oldest in the Department of Defense. Exacerbating the impact of 
combat losses and high operational tempo, legacy aircraft production 
lines are no longer active. Sustaining these legacy aircraft has become 
increasingly more expensive and time consuming for our maintainers. For 
each legacy platform, we strive to make prudent investment in systems 
upgrades as a mitigating bridge to the future capabilities we 
desperately need. The Marine Corps' Tactical Aviation (TACAIR) 
platforms, the AV-8B Harrier, the F/A-18 A+/C/D Hornet and the EA-6B 
Prowler, are rapidly approaching the end of their planned service 
lives. Many of our assault support platforms, including the CH-46 Sea 
Knight, the UH-1N Huey, the CH-53D Sea Stallion and the KC-130F/R 
Hercules, date back to the Vietnam era yet they continue to deploy at 
extremely high turnaround rates in order to meet Marine aviation's 
requirements in support of global commitments. Currently flying between 
two and five times their programmed utilization rates while in support 
of operations in Iraq, these aircraft must remain relevant, not only to 
the irregular fight we're in now, but also to the multitude of 
contingencies our forces may face in the future.

AV-8B Harrier
    The fiscal year 2009 budget requests $29.9 million research, 
development, test, and evaluation (RDT&E) funds to support development 
of the AV-8 Engine Life Management Plan (ELMP)/Engine Monitoring 
System, Tactical Moving Map Display, the Readiness Management Plan 
(RMP), and moving the Litening targeting pod to the aircraft's 
centerline station. This effort will increase the ordnance carriage 
capability of the Harrier to better support combat operations. The 
fiscal year 2009 budget also requests $54.5 million procurement funding 
for the Open Systems Core Avionics Requirement, ELMP upgrades, and the 
RMP, which addresses aircraft obsolescence and deficiency issues 
associated with sustaining the current AV-8B fleet. Additionally, the 
Litening targeting pod will be upgraded to the latest configuration to 
better support the warfighter. Finally, the AV-8B program is upgrading 
a day attack aircraft to a night attack configuration as part of the 
attrition recovery effort to address significant legacy inventory 
shortfalls until transition to the F-35B.

F/A-18 A+/C/D Hornet
    The fiscal year 2009 budget requests $96.4 million (APN-5) for the 
continuation of the systems upgrade programs for U.S. Marine Corps 
legacy F/A-18 platforms. Included in this request is the continued 
procurement of successful programs such as Joint Helmet Mounted Cueing 
System, Multi-Function Information Distribution System, and Digital 
Communications System. The Marine Corps continues avionics upgrades to 
Lot 7 through Lot 9 Hornets, as well as upgrading other F/A-18 aircraft 
with digital communications and tactical data link. The ongoing upgrade 
to the F/A-18 C/D with digital communications, tactical data link and 
tactical reconnaissance systems ensures our F/A-18s remain viable on 
the battlefield and relevant partners in the Department of the Navy's 
Tactical Air Integration plans. We are experiencing great success 
employing the Litening targeting pod on the F/A-18 A+/C/D aircraft in 
Operation Iraqi Freedom. When combined with data link hardware and the 
ROVER Ground Station, the Litening pod provides real time video to 
ground forces engaged with the enemy, adding a new dimension to 
precision fires and Intelligence, Surveillance, and Reconnaissance 
(ISR). Our fleet of legacy F/A-18Ds is currently flying at three and 
half times their programmed rate. Given this high utilization rate, our 
sustainment initiatives are critical to ensuring we have adequate 
numbers of F/A-18s to meet our requirements until we transition to the 
F-35B.

EA-6B Prowler
    The Marine Corps remains fully committed to the EA-6B as we look to 
enhance our legacy capabilities and posture to create a future 
Electronic Warfare (EW) capability comprised of a networked system-of-
systems (F-35B, UASs, and other relevant air and ground systems). The 
Prowler continues to maintain an extremely high deployment tempo 
supporting operations against growing and diverse irregular warfare 
threats. Ongoing structural improvements and the planned Improved 
Capabilities III upgrades have extended the aircraft's service life and 
will deliver increased capability through its Program of Record of 
2016. The Prowler has the highest utilization rate of any aircraft in 
our inventory while operating at an unprecedented five times its peace 
time utilization when deployed to Iraq. The fiscal year 2009 budget 
requests $33.4 million for the procurement of ALQ-99 pod upgrades to 
sustain the capability of this national asset until it is replaced by 
the constituent components of a networked array of EW systems.

CH-53D/E Sea Stallion/Super Stallion
    The CH-53D/E Sea Stallion/Super Stallion provides unparalleled 
combat heavy lift to the Marine Air Ground Task Force (MAGTF). While 
these aircraft are achieving unprecedented operational milestones, they 
are reaching the end of their service life (the CH-53D has been 
operational for over 38 years and CH-53E is approaching 30 years) and 
will be incapable of supporting the Marine Corps' future warfighting 
concepts. To keep these platforms viable until the CH-53K is procured, 
the fiscal year 2009 budget requests $56.4 million targeted at a 
variety of near-term enhancements including the Force XXI Battle 
Command Brigade and Below (FBCB2) Blue Force Tracker, ballistic armor 
kits, T-64 Engine Reliability Improvement Program kits and improvements 
to engine operation at increased Power Inlet Temperature (T5) operating 
limits for increased power margin at higher operating altitudes.

CH-46E Sea Knight
    The venerable CH-46E continues to perform well and is poised to 
maintain operational relevancy through its projected retirement in 
2018. The fiscal year 2009 budget requests $34.6 million targeted at 
improvements and enhancements in dynamic components, avionics, and 
Aircraft Survivability Equipment (ASE) that will sustain the health of 
the airframe as we progress through the transition to the MV-22. Only 
the Marine Corps could maintain a fleet of helicopters that will be 
over 50 years old when they retire and yet still remain relevant and 
engaged in the protection of the Nation. This is a true testament to 
the men and women of the CH-46 community who work so hard to keep these 
aircraft in the fight.

AH-1W Cobra/UH-1N Huey
    Sustaining and improving our aged utility and attack helicopter 
fleet is an imperative necessary to support our deployed forces while 
we continue our efforts to upgrade the UH-1N and AH-1W to the Yankee 
and Zulu variants, respectively. The fiscal year 2009 budget requests 
$6.4 million for the AH-1W and $8.9 million for the UH-1N. Current 
upgrade efforts to the legacy AH-1W include 20MM cannon reliability 
enhancements and completion of the turned exhaust modification. UH-1N 
funding is requested to procure BRITE Star Block II night vision 
systems that will forward fit into the UH-1Y. These essential 
enhancements will ensure that both the UH-1N and the AH-1W are 
reliable, survivable, and lethal until the transition to the Yankee and 
Zulu is complete.

VH-3D/VH-60N
    The fiscal year 2009 budget requests an investment of $40.2 million 
that will be used to extend the operational life and improve the 
capabilities of our legacy Presidential Support Aircraft (VH-3D and VH-
60N). The improvements to our executive transport fleet focus on key 
component upgrades combined with a Service Life Assessment/Extension 
Program. The key component upgrades for the VH-3D will be the addition 
of Carson Blades as part of the Lift Improvement Program and several 
survivability improvements. VH-60N upgrades will focus on technology 
insertion in a cockpit upgrade. The investment in both aircraft will 
include a Service Life Assessment/Extension Program which will ensure 
continued safe and reliable executive transport until integration of 
the VH-71 occurs.

Aircraft Survivability Equipment
    In order to provide increased protection for our critical assets we 
have developed and procured improved ASE for assault support aircraft. 
We continue to mitigate threats to rotary wing aviation through a 
combination of tactics, centralized command and upgrades to existing 
equipment. To prevent current technology lagging behind the threat, 
increased science and technology (S&T) focused on developing the next 
generation helicopter survivability equipment is required. For fiscal 
year 2009 the Department of the Navy has requested $38.9 million for 
continued Directed Infrared Countermeasures RDT&E, and hardware 
procurement (APN-1/5/6). This state-of-the-art ASE will enable Marine 
aviation to pace the threat of advanced anti-aircraft systems 
proliferation. Funds obligated to date have been used for development 
and first year procurement which will begin delivery of 72 systems in 
October 2008. The remaining unfunded portion is for an additional 70 
systems equating to 1 year production capacity in 2009. Continued 
support of this critical need for our fleet of aircraft is greatly 
appreciated as we ensure our pilots and aircrew have the most current 
survivability technology available to them.

Aviation Weapons Programs
    Over the past year Marine aviation flew over 115,000 combat hours, 
delivered over 2,700 precision-guided munitions, and dropped over 4,000 
bombs. The fiscal year 2009 budget requests includes funding for 
precision-guided munitions (PGM) programs that will directly support 
combat operations.

          a. Joint Air-to-Ground Missile (JAGM). The Marine Corps has 
        expended over 1,500 Hellfire and 1,000 TOW air-to-ground 
        missiles in support of ground forces engaged in combat since 
        2003. A low collateral damage PGM for moving targets, like 
        JAGM, is critical for Marine aviation as a replacement for our 
        aging stockpiles of TOW, Hellfire and Laser Maverick family of 
        weapons. The fiscal year 2009 budget requests $183.7 million.
          b. Advanced Precision Kill Weapon System (APKWS). The past 
        year has witnessed the successful test firing of the laser 
        guided 2.75'' rocket. This initiative seeks to provide a 
        precision capability to a once unguided rocket fired from 
        attack helicopters. The $6 million provided by Congress in 
        fiscal year 2008 ensured continued development of this 
        capability and the fiscal year 2009 budget request of $13.1 
        million will complete development in anticipation of 
        procurement beginning in 2010.

                        IV. RESETTING THE FORCE

    Resetting Marine aviation means getting more capable and reliable 
aircraft into the operational deployment cycle sooner; not merely 
repairing and replacing damaged or destroyed aircraft. The operational 
demands and harsh environments of Iraq, Afghanistan, and the Horn of 
Africa highlight the limitations of our aging fleet. While deployed, 
our aircraft are flying at two to five times their designed utilization 
rates (Figure 1).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Maintaining the readiness of our aviation assets, while preparing 
aircrews for their next combat rotation is, and will continue to be, an 
enormous effort and constant challenge for our marines. To maintain 
sufficient numbers of aircraft in deployed units, our non-deployed 
squadrons have taken significant reductions in aircraft and parts, thus 
resulting in a 30 percent decrease in the number of non-deployed units 
that are ``deployment capable'' over the last 5 years.
    Reset programs have helped us mitigate degradation of our aircraft 
materiel readiness through aircraft modifications, proactive 
inspections and additional maintenance actions. The reset funding 
provided by Congress has been absolutely essential to our ability to 
maintain and sustain our legacy force during this stressful period. 
Moreover, it has enabled us to create avenues to build the long-term 
health of Marine aviation and served as a catalyst to establish 
reliability-centered processes and practices with proactive and 
forward-looking metrics. Continued funding support is critically needed 
as we are simply running short of aircraft on our flight lines due to 
age, attrition and wartime losses.
    Our Current Readiness (CR) aviation logistics improvement strategy 
is now a mature pillar within the NAE. We have developed a clear set of 
readiness improvement goals and implemented business rules that provide 
top-down performance alignment from the Marine Force (MARFOR) 
Commanders and the Deputy Commandant for Aviation down to individual 
squadrons. The Marine Aviation Executive Readiness Board (MAERB), 
comprised of the four Wing Commanders and Deputy MARFOR Commanders, 
provides recurring oversight to the process which is enabled by T/M/S 
teams, each led by a subject matter expert Marine Aircraft Group 
Commander. The T/M/S teams define their standards and readiness goals 
and provide focus of effort and alignment to AIRSpeed concepts (the 
integrated application of theory of constraints, Lean and Six Sigma). 
This process not only enables efficiencies in the current maintenance 
and supply environment, but also postures our logistics effort for 
future success as we neck-down our airframes in concert with the Marine 
Aviation Plan.
    Improved aviation logistics readiness processes and dedicated reset 
programs have helped us mitigate degradation of aircraft materiel 
readiness through the wise application of aircraft modifications, 
proactive inspections and additional maintenance actions. These efforts 
have successfully bolstered aircraft reliability, sustainability and 
survivability even in the face of high utilization rates. Nevertheless, 
additional requirements for depot-level maintenance on airframes, 
engines, weapons, and support equipment will continue well beyond the 
conclusion of current hostilities.

                     V. MODERNIZING MARINE AVIATION

    The Marine Aviation Plan (AvPlan) provides the way ahead for Marine 
aviation over the next 15 years as we transition 39 of 69 squadrons 
from 13 legacy aircraft models to 6 new ones. The AvPlan also 
incorporates individual program changes and synchronizes aviation 
equities in support of our end strength growth to 202,000 marines.

F-35B Lightning II (Joint Strike Fighter)
    The December 2007 rollout of the first production F-35B Short Take-
Off/Vertical Landing (STOVL) aircraft marked the beginning of the 
transition from production to testing of the technologically superior 
fifth generation platform that is destined to become the centerpiece of 
Marine TACAIR. Over a decade ago, with exceptional support from 
visionaries in Congress, the Marine Corps made a conscious decision to 
make the MV-22 Osprey and the F-35B Lightning II the center pieces of 
our future warfighting CONOPs. As the first combat deployment of Osprey 
comes to a close this week, our abiding belief in the significant 
benefits of tilt-rotor technology has been validated in the skies over 
Iraq. We are similarly committed to the vitally important enhanced 
fifth generation warfighting capabilities resident in the Joint Strike 
Fighter (JSF). STOVL JSF enables flexible distributed shipboard and 
expeditionary airfield basing, rapid response to crises, high sortie 
generation rates, a small footprint and vastly improved survivability. 
STOVL is predicated on the utility of a forward basing concept at a 
time when conventional basing and access are projected to be less and 
less available--either through risk of enemy attack or the vagaries of 
politically imposed operating restrictions. Along with the MV-22, the 
F-35B will be the cornerstone of Marine aviation and a critical enabler 
of the future MAGTF for many decades to come.
    In the next year, we expect to see issues resolved and expectations 
achieved that will ensure our planned F-35B Initial Operational 
Capability (IOC) in 2012. F-35B development is on track with the first 
flight of BF-1 (the JSF STOVL variant) scheduled for the summer of 
2008. The System Development and Demonstration (SDD) program for the F-
35 Pratt & Whitney engine has also progressed steadily, leveraging 
heavily on the investment made in the Pratt & Whitney F-119 engine for 
the F-22. Ultimately, the Lightning II will replace our aging F/A-18 
and AV-8 legacy fleet with state-of-the-art aircraft that will be fully 
network enabled and digitally interoperable in support the MAGTF across 
the full spectrum of combat operations.
    As we manage the bridge to F-35B, we will continue to take prudent 
measures to mitigate our legacy TACAIR shortfall. A declining AV-8B 
inventory has already required a reduction in AV-8B Primary Assigned 
Aircraft (PAA) and has increased the operational tempo of our seven 
deployable Harrier squadrons. We have accepted additional near term 
risk by placing four F/A-18 squadrons in cadre status. We plan to 
recoup the AV-8B PAA adjustments and return the four F/A-18 squadrons 
to active status as JSF is delivered. If our TACAIR shortfall 
unexpectedly accelerates or the bridge to F-35B lengthens, we will take 
whatever steps are necessary to further mitigate the impact.
    Adequate investment in legacy sustainment, combined with prudent 
management of airframe life expenditure and a properly funded F-35 
program, will be the key factors in ensuring the Marine Corps' TACAIR 
transition from legacy to fifth generation occurs seamlessly. There are 
numerous variables to the TACAIR shortfall and all are closely 
monitored to ensure that a balanced set of choices are always 
available. A 2012 IOC best supports the Marine Corps' transition 
strategy and any delay would increase risk to the Marine Corps in the 
short term by exacerbating the TACAIR shortfall. While we have time to 
execute other options should conditions change, at this point in time 
the Marine Corps' confidence in F-35B has never been stronger. The 
fiscal year 2009 budget requests eight aircraft for delivery in fiscal 
year 2010. These aircraft will support pilot transition training and 
are essential to preserving our IOC of fiscal year 2012. This budget 
provides a fiscally responsible approach to a TACAIR inventory that 
confirms our strongly held belief that the F-35B is the right aircraft 
for the future of our Corps.

Future of Electronic Warfare
    Beyond the Prowler, the future of EW within the Marine Corps will 
be comprised of a networked system-of-systems. The constituent 
components of this network include the F-35B JSF, with its impressive 
array of embedded EW capabilities; UAS capable of carrying scalable and 
specifically tailored EW payloads; ISR pods and payloads; Next 
Generation Jammers (NGJs) operating from multiple platforms; and ground 
systems already fielded or under development. This system will possess 
both offensive and defensive capabilities. A key tenet of our future 
vision is the array of EW capabilities accessible throughout the battle 
space, not just those that reside on dedicated EW platforms, with the 
individual pieces of hardware used as tentacles of the distributed EW 
network. This is a critical and important distinction that promises to 
make USMC EW capabilities more readily available and applicable to 
MAGTF and Joint Force Commanders of the future in ways that are only 
now beginning to be well understood and exploited.

MV-22 Osprey
    The transformational tilt-rotor MV-22 is now in Full Rate 
Production (FRP). The 360 MV-22 aircraft planned for procurement by the 
Marine Corps will bring revolutionary assault support capability to our 
forces in harm's way. The MV-22 is replacing the CH-46E aircraft which 
is over 40 years old and has limited lift and mission capabilities to 
support the MAGTF.
    The fiscal year 2009 budget requests $2.2 billion in APN for 
procurement of 30 MV-22s and the continued development of follow-on 
block upgrades. Like the F-35, the MV-22 has implemented a block 
improvement strategy. Block ``A'' aircraft are training aircraft, Block 
``B'' are operational aircraft, and Block ``C'' aircraft are 
operational aircraft with mission enhancements that will be procured in 
fiscal year 2010 and delivered in fiscal year 2012.
    The current inventory of 57 operational MV-22 aircraft are home 
based at Marine Corps Air Station New River, NC. Our AvPlan projects 
the transition of two CH-46 HMM squadrons to VMM squadrons each year by 
leveraging the procurement of 30 aircraft per year in concert with the 
Multi-Year Procurement plan that was approved in fiscal year 2008. At 
the current rate of production, the transition to MV-22 will be 
complete in 2018.
    With Initial Operational Capability (IOC) declared last June, the 
MV-22 program met another important milestone when VMM-263 deployed to 
Al Asad Air Base, Iraq in October 2007. Supporting our marines in 
combat, the MV-22 has performed beyond expectations. Flying at almost 
twice the designed utilization rates, the squadron has averaged 7 out 
of 10 mission ready (70 percent MR) aircraft per day for the 5 months 
of this initial combat deployment. As an example of the Osprey's 
operational utility, a flight of just two MV-22s can accomplish its 
assigned missions in half the time it takes four CH-46s to carry out 
the same tasks. Additionally, the aircraft's operational reach spans 
the entire range of the area of operations assigned to Multi-National 
Force-West in Iraq while flying a majority of its mission profile 
outside the typical assault support threat envelope. The fleet needed 
an aircraft that could take us farther, faster, and safer--and now 
thanks to the foresight and support of Congress, it is here.

KC-130J Hercules
    KC-130J Hercules aircraft are continuously deployed in support of 
Operation Iraqi Freedom providing multi-mission, tactical aerial 
refueling, and fixed-wing assault support. Its theater logistical 
support reduces the requirement for resupply via ground, limiting the 
exposure of our convoys to Improvised Explosive Devices (IEDs) and 
other surface-borne attacks. The recent introduction of the aerial 
refuelable MV-22, combined with the retirement of the legacy KC-130F/R 
aircraft due to fatigue life and parts obsolescence, requires 
accelerated procurement of the KC-130J.
    The Marine Corps is programmed to procure a total of 46 aircraft by 
the end of fiscal year 2013. To date, 29 new aircraft have been 
delivered, 7 more are on contract, and 2 aircraft are requested in the 
fiscal year 2009 budget for a total of 38. This is still 13 aircraft 
short of our inventory objective of 51 KC-130Js for the Active Force. 
Ultimately, the Marine Corps will also seek to replace our 28 Reserve 
component KC-130T aircraft with KC-130Js, thus necking down our aerial 
refueling force to a single T/M/S.

AH-1Z Viper/UH-1Y Venom (H-1 Upgrades)
    The H-1 Upgrade Program, comprised of AH-1Z Viper and UH-1Y Venom 
aircraft, will significantly enhance the tactical capability, 
operational effectiveness and sustainability of our attack and utility 
helicopter fleet. Our Vietnam-era UH-1Ns are reaching the end of their 
useful life, thus rapidly fielding the UH-1Y remains a top priority. 
The fiscal year 2009 budget requests $3.8 million in RDT&E and $474.1 
million in APN for 20 AH-1Z/UH-1Y aircraft.
    IOC for the UH-1Y will occur in 2008. The first operational 
deployment of UH-1Y is anticipated in the spring of 2009. IOC for the 
AH-1Z is fiscal year 2011. Eleven production aircraft have been 
delivered to date and Operational Evaluation (OPEVAL) Phase II, which 
commenced in February 2008, is ongoing. A full rate production decision 
is expected in late fiscal year 2008.
    The current AH-1Z program of record is utilizing a remanufacturing 
strategy which requires an AH-1W be removed from operational status for 
a period of 2 years. To mitigate this shortfall we are adopting a 
``build new'' strategy that will allow the AH-1Ws to remain in 
operational squadrons while we manufacture AH-1Zs. The intent is to 
revert back to a remanufacturing strategy once the operational 
shortfall has been mitigated. The fiscal year 2007 supplemental 
provided $50 million for non-recurring engineering to pursue ``build 
new'' at a minimum of 50 AH-1Z aircraft.

CH-53K
    In operation since 1981, the CH-53E is becoming increasingly 
expensive to operate. Its replacement, the CH-53K, will more than 
double existing lift capacity and range, while dramatically improving 
maintainability, reliability, and survivability, decreasing operating 
costs, and radically improving aircraft efficiency and operational 
effectiveness. The program passed Milestone B in December 2005 with a 
subsequent contract awarded to Sikorsky Aircraft Corporation in April 
2006. IOC is scheduled for fiscal year 2015. The program is proceeding 
through the developmental stages and will begin to procure airframes in 
the fiscal year 2013. The fiscal year 2009 budget request is $570.5 
million RDT&E to continue development through the Preliminary Design 
Review later this year and the Critical Design Review in fiscal year 
2009.

Unmanned Aerial Systems
    The Marine Corps is taking proactive steps to modernize and improve 
organic UAS capabilities. Our UAS are organized into three echelons, 
each tailored to the mission and requirements of the supported command. 
Tier III UAS serve at the Marine Expeditionary Force level; Tier II UAS 
support Regimental Combat Team and MEU operations; and Tier I UAS 
support battalion and below operations. At the Tier III level, we have 
simultaneously transitioned Unmanned Aerial Vehicle Squadrons (VMU) to 
the RQ-7B Shadow and initiated a reorganization of the squadrons' force 
structure to better task-organize for mission requirements. The 
transition to the Shadow provides a temporary Tier III solution as a 
bridge from Pioneer to our expected Tier III IOC in 2015. As an interim 
solution, Shadow has been invaluable because it has enabled us to 
provide MAGTF Commanders with a far more responsive and reliable UAS 
than its predecessor, Pioneer. We have also begun the stand up of a 
third active component VMU squadron. The addition of a third VMU 
squadron is critical to sustaining current operations and will help in 
decreasing the operational tempo from our current deployment-to-dwell 
ratio of less than 1:1--to a more sustainable 1:2 ratio. This rapid 
transition and reorganization, initiated in January 2007, will be 
complete by the fourth quarter fiscal year 2009.
    To best support our deployed forces, we have instituted an ISR 
services contract to provide Scan Eagle systems to fill the Tier II 
void until future fielding of the Tier II/Small Tactical UAS which will 
occur in 2011. At the Tier I level, the Marine Corps is transitioning 
from the Dragon Eye to the joint Raven-B program, which is also common 
with the U.S. Army. When fully fielded, our UAS family of systems will 
be networked through a robust and interoperable command and control 
system that provides commanders a significantly enhanced warfighting 
capability.

Aviation Command and Control Family of Systems (AC2FoS)
    The Marine Aviation Command and Control System (MACCS) continues to 
contribute to the success of Marine aviation operations by planning and 
executing tactical air support while ensuring proper integration of 
aviation into the MAGTF scheme of maneuver. The future of Aviation 
Command and Control (AC2) is defined by a Family of Systems (FoS) 
designed to fuse real and near real-time data from sensors, weapons and 
C2 systems into a single integrated display. This fused data will be 
networked and distributed MAGTF-wide, increasing battle space awareness 
at all levels, from operators to commanders.
    The centerpiece of the AC2FoS will be the Common Aviation Command 
and Control System (CAC2S) which replaces dissimilar legacy C2 
equipment with a common, scalable suite. CAC2S will fuse the sensor 
inputs from expeditionary radars, as well as data from the F-35B and 
UAS assets, vastly improving full spectrum surveillance and awareness. 
Our continued focus will ensure emerging systems are fully 
interoperable and designed to enhance our capabilities, while 
leveraging these systems to facilitate effective command functionality. 
Armed with fully networked systems, the MACCS will improve the ability 
to affect command, integrate resources, and employ Marine aviation most 
efficiently in support of MAGTF and Joint Force Commanders in the 
future.

                             VI. CONCLUSION

    The Marine Corps has a heritage of fighting battles and winning 
wars on the ground, at sea, and in the air. Since 2001, we have done so 
while supporting extremely high operational tempo, conducting combat 
operations, growing the force and introducing new aircraft and systems. 
My respect for the accomplishments of the men and women who comprise 
Marine aviation, past and present, is only exceeded by my confidence 
that we are poised to meet our future challenges. As we move forward we 
will execute the Marine Aviation Plan with a careful eye to maximizing 
efficiency gained early in each T/M/S transition. The resources 
Congress provides will continue to be used wisely in direct support of 
our most precious and important asset--the United States marine. Thank 
you for your consideration.

    Senator Lieberman. Thanks very much, General. I just did 
want to enter for the record that you're the Deputy Commandant 
for Aviation.
    Admiral Myers, glad to have you here, the Director of Air 
Warfare for the Navy.

 STATEMENT OF RADM ALLEN G. MYERS, USN, DIRECTOR, AIR WARFARE 
       DIVISION, OFFICE OF THE CHIEF OF NAVAL OPERATIONS

    Admiral Myers. Chairman Lieberman, Ranking Member Cornyn, 
distinguished members of the subcommittee: Thank you for this 
opportunity to appear before you to discuss the Department of 
the Navy's Fiscal Year 2009 Aviation Programs. I appreciate the 
opportunity to share time with my colleagues here from the 
Department of the Navy, the Marine Corps, and the Air Force to 
convey the critical needs of naval aviation in our Armed 
Forces.
    The Navy has been fully engaged in OEF and OIF for the last 
6\1/2\ years and we're prepared to continue that same level of 
operational tempo as long as it's required. The remarkable 
performance of our sailors and marines could not have been 
possible without this subcommittee's tireless devotion and 
significant contributions, not only to our Navy but to our 
Nation as a whole.
    Naval aviation continues to play a major role in providing 
tailored effects in support of OEF and OIF, as well as the 
broader global war on terrorism. The ability of naval aviation 
to shape strategic, operational, and tactical environments is 
reflective of the substantive return on your investment in our 
people, our combat readiness, and our refined spectrum of 
critical warfighting capabilities.
    Also, these investments in surveillance, command and 
control, and persistent strike, among others, ensure our 
tactical aircraft can operate effectively from aircraft 
carriers that can exploit the vast maneuver space provided by 
the sea.
    Our aviation plan balances aviation capabilities through 
cost-wise investments in recapitalization, sustainment, and 
modernization programs. One of the challenges that we will be 
dealing with in future programming processes is the Strike 
Fighter shortfall. The best estimate for the most likely 
magnitude of the Strike Fighter shortfall is projected to be 
125 aircraft for the entire Department and 69 for the U.S. Navy 
portion of the Department, peaking in the 2017 timeframe, and 
that assumes the program of record.
    Now, our F/A-18 A through D, our legacy Hornets--these 
aircraft are reaching their life limits and will require 
extensions to bridge the gap to reach the JSF. The Department 
of the Navy has made significant investments in a thorough 
Service Life Assessment Program and is currently assessing the 
remaining life of these legacy platforms.
    The preliminary Service Life Assessment Program analytical 
data necessary to determine whether or not we can extend these 
aircraft to the 10,000-hour mark. Originally, they came to us 
from the factory with a 6,000-hour life. We think that we can 
extend them with the preliminary data that we received in the 
January timeframe, but the final costing data to support the 
extension is planned to be released around the June timeframe. 
With that final data, we will start to put together the 
engineering change proposals to support the extensions 
beginning at the end of the summer.
    Now, the Navy's strategic vision for tactical air (TACAIR) 
is based  on  a  mix  of  capabilities  of  both  the  JSF  and 
 the  Block  2  F/A-18 E and F. Our air wings will be 
increasingly more capable as the older legacy Hornets are 
replaced by the modern more capable JSF. However, delays in the 
JSF program, budget cuts that reduce either the JSF or the F/A-
18 E and F procurements, or early legacy Hornet retirements all 
could increase our projected JSF shortfall and will directly 
impact our ability to provide warfighting effects to our 
combatant commanders.
    These Navy aviation programs, comprised of both platforms 
and weapons, directly underpin our Navy's strategic plan and 
directly support our new maritime strategy. The fiscal year 
2009 President's budget maintains the trends of balancing 
conventional and irregular warfare aviation capabilities. It 
reduces excess capacity and achieves technological superiority 
through cost-wise investments in recapitalization, sustainment, 
and modernization programs.
    The adjustments reflected in the budget maintain sufficient 
capacity to meet global presence and warfighting requirements, 
manage the overlap with joint capabilities, and preserve 
warfighting relevance through the 2024 timeframe.
    Thank you again for the opportunity to appear before you 
today and thank you for your support of naval aviation and our 
Fleet, which defends our great Nation today and tomorrow. I 
look forward to your questions.
    Senator Lieberman. Thanks very much, Admiral. I know we'll 
have some questions for you about some of the items you touched 
on.
    We'll go now to the Air Force. Lieutenant General Daniel 
Darnell is the Deputy Chief of Staff for Air, Space and 
Information Operations, Plans and Requirements. General 
Darnell, thanks for being here.

STATEMENT OF LT. GEN. DANIEL J. DARNELL, USAF, DEPUTY CHIEF OF 
  STAFF FOR AIR, SPACE AND INFORMATION OPERATIONS, PLANS AND 
           REQUIREMENTS, DEPARTMENT OF THE AIR FORCE

    General Darnell. Mr. Chairman, thank you. Mr. Chairman, 
Senator Cornyn, distinguished subcommittee members: Thank you 
for the opportunity to speak before you today.
    Your Air Force is the most battle-tested in history, as 
Senator Cornyn pointed out earlier, and every day your airmen 
find innovative ways to accomplish their mission more 
effectively and more efficiently. Our first priority is to win 
today's fight. In the global war on terror, we continue to 
fulfill our roles as airmen for the joint team, working with 
our sister Services to provide the desired effects to the 
combatant commanders.
    Every day your Air Force flies over 300 sorties in Iraq and 
Afghanistan, directly integrated with and enhancing ground 
operations. Since September 11, America's airmen have flown 
over 394,000 mobility sorties, moving equipment and troops to 
and from the CENTCOM area of responsibility. The Air Force has 
flown over 80 percent of the coalition's combat sorties in 
support of OIF and OEF. Since 2001 we've flown over 50,000 
missions protecting the Homeland for Operation Noble Eagle.
    Air Force engagement in the global war on terror is only 
the tip of the iceberg. Over 40 percent of the total force and 
53 percent of the Active-Duty Force are directly engaged in and 
supporting combatant commanders' operations every day. On any 
given day, the Air Force has approximately 206,000 airmen 
fulfilling worldwide combatant commander needs. This includes 
approximately 127,000 airmen conducting activities such as 
operating and controlling satellites, standing alert in our 
intercontinental ballistic missile facilities, operating UAVs, 
launching airlift and tanker sorties, providing intelligence 
assessments, and many other functions critical to each of the 
combatant commanders.
    Airmen fulfilling combatant commander tasks today are fully 
ready to perform their missions, but future dominance is at 
risk. America faces a dangerous and uncertain future. Our 
enemies do not sit idly by. Adversaries both declared and 
potential continue to develop and field new and better means to 
threaten our Nation, our interests, and worldwide stability. At 
the same time, the average age of our air and spacecraft 
continue to rise and our ability to overcome future threats 
diminishes. We must be capable of setting the conditions for 
America's success and we're doing all we can to become even 
more efficient and effective and to defray these rising costs.
    We thank you for your continued support. Once again, I 
appreciate the opportunity to speak with you today and I look 
forward to answering your questions.
    [The joint prepared statement of General Darnell and 
General Hoffman follows:]

 Joint Prepared Statement by Lt. Gen. Donald J. Hoffman, USAF, and Lt. 
                      Gen. Daniel J. Darnell, USAF

                            I. INTRODUCTION

    Senator Lieberman, Senator Cornyn, and distinguished members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss Air Force Tactical Aviation and other matters that are 
important to our Air Force and the Nation.
    Your Air Force is actively fighting terrorism and insurgents around 
the world in the global war on terror, and we appreciate the Senate 
Armed Services Committee's continued support of our Nation's air, 
space, and cyberspace forces. Since the global war on terror began, 
congressional supplemental funding each year, including the $5.5 
billion provided for fiscal year 2008, ensured that your airmen 
deployed in combat overseas are trained, equipped, and ready day-to-day 
to perform their mission. As we prepare for the next year of global 
operations, the Air Force is grateful for the subcommittee's support 
provided through the 2008 National Defense Authorization Act, and as 
always, we appreciate the great lengths to which the subcommittee has 
gone to support airmen, their pay, and their quality of life.
    In the global war on terror, we continue to fulfill our roles as 
airmen for the joint team working with our sister Services to provide 
the desired effects to the combatant commanders. Simultaneously, we 
stand prepared for rapid response and conflict across the globe as our 
Nation's sword and shield. For over 17 years, the United States Air 
Force has been engaged in continuous combat operations providing our 
Nation unparalleled advantage in three warfighting domains: Air, space, 
and cyberspace. Your airmen have maintained constant watch, deployed 
continuously, engaged America's adversaries directly, responded to 
human crises around the world, and provided the Global Vigilance, 
Global Reach, and Global Power to secure our Nation.
    Your Air Force is the most battle-tested in Air Force history, and 
every day your airmen find innovative ways to accomplish their mission 
more efficiently and effectively. Your airmen are dedicated to the 
defense of this Nation and have committed themselves to go to the ends 
of the Earth, to the most dangerous or austere locations, in our 
Nation's hour of need or in the world's moment of despair. If tonight, 
tomorrow, or in 20 years America calls; we will go, because it is our 
sacred oath to provide America and its joint team, wherever it might be 
engaged, the full might of air, space, and cyberspace power.
    To ensure success, your Air Force is organizing, training, and 
equipping our airmen for both the current and future fights, building 
in the flexibility to operate across the entire spectrum of conflict. 
It is no accident that America's Air Force has unprecedented Global 
Vigilance, Global Reach, and Global Power. We learned our lessons from 
our own history and others', and we invested resources and effort to 
establish and maintain dominance in our three warfighting domains: air, 
space, and cyberspace. Even after the victory in Operation Desert 
Storm, the Air Force upgraded, modernized, and completely changed its 
training mindset and programs. The result was a flexible, responsive, 
and lethal force that contributed greatly to the joint successes in 
Operations Allied Force (OAF), Enduring Freedom (OEF), and Iraqi 
Freedom (OIF). Even with these advances, airmen continue to find ways 
to improve the combat power provided to the joint team. Your forces 
engaged in combat today are fully ready to perform their missions, but 
future dominance is at risk.
    America faces a dangerous and uncertain future and our enemies do 
not sit idly by. Instead, adversaries--both declared and potential--are 
developing and fielding new and better means to threaten our Nation, 
our interests, and stability around the world. At the same time, the 
average age of our air and space craft continues to rise, and our 
ability to overcome future threats is diminishing. We also face 
increased operations, maintenance, and personnel costs that cut into 
our ability to finance future dominant capabilities. We are doing all 
we can to become even more efficient and effective and to defray these 
costs. Despite our best efforts, we face declining readiness and 
soaring recapitalization rates. Therefore, we have taken significant 
steps to self-finance a vital recapitalization and modernization effort 
for our aging air and space force. The Air Force must be capable of 
setting the conditions for America's success against emerging threats 
in the uncertain years that lie ahead.

                         II. WIN TODAY'S FIGHT

    Our first priority is to win today's fight. Air Force global war on 
terror missions are only the latest in a string of over 17 continuous 
years of combat since Operation Desert Storm began. Throughout this 
period, our strategic forces have remained on constant alert. In fact, 
the United States Air Force has underwritten the national strategy for 
over 60 years by providing a credible deterrent force, and we continue 
to serve as the Nation's force of first and last resort, reassuring 
allies, dissuading competitors, and deterring adversaries by 
maintaining an always-ready nuclear arm.
    Today, Air Force operations are ongoing in Iraq, Afghanistan, and 
the Horn of Africa. Every day, your Air Force flies over 300 sorties in 
Iraq and Afghanistan directly integrated with and enhancing ground 
operations. Since global war on terror operations began, your Air Force 
has flown over 80 percent of the coalition's combat sorties in support 
of OIF and OEF. These missions provide the joint and coalition team 
airlift, aero-medical evacuation, air-refueling, command and control, 
close air support to ground operations, strike, Intelligence, 
Surveillance, and Reconnaissance (ISR), and electronic warfare. We have 
flown over 394,000 mobility sorties moving equipment and troops to and 
from the CENTCOM area of responsibility (AOR). Our intra-theater 
airlift missions shift convoys to the air eliminating the need to place 
troops and vehicles in harm's way. Aero-medical evacuation missions 
move wounded soldiers, sailors, marines, and airmen to higher levels of 
medical care at hospitals as far away as the continental United States. 
In 2007, America's airmen conducted nearly 1,600 precision strikes in 
Iraq and Afghanistan, many under the control of Joint Tactical Air 
Controllers. In Iraq, strikes increased by 171 percent over the 
previous year. Added to those numbers, your Air Force has flown over 
50,000 sorties protecting the homeland for Operation Noble Eagle.
    Air Force engagement in CENTCOM is only the tip of the iceberg. 
Airmen operate around-the-clock and around-the-globe to provide all 
combatant commanders (COCOMs) with critical capabilities. Over 40 
percent of the total force and 53 percent of the Active-Duty Force are 
directly engaged in or supporting COCOM operations everyday. On any 
given day, the Air Force has approximately 206,000 airmen (175,000 
active duty plus an additional 31,000 Guard and Reserve) fulfilling 
COCOM tasks. This includes approximately 127,000 airmen conducting 
activities such as operating and controlling satellites, standing alert 
in our Intercontinental Ballistic Missile facilities, operating 
unmanned aerial vehicles, launching airlift and tanker sorties, 
providing intelligence assessments, and many other functions critical 
to each of the COCOMs. There are a further 57,000 airmen stationed 
outside the continental United States in direct support of the Pacific 
Command and European Command missions. Finally, a portion of the above 
forces plus an additional 22,000 airman from the current AEF rotation 
are made available for deployments in support of other COCOM 
requirements.

                        III. STATUS OF THE FLEET

    As requested by the subcommittee, the following information 
provides updates on U.S. Air Force Tactical Aviation:

Legacy Fleet
    The Air Force fighter force is the oldest it has ever been, at an 
average age of more than 19 years, it is generally able to accomplish 
today's missions. However, all our legacy aircraft are showing signs of 
age. In addition, global war on terror duration and operations tempo 
have accelerated service life consumption for numerous platforms, and 
the cost of keeping them in the air in terms of dollars and manpower is 
increasing. This sustained high operations tempo has contributed to 
lower readiness levels, which does not allow us to take much risk in 
operations and maintenance. We must sustain readiness and be able to 
fight today. global war on terror is forcing the Air Force to maintain 
some legacy systems to meet the current threat.
    The Air Force continues to improve fighter aircraft capability to 
conduct precision targeting in close coordination with our soldiers on 
the ground by fielding the Sniper and Litening Advanced Targeting Pods 
(ATPs) with video downlink (VDL) capability. VDL-equipped pods are able 
to transmit streaming sensor video directly to ground forces equipped 
with the Remotely Operated Video Enhanced Receiver terminal, greatly 
speeding target acquisition and providing a revolutionary improvement 
in support to ground forces both in the traditional Close Air Support 
(CAS) and emerging nontraditional intelligence, surveillance, and 
reconnaissance (NTISR) missions. There are currently 155 Sniper and 225 
Litening ATPs in the Combat Air Forces. Of those, 33 Sniper and 111 
Litening are VDL equipped, and 53 of the 77 ATPs in theater have VDL.

A-10
    The A-10 provides the Joint Force Commander lethal, precise, 
persistent, and responsive firepower for Close Air Support and Combat 
Search and Rescue. It has performed superbly in Operation Desert Storm, 
OAF, OEF, and OIF. However, the age of the A-10 and high operations 
tempo have taken their toll on the fleet. In the Fall of 2006, the Air 
Force Fleet Viability Board (FVB) recommended that the Air Force 
upgrade 242 thin-skin center wing A-10 aircraft with thick-skinned 
center wing replacements. Additionally, A-10 landing gear failures have 
resulted in a program for replacing failure prone parts. In the near 
term, a Service Life Extension Program (SLEP) and overhaul programs 
will allow us to continue flying these venerable aircraft. The Air 
Force is upgrading all 357 A-10s to the ``C'' configuration through the 
Precision Engagement modification. This integrates digital data links 
and advanced targeting pods, adds color displays, pilot throttle and 
stick controls, and increases precision-guided weapons carriage 
capability. Additionally, we have integrated beyond-line-of-sight 
radios into the A-10 for faster communication with ground units, 
forward controllers, and command and control centers.

F-15 A-D
    The average age of the F-15A-D fleet is over 25 years old. However, 
analysis suggests that Air Combat Command can manage the fleet through 
scheduled field/depot inspections under an Individual Aircraft Tracking 
Program.
    The F-15A-D fleet has returned to flying status after engineering 
analysis confirmed they are safe for flight. Of the 429 aircraft in the 
inventory, only 9 remain grounded due to the longeron crack. The 
Commander of Air Combat Command has proposed that five will be repaired 
and four will be retired due to their proximity to planned retirement. 
We anticipate that most of these aircraft will be repaired this year at 
a cost of approximately $235,000 each using organic materials and labor 
at the Warner-Robins Air Logistics Center.
    On the recommendation of Boeing and depot engineers, the Air Force 
has instituted recurring inspections of F-15 longerons every 400 flight 
hours to detect cracks before they become catastrophic. Analysis 
confirms that this interval is very conservative and will avoid a 
mishap such as the one that occurred on 2 November 2007. Additionally, 
the Air Force will conduct a full-scale fatigue test, aircraft 
teardown, and improved structural monitoring to help establish the 
maximum F-15 service life and more effectively manage structural health 
of the fleet. We expect these efforts to successfully enable the 177 F-
15C/D ``Golden Eagles'' to operate safely and effectively through 2025.

F-15E
    The F-15E fleet, which was not affected by the longeron crack, has 
an average age of over 16 years and continues to provide support for 
ongoing operations in Afghanistan and Iraq. Like the A-10, the F-15E 
performed superbly in Operation Desert Storm, OAF, OEF, and OIF. The 
Air Force has been working hard to improve the F-15E's ability to 
rapidly engage and destroy time sensitive targets by adding secure 
radios and data links for faster communications with ground units and 
forward controllers; by integrating the latest precision weapons that 
not only accurately hit a target but are designed to reduce collateral 
damage; by adding a helmet mounted cueing system that will reduce the 
F-15E's time to engage a target by up to 80 percent; and by adding a 
state-of-the-art radar system that not only addresses sustainment 
issues with the current system but will give the F-15E advanced 
capabilities to identify and engage targets, share real-time 
information with other aircraft, and protect itself from enemy threats. 
The Air Force plans for the F-15E to be an integral part of the 
Nation's force through at least 2035.

F-16
    Our F-16s, the bulk of the fighter fleet, are undergoing a 
structural upgrade program to replace known life-limited structural 
components. This upgrade program is required to achieve an airframe 
life of 8,000 flight hours. Wing pylon rib corrosion, a known problem 
with the F-16 aircraft, is an issue we monitor closely. This corrosion 
can prevent the F-16s from carrying pylon-mounted external fuel tanks, 
which limits their effective combat range. While we currently have 
three F-16 aircraft grounded and 13 flight restricted from carrying 
external tanks due to wing pylon rib corrosion, the corrosion problem 
is somewhat common across the fleet. For example, within the past 24 
months, we identified 27 aircraft at Aviano Air Base, Italy with some 
degree of corrosion in this area. We currently inspect F-16 aircraft 
every 800 hours to monitor for this problem.
    In other inspections, approximately 16 percent (63 of 399) of our 
Block 40/42 F-16 aircraft have been found to have bulkhead cracks. As 
of March 31, 2008, 18 Block 40/42 F-16 aircraft were in non-flying 
status awaiting bulkhead repair or replacement. An additional 42 
aircraft continue to fly with increased inspection requirements to 
measure crack growth. We will continue to monitor this situation 
closely.
    The Common Configuration Implementation Program (CCIP) is the top 
F-16 priority and will enable the maintenance of a single operational 
flight program configuration on both the Block-40 F-16s and Block-50 F-
16s. The Block-50 modification is complete and the Block-40 
modification will be complete in fiscal year 2010. It combines several 
modifications including a new mission computer, color displays, air-to-
air interrogator (Block 50/52 only), Link-16, and Joint Helmet Mounted 
Cueing System.

Future Fighter Shortfalls and Plans to Mitigate Shortfalls
    The Air Force has been at war for 17 continuous years with 
operations in Southwest Asia, the Balkans, global war on terror, and 
defending the Homeland. This extremely high operations tempo has 
accelerated the service life consumption for nearly all of Air Force 
platforms and especially the fighter force. This sustained high 
operations tempo has contributed to lowered readiness levels, with 
increasing risks to operations and maintenance.
    Your Air Force aircraft are the oldest they have ever been, 
averaging over 24 years of age. While your Air Force remains able to 
carry out the missions of today, it is becoming clear that the aging of 
the fleet is having negative effects that are difficult to forecast. 
The Air Force faces a recapitalization challenge unlike anything 
before. Airmen must ensure that adequate forces and the right balance 
of aircraft types are available to meet both the near-term and future 
needs of our Nation. Today's airman must ensure that future airmen 
inherit an Air Force that is relevant, capable, and sustainable.
    Capitalization of our fifth generation fighter force is essential 
to meet our commitment of securing the national defense. F-35s will not 
achieve full production rates until 2015 yet we are already retiring F-
15s and F-16s, and will continue to do so well into the out-years. 
During this period of retiring aircraft before F-35 full rate 
production, F-22 production is capped, effectively interrupting our 
ability for fifth generation recapitalization until the middle of the 
next decade. By 2025, most of our legacy air frames will be retired. 
The Air Force position remains that a 2,250 combat aircraft inventory 
is the required force. However, airmen realize this will be a difficult 
challenge based on likely budget availability.

Fifth Generation Fighters
    Fifth generation fighters like the F-22A and the F-35 are key 
elements to our Nation's defense and deterrence. As long as hostile 
nations recognize the ability of U.S. airpower to strike their vital 
centers with impunity, all other U.S. Government efforts are enhanced, 
which reduces the need for military confrontation. This is the timeless 
paradox of deterrence; the best way to avoid war is to demonstrate to 
your enemies, and potential enemies, that you have the ability, the 
will, and the resolve to defeat them.
    Both the F-22A and the F-35 represent our latest generation of 
fighter aircraft. We need both aircraft to maintain the margin of 
superiority we have come to depend upon, the margin that has granted 
our forces in the air and on the ground, freedom to maneuver and to 
attack. The F-22A and F-35 each possess unique complementary and 
essential capabilities that together provide the synergistic effects 
required to maintain that margin of superiority across the spectrum of 
conflict. The Office of the Secretary of Defense (OSD)-led 2006 
Quadrennial Defense Review Joint Air Dominance study underscored that 
our Nation has a critical requirement to recapitalize tactical aircraft 
forces. Legacy fourth generation aircraft simply cannot survive to 
operate and achieve the effects necessary to win in an integrated, 
anti-access environment.

F-22A Procurement Plans
    We're proud to tell you the F-22A program has established a world-
class production program. The F-22A production program is currently 
delivering Lot 6 aircraft ahead of scheduled contract delivery dates at 
a rate of about two per month. Additionally, construction has started 
on Lot 7 Raptors, the first lot of the 3-year multiyear procurement 
contract we awarded last summer. When the plant delivers the last 
aircraft of Lot 9 in December 2011, we will have completed the program 
of record of 183 Raptors. The Air Force supports the President's budget 
and greatly appreciates the SECDEF commitment to keep the F-22A 
production line open through a supplemental request. Because of our 
economic order quantity buy under the multiyear contract, some vendors 
early in the build process will complete deliveries and begin shutdown 
in November this year. As such, we are on track to release a shutdown 
request for proposal later this summer, and we anticipate fiscal year 
2009 shutdown costs to be $40 million.
    On the current unfunded requirements list, we requested an 
additional $600 million to buy four more aircraft to replace global war 
on terror losses of legacy aircraft. These aircraft would be dovetailed 
in at the end of Lot 9 and will only keep the production line open for 
an additional 2 months. If we want to keep the line open and deliver an 
additional F-22A Lot, then the Air Force would require $595.6 million 
in fiscal year 2009 for Advance Procurement of 24 aircraft. In either 
case, we are at a critical crossroad: we must make a decision by 
November to avoid increased costs and a break in the production line 
before our suppliers begin to exit the market.

F-22A Future Capabilities and Modifications
    The F-22A Raptor is the Air Force's primary air superiority 
fighter, providing unmatched capabilities for operational access, 
homeland defense, cruise missile defense, and force protection for the 
Joint Team. The multi-role F-22A's combination of speed, stealth, 
maneuverability and integrated avionics gives this remarkable aircraft 
the ability to gain access and survive in high threat environments. Its 
unparalleled ability to find, fix, track, and target enemy air and 
surface-based threats ensures air dominance and freedom of maneuver for 
all Joint Forces.
    The Air Force has accepted 116 F-22A aircraft to date, out of a 
programmed delivery of 183. Most of these aircraft include the 
Increment-2 upgrade, which provides the ability to employ supersonic 
Joint Direct Attack Munition (JDAM) and enhances the intra-flight data-
link to provide connectivity with additional F-22As. The F-22A fleet 
will be upgraded under the Joint Requirements Oversight Council 
approved Increment-3 upgrade designed to enhance both air-to-air and 
precision ground attack capability. Raptors off the production line 
today are wired to accept the Increment-3.1 upgrade, which when 
equipped, upgrades the APG-77 Active Electronically Scanned Array 
(AESA) radar to enable synthetic aperture radar ground mapping 
capability, provides the ability to self-target JDAMs using on-board 
sensors, and allows F-22As to carry and employ eight small diameter 
bombs (SDB). Increment-3.1 is funded and begins to field in fiscal year 
2010. Future F-22As will include the Increment-3.2 upgrade, which is 
funded and features the next generation data-link, improved SDB 
employment capability, improved targeting using multi-ship geo-
location, automatic ground collision avoidance system (Auto GCAS), and 
the capability to employ our enhanced air-to-air weapons, the AIM-120D 
and AIM-9X. Increment-3.2 should begin to field in fiscal year 2013. 
The Increment-3.3 upgrade is currently unfunded. It plans to include 
Mode 5/S, which is the next generation Identification Friend or Foe and 
advanced air-traffic control transponder, radar auto search/auto 
detect, which gives automated target cueing using a fourth generation 
AESA radar, and a ground-moving-target-indicator-and-tracking 
capability.

F-35
    The F-35 program will develop and deploy a family of highly common, 
affordable, fifth generation strike fighter aircraft meeting 
operational needs of the Air Force, Navy, Marine Corps, and allies. The 
F-35 will provide our Nation with a highly capable and affordable 
strike aircraft in sufficient quantities to destroy a wide array of 
targets in a protracted conflict. Air Force and OSD studies, such as 
the Sustaining Air Dominance and Joint Air Dominance studies, have 
demonstrated the requirement for both the air-to-surface payload and 
survivability of the F-35 in the face of advanced surface-to-air 
missile threats. Legacy fourth generation aircraft simply cannot 
survive to operate and achieve the effects necessary to win in an 
integrated, anti-access environment. Failure to recapitalize the 
fighter force with the F-35 will result in significantly increased risk 
to both our air and ground forces.
    The F-35 is meeting all Key Performance Parameters, and as of March 
31, 2008, the first Conventional Take-off and Landing (CTOL) test 
aircraft, AA-1, has completed 39 test flights. Recently it completed 
its first two in-flight refueling missions, and the Cooperative 
Avionics Test Bed continues to provide unprecedented risk reduction at 
this stage in a major weapon system not seen in any legacy program. 
Most recently, the F-35 program has received approval to award the 
second Low Rate Initial Production lot which consists of six CTOL 
aircraft, which will be awarded this spring, and six short take-off and 
vertical landing aircraft, which will be awarded this summer.

Joint Strike Fighter Alternative Engine Program
    The Department continues to believe the risks associated with a 
single source engine supplier are manageable and do not outweigh the 
investment required to fund a competitive alternate engine. However, 
the Air Force and Navy are executing the $480 million appropriated by 
Congress in the 2008 budget to continue development. We completed the 
Critical Design Review for the alternate engine in February 2008, and 
we have completed over 300 hours of engine testing for the CTOL 
aircraft.
    The cost to complete remaining F136 engine development is estimated 
at $1.4 billion in Research, Development, Test, and Evaluation through 
2013. Starting in 2009, the F136 program would require approximately 
$31 million for long lead items in preparation for production and $1.7 
billion across the Future Years Defense Program beginning in fiscal 
year 2010 for the production of the F136 engine.

                              IV. CLOSING

    We are building a 21st century Air Force prepared to succeed--
strategically, operationally, and tactically. Our highly capable and 
lethal aviation programs provide Global Vigilance, Global Reach, and 
Global Power. These capabilities are critical today and for the future 
Joint Force.
    The United States of America depends on air, space, and cyberspace 
power to an extent unprecedented in history. We are ready and engaged 
today, and looking toward securing the future. We cannot rest on the 
laurels of our current capability. Our Nation must invest today to 
ensure tomorrow's air, space, and cyberspace dominance.

    Senator Lieberman. Thanks, General.
    Finally, we'll have Lieutenant General Donald J. Hoffman of 
the Air Force, the Military Deputy to the Assistant Secretary 
of the Air Force for Acquisition. Good to see you again, 
General.

STATEMENT OF LT. GEN. DONALD J. HOFFMAN, USAF, MILITARY DEPUTY, 
    OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
            ACQUISITION, DEPARTMENT OF THE AIR FORCE

    General Hoffman. Mr. Chairman, thank you. We may have the 
most battle-tested Air Force that we've ever had, but we also 
have the oldest equipment we've ever had, as General Darnell 
mentioned. We're now over 24 years average age. Our Chief and 
Secretary have testified we need around $20 billion a year to 
arrest that. That won't reverse it, but that will at least 
arrest the aging. As my role as the Military Deputy for 
Acquisition, I'd be glad to answer any questions you may have 
on our recapitalization efforts to do that to meet our future 
threats.
    Senator Lieberman. Thanks.
    How much is in the budget for you this year? Are you 
anywhere near that number in the next year, during the Program 
Objective Memorandum (POM)?
    General Hoffman. That's over and above what's in the 
budget, is what we think we need to arrest it.
    Senator Lieberman. At some point it's a larger question. 
Senator Cornyn and I have talked about somehow, maybe at the 
beginning of the next administration, we need to do that, is to 
try to formulate hopefully a bipartisan public education 
campaign about the extent to which we're not funding critical 
DOD programs because we don't have the money.
    Let me go on to some questions, and I'll begin with General 
Darnell. I wanted to talk about the F-22. Let's do 7-minute 
rounds and we'll just keep moving, and you'll let me know when 
I come to the end of the 7 minutes.
    I understand, General, that one part of the difference of 
opinion between the Air Force and the DOD about the F-22s and 
how many to buy centers on whether the currently planned 183 
aircraft would be sufficient to meet wartime requirements. I 
know that in this public forum we cannot discuss the specific 
differences, but I want to say in that context it appears that 
the Air Force, to me, that the Air Force and the Office of the 
Secretary of Defense are using different estimates of the 
threat.
    My understanding is that the Defense Intelligence Agency 
(DIA) is responsible for publishing coordinated threat 
estimates against which the whole Department fields 
capabilities. So I want to ask this question, and I understand 
your answer will be within the context of this public forum. Is 
the Air Force using the DIA-approved threat estimates in 
arriving at its conclusion that you need more F-22s?
    General Darnell. Mr. Chairman, it is my understanding that 
we are using the DIA threat estimates.
    Senator Lieberman. Okay.
    Then this question is either to you, General Darnell or 
General Hoffman. On page 11 of your prepared testimony today 
you make a statement regarding the timing of the decision to 
obligate the funds for advanced procurement for F-22 to keep 
the line operating past the current end of production with 
fiscal year 2009 procurement of 20 aircraft. I'm going to quote 
here. You say: ``We must make a decision by November to avoid 
increased costs and a break in the production line before our 
suppliers begin to exit the market.''
    At the full Senate Armed Services Committee posture hearing 
in February, Secretary Gates, regarding this F-22 production 
issue said, ``My objective is to give the next administration 
an option.'' Air Force officials, including Secretary Wynne, 
have told us that they're in agreement with the position of the 
Secretary of Defense.
    So what I want to ask is, how would these positions be in 
agreement, in other words, signing advanced procurement 
contracts, as you said today, in November 2008 and giving the 
next administration an option, when obviously the next 
administration won't take office until January 20?
    General Hoffman. Mr. Chairman, I think if you recall back 
on the B-1 story: we cancelled the B-1, we restarted the B-1. 
So all subsequent administrations have the option. I think it's 
a matter of at what cost do you exercise that option. To do 
that in a most efficient manner, which is where I come from in 
an acquisition standpoint, and that is to have the right 
advanced notice, to do Economic Order Quantity, multi-year or 
even single lot advanced procurement in a quantity that makes 
sense for effective production.
    If we go past November, we'll start seeing shutdown of sub-
vendor tiers and all that, and then to go back and recapture 
them will become more expensive. Every month after that the 
costs will go up of what it takes to go back and recapture 
them, without a path forward, without a commitment for 
additional procurement.
    Senator Lieberman. Okay, I appreciate that answer. I 
assumed that's what you had in mind. I'm curious whether you've 
calculated at all what the dollar and schedule effect would be 
of waiting actually until January or some time thereafter to 
make a decision.
    General Hoffman. It takes about 3 years to build an F-22. 
From when we go on contract, it's 35 months until it rolls out 
the door. So that's at an efficient rate. If you're at a less 
than efficient rate, that number can vary. So December 2011 is 
when the last F-22 goes out the door right now. So you can back 
that up to find out when you're in that 35-month window and 
then it's a month for month delay to that. Costs go up, and 
depending on how many months that will be will determine what 
the cost is.
    There's no per-month cost because it's an increasing amount 
every month as additional sub-vendors close their doors.
    Senator Lieberman. But you can say with some certainty that 
waiting until 2009 to make the advanced procurement decision 
would cost more money?
    General Hoffman. Yes, sir. November of this year will be 
fiscal year 2009, but if you're talking about calendar year 
2009 to make the decision we're already into the fiscal year 
and we do not have the authorizations there to keep those sub-
vendors still alive.
    Senator Lieberman. So what you're saying is that there's 
time and money to be saved by doing the advanced procurement in 
November of this year, and that your understanding of Secretary 
Gates' position about giving the next administration an option 
is basically meaning that they can stop the process if they 
choose?
    General Hoffman. Yes, sir, depending on when the next 
administration would form as a team to build or get that 
decision through Congress as well.
    Senator Lieberman. In calendar year 2009, okay.
    Admiral Myers, let me ask you a question regarding force 
structure. We talked about the shortfall in aircraft. I want to 
understand whether you're saying that the combination of the 
JSF and upgrading existing planes will actually fill the gap, 
which we have at least 69 aircraft short of the number required 
to support the 10 aircraft carrier wings? So is that 
combination that you talked about in your opening testimony 
adequate to fill the gap?
    Admiral Myers. Chairman Lieberman, we will have a 69 
tactical fighter aircraft gap that peaks in the 2017 timeframe 
if we continue to follow the current program of record and 
there are no delays in the JSF. So that assumes that we receive 
the program of record for the JSF as it's identified in the 
President's 2009 budget, and that also assumes that we don't 
have any other early retirements of our legacy Hornets that 
we're completing the analysis on the Service Life Extension 
Program.
    Senator Lieberman. Let me ask you about how much risk, on 
that last point, you think we're exposing ourselves and 
obviously our pilots to by assuming that the F-18, which was 
designed for 8,000 hours, will be able to fly operationally 
until it reaches 9,000 hours?
    Admiral Myers. Mr. Chairman, that's a great question. We 
have over the last few years spent quite a bit of time doing 
the analysis to try to get what came to us from the factory as 
a 6,000-hour aircraft--6,000 hours with 8,300 landings and 
2,000 cats and traps--and we have already taken those aircraft, 
the legacy F-18 A through Ds, out to 8,000 hours and extended 
their landings to 14,500 and 2,700 cats and traps.
    So this is the next phase, to try to get the hours from 
8,000 to 10,000. We're not going to increase the cats and traps 
or the landings. Our analysis to date shows that we think we're 
going to get to the number of aircraft that we need. We have 
about 640 legacy F/A-18s and if we get half of those to a point 
where we can extend them, meaning we've looked at each 
aircraft. We understand the 159 hot spots that are associated 
with high fatigue and corrosion areas for every aircraft. Of 
those 159 hot spots, 100 are going to require some kind of 
engineering change or augment to extend it if it shows wear.
    So what we're doing right now is we're completing the 
analysis to identify which aircraft will fall into that 
category that we can extend, and then we'll start with the 
engineering change proposals at the end of the summer. So it's 
a little bit early to say that we're going to get there with 
all of the aircraft that we need for the 10,000-hour extension, 
but we're confident that we are on the right track and we'll 
know more here in the next few months.
    That's our challenge in POM 10--to make sure that those 
engineering changes are funded and that we have all the 
aircraft that we need programmed to try to do what we can to 
mitigate that shortfall.
    Senator Lieberman. My time is up, but just to ask a quick 
question: I presume you're imposing a high standard of 
acceptable risk here as you extend the hours of service life 
for individual planes?
    Admiral Myers. Sir, this is what I would term as the 
highest standard of acceptable risk. We would not put our 
tactical aviators in a position in which we weren't confident 
that we could safely extend the aircraft.
    Senator Lieberman. Right. Thank you.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    General Darnell and General Hoffman, we're all aware of the 
controversy surrounding the KC-45 tanker program and I'm not 
going to get into the merits of that. But I would like to ask a 
few basic questions about this top priority program for the Air 
Force.
    First of all, General Darnell, how urgent is the 
requirement for a next generation of aerial refueling tanker?
    General Darnell. Senator Cornyn, we consider it so urgent 
that we've made it our number one acquisition priority. Our 
average fleet age for our KC-135Es is 48 years, and our 
maintenance man-hour costs per flying hour for the KC-135 have 
gone up dramatically and exponentially. So we again consider it 
that important to make it our number one acquisition priority.
    Senator Cornyn. General Hoffman, compared to other programs 
that you've witnessed over your career, would you compare how 
fair, open, and transparent the bid and award process was for 
the KC-45 tanker compared to those other programs you've 
witnessed over your career?
    General Hoffman. Yes, sir. I would say that this is 
unprecedented in the amount of effort that's gone into being 
open to all partners in this, both between the DOD and with 
Congress on what the game plan is. It's been unprecedented in 
the amount of exchanges we've had with the vendors of what our 
intentions are and getting feedback from them before we locked 
in the requirements, that we made sure we had executable 
requirements for our industrial partners.
    I can think of no program that's gone through the volume of 
effort that this program has.
    Senator Cornyn. General Darnell, General Trautman, and 
Admiral Myers, I want to ask about the second engine on the F-
35, because, frankly, I'm perplexed. Congress acted to restore 
funding for the development of the second engine production 
source for the JSF and actually passed legislation requiring a 
second source, and the Department has, it looks like has 
ignored that.
    Can you please describe the Department's rationale for 
doing so, if in fact you agree that's happened? I'd like to 
know whether the Navy and the Air Force support the 
Department's decision, and why or why not. General Darnell, you 
could start, please, or General Hoffman if you think it's more 
appropriate.
    General Hoffman. We do support the President's budget and 
the Department's position on this. In a fiscally constrained 
environment, the balance of risk versus the benefit of 
competition is balanced, and we think we have a track record in 
other aircraft that have a single engine provider to give us 
confidence that we'll have a successful program.
    Senator Cornyn. General Trautman, would you care to 
respond?
    General Trautman. Senator, the issue for the Marine Corps 
is how do we stretch the limited resources that we have across 
a wide range of needs. It is incredibly important that we keep 
the F-35 on track for a 2012 initial operational capability 
(IOC) for all the reasons that Admiral Myers so clearly 
articulated. So it just becomes a matter of that as a 
decisionmaker for us.
    Senator Cornyn. Admiral Myers, do you have anything you'd 
like to add?
    Admiral Myers. Yes, sir, just that the Navy and the 
Department continue to believe that the risks associated with a 
single engine supplier are manageable and do not outweigh the 
investment required to fund a competitive alternate engine.
    Senator Cornyn. I know this has been the subject of a lot 
of discussion and hearing, over time. I'm one of those who if 
you tell me the military needs something I'm willing to open up 
the Treasury to pay for it. But it's a little perplexing why, 
given the discussion and the conscious decisionmaking process 
by Congress, that this budget ignores that judgment. So I guess 
we'll have to go through it again this time.
    Let me ask Mr. Balderson and General Hoffman. GAO recently 
released a report critical of the F-35 and I alluded to that in 
my opening statement. They took exception to the program's 
current risk reduction program, schedule, and cost estimates. 
I'd like to give you an opportunity, if you will, both of you, 
to respond to that.
    Mr. Balderson. Senator, I'll start if I can. Actually, 
there have been two reports. I'd be happy to respond to both of 
them. The report that you refer to I think basically had two 
findings. First, it was critical of the midcourse risk 
reduction plan; and then, second, there were a series of 
recommendations that addressed the need for an independent cost 
estimate and schedule risk assessment.
    With respect to the midcourse correction recovery plan, we 
believe that this was a strategy that was carefully considered 
over a very long period of time. There are really two elements 
to the risk reduction plan. The first element is a very modest 
reduction of engineering staffing at Lockheed Martin, during 
the end of the development phase. When I say modest, there was 
already, of course, a reduction plan for people at the end of a 
development program. Our risk reduction plan reduces those 
people about 5 percent faster.
    The second piece of that reduction plan was to reduce two 
test vehicles. What we have to keep in mind is that when we 
entered the System Development and Demonstration phase of this 
program about 6 years ago, we had a test plan at that point and 
made certain assumptions about the number of test hours we 
would need and the test vehicles that we would need. Four years 
into the program, when we decided that we did need to recoup 
some management reserve and we began to look for opportunities 
to do that, the Lockheed Martin-government team all unanimously 
believed that what we had learned during that first 4 years 
made it clear that there were two vehicles in that test plan 
that we didn't need.
    We didn't go looking for areas to cut and pick test 
vehicles. It became clear to us from information that we had 
gleaned over the first 4 years that we could do without those 
vehicles.
    We believe we have a mitigation strategy for both of those 
areas should we prove to be wrong. First of all, we're going to 
watch this very carefully over the next couple of years. With 
respect to the people, very simply, if we're not ready to 
remove those people we won't remove them. They won't come off 
the program before the time. We just believe that we will be 
able to get rid of them at this pace.
    Second, we have a fallback position with respect to the two 
test vehicles. We don't believe we will need those vehicles for 
the test program, but if we do we're prepared to substitute 
Low-Rate Initial Production (LRIP) vehicles to complete the op-
eval, and we know that we can do that.
    Just very briefly, the other piece of the recommendation 
with respect to independent cost estimate and schedule risk 
assessment, we completely agree with that. In fact, prior to 
this particular GAO report coming out, the Department had 
chartered what we call a joint independent review, where the 
Navy and the Air Force independent cost teams, teaming with the 
Office of the Secretary of Defense's (OSD) Cost Analysis 
Improvement Group, conducted a comprehensive cost and risk 
assessment that will inform POM 10 and will inform a decision 
to proceed on with the subsequent LRIPs.
    General Hoffman. Senator, I would just add, the GAO made a 
bunch of observations. They took some data points. But we don't 
necessarily agree with how they connected the dots in 
projecting forward into the future. I think the program office 
is the source for the truth on that. We've been tasked in both 
Services and the OSD staff by Mr. Young to come to closure on 
what we think the expected completion cost is, and that process 
is going on throughout the summer.
    The select acquisition report for 2007 shows really no 
change from 2006 in that regard. But we do admit there is cost 
and schedule pressure in this program. We're trying to define 
that here in the next couple of months so we can inform POM 10 
building so that we can deliver a quality product to you next 
year with confidence in the way ahead in this program.
    I will say that this program has learned a lot from the F-
22 program. We have a very robust test fleet and additional 
test assets, like the cooperative avionics test bed and so 
forth, to wring the risk out of the program in a timely manner 
so that we can make informed decisions as we go through our 
LRIP lots into full rate production.
    Senator Cornyn. Thank you. My time has expired.
    Senator Lieberman. Thanks, Senator Cornyn.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    General Hoffman, going back to Senator Lieberman's comments 
relative to the F-22, I notice in your statement where you talk 
about the line being shut down or a line being kept open. 
Obviously, as you said, under the current procurement situation 
the line will start shutting down in November. Suppliers will 
begin backing off. If we're truly going to keep that line open, 
as you state on page 11, it will require $595.6 million in the 
fiscal year 2009 advanced procurement budget, is that correct, 
for 24 additional aircraft?
    General Hoffman. Yes, sir. We need $595 million for 
advanced procurement. Some of that money can come from money we 
have set aside right now for the tail-up expenses. If there is 
a lot 10, that tail-up gets deferred, so the amount of money--
$125 million--that's in there for lot 10 can be applied toward 
that advanced procurement.
    Senator Chambliss. What about the satisfaction of the Air 
Force as a customer as to what's being done with respect to the 
F-22 production now? Is it moving the way you want it to move?
    General Hoffman. Absolutely. You may recall 4 or 5 years 
ago that we were struggling to get on schedule and stay on 
schedule. We have more than recovered schedule-wise. Their 
average delivery is 2 months earlier now and we're actually 
getting jets that are being delivered with zero writeups on 
them.
    Senator Chambliss. There is conversation about four more F-
22s being added to the supplemental. What does that add to the 
timeframe from the standpoint of the production line being kept 
open?
    General Hoffman. Sir, that adds four aircraft to the fleet. 
It adds very little to the debate about keeping vendors open. 
At the current production rate, if we blended it in at the same 
production rate, that would be less than 2 months of 
production.
    Senator Chambliss. Based upon where we are with respect to 
the F-35, which is a great airplane and obviously I think we 
all agree we have to continue down the road with that weapons 
system, but given the current procurement plan, will the Air 
Force have a gap in your fighter inventory line?
    General Hoffman. Yes, sir, but I'll let General Darnell 
talk to that from the requirements standpoint.
    Senator Chambliss. Okay.
    General Darnell. Senator, yes, we will. Based on the 
program of record, beginning in 2017 we will start incurring a 
gap, out to the 2024 time period. Based on a delivery of 48 F-
35s a year and 183 F-22s, we would anticipate a shortage of 
over 800 aircraft in 2024.
    Senator Chambliss. In your opinion is there any need to do 
an additional study to determine what the right mix is of 
legacy as well as fifth generation aircraft?
    General Darnell. Senator, right now, in light of that, 
we're--as Admiral Myers already talked about--starting to 
review what that mix of legacy might have to be if we're unable 
to increase production.
    Senator Chambliss. I note from your written statement that, 
regarding repairing the F-15 A through Ds, that the Commander 
of Air Combat Command has proposed that of the nine aircraft 
still grounded due to the longeron cracks, five will be 
repaired, at a cost of approximately $235,000 per plane or a 
total of $1.2 million. Is that correct?
    General Darnell. That's correct, sir.
    Senator Chambliss. Is that the extent you think the expense 
of those grounded aircraft is going to come to?
    General Darnell. Those are our best estimates at this time, 
yes, sir.
    Senator Chambliss. Do you recommend purchasing any new F-
15s?
    General Darnell. No, sir, I do not.
    Senator Chambliss. You discuss the F-22A future 
capabilities and modifications in your written statement. You 
talk a little bit about the criticality of this program to 
upgrading our current F-22s. As we know, GAO recently issued a 
report that was critical of the F-22 modernization program. Do 
you agree with the GAO's assessment?
    General Darnell. Sir, I probably ought to let General 
Hoffman talk to that. As an operator, quite frankly, I did not. 
But he may have a little more insight than I.
    Senator Chambliss. General Hoffman?
    General Hoffman. Sir, I think it's a matter of when you put 
your probe into the program and all that. They had comments in 
there about the maturity of some of the technologies. We are 
well on our way on the early increments of those modernization 
programs. 3.2 is fully funded. Like all modernization 
increments, there's continuous debate as technology matures at 
a certain rate or as funding is available at a certain rate, 
what crosses the boundary between that increment and the one 
preceding it or the one following it.
    That's the whole beauty of increments, is it gives you that 
flexibility as you approach that timeframe to make those 
decisions on content in order to hold schedule and cost.
    Senator Chambliss. What's going to happen in that gap 
period out there? If we're going to be 800 airplanes short, 
what's the plan?
    General Darnell. Senator, that is one thing we're going to 
have to figure out, is exactly what we're going to do with our 
legacy fleet, specifically F-15s. We have 177 programmed to go 
out to the 2024 time period or timeframe. We're going to do a 
tear-down analysis this year. We're going to do a fleet 
viability study; the results are to be out in the May-June 
timeframe. We're going to do a complete review of the program 
to see where we need to go.
    We've extended the life of the F-15s now to 8,000 hours.
    Senator Chambliss. What's the oldest of those F-15s we have 
in those legacy aircraft now?
    General Darnell. Calendar-age, we have aircraft that are 
25-years-old.
    Senator Chambliss. General Trautman, you note in your 
written statement that the KC-130J aircraft are continuously 
deployed in support of OIF and providing multi-mission tactical 
air refueling and fixed wing assault support, and that these 
aircraft reduce the requirement for resupply via ground and 
limit the exposure of convoys to IEDs. You also note that the 
introduction of the aerial refuelable MV-22, combined with the 
retirement of the legacy KC-130, requires accelerated 
procurement of the KC-130J.
    I note that the Marine Corps unfunded program list includes 
a request for $150 million for two KC-130Js. Can you please 
articulate how procuring these additional aircraft in fiscal 
year 2009 would support your requirements for refueling and in-
theater logistics support and how you might be better able to 
support deployed marines and marine assets if you had 
additional aircraft sooner?
    General Trautman. Thank you, Senator. Yes, sir. Our program 
of record is for 51 KC-130Js in the Active-Duty Force. We've 
had 36 aircraft delivered or on contract. We've kept these 
airplanes very busy in the support to deployed forces. In fact, 
we're flying them at about 250 percent of our planned rate.
    That means that beginning about September of this year 
we'll start the process of taking airplanes off the flight line 
to put them into required depot-level maintenance. So the 
stress on the force as we continue this transition will 
continue and will actually exacerbate itself slightly in the 
fall. So any additional airplanes that we can put in the hands 
of our operators will be put to good use.
    Senator Chambliss. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Chambliss.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman, and thank you for 
your leadership on these issues; very important.
    If I may, Mr. Balderson, let me start with you. I want to 
ask about helicopters. Of course, you have the MH-60, which has 
been the workhorse of the Fleet. As I understand it, back in 
previous budget years there was a decision to consolidate some 
of our helicopters and have more MH-60s and fewer other type of 
helicopters. Does that decision that was made a few years ago 
still make sense, and can you give the committee a better 
understanding of what Fleet Forces Command's study is trying to 
address?
    Mr. Balderson. Senator, if I could I'd like to refer that 
question to Admiral Myers. It has more of an operational than a 
budget flavor. I'd be happy to address the acquisition aspects 
of the program.
    Senator Pryor. Okay. Admiral Myers?
    Admiral Myers. Thank you, Senator. The reduction from 
seven-type model series of helicopters to two started back in 
the late 1990s with our helicopter master plan, and that's been 
refined and updated since 2001 to make sure that we're on the 
right path. We're essentially going down to two-type model 
series--the MH-60 Sierra, which will be an anti-surface and a 
mine warfare platform, as well as a logistics platform and then 
the Romeo, which will be our anti-submarine warfare helicopter.
    Of recent, the last few years, we've taken a look to make 
sure that we're on the right path. Knowing that our MH-53s are 
going to retire starting in the 2016 timeframe and be retired 
out about the 2019 timeframe, that will mean that our heavy-
lift/vertical-lift capability goes out with that helicopter. So 
Fleet Forces Command was requested to do a vertical heavy lift 
requirements study to make sure that we had a good idea of what 
the operational environment was going to be starting in that 
timeframe; what the requirement was going to be in that 
timeframe; and that we had contingencies or a way of operating 
that would accommodate the things for which we're currently 
using an MH-53 heavy lift helicopter.
    We thought that heavy lift concepts of operation (CONOPs) 
was going to be completed last fall. It's been rescrubbed and 
we don't anticipate that it's going to be available for us from 
Fleet Forces Command until some time early next fall. But that 
will help set us on the right programmatic path in the future 
and assure us that we're on the right glide slope with the 
reduction from the seven-type model series to two.
    Senator Pryor. General Hoffman, let me ask you, if I may, 
about the C-130J program. As I understand it, there is no 
request for C-130Js in the fiscal year 2009 budget. Given the 
aging C-130E fleet and some of the problems we've had there, 
why have we not requested any more C-130Js?
    General Hoffman. Senator, I think it's a combination of us 
completing the multi-year buy that we're presently on, plus the 
amounts that are in the global war on terror account right now. 
Then you'll see it pick up again in the 2010 request and on, 
where we have a steady state level of effort for the C-130J 
recapitalization.
    Senator Pryor. So will the C-130Js still be manufactured 
during the fiscal year 2009 cycle?
    General Hoffman. Yes, sir. In fact, there are some in 
there. Even though the numbers may be zero in the production 
there as far as the request, there is more of a steady flow 
through the factory during that timeframe there because of the 
Marine Corps buy and because of foreign buys and all that. 
There's activity throughout that time period.
    Senator Pryor. Let me ask about the CV-22, if I may. 
General Hoffman, can you give me a good understanding of the 
acquisition status of that and any kind of problems that you 
see with the CV-22?
    General Hoffman. We're completing the initial operational 
test and evaluation for the Air Force variant of the V-22. 
We're completing that this summer. We'll get the test report on 
that. So I'll hold fire until the testers give their 
professional opinion on what they think is going on.
    But I've heard nothing at my level that causes any concern 
on the acquisition and continued production of that aircraft.
    Senator Pryor. Thank you.
    Mr. Balderson, there's one theme that we get tired of 
hearing here in the Senate oftentimes, and that is that, when 
it comes to military acquisitions, there are two things that 
happen. They get behind schedule and they get over budget. I 
know that you have several items right now in your mix that 
you're overseeing that are behind schedule and over budget, and 
it's like what Senator Chambliss asked a few minutes ago. When 
you start to get into that situation, you still have the needs 
that are still there.
    But let me start with one of those and that is the 
presidential transport, the VH-71. As I understand it, it's 
behind schedule and they may cost more than we thought they 
would. What's the status of that?
    Mr. Balderson. Let me speak to the VH-71 in two increments, 
Senator. Increment-1--which is the initial capability, five 
aircraft--that program is proceeding I would say reasonably 
well. There are three increment-1 test vehicles flying at 
Patuxent River currently. All five of the increment-1 
production vehicles are in various stages of production in 
Yeovil, England. They will all be delivered by the end of this 
year to begin testing, and we're projecting an IOC of September 
2010. That's about 11 months later than the original 
projection, which is why I say the program is going reasonably 
well. We lost some time and progress when we initiated that 
program. We couldn't recover all of that. But we feel confident 
that program is going well and we'll introduce that initial 
operational capability of increment-1 in the September 2010 
timeframe.
    Increment-2 has been a different challenge. Increment-2 is 
a considerable leap in terms of capability, range, 
communications, survivability, et cetera. It was always 
anticipated to be a much more capable aircraft. We recognized 
at the end of calendar year 2006 that we were not going to be 
able to execute increment-2 on cost or on schedule and frankly 
since the end of 2006 we have been evaluating any number of 
options to proceed forward and deliver that capability.
    In fact, toward the end of last year, because of funding 
shortages for increment-2 and because we were in the process of 
restructuring, we issued a stop work order and currently there 
is no work. We have increment-2 on hold.
    Recently, having evaluated a large number of options to 
proceed with increment-2 or other alternatives and working 
closely with the White House, we've made the determination that 
the increment-2 capability and the program of record that we 
have on hold now is really the only way and the only means of 
meeting the requirement for this capability. So what we have 
ongoing at the current time is we are now working very closely 
with Lockheed Martin to get a proposal that would lead to a 
negotiated restructure of that contract by the end of this 
year.
    We're preparing to go to a Defense Acquisition Board in the 
fall, which would give us the authority to proceed. As we do 
that, we're developing and refining our cost estimate for the 
program. It does look like at this point, depending on how 
negotiations go and what sort of trades we might be able to 
make, like we're talking about a cost growth in the 
neighborhood of $4 billion and probably roughly 5 years in 
delivering that IOC.
    I would add that the only way we can restart increment-2 in 
the fall is with the 2009 authorization and appropriation. We 
don't have funding in 2008 to continue with increment-2 for a 
number of reasons, which I can go into. There are about $300 
million in the 2009 budget request that would continue 
increment-2, and we will need that to get the program 
restarted.
    Senator Pryor. That's not great news, because it sounds 
like, if I understand it, that program is going to be, what did 
you say, $4 billion over budget and 5 years late?
    Mr. Balderson. The increment-2, that would be a pretty 
close estimate, yes, sir.
    Senator Lieberman. Yes, that's tough news.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Lieberman. We'll pursue that further.
    Thank you, Senator Pryor. We'll start a second round of 
questions.
    I want to come back to the questions about the aircraft 
shortage projected. General Trautman, I know one of the 
projections for a shortfall for the Marine Corps was a minimum 
of 56 aircraft short of the required to support the three 
Marine air wings. Since the Marine Corps, going back to my 
conversation with Admiral Myers about the F-18, also is flying 
F-18s and is contributing squadrons to certain carrier air 
wings, how is that potential gap of at least 56 aircraft going 
to affect the Marine Corps' ability to meet its commitments?
    General Trautman. It puts us in a different position, 
Senator. It does hit us about the 2017 timeframe. This gap 
needs to be managed aggressively and I think the Department of 
the Navy, the Marine Corps and the Navy, are working together 
to mitigate the gap through things like the service life 
assessment program and the service life management programs 
that we have in place, so that we can make sure we get every 
single legitimate safe flight hour out of the existing force.
    From our perspective, anything that puts pressure and that 
delays the arrival of F-35B increases our concern about our 
ability to provide the kind of aviation service to our Marine 
air-ground task forces that the joint forces commanders expect 
from the Corps.
    Senator Lieberman. This comes back again to the critical 
importance of the JSF program and doing everything we can to 
make sure that there are not delays in delivering it, right?
    General Trautman. It's absolutely essential from the Corps' 
perspective. We made a conscious decision over a decade ago to 
forego the F-18 E and F.
    Senator Lieberman. Right.
    General Trautman. It was a wise decision, I think, when you 
look at the relative capability sets between this fifth 
generation strike fighter, the F-35, and the F-18. But as that 
bridge gets longer and longer, it puts our force under 
considerable stress and increases the concern that the 
Commandant and I and others have about our ability to make that 
bridge.
    Senator Lieberman. Absolutely.
    In that regard, Secretary Balderson, there have been 
reports of engine testing failure that certain engines have had 
when operating--I'm talking about the F-35--in the more highly 
demanding mode for the Marine Corps STOVL aircraft. Can you 
give us a status report on the F-35 engine, particularly as 
regarding the STOVL operating demands?
    Mr. Balderson. Yes, sir. What occurred on two occasions in 
the last few months is an engine on a test stand that was 
undergoing testing, and it was in the lift mode, the highest 
stress lift mode for the STOVL variant, and the two engines 
failed. The first one failed at a point where the engine was 
under the highest stress. It broke a blade in the third stage 
of the engine.
    The company, Pratt & Whitney, believed they understood the 
root cause fairly quickly. They began ongoing testing on 
another engine, and put it in exactly the same mode. The intent 
actually had been to get it up to a mode where they were able 
to determine that the engine was about ready to fail, but to 
cut it off before it failed. They got it into that mode, but 
didn't get it shut off quickly enough, and at exactly that same 
mode they had an identical failure. In fact, if you look at the 
pictures you can see the blade broke in the same place and 
almost in the same shape.
    The company feels pretty confident, based on the fact that 
they had already been working a fix and this testing was to 
validate the fact that they understood the root cause; they're 
pretty comfortable that they understand the root cause, and 
they're doing additional testing as we speak to verify that. 
That testing should be completed by the end of April.
    Concurrent with that, they are developing a design fix 
that, assuming the root cause that they've determined proves 
out at the end of this month, they'll implement the design fix.
    At this point, obviously, we view any sort of test failures 
like this with caution and with great seriousness. We do 
believe Pratt & Whitney and the government team have a handle 
on this, and the plan now is to proceed. We're going to delay 
first flight of STOVL a little bit just to make sure we have 
the root cause and the fix established. But the plan now is to 
delay first flight no more than a month, because the first 
flight of STOVL is going to be in the conventional mode anyway, 
and one of the things that Pratt & Whitney through their 
testing is confident of now is that this sort of problem 
doesn't exist in the conventional mode. It's only in the lift 
mode for the STOVL.
    Senator Lieberman. So at this point your hope is that that 
engine test failure will result in only a minimal delay in the 
ultimate availability of the STOVL variant of the JSF?
    Mr. Balderson. Yes, sir. The current plan is to delay the 
first flight of the STOVL 1 month in the conventional mode, and 
I believe I have these dates correct. The first flight in the 
STOVL mode was supposed to have been in October of this year. 
We're looking to probably delay that a couple of months.
    Now, prior to flying in the STOVL mode, which is projected 
now for the December timeframe, Secretary Young and Secretary 
Winter have asked to get together and hold a review of the test 
data and the technical data to make absolutely sure that we're 
confident that we have the fix and that they're confident that 
we can fly safely.
    Senator Lieberman. Okay. Obviously, these are very 
sophisticated, complicated aircraft. But we want to do 
everything we can, for just the reasons General Trautman said, 
and I know you agree with this, to get the Marine Corps this 
plane on time, even beyond that if possible.
    General Hoffman, let me change the subject to UAVs. The 
Army is planning to buy a large number of Warrior UAVs in 
upcoming years and intends to buy its own fleet of medium 
endurance UAVs because it does not believe that the Air Force 
will adequately support the ground forces with Air Force 
assets.
    Last year we heard that the Air Force could end up buying 
the Army version of the UAV. Is that still the case?
    General Hoffman. Yes, sir. In fact, we're buying two of 
them and we are running through the test program. There are 
many attributes of the Warrior that we like, like automatic 
take-off and land, heavy fuel-use engine, more ruggedized 
landing gear, and so forth.
    There are some things on the early Warriors that would not 
serve our CONOPs, if you will, using the reachback methodology 
that we use right now of actually launching them forward, and 
flying them from the States. But as Warrior progresses those 
attributes will be in Warrior as well.
    So we're not afraid of the C at all. In fact, we're 
embracing it, and as soon as it proves itself in tests we'll 
probably just transition our production from the B to the C.
    Senator Lieberman. So you intend--right now you're on a 
path to become--essentially to join the Army program on this 
one?
    General Hoffman. Yes, sir. I would, just to qualify one 
comment you made earlier, I don't view any of our assets as Air 
Force assets. I view them all as joint assets. Wherever the 
theater commander wants them, that's where they go. We do not 
have Air Force ISR targets that we service for our own needs.
    Senator Lieberman. Thank you for that answer.
    My time is up. Senator Cornyn.
    Senator Cornyn. Let me return for a minute to the F-35 for 
one or two more questions. Mr. Balderson and General Hoffman, 
the GAO released a report last month that said the JSF costs 
had increased by more than $23 billion over the last year 
because of a 7-year program extension, future price increases, 
and increases in the price of materials. However, according to 
the Selected Acquisition Report (SAR) released this past month 
by the DOD, the F-35's program costs decreased slightly over 
the final months of 2007 and the effort did not experience a 
significant cost breach during that time requiring 
congressional involvement.
    The report says JSF program costs decreased by $981 
million, from $299.8 billion to $298.8 billion, over the 3-
month period.
    In your view, which report more accurately reflects the 
reality, the GAO report or the SAR?
    General Hoffman. Senator, I think it's apples and oranges 
here. If you knew that you were going to die in 10 years and 
then you found out you were going to die in 17 years, you're 
going to live 7 years longer and that's going to cost more 
money than dying in 10 years.
    Primarily what GAO is talking about is life cycle costs. 
Because of the production rates, we're going to be making these 
things 7 years longer than we originally planned. So if you 
make them 7 years later, they live 7 years later. Those are 
operating costs primarily in the out years.
    The SAR reflects our development and production of the 
aircraft. As we both talked about before, I think we'll have 
more fidelity on that cost through the summer here as we work 
to build the 2010 POM.
    Senator Cornyn. Mr. Balderson, do you have anything you'd 
like to add on that?
    Mr. Balderson. I agree with that completely. Secretary 
Young testified recently, and I mention this because I think 
this is what I anticipate also, that we anticipate that when 
this joint independent cost estimate is done this fall, we 
probably will have to put modest amounts of funding in the F-35 
program to keep it stable. I think that's accurate, and that 
you will in no way see the kinds of costs GAO is talking about 
in the development of the production.
    Senator Cornyn. Senator Lieberman asked a little bit about 
UAVs. I'd like to follow up on that subject. In 2001 Congress 
established as a goal that by 2010 one-third of the aircraft in 
the operational deep strike force should be unmanned. However, 
the unmanned systems road map just delivered to Congress does 
not describe how it plans to achieve this goal, nor does it 
include striking targets as a key UAV role or mission in the 
future.
    I'd like to know--this will be for General Darnell, General 
Trautman, or Admiral Myers--how is your Service doing toward 
meeting the goal set in 2001 for an operational deep strike by 
UAVs, and do you see striking targets as a potential mission 
for UAVs in the future, and if so why, or why not?
    General Darnell. Sir, we can tell you that in the 
President's fiscal year 2009 budget, we have 92 aircraft that 
we plan to buy. Of those 92, 54 are UAVs. So we feel like we're 
making a significant statement in where we want to go. Our next 
generation bomber that we've also specified can be either 
manned or unmanned. Over the Future Years Defense Program 
(FYDP), approximately 35 percent of the vehicles that we will 
purchase will be UAVs.
    Senator Cornyn. I think the question really related to the 
operational deep strike capability. Would you address that 
issue?
    General Darnell. Senator, we look at deep strike in several 
different ways. With a Predator UAV, you can still accomplish 
deep strike. Are you talking about a bomber type aircraft?
    Senator Cornyn. The last UAV road map provided kinetic 
effects as a prime mission area, although the latest UAV road 
map, written in December 2007, no longer included kinetic 
effects as a major UAV goal or operational mission area. I'm 
just trying to get a grasp on what you think these UAVs are 
going to be used for.
    General Darnell. I can tell you, Senator, as far as the Air 
Force is concerned, we're going to be doing a combination of 
reconnaissance and kinetic effects. Like I said, I'm not 
familiar with that report. I can tell you that our plan is to 
transition, frankly, to MQ9, which is our Reaper aircraft, a 
much larger aircraft with much more kinetic capability.
    Senator Cornyn. General Trautman, would you agree that 
kinetic effects, striking targets, is going to continue to be 
an important role for UAVs?
    General Trautman. Senator, absolutely. It's a growth 
industry. It's inevitable, and the pace at which it comes is 
just a function of technology development and finding the 
resources to apply to the new CONOPs.
    With regard to the Marine Corps's role here, we typically 
don't own assets that do the classic deep strike. Clearly, our 
UAS approach in the near term has been the tactical level UASs, 
Raven B, Shadow, and Scan Eagle. We have a plan for a program 
of record with an IOC in the mid-teens, around 2015, in which 
we're doing an analysis of alternatives now, and one of the 
attributes of that system is the desire to do the kind of 
precision strike that you're talking about. But it's still a 
little ways out there for the Corps.
    Senator Cornyn. Admiral Myers, would you care to add 
anything?
    Admiral Myers. Yes, sir, and thank you for the question. 
The Navy's approach to UAVs is divide them into four areas: 
First is a fighter or F/A-XX, and we have currently the Navy 
Unmanned Combat Aircraft System (Navy UCAS) demonstration 
program that's underway, and that will go out to a carrier. We 
have two vehicles, X-47, which go out to the carrier in the 
2011 timeframe.
    Let me just give you a broad brush and then I'll deep dive 
into each one. In the high end, deep penetrating strike and 
persistent realm is the F/A-XX, or Navy UCAS. The next level 
below that is Broad Area Maritime Surveillance (BAMS). The next 
level below that is our VTOL Tactical UAV (VT UAV), which is 
currently in testing. That will be deployed on our Littoral 
Combat Ships. Then below that is, at the extreme tactical 
level, the Scan Eagle or Small Tactical Unmanned Aircraft 
System, which is essentially an extended sensor for the 
deploying unit that's using it.
    I'll start with F/A-XX. Right now, our overall road map 
plan for naval aviation has us recapitalizing a strike fighter 
type about every 10 years. So if every 10 years we're 
recapitalizing half of our strike fighter fleet, then that 
means at this point we're transitioning in the teens into the 
JSF, IOC in 2015 for the C variant for the U.S. Navy. Ten years 
later in the 2024-2025 timeframe, when the F/A-18 E and F Block 
2 aircraft start to retire, that's when we want to recapitalize 
with the F/A-XX.
    So that's our challenge in POM 2010: to make sure that the 
program gets moving in the right direction starting with 
analysis of alternatives and moving forward. In order to 
deliver that in the 2024 timeframe, we need to move out right 
about now. We think that it's about a 12-year process to 
deliver that kind of capability.
    One level below that is our BAMS, which we just recently 
attended a Defense Acquisition Board and will announce more 
specifically the direction we're heading here in another week. 
BAMS is an ISR and communication relay, broad area surveillance 
platform that will augment our maritime aircraft, our P-8s. It 
is intended to deliver starting in the 2014 timeframe, and it 
will take about 30 to 33 percent of the workload of ISR off our 
P-8s. So, therefore, it has a direct corollary to reducing the 
inventory.
    One step below that is VT UAV, and that's currently in 
testing. That's to augment our Littoral Combat Ships in both 
the MH-60 Sierra and the MH-60 Romeo variety. So what that'll 
do is take again about 30 to 33 percent of the flights off the 
Romeo and Sierra for the Littoral Combat Ships and perform EO 
and IR, electro-optical and IR type of work, and also a 
communications relay to enhance the capability for the Littoral 
Combat Ship to do all three missions--the mine warfare, anti-
submarine warfare, and ASUW, anti-surface warfare.
    At the tactical level, we're currently enjoying the use of 
Scan Eagle, but it's time to recapitalize and look at the next 
generation of capabilities, again at the tactical level, to be 
used on our surface combatants.
    So right now, those are a broad brush of our programs. Our 
challenges coming into this upcoming POM cycle are to make sure 
that all of those programs are either funded to the level that 
we require or are started in a manner that they'll deliver on 
time.
    Senator Cornyn. Thank you very much.
    My time has expired.
    Senator Lieberman. Thank you, Senator Cornyn.
    Senator Chambliss.
    Senator Chambliss. Gentlemen, that's pretty exciting, to 
think about where we're headed with the future of TACAIR and 
unmanned aircraft. It's just an entirely new generation we're 
thinking about. I see all four of you are proudly displaying 
wings on your uniforms. Are we going to replace that with a 
joystick or something for these guys that'll be flying those? 
That's truly exciting.
    I don't have a dog in this tanker situation from the 
standpoint of a parochial issue, but I am, as we all are, very 
concerned about where we're going here, because I think every 
branch has expressed a real need for this tanker issue to move 
forward, that we're hitting a critical time.
    Now, I realize the Air Force contract is currently being 
reviewed by GAO and I certainly look forward to hearing what 
their opinion is on the issue of this particular contract. One 
issue that I hope you look at closely is to what extent the Air 
Force accepted or did not accept as compliant the commercial 
pricing data that the bidders and the partners provided and 
whether or not this data was dismissed during the Air Force's 
evaluation of the proposals.
    Obviously, if the data was faulty it should not be 
accepted. But if the data submitted was accurate and did comply 
with what the Federal Acquisition Regulation requires, it seems 
to me it should be accepted as such.
    General Hoffman, I wouldn't ask you to necessarily comment 
on that because I think this is something that I just want to 
get in the record. But it is an issue that we have to be very 
clear on as we move forward on this.
    I think, Mr. Chairman, that's all I have.
    Senator Lieberman. Thanks very much, Senator Chambliss.
    I don't know if Senator Cornyn has more questions. Okay, 
I'll delay a little bit. I don't have any more questions, 
although I thought while I had you all here I would repeat 
something and just throw a jump ball out there and see if 
anybody wants to respond.
    This was a comment from a colleague recently--it's very 
different from anything that we've talked about today; it 
probably reflects a lot of thinking from people who are just 
watching our military situation. The comment was this: The Army 
and Marine Corps are so deeply involved in Iraq and Afghanistan 
that, as this colleague said, if we get into another crisis 
we're really going to have to totally rely on the Navy and the 
Air Force.
    You may want to contend with the first part, the first 
premise there. But I'm curious. This is the lay person's 
conventional wisdom out there, and I wonder if any of you have 
a response to it?
    General Darnell. Mr. Chairman, I would have to probably 
agree with that, if we're talking about another major 
conventional operation, at least at the outset.
    Senator Lieberman. Yes. In other words, that we wouldn't 
have the available Army and Marine Corps capabilities to go 
into another major conventional operation.
    General Darnell. I testified about a month ago to the 
Readiness and Management Support Subcommittee and my biggest 
concern in that discussion with the subcommittee was the fact 
that we are looking at some troubling readiness indicators now 
and today, and my concern was we're mortgaging our capabilities 
for tomorrow, for the very scenario that you bring up.
    Senator Lieberman. Anyone else? Admiral?
    Admiral Myers. Sir, some of your comments, I think, are 
appropriate if you would look at our new maritime strategy and 
the six tenets, where it ranges from our ability to provide 
humanitarian assistance and disaster relief, to partnerships at 
sea and sea control. The items that you just mentioned fall in 
the area of deep strike or deterrence. What you're essentially 
saying from your colleague is that you're relying on a couple 
of Services to provide the deterrence or the ability to strike 
and control overseas, and that's what your U.S. Navy is all 
about, is giving you and our Nation's leaders that strategic 
deterrence reassurance, as well as being able to partnership at 
sea, control, and offer the security that we need worldwide, 
and then all the way down to the low end of humanitarian 
assistance and disaster relief, which I think our new maritime 
strategy adequately explains.
    Senator Lieberman. I agree, absolutely.
    General, did you want to, because you have one foot in each 
side here of that question.
    General Trautman. Exactly, Senator, and that's where the 
Marine Corps typically sits, one foot in each side.
    I think that it would be foolhardy to think that just the 
Air Force or just the Navy could take on something larger than 
the opening stages of something like a major combat operation, 
and that's not what your colleague meant to say.
    Senator Lieberman. Right.
    General Trautman. But America has to realize that we have 
to be prepared to respond across the full range of potential 
adversarial actions that our President may deem necessary. So 
it's vitally important that we keep not just the Air Force and 
the Navy ready and relevant, but also Marine aviation so we can 
make our contribution as well. So that's why we're here before 
you today and that's why we appreciate your interest in the 
kinds of things that we're talking about.
    Senator Lieberman. Well done.
    General Hoffman. Mr. Chairman, if I could just add. I've 
heard that same comment and my response to that is there is no 
fight out there that's just waiting for any one Service to go 
solve. All our challenges and conflicts in the world are joint 
responses.
    Senator Lieberman. I appreciate that. That's something that 
I've certainly been involved in for quite a number of years on 
this committee, including setting up, being involved in the 
original creation with then Secretary Cohen and General Shelton 
of what is now the Joint Forces Command. So I appreciate that 
answer. That was part of my answer to my colleague.
    I don't have any more questions. Senator Cornyn?
    Senator Cornyn. I have two.
    Senator Lieberman. Please. Go right ahead.
    Senator Cornyn. One last question about UAVs. In March 
2007, General Moseley spelled out the case for the Air Force to 
become the executive agent for all medium- and high-altitude 
UAVs. It seems like with the proliferation of UAVs, whether 
it's for the Future Combat Systems by the Army, the different 
ways that the military Services use UAVs, this new capability, 
I'm a little concerned or at least would like your response to 
the question, are we continuing to operate and develop these 
capabilities with UAVs in a way that provides for their 
jointness?
    I'm a little concerned that the various military Services 
are developing the UAVs they think they need for what they do. 
But I appreciate General Hoffman's reminder that no Service 
fights a fight alone, that this is going to be a joint fight.
    I'd like a little bit of reassurance, I guess, that we 
haven't abandoned jointness when it comes to development of the 
UAVs needed by the various branches of our military Services.
    Mr. Balderson. Senator, if I could. First, I think some of 
the tools of the trade that all Services use are optimized for 
their unique environment that they operate in. Where we came on 
board with that discussion on executive agency was for theater-
wide assets that can quickly flex across the battlefield and 
theater. If you have weather in one-half of your theater, those 
assets can go to where the weather is good and contribute, not 
just wait for the unit, if they're tied to a unit. That was our 
logic behind theater-wide assets and why we thought there were 
efficiencies to be gained in centralized command and control, 
if you will, of those theater assets.
    Senator Cornyn. Anybody else care to comment?
    General Trautman. Senator, if I could add. OSD AT&L 
presently has a UAV task force that we and the other Services 
are contributing to and members of. We're working very closely 
with the United States Army in light of our latest warfighter 
talks to come up with a joint concept of operations which does 
optimize these aircraft. Both Training and Doctrine Command and 
Air Combat Command are working through that, and they're making 
good progress.
    Senator Cornyn. I know Secretary Chertoff of the Department 
of Homeland Security is acquiring UAVs, so they're 
proliferating, it seems like, across the United States 
Government. I appreciate your answer.
    The last thing I would like to ask about has to do with 
synthetic fuels. Since last fall the Air Force has been testing 
whether Air Force aircraft can fly on liquid fuels made from 
natural gas or coal. According to the Air Force, barring any 
unforeseen glitches the Air Force expects to certify the 
synthetic fuel for use in B-52 bombers this summer. Given the 
interest and publicity with which the Air Force has surrounded 
their synthetic fuels research program and given the energy 
crisis that our country faces generally speaking, how much 
funding is in the fiscal year 2008 budget request for this, and 
what level of capability does the Air Force's program provide 
for FYDP?
    General Hoffman. Senator, I'll take that for the record on 
the amount that's in our program. But what we're doing is 
qualifying our equipment to operate. There's a larger issue 
here and that is where is the infrastructure that's going to 
produce that fuel, what are the environmental consequences of 
producing that fuel, and what are the permission sets that 
allow us to buy fuel at--right now it's above market rate.
    [The information referred to follows:]

    Fiscal year 2008 Alternative Fuels program funding included $12.5 
million of research, development, test, and evaluation (RDT&E) for 
alternative fuels laboratory research efforts. The following provides 
the fiscal year 2009 President's budget Alternative Fuels laboratory 
research funding for the future years defense plans:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal Year
                                                          ------------------------------------------------------
                                                              2009       2010       2011       2012       2013
----------------------------------------------------------------------------------------------------------------
RDT&E....................................................        3.0        3.2        2.8        2.2        2.2
----------------------------------------------------------------------------------------------------------------

    Additionally, fiscal year 2008 Alternative Fuels program funding 
included $11.8 million of RDT&E and 0.8 million of operation and 
maintenance (O&M) for the aircraft and ground vehicle fleet alternative 
fuels certification effort. The following provides the fiscal year 2009 
President's budget Alternative Fuels aircraft and ground vehicle fleet 
certification funding for the future years defense plans:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal Year
                                                          ------------------------------------------------------
                                                              2009       2010       2011       2012       2013
----------------------------------------------------------------------------------------------------------------
RDT&E....................................................       28.5       47.2       15.1        9.6        3.2
O&M......................................................       27.9       21.5       12.8        6.4        2.8
----------------------------------------------------------------------------------------------------------------
  Total..................................................       56.4       68.7       27.9       16.0        6.0
----------------------------------------------------------------------------------------------------------------

    This effort will provide Air Force aircraft and ground vehicles 
with the capability to operate using a 50/50 blend of standard jet fuel 
and a synthetic fuel derived from natural gas or coal. Certification of 
Air Force aircraft and ground vehicles is a necessary step toward the 
long-term goal of satisfying 50 percent of continental U.S. based 
aviation fuel requirements by purchasing synthetic fuel derived from 
domestic sources (gas or coal) and produced in the United States by 
2016.

    General Hoffman. The Secretary has a passion for this and 
it's not about the economy or the type of fuel we're using or 
the industrial base issues. It's about fuel assuredness, 
because he's not thinking 1 year or 2 years or 5 years or 10 
years. He's thinking down the stream: Will this Nation be able 
to assure itself that it has enough fuel for its military 
purposes? So it takes years to go through the qualification 
process. It takes years to develop the infrastructure that will 
produce that type of fuel.
    So as the largest consumer of aviation in the DOD, and DOD 
is one of the largest users of energy in the government, he's 
trying to take the lead and the initiative there to show that 
we can be good consumers of that fuel, and if we can certify 
our equipment, if you build it they will come. He thinks 
industry will respond. We do need some help with the permission 
sets that allow us to get this jump-started to where it does 
become an economical at least break point with standard-based 
petroleum.
    Senator Cornyn. As gasoline approaches $4 a gallon and with 
the price of oil way above $100 a barrel, it strikes me this is 
a great and wise program and one that could have benefits 
across the economy, not only our military Services. So I'd be 
interested in what you're doing and would offer to work with 
you and try to figure ways we can facilitate it and enhance the 
program, because I think it's exactly headed in the right 
direction.
    I thank you very much, Mr. Chairman.
    Senator Lieberman. Thank you very much, Senator Cornyn.
    I thank the witnesses. It's been, I think, a very good 
hearing. Your answers to our questions have been responsive and 
thoughtful, certainly helpful to the subcommittee. The general 
impression--there's always good news and bad news. The good 
news is that we have a great Air Force, Navy, and Marine Corps, 
and the aviation components of each of those are just serving 
our country with extraordinary devotion and excellence. 
Technology is allowing you to sustain the lives of the aircraft 
more than had been previously so.
    But each of the Services is facing now a daunting--I don't 
know whether you call it longer-term or mid-term--shortage in 
aircraft that we have to deal with. In Washington, we have a 
problem. Hopefully we can figure out a way to deal with it. 
Part of it obviously is, Mr. Secretary, that any time a program 
comes in over budget and late it just makes everything we're 
trying to do harder and harder.
    So, bottom line, I assure you that Senator Cornyn and I and 
our subcommittee will do everything we can to try to stretch 
our resources as far as we can, to give you the support that 
you need and deserve in carrying out the responsibilities that 
you do every day on behalf of our country. So I thank you for 
that.
    Senator Cornyn, do you want to add anything?
    Senator Cornyn. I concur, Mr. Chairman, and thank the 
witnesses for your testimony. Thank you very much.
    Senator Lieberman. Thank you.
    We'll leave the record of the hearing open for 10 days in 
case members of the subcommittee have questions they want to 
submit to you in writing or you want to add to any of the 
testimony that you've offered today.
    With that, I thank you for your service and your testimony. 
The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Joseph I. Lieberman

                           ENGINE COMPETITION

    1. Senator Lieberman. Secretary Balderson and Lieutenant General 
Hoffman, if Congress requires that the Department of Defense (DOD) 
develop and buy the GE/Rolls Royce F136 alternate engine for the F-35 
Joint Strike Fighter (JSF), what will the Navy and Air Force 
Departments do to improve the quality and performance of the Pratt & 
Whitney F135 engine so that the competition is based more on cost or 
price, not on levels of technology?
    Mr. Balderson and General Hoffman. The performance requirements in 
today's engine specifications are identical, and the intent is to 
enable engine interchangeability (F135 with F136) with no noticeable 
effect on aircraft performance. The program acquisition strategy 
envisioned a propulsion competition to address production and 
sustainment, based on factors related to affordability, supportability, 
and safety, to enable selection of ``best value'' production-
sustainment combination offers.

                     ADVANCED CONCEPT EJECTION SEAT

    2. Senator Lieberman. Lieutenant General Hoffman, the Air Force has 
invested funding in incremental improvements to the Advanced Concept 
Ejection Seat (ACES), the common ejection seat on almost all Air Force 
combat aircraft. Can you describe whether there would be cost savings, 
maintenance benefits, and any other advantages of using a modular ACES 
ejection seat in the B-2?
    General Hoffman. The Air Force typically performs Programmed Depot 
Maintenance (PDM) and Intermediate Maintenance on three B-2 aircraft 
per year. The ACES modular seat design reduces this required 
maintenance time, which directly correlates to cost and operational 
efficiencies. The projected PDM savings is $263,000/year and a 
reduction of 3,000 hours; as hatch removal/replacement is not required 
to perform ejection seat maintenance. In addition, the projected 
Intermediate Maintenance savings is estimated at $177,000/year and an 
increase of 18 days of aircraft availability, gained at squadron level. 
Furthermore, modular seat design affords maintenance personnel the 
opportunity to accomplish foreign object damage inspections and time-
change component replacement without removing the ejection seat while 
at home-station or at deployed locations.

    3. Senator Lieberman. Lieutenant General Darnell, I understand that 
the Future Years Defense Program (FYDP) includes funding in fiscal year 
2011 to retrofit the ACES modular ejection seat into the B-2. However, 
I understand that the Air Force has not programmed the funds to qualify 
and test the seat. Would having a modular ejection seat in the B-2 
aircraft improve the operational readiness and operational availability 
of the fleet due by reducing maintenance downtimes?
    General Darnell. Currently, there is no funding in the FYDP to 
retrofit the ACES modular ejection seat into the B-2. The Air Force is 
currently evaluating funding priorities for the fiscal year 2010 
Program Objective Memorandum (POM). Having a qualified modular ejection 
seat would improve B-2 aircraft's operational availability for mission 
tasking. A modular seat design will enhance maintainability by 
substantially reducing hours required for PDM and local intermediate 
inspections, while increasing man-hour availability for other tasks. It 
allows personnel to perform on-equipment maintenance more safely, 
quickly, and effectively without the use of a mechanical lift or 
removal of any canopy, hatch or overhead enclosure, and eliminates 
canopy and seat rail damage. The result is improved aircraft 
availability and reliability.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

              COMBAT SEARCH AND RESCUE HELICOPTER PROGRAM

    4. Senator Pryor. Lieutenant General Hoffman, the Combat Search and 
Rescue (CSAR-X) helicopter program is designed to replace the aging HH-
60G helicopter fleet with improved force protection, greater range, and 
increased payload capacity for specialized equipment and injured 
personnel. The CSAR-X contract, originally awarded to Boeing in 
November 2006 for its HH-47 variant, has been subject to two bid 
protests from the losing competitors, Sikorsky and Lockheed, which were 
sustained by the Government Accountability Office (GAO). These protests 
have delayed the CSAR-X program 2 years from what was originally 
planned. Last year Congress had to appropriate an additional $99 
million for modifications (upgrades) to the HH-60 in order to safety 
and effectively support search and rescue missions throughout the 
world. The CSAR-X has yet to become operational and taxpayers have had 
to subsidize this cost. Where is the Air Force in the source selection 
process?
    General Hoffman. Amendment 6 to the CSAR-X request for proposal was 
released on April 22, 2008. Offeror submissions are due by May 27, 
2008. The Air Force intends to complete the source selection activities 
and begin execution of a CSAR-X System Development and Demonstration 
contract in the fall of 2008.

    5. Senator Pryor. Lieutenant General Hoffman, what is the new 
timeline?
    General Hoffman. The Air Force plans to conclude CSAR-X source 
selection activities and begin execution of a System Development and 
Demonstration contract in the fall of 2008.

    6. Senator Pryor. Lieutenant General Hoffman, will the American 
taxpayer have to once again pay the additional cost in the fiscal year 
2009 budget to keep the HH-60 flying?
    General Hoffman. The Air Force has programmed $16.7 million for the 
sustainment of the HH-60Gs in fiscal year 2009. The Service continues 
to monitor the health of the HH-60G fleet and will plan for the 
required resources needed to sustain this critical weapon system until 
it is replaced by CSAR-X.

    7. Senator Pryor. Lieutenant General Hoffman, will we have to spend 
on the KC-135 to keep them operational while we wait for the protest on 
the KC-45 tanker?
    General Hoffman. Regardless of the KC-45 tanker contract protest, 
the Air Force's tanker recapitalization plan will require decades to 
replace all of the KC-135 aircraft. For that reason, the Air Force has 
planned for modification programs designed to keep the aircraft 
operational until at least 2040. The fiscal year 2009 President's 
budget request contains $134.2 million in Procurement and $7.133 
million in Research, Development, Test, and Evaluation funds for these 
planned modifications.

                          JOINT STRIKE FIGHTER

    8. Senator Pryor. Lieutenant General Darnell, for fiscal year 2008, 
all four congressional defense committees recommended an increase of 
$480 million to the President's budget request to provide for the 
continued development of a competitive JSF engine. Despite this 
legislation, the DOD did not include funding for the development of a 
competitive JSF engine, and would instead prefer to rely only on the 
F135 engine being developed by Pratt & Whitney. $495 million is 
required in fiscal year 2009 for F136 development (General Electric/
Rolls Royce competitive second engine) and $31 million would be needed 
for advance procurement of long-lead parts, for a total of $526 
million. To date, the Air Force has spent $2.1 billion on the F136 
second engine initiative and needs an additional $1.3 billion to 
complete the program. The GAO has recently concluded that the cost of 
buying and operating the JSF for the U.S. military is nearing $1 
trillion, having found the program to be dogged by delays, 
manufacturing inefficiencies, and price increases. Given this 
conclusion, do you believe the Air Force can afford a competitive 
second engine program? What is your cost analysis and why?
    General Darnell. DOD decided to eliminate the alternate engine 
program during the fiscal year 2007 program and budget review. Like all 
requirements prioritized during DOD's planning, programming, budgeting, 
and execution system, the JSF alternate engine program was weighed 
against all other funding priorities. The Department decided the 
benefits of an alternate engine program were not commensurate with the 
increased cost. The Office of the Secretary of Defense (OSD) Office of 
Program Analysis and Evaluation (PA&E) led an analysis to support this 
decision. The Deputy Secretary of Defense provided this documentation 
to the committee February 2006.

    9. Senator Pryor. Lieutenant General Darnell, can you give me the 
Air Force perspective on the proposed termination of the JSF 
competitive engine program, including how such termination may affect 
procurement and life-cycle costs for the JSF?
    General Darnell. The Air Force agrees with the Department's 
position to not pursue a competitive engine for the F-35 JSF. The 
conclusions of all three 2007 congressionally-directed engine studies, 
while supportive of competition in general, support the Department's 
initial findings that the expected savings from competition do not 
outweigh the investment costs. Funding two engines vice one would 
increase F-35 total development cost. Splitting the production buys 
between two sources may actually increase total production costs due to 
learning curve effects, and maintaining two engines would increase 
sustainment costs.

    10. Senator Pryor. Lieutenant General Darnell, will the benefits of 
the competitive engine program outweigh the costs?
    General Darnell. No, the conclusions of all three 2007 
congressionally-directed engine studies, while supportive of 
competition in general, support the Department's initial findings that 
the expected savings from competition do not outweigh the investment 
costs.

    11. Senator Pryor. Lieutenant General Darnell, how many other Air 
Force aircraft procurement programs have had a second engine 
competition as part of its development, past or present?
    General Darnell. Competition between Pratt & Whitney and General 
Electric to supply engines for the F-16 occurred in the mid-1980s; 
however, this was after the development of the F-16, which began in 
1975. There was also an engine competition between Pratt & Whitney and 
General Electric to obtain improved engine durability and operability 
for the F-15; however, this occurred in 1984 after development of the 
F-15, which began in 1969. In the original purchase of the C-5A (1965), 
the Air Force issued contracts to both General Electric and Pratt & 
Whitney for design studies of new turbofan engines. General Electric 
Aircraft Engines (GEAE) won the competition, and a contract was awarded 
for its TF39 engines. Other than those listed, no other Air Force 
aircraft procurement programs have had a second engine competition as 
part of the development phase.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

                      AIR FORCE TACTICAL AIRCRAFT

    12. Senator McCaskill. Lieutenant General Darnell, during the Air 
Force's lengthy efforts to develop and procure advanced fifth 
generation tactical fighter aircraft (F-22s and F-35s) to replace its 
aging Cold-War era fighters, many believe the Air Force has under-
invested in maintaining the readiness of its F-15 and F-16 fighter 
aircraft. Further, some theorize that the rapid aging of the F-15 and 
F-16 fleet is accentuated by a lack of investment in both aircraft's 
maintenance and readiness. The age and readiness levels of the F-15 and 
F-16 are among the core justification points utilized by the Air Force 
for needing to procure more F-22 and F-35 aircraft than the DOD budget 
currently permits. Many believe the Air Force is putting its overall 
readiness at risk by allocating too many resources needed for 
maintaining the readiness of the F-15 and F-16 fleet to F-22 and F-35 
development and procurement. Please explain and justify the Air Force's 
decision not to execute a Service Life Extension Program (SLEP) for our 
F-15 fleet.
    General Darnell. There has not been a rapid decrease in F-15 and F-
16 readiness. In fact, aircraft readiness slowly decreased across all 
weapon systems due to an environment of austere funding through the 
1990s. The Air Force responded by investing heavily in aircraft spares 
and Air Force Smart Operations for the 21st Century (AFSO21) 
initiatives at the depot facilities and field units. As a result, 
aircraft readiness rebounded in 2001, especially for the F-15 and F-16, 
and has been holding the line ever since.

    13. Senator McCaskill. Lieutenant General Darnell, has the lack of 
a SLEP for the F-15 contributed to recent maintenance problems in the 
F-15 fleet? If not, why?
    General Darnell. No. The recent longeron issue on the F-15 is the 
result of a problem with a single lifetime-designed component outlier, 
not of the broader structural system. Engineers at the Air Force's 
Aeronautical Systems Center (ASC) have determined that a service life 
extension to 12,000 hours and higher is possible without having to 
perform Service Life Extension Program (SLEP) modifications.

    14. Senator McCaskill. Lieutenant General Darnell, can you assure 
me that the Air Force did not undertake a strategic effort to permit 
the rapid degrading of F-15 and F-16 readiness in order to facilitate a 
stronger argument for the procurement of F-22 and F-35 aircraft? Please 
explain.
    General Darnell. I can assure you the Air Force did not undertake 
an effort to degrade F-15 and F-16 readiness to facilitate a stronger 
argument for procurement of the F-22 and F-35. There has not been a 
rapid decrease in F-15 and F-16 readiness. In fact, aircraft readiness 
slowly decreased across all weapon systems due to an environment of 
austere funding through the 1990s. The Air Force responded by investing 
heavily in aircraft spares and Air Force Smart Operations for the 21st 
Century (AFSO21) initiatives at the depot facilities and field units. 
As a result, aircraft readiness rebounded in 2001, especially for the 
F-15 and F-16, and has been holding the line ever since.

    15. Senator McCaskill. Lieutenant General Darnell, General Corley, 
Commander of Air Combat Command, recently publicly stated that even if 
the Air Force were given a blank check to replace its F-15s with new F-
22s, the F-22 production line would not be able to deliver the required 
number in the given time needed. Nonetheless, he did not believe the 
Air Force wanted to go back to buying more F-15s to address tactical 
fighter shortfalls that may result from a reduction in the F-22 buy as 
well as delays in both F-22 and F-35 production. Given budget 
constraints, which will lead to smaller than planned/desired purchases 
of F-22 and F-35 aircraft, as well as delays in F-22 and F-35 
production, shouldn't the Air Force be re-examining the option of 
procuring additional F-15s in order to bridge the gap created by delays 
in production as well as the gap created by a reduction in the overall 
number of fifth generation aircraft expected to be procured?
    General Darnell. The Air Force is committed to purchasing a 
complementary mix of fifth generation fighters to recapitalize its 
fighter fleet. Fifth generation fighters are required to achieve air 
dominance against current and emerging threats and to maintain the U.S. 
technological edge given recent foreign developments. Fourth generation 
legacy aircraft, such as the F-15 and F-16, cannot be modified to match 
the capabilities of fifth generation fighters.

    16. Senator McCaskill. Lieutenant General Darnell, we all want our 
airmen to have the best equipment to get the job done. Is there a place 
for F-15Es as a complement to F22s and F-35s in future tactical 
aircraft operations?
    General Darnell. The F-15E will complement the F-22 and F-35 in all 
U.S. joint combat operations for the next 20+ years. Although the F-15E 
is not a stealth platform, and may not be employed in direct attack 
operations during the first stages of a high threat major operation, it 
is an essential component of our fighter force structure and is well-
suited to numerous lesser threat scenarios from medium intensity combat 
operations to counter-insurgency and global war on terrorism 
operations. The Air Force is prioritizing modernization and sustainment 
investments to ensure the F-15E remains a highly capable and viable 
platform by upgrading its systems to include data links, secure beyond 
line-of-sight communications, and a modernized, active electronically 
scanned array (AESA) radar. These, and other, upgrades will ensure that 
the F-15E remains a key part of the Air Force inventory out into the 
2020s.

    17. Senator McCaskill. Lieutenant General Darnell, do we need all 
fifth generation fighters or can we have a mix of fighter aircraft to 
get the job done and maintain military readiness? For example, is there 
not a place for F-22 and F-35 aircraft in early combat operations, 
where the stealth of the aircraft will be crucial, while much cheaper 
but still highly capable F-15 aircraft could execute numerous tactical 
aircraft missions once air superiority is established?
    General Darnell. Fifth generation fighters are required to achieve 
air dominance against current and emerging threats and to maintain the 
U.S. technological edge given recent foreign developments. Fourth 
generation legacy aircraft, such as the F-15 and F-16, cannot be 
modified to match the capabilities of fifth generation fighters. Legacy 
aircraft (fifth generation) use is being constrained by rapid advances 
of enemy capabilities in fighters and integrated air defenses which 
require fifth generation capability to counter. Our use of legacy 
aircraft in a campaign is constrained until air-to-air and surface-to-
air defenses have been neutralized and access assured. Thus, the mix of 
assets must be carefully managed. Over-reliance on legacy fighters both 
today and in the future puts all operations of war--land, sea, and 
air--at risk against capable threats.

    18. Senator McCaskill. Lieutenant General Darnell, do we really 
need all fifth generation fighters to execute every phase of air combat 
operations, especially in light of the costs required to procure such a 
capability and the lack of resources currently available to enable such 
a strategy?
    General Darnell. No, we do not require F-22s and F-35s in every 
phase of combat operations. However, the fifth generation capabilities 
of these two platforms are absolutely critical to the initial phases of 
any major combat operation and to follow-on operations in contested 
airspace. Fifth generation aircraft provide the unique capability to 
operate in heavily defended airspace allowing them to detect and 
destroy key air and ground targets and share vital information they 
collect with other friendly legacy systems. These capabilities are 
essential to gaining and maintaining air superiority, and enable all 
follow-on joint air, land, and sea operations to be executed with 
acceptable risk.

    19. Senator McCaskill. Lieutenant General Darnell, I believe we can 
all agree the F-15 production line has been one of the most productive 
lines for the Air Force producing a top rate aircraft that is still 
considered one of the most formidable fighter aircraft in the world. In 
addition, the F-15 line has been vital in foreign military sales of 
U.S. fighters to our closest allies. However, like all good things, 
soon the line faces its end. Do you think it is smart to allow the F-15 
line to close with our current state of influx in trying to fill the 
shortfall in fighter aircraft?
    General Darnell. The F-15 production line is open until mid-2012 
producing aircraft for foreign customers. Boeing is actively seeking 
additional foreign customers which could further extend the production 
line. The F-15 and other fourth generation fighters cannot be modified 
to equal the capabilities of the fifth generation aircraft. Fifth 
generation fighters are required to engage/destroy advanced enemy 
fighter and surface-to-air threats.

    20. Senator McCaskill. Lieutenant General Darnell, do you think it 
wise to cut off a main production line of a fighter in this class 
that's heavily utilized by our allies?
    General Darnell. The F-15 production line is open until mid-2012 
producing aircraft for foreign customers. Boeing is actively seeking 
additional foreign customers which could further extend the production 
line. The F-15 and other fourth generation fighters cannot be modified 
to equal the capabilities of the fifth generation aircraft. Fifth 
generation fighters are required to engage/destroy advanced enemy 
fighter and surface-to-air threats.

    21. Senator McCaskill. Lieutenant General Darnell, what can the Air 
Force do to extend the F-15 line?
    General Darnell. The F-15 production line is open until mid-2012 
producing aircraft for foreign customers. Boeing is actively seeking 
additional foreign customers which could further extend the production 
line. If directed to extend the production line, the Air Force could 
procure new F-15Es at a rate of one per quarter, or four per year. The 
current Air Force estimated fly-away cost for four F-15Es is $448 
million in fiscal year 2008 dollars, or $112 million per aircraft. The 
length of the line extension depends on the quantity of aircraft 
ordered.

    22. Senator McCaskill. Lieutenant General Darnell, the Air Force 
maintains that 2,250 fighter aircraft are required to meet National 
Military Strategy requirements. In your written testimony you state 
that 2,250 remains the required number. However, at the same you time 
you acknowledge the challenges that may prevent the Air Force from 
reaching 2,250 fighter aircraft. What alternatives are you looking at 
to address this shortfall in fighter aircraft?
    General Darnell. The 2006 Quadrennial Defense Review (QDR) 
established the requirement for the Air Force to maintain 86 Combat 
Wings in order for it to meet the requirements in the National Defense 
Strategy (NDS) and National Military Strategy (NMS). For tactical 
aircraft (TACAIR), that equates to 2,250 aircraft.
    Today's force (fiscal year 2008) meets this requirement (2,347 
total fighters). However, this force consists mostly of fourth 
generation fighters: A-10, F-15, F-15E, and F-16 aircraft. These 
aircraft were developed in the 1960s/1970s and are now reaching the end 
of their design lives. The average age of the U.S. Air Force TACAIR 
inventory is currently 20 years with some aircraft as old as 29 years. 
That average age is projected to climb to 25 years by 2015.
    New aircraft, the F-22 and F-35, will replace our current inventory 
at a rate less than one for one under current fiscal constraints. Based 
on the current acquisition programs for the F-22 and F-35 and the 
service life retirements of our current fleet, the Air Force will drop 
below the required 2,250 total aircraft beginning in 2013 and continue 
to do so every year thereafter.
    For this reason, the Air Force has sought to accelerate the rate at 
which F-35s enter the force by increasing production to 110 aircraft 
per year.

    23. Senator McCaskill. Lieutenant General Darnell, is the Air Force 
fully considering the merit of extending the life of the newest F-15s 
in the fleet and purchasing new F-15s in order to address the tactical 
aircraft gap in the short run?
    General Darnell. The Air Force will continue to improve the F-15 to 
enable it to execute the evolving fourth generation mission. The F-15 
and other fourth generation fighters cannot be modified to equal the 
capabilities of the fifth generation aircraft. The Air Force is taking 
the appropriate investment and risk mitigation steps to keep some of 
our aging F-15s flying until 2025.

    24. Senator McCaskill. Lieutenant General Darnell, can you discuss 
the cost gap between the F-15 and F-22 and F-35, even acknowledging the 
capability gap?
    General Darnell. The cost gap, if measured by Unit Flyaway Cost 
(UFC), is highly dependent on the quantity of aircraft procured. The 
capability gap between fourth and fifth generation aircraft is a 
critical factor--fifth generation fighters maintain air dominance in 
anti-access environments whereas fourth generation fighters are less 
survivable against those advanced threats.
    Under the current F-22 Multiyear Procurement (MYP) contract for 
Lots 7-9, the average UFC for 60 F-22s is $142.6 million in then-year 
dollars. Accounting for inflation and loss of MYP savings, UFC for an 
additional Lot 10 of 20 aircraft would increase to $154 million 
(BY09$). The Air Force has analyzed three options for additional F-22 
procurement (including tail-up costs, support equipment, initial 
spares, etc.). Those options are a single lot of 20 aircraft totaling 
$4.3 billion, a single lot of 24 aircraft totaling $4.8 billion, or a 
4-year MYP of 24 aircraft per year totaling $4.0 billion per year 
(savings realized via Economic Order Quantity (EOQ) parts buy). These 
options assume uninterrupted production after Lot 9 which requires a 
decision for Lot 10 production and funding for Advanced Procurement by 
November 2008. The additional F-22s would begin to roll off the 
production line in fiscal year 2012 after final Lot 9 aircraft 
delivery.
    The unit flyaway cost for the F-35A conventional take-off and 
landing (CTOL) aircraft is $62.3 million (BY09$) based on 1,763 
aircraft buy for the Air Force. Previous drills were run regarding the 
procurement of an additional 20 aircraft in fiscal year 2011 and we 
found that 20 additional CTOLs would cost $1.988 billion total 
procurement. Those 20 additional aircraft brings Air Force total in 
fiscal year 2011 to 44 aircraft (24 programmed plus 20 additional 
aircraft). The Unit Recurring Flyaway (URF) cost for 44 aircraft is 
$100.1 million (BY09$). The Average Procurement Unit Cost (APUC) for 44 
aircraft is $133 million (BY09$). To purchase an additional 20 F-35As, 
advanced procurement (long lead) is required in fiscal year 2010 and 
full funding is required in fiscal year 2011. Aircraft deliveries would 
begin in fiscal year 2013. The F-35 is early in production, with the 
LRIP Lot 2 contract awarded in May 2008, as well as advanced 
procurement for LRIP3. The LRIP Lot 1 aircraft are scheduled for 
delivery in January 2010.
    The Boeing F-15 production line currently produces variants for 
direct commercial sales. The last Air Force variant was procured in 
2001 as an attrition reserve purchase. A new F-15E procurement estimate 
is based on the Korean F-15K variant and would require approximately 
$30 million to retool the production line to the U.S. configuration and 
approximately an additional $50 million to qualify the new 
configuration (BY08$). Assuming long lead funding is provided in fiscal 
year 2009 and a fully funded contract is awarded in fiscal year 2010, 
deliveries would begin no earlier than fiscal year 2012. The cost to 
procure six F-15Es would be approximately $670 million, or 
approximately $112 million UFC. Procuring more than six additional 
aircraft requires development and qualification of an electronic 
warfare suite due to limited government furnished equipment. The cost 
to procure 20 F-15Es would be approximately $1,760 million, or 
approximately $88 million UFC.

    25. Senator McCaskill. Lieutenant General Darnell, how much risk do 
we assume by placing new F-15s on air base ramps where the Air Force 
wanted F-22s and F-35s? I believe it is limited if the right mix is 
sought, whereas the risk of having too few aircraft, regardless of them 
all being fifth generation fighters, is quite high. Please comment.
    General Darnell. The F-15 and other fourth generation fighters 
cannot be modified to equal the capabilities of the fourth generation 
aircraft. Fifth generation fighters are required to engage/destroy 
advanced enemy fighter and surface-to-air threats. Once enemy 
capability is significantly degraded, fourth generation fighters, such 
as the F-15, provide additional capabilities.
    There are multiple risks associated with operating any aircraft for 
40+ years, and we have never operated a fighter for that length of time 
before. Consistent recapitalization of our fleet is critical to 
maintain combat capability and avoid ballooning support cost and 
operational risks for aging system.

    26. Senator McCaskill. Lieutenant General Darnell, in previous 
hearings, General Moseley indicated that the Air Force's long-term 
requirement for F-22s was 381, yet today the Air Force is aligned with 
DOD's procurement number of 183. The Joint Requirement Oversight 
Council believes the Air Force structure needs to include 240 assigned 
aircraft and 141 for testing, training, and back-up for a total of 381. 
The discrepancy between the two figures is very confusing. Is DOD's 
assigned procurement number of 183 enough to ensure the Air Force can 
answer the National Military Strategy requirements?
    General Darnell. While General Moseley was asked for his personal 
opinion, the Air Force supports the program of record and is very 
grateful the production line continues to remain open. We look forward 
to continued discussions regarding the requirement to achieve air 
dominance at acceptable risk levels.

    27. Senator McCaskill. Lieutenant General Darnell, how are you 
planning to make up the difference between your original number of 381 
and 183 F-22s?
    General Darnell. OSD rendered a decision of adding four more F-22s 
into the fiscal year 2009 supplemental request. The Air Force welcomes 
and is committed to further discussions regarding the requirement to 
achieve air dominance at acceptable risk levels.

                         NAVY TACTICAL AIRCRAFT

    28. Senator McCaskill. Mr. Balderson and Rear Admiral Myers, during 
the Senate Armed Services Committee posture hearing on the fiscal year 
2009 Navy budget, I spoke with Admiral Roughead, Chief of Naval 
Operations, about my concerns with the Navy's tactical aircraft 
inventory shortfall. The Admiral agreed there was a strong possibility 
of a fighter shortfall around 70 aircraft. He believed the shortfall 
was something that needed to be addressed in order for the Navy to 
project power around the world using its carriers and air wings. 
Although the Navy tactical aircraft inventory models may only predict a 
70 aircraft shortfall, I have also heard from other commentators that a 
shortfall in excess of 170 aircraft is more realistic. In my view, what 
we are talking about here is the possibility of multiple nuclear 
aircraft carriers being left without airpower. We already have the 
Carrier Air Wing 7 that is missing all of its tactical aircraft and is 
playing a shell game to cover responsibilities. Can you comment on the 
latest information you have on the shortfall and for your plans in 
fiscal year 2009 and beyond to address this shortfall?
    Mr. Balderson and Admiral Myers. Peak Department of the Navy Strike 
Fighter shortfall is projected at 125 aircraft in 2017 for the Navy and 
Marine Corps. The Navy shortfall predicted by the F/A-18 inventory 
model is 69 aircraft in 2017. Our air wings will be increasingly more 
capable as legacy Hornets are being replaced by the modern more capable 
JSF aircraft. However, delays in the JSF program, budget cuts reducing 
JSF and/or F/A-18E/F procurement, or early Hornet retirement will 
increase the projected Strike Fighter shortfall. The impact of 
procurement reduction would directly impact our ability to provide 
warfighting effects to the combatant commanders.

    29. Senator McCaskill. Mr. Balderson and Rear Admiral Myers, GAO 
just released a report on the status of the F-35 JSF program. It states 
that the F-35 is over cost and behind schedule and is projected to 
increase in price by as much as $38 billion. Based on the number of 
projected purchases of all three versions of the F-35, this is 45 
percent above the original program estimate. It is apparent that the 
Navy's version, the F-35C, that will be last to be developed, will be 
delayed even further than previous estimates had indicated. Will the F-
35C be operating in the Navy's fleet by the currently projected Initial 
Operating Capability (IOC) of 2015? If not, how does the Navy plan to 
fix the shortfall caused by the delay?
    Mr. Balderson and Admiral Myers. The Department of the Navy fully 
expects the F-35C to IOC in 2015. If the F-35C is delayed, the Navy 
will look at all possible alternatives to mitigate the increased 
shortfall. The Navy's strategic vision for tactical air is based on a 
mix of capabilities of both the JSF and the Block 2 F/A-18 E and F. Our 
air wings will be increasingly more capable as the older legacy Hornets 
are replaced by the modern, more capable JSF.

    30. Senator McCaskill. Mr. Balderson, in regards to GAO's assessed 
shortfall in the tactical aviation force structure and the F/A-18 
production line coming to an end in fiscal year 2012, with suppliers 
beginning to shut down long lead items in the fall of 2010, do you 
think it is wise to shut down the F/A-18 hot production line 3 years 
before the planned IOC of the Navy's version of the JSF?
    Mr. Balderson. 2009 is the final procurement year for the second 
Super Hornet multi-year. Single year procurement in 2010, 2011, and 
2012 are currently planned. If additional F/A-18 purchases were added, 
it would be cost effective to pursue a third multi-year. Multi-Year 
Procurement is an acquisition strategy that has resulted in substantial 
savings in the F/A-18 E/F program. Should additional F/A-18 E/F 
aircraft be procured in POM-10, Multi-Year Procurement will be 
considered by the Navy.

    31. Senator McCaskill. Mr. Balderson, based on the cost, schedule, 
and performance challenges of the JSF program as outlined by the 
current GAO report, does it make sense and do you accept the national 
strategic risk of having a 3-year gap in Navy fighter production 
capability?
    Mr. Balderson. The Department of the Navy fully expects the F-35C 
to IOC in 2015. If the F-35C is delayed, the Navy will look at all 
alternatives to mitigate the increased shortfall.

    32. Senator McCaskill. Mr. Balderson and Rear Admiral Myers, with 
production delays in the F-35C and associated cost overruns, there is 
little dispute that the Navy will experience a tactical aircraft 
shortfall in the near term, as discussed above. It is my understanding 
that the Navy is very happy with the performance of the F/A-18 as well 
as with the value they have received from Boeing, who makes the 
aircraft, in F/A-18 production. It is also my understanding that the 
Navy, and thereby the American taxpayer, has benefited from significant 
cost savings associated with entering into Multi-Year Procurement (MYP) 
contracts with Boeing for F/A-18 production in the past. With the 
shortfall in tactical aircraft currently facing the Navy and MYP-II 
coming to an end, it seems to me that the Navy needs to be rapidly 
considering and moving to enter into a new MYP for F/A-18s. To what 
extent have you conducted analyses of a potential third MYP contract of 
F/A-18 E/F/G Super Hornets to address the fighter gap that the Navy 
will experience during the transition to the JSF?
    Mr. Balderson and Admiral Myers. 2009 is the final procurement year 
for the second Super Hornet multi-year. Single year procurement in 
2010, 2011, and 2012 are currently planned. If additional F/A-18 
purchases were added, it would be cost effective to pursue a third 
multi-year. Multi-Year Procurement is an acquisition strategy that has 
resulted in substantial savings in the F/A-18 E/F program. Should 
additional F/A-18 E/F aircraft be procured in POM-10, Multi-Year 
Procurement will be considered by the Navy.

    33. Senator McCaskill. Mr. Balderson and Rear Admiral Myers, what 
conditions would you require or wish to see met in order to create the 
proper business case for a third MYP?
    Mr. Balderson and Admiral Myers. The F/A-18 inventory model 
estimates a U.S. Navy Strike Fighter shortfall of 69 aircraft in 2017. 
Mitigation plans, including inventory optimization and possible 
additional aircraft procurement, are being addressed in POM-10. 
Reduction of F/A-18 E/F or JSF buy rates and/or shorter F/A-18 A-D 
service life will significantly increase the Strike Fighter shortfall. 
Multi-Year Procurement is an acquisition strategy that has resulted in 
substantial savings in the F/A-18 E/F program. Should additional F/A-18 
E/F aircraft be procured in POM-10, resulting in a sufficient quantity 
to develop a business case, Multi-Year Procurement will be considered 
by the Navy.

    34. Senator McCaskill. Mr. Balderson and Rear Admiral Myers, what 
are your overall views on a possible MYP III?
    Mr. Balderson and Admiral Myers. 2009 is the final procurement year 
for the second Super Hornet multi-year contract. Single year 
procurements in 2010, 2011, and 2012 are currently planned. Multi-Year 
Procurement is an acquisition strategy that has resulted in substantial 
savings in the F/A-18 E/F program. Should additional F/A-18 E/F 
aircraft be procured in POM-10, resulting in a sufficient quantity to 
develop a business case, Multi-Year Procurement will be considered by 
the Navy.

    35. Senator McCaskill. Mr. Balderson, in regards to GAO's assessed 
shortfall in the tactical aviation force structure and the F/A-18 
production line coming to an end in fiscal year 2012, with suppliers 
beginning to shutdown long lead items in the fall of 2010, do you think 
it is wise to shut down the F/A-18 hot production line 3 years before 
the planned IOC of the Navy's version of the JSF?
    Mr. Balderson. 2009 is the final procurement year for the second 
Super Hornet multi-year. Single year procurement in 2010, 2011 and 2012 
are currently planned. If additional F/A-18 purchases were added, it 
would be cost effective to pursue a third multi-year. Multi-Year 
Procurement is an acquisition strategy that has resulted in substantial 
savings in the F/A-18 E/F program. Should additional F/A-18 E/F 
aircraft be procured in POM-10, Multi-Year Procurement will be 
considered by the Navy.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                        F-35 ALTERNATIVE ENGINE

    36. Senator Warner. Mr. Balderson and Lieutenant General Hoffman, 
in your personal opinion, are you concerned that with a sole engine 
supplier, the lack of competition could hinder both innovation and 
efforts to decrease the cost of F-35 engine development?
    Mr. Balderson. The conclusions of all three 2007 congressionally-
directed engine studies are supportive of competition in general, but 
do not obviate the Department's initial findings that the expected 
savings from competition do not outweigh the investment costs. Funding 
two engines vice one would increase F-35 total development cost. 
Affordability is one of the cornerstones of the F-35 program, and prime 
contractors will be incentivized to become more efficient and decrease 
their costs where possible.
    General Hoffman. The conclusions of all three 2007 congressionally-
directed engine studies, while supportive of competition in general, 
support the Department's initial findings that the expected savings 
from competition do not outweigh the investment costs. Funding two 
engines vice one would increase F-35 total development cost. Splitting 
the production buys between two sources may actually increase total 
production costs due to learning curve effects, and maintaining two 
engines would increase sustainment costs. Affordability is one of the 
cornerstones of the F-35 program, and prime contractors will be 
incentivized to become more efficient and decrease their costs where 
possible.

    37. Senator Warner. Mr. Balderson and Lieutenant General Hoffman, 
what level of funding would be necessary to continue development the F-
35 alternate engine program for fiscal year 2009?
    Mr. Balderson. To maintain schedule, F136 alternate engine 
development would require $495 million ($247 million per Service) in 
fiscal year 2009. In addition, $31 million ($15.5 million per Service) 
of advance procurement funding for the F136 would be required in fiscal 
year 2009.
    General Hoffman. The F136 alternate engine development would 
require $495 million ($247.5 from the Departments of the Air Force and 
Navy) in fiscal year 2009. In addition, $31 million ($15.5 million from 
the Departments of the Air Force and Navy) of advance procurement 
funding for the F136 would be required in fiscal year 2009.

    38. Senator Warner. Mr. Balderson and Lieutenant General Hoffman, 
why has DOD not requested additional funding for the F-35 alternate 
engine when Congress expressly directed DOD to do so in the National 
Defense Authorization Act for Fiscal Year 2008?
    Mr. Balderson. The conclusions of all three 2007 congressionally-
directed engine studies are supportive of competition in general, but 
do not obviate the Department's initial findings that the expected 
savings from competition do not outweigh the investment costs. The 
Department assessed all aspects of the F-35 program in preparation for 
this years' budget submission and the Department continues to believe 
the risks associated with a single source engine program are manageable 
and do not outweigh the investment required to fund a competitive 
alternate engine.
    General Hoffman. The conclusions of all three 2007 congressionally-
directed engine studies, while supportive of competition in general, 
support the Department's initial findings that the expected savings 
from competition do not outweigh the investment costs. The Department 
assessed all aspects of the F-35 program in preparation for this year's 
budget submission, and the Department continues to believe the risks 
associated with a single source engine program are manageable and do 
not outweigh the investment required to fund a competitive alternate 
engine.

    [Whereupon, at 3:40 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
